<html>
<title> - UNACCOMPANIED MINORS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
                          UNACCOMPANIED MINORS

=======================================================================

                                HEARINGS

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        JUNE 24 and JULY 3, 2014

                               __________

                           Serial No. 113-74

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                               __________
                              
                   U.S. GOVERNMENT PRINTING OFFICE 

91-929 PDF               WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
                          Washington, DC 20402-0001
                             
                               
                               
                               
                               
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Filemon Vela, Texas
Lou Barletta, Pennsylvania           Eric Swalwell, California
Richard Hudson, North Carolina       Vacancy
Steve Daines, Montana                Vacancy
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Vacancy
                   Brendan P. Shields, Staff Director
                   Joan O'Hara, Acting Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              
                                                                   Page

                         TUESDAY, JUNE 24, 2014

                               STATEMENTS

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     5

                               WITNESSES

Hon. Jeh C. Johnson, Secretary, U.S. Department of Homeland 
  Security, Accompanied by W. Craig Fugate, Administrator, 
  Federal Emergency Management Agency, U.S. Department of 
  Homeland Security, and Ronald D. Vitiello, Deputy Chief, U.S. 
  Customs and Border Protection, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................    11

                             FOR THE RECORD

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Article, ``Why 90,000 Children Flooding Our Border Is Not an 
    Immigration Story''..........................................    21
  Statement of the American Immigration Lawyers Association......    33
  Statement of the Women's Refugee Commission....................    37
  Article, ``Young migrants stuck in limbo on Mexican border''...    42
The Honorable Beto O'Rourke, a Representative in Congress From 
  the State of Texas:
  Statement of First Focus Campaign for Children.................    45
The Honorable Jeff Duncan, a Representative in Congress From the 
  State of South Carolina:
  Article, ``Internal Memo: `DREAM Act' Deluge `Compromising' 
    Border Security''............................................    59
The Honorable Scott Perry, a Representative in Congress From the 
  State of Pennsylvania:
  Advertisement..................................................    66

                         THURSDAY, JULY 3, 2014

                               STATEMENTS

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................    78
  Prepared Statement.............................................    82
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Oral Statement.................................................    83
  Prepared Statement.............................................    85
The Honorable Beto O'Rourke, a Representative in Congress From 
  the State of Texas:
  Prepared Statement.............................................    87
The Honorable Rubeen Hinojosa, a Representative in Congress From 
  the State of Texas:
  Prepared Statement.............................................    88

                               WITNESSES
                                Panel I

The Honorable Rick Perry, Governor, State of Texas:
  Oral Statement.................................................    90
  Prepared Statement.............................................    92

                                Panel II

Mr. Kevin W. Oaks, Chief Patrol Agent, Rio Grande Valley Sector, 
  U.S. Border Patrol, U.S. Customs and Border Protection:
  Oral Statement.................................................   126
  Prepared Statement.............................................   127
Mr. Steven C. McCraw, Director, Texas Department of Public 
  Safety:
  Oral Statement.................................................   131
  Prepared Statement.............................................   133
Mr. Jose Eduardo ``Eddie'' Guerra, Interim Sheriff, Sheriff's 
  Office, Hidalgo County, Texas:
  Oral Statement.................................................   135
  Prepared Statement.............................................   137
Mr. Ramon Garcia, Hidalgo County Judge, Hidalgo County, Texas:
  Oral Statement.................................................   138
  Prepared Statement.............................................   140
Most Reverend Mark J. Seitz, Bishop, Catholic Diocese of El Paso, 
  Texas, U.S. Conference of Catholic Bishops:
  Oral Statement.................................................   144
  Prepared Statement.............................................   146

                             FOR THE RECORD

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Statement of the Texas Border Coalition........................    79
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Statement of the American Civil Liberties Union of Texas.......   161
  Letter from the President--Efforts to Address the Humanitarian 
    Situation in the Rio Grande Valley Areas of Our Nation's 
    Southwest Border.............................................   164

                                APPENDIX

Statement of the National Immigrant Justice Center...............   175


   DANGEROUS PASSAGE: THE GROWING PROBLEM OF UNACCOMPANIED CHILDREN 
                          CROSSING THE BORDER

                              ----------                              


                         Tuesday, June 24, 2014

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                            Washington, DC.
    The committee met, pursuant to call, at 10:05 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, King, Rogers, Broun, 
Miller, Meehan, Duncan, Chaffetz, Palazzo, Barletta, Daines, 
Brooks, Perry, Sanford, Thompson, Sanchez, Jackson Lee, Clarke, 
Higgins, Richmond, Barber, Payne, O'Rourke, Vela, and Swalwell.
    Chairman McCaul. The Committee on Homeland Security will 
come to order.
    The committee is meeting today to examine the current 
crisis at the border regarding unaccompanied children. I now 
recognize myself for an opening statement.
    Today on the Southwest Border we are facing an escalating 
refugee crisis. Parents are handing over their young children 
by the thousands to cartels who are profiting by smuggling 
these kids to the United States. Many are under the age of 10, 
including some barely old enough to walk.
    These children with no parents, relatives, or legal 
guardians risk a perilous and sometimes fatal journey, riding 
buses or trains from Central America via Mexico.
    As a father of five, it is unimaginable to me what would 
compel a parent to risk the lives of their children on such a 
dangerous passage. Not to mention the risk of sexual assault, 
exploitations, and the potential to be trafficked.
    When they arrive at the border, the children are simply 
turning themselves in to the nearest Border Patrol Agents. 
However, patrol stations are not set up to handle this massive 
and growing number of detainees, let alone children. Shelters 
have been established like the one at Lackland Air Force base 
in San Antonio. We have all seen the photos of hundreds of 
children piled on top of each other, and the flow shows no 
signs of abating.
    Every Member of this committee including myself is gravely 
concerned about the safety of children, no matter where they 
come from. Since October, 52,000--52,000--unaccompanied minors 
have crossed into the United States from Mexico. Nearly two-
thirds of those cross through the Rio Grande Valley in Texas.
    CBP estimates that next year more than 150,000 
unaccompanied children may attempt to cross our borders. This 
is a crisis. It is a crisis that has been in the making for 
years. One that we should have seen coming. But few concrete 
actions have been taken.
    The Department of Homeland Security and the United States 
Government as a whole has been slow to act, turning a blind eye 
to the warning signs. The tragic fact is these children are 
making a dangerous journey based on misinformation and the 
false promise of amnesty.
    The first step is for the administration to acknowledge the 
cause of this problem. No one questions the fact that there are 
horrible economic conditions and violence in Central America. 
But these conditions are not new. What is new is a series of 
Executive actions by the administration to grant immigration 
benefits to children outside the purview of the law. The 
relaxed enforcement posture along with talk of comprehensive 
immigration reform.
    It is beyond dispute that such a narrative shapes behavior 
and encourages people to come to our country illegally. In 
fact, newspapers in El Salvador and Honduras seem to be 
encouraging youth to head to the United States based on these 
policies.
    In recent internal DHS surveys, these children reveal that 
more than 70 percent believe they are going to stay in the 
country.
    This administration should send an unambiguous message that 
those arriving will be promptly sent home. I, for one, do not 
want to see another child harmed because we have not clearly 
articulated the realities on the ground consistent with current 
law.
    Yesterday I was glad to see Secretary Johnson's letter, an 
open letter to the parents of children crossing our Southwest 
Border, notifying them that there are no free passes into the 
United States.
    This is a good start. But a lot more needs to be done.
    In addition to a robust and effective public service 
campaign, we should also engage with the government of Mexico 
to step up their efforts to secure their southern border. I 
call on the president of Mexico and his interior minister to do 
just that.
    I am very concerned that this recent surge is weakening our 
border security efforts here at home. Border Patrol Agents and 
ICE Officers who are looking after these children are being 
taken away from their main duty, their mission of tracking down 
drug and weapon smugglers, as well as criminal aliens. 
Operation control of the Rio Grande Valley, the busiest sector 
in the Nation, may be suffering. Cartels will no doubt exploit 
this situation.
    Recently the State of Texas announced that it would surge 
border security operations along the border to fill a void left 
by the Federal Government. Securing the border is a 
responsibility of the Federal Government. States should not 
need to protect what is in the Federal Government's role under 
our Constitution.
    The President needs to immediately send the National Guard 
to the Southwest Border to deal with this crisis.
    We need to find solutions to this crisis and soon.
    While Secretary Johnson has largely inherited the current 
situation, I look forward to hearing now how he is planning to 
respond to this emergency.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                             June 24, 2014
    Today on the Southwest Border we are facing an escalating refugee 
crisis. Parents are handing over their young children by the thousands 
to cartels who are profiting by smuggling these kids to the United 
States. Many are under the age of 10--including some barely old enough 
to walk.
    These children, with no parent, relative, or legal guardian, risk a 
perilous and sometimes fatal journey riding buses or trains from 
Central America via Mexico. As a father of five, it's unimaginable what 
would compel a parent to risk the lives of their children on such a 
dangerous passage, not to mention the risk of sexual assault, 
exploitation, and the potential to be trafficked.
    When they arrive at the border, the children are simply turning 
themselves into the nearest Border Patrol Agent. However patrol 
stations are not set up to handle this massive and growing number of 
detainees--let alone children. Shelters have been established, like the 
one at Lackland Air Force Base in San Antonio. We've all seen the 
photos of hundreds of children piled on top of each other, and the flow 
shows no signs of abating. Every Member of this committee, including 
myself, is gravely concerned about the safety of children no matter 
where they come from.
    Since October, 52,000 unaccompanied minors have crossed into the 
United States from Mexico--nearly two-thirds of those crossed through 
the Rio Grande Valley in Texas. CBP estimates that next year more than 
150,000 unaccompanied children may attempt to cross our borders.
    This is a crisis that has been in the making for years--one that we 
should have seen coming--but few concrete actions have been taken. The 
Department of Homeland Security, and the U.S. Government as a whole, 
has been slow to act, turning a blind eye to the warning signs.
    The tragic fact is these children are making a dangerous journey 
based on misinformation and the false promise of amnesty.
    The first step is for the administration to acknowledge the cause 
of this problem. No one questions the fact that there are horrible 
economic conditions and violence in Central America. But these 
conditions are not new.
    What is new is a series of Executive Actions by the administration 
to grant immigration benefits to children outside the purview of the 
law--a relaxed enforcement posture--along with talk of comprehensive 
immigration reform.
    It is beyond dispute that such a narrative shapes behavior and 
encourages people to come to our country illegally. In fact, newspapers 
in El Salvador and Honduras seem to be encouraging youth to head to the 
United States based on these policies. And recent internal DHS surveys 
of these children reveal that more than 70% believe they are going to 
stay in the country.
    This administration should send an unambiguous message that those 
arriving will be promptly sent home. I, for one, do not want to see 
another child harmed because we have not clearly articulated the 
realities on the ground, consistent with current law.
    Yesterday, I was glad to see Sec. Johnson's open letter to the 
parents of children crossing our Southwest Border notifying them that 
there are no free passes into the United States. This is a good start 
but more must be done.
    In addition to a robust and effective public service campaign we 
should also engage with the government of Mexico to step up their 
efforts to secure their Southern Border. I call on the president of 
Mexico, and his interior minister to do just that.
    I am very concerned that this recent surge is weakening our border 
security efforts here at home. Border Patrol Agents and ICE Officers 
who are looking after these children are being taken away from their 
main duty of tracking down drug and weapons smugglers, as well as 
criminal aliens. Operational control of the Rio Grande Valley, the 
busiest sector in the Nation may be suffering, and cartels will no 
doubt exploit the situation.
    Recently, the State of Texas announced that it would surge border 
security operations along the border to fill a void left by the Federal 
Government. Securing the border is a responsibility of the Federal 
Government. States should not need to protect what is in the Federal 
Government's role under our Constitution. The President needs to 
immediately send the National Guard to the Southwest Border to deal 
with this crisis.
    We need to find solutions to this crisis, and soon. While Secretary 
Johnson has largely inherited the current situation, I look forward to 
hearing how he is responding to this emergency. Again, I want to thank 
the witnesses for agreeing to appear on such short notice.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman McCaul. Again, I want to thank the witnesses for 
being here today on such short notice. The Chairman now 
recognizes the Ranking Member.
    Mr. Thompson. Thank you, Mr. Chairman. I want to thank you 
also for holding today's hearing.
    I want to thank the witnesses also for their testimony.
    On a daily basis, waves of children ranging from toddlers 
to teenagers are fleeing violence, oppression, and economic 
desperation from Guatemala, Honduras, and El Salvador, many of 
them sent by their families. They are simply looking for a safe 
haven.
    As an intense and significant humanitarian crisis develops, 
we are finding its origins to be as complex as its 
implications. It is irresponsible to attribute this crisis to 
one U.S. policy or for that matter, one U.S. President.
    Despite the demagoguing by many, this crisis is not just an 
immigration matter nor is it just a foreign policy matter. This 
crisis is not exclusive to the United States; much of the 
Western Hemisphere is reeling with this crisis. According to 
the United Nations, these children are streaming into Mexico, 
Panama, Nicaragua, and Belize as well as Canada and the United 
States.
    From our perspective, we seem to be barraged on a daily 
basis by troubling images of vulnerable children, many still 
clutching their dolls and teddy bears, crossing the border into 
the United States and being immediately apprehended by Border 
Patrol Officers. This fiscal year alone, Border Patrol Officers 
have apprehended and detained over 50,000 unaccompanied 
children at the Southwestern Border.
    The number of kids arriving at our border without their 
parents seems to grow by the day. The influx of these kids has 
certainly strained Border Patrol resources. But the men and 
women of the Border Patrol have risen to the challenge.
    In 2008, then-President George Bush signed the William 
Wilberforce Trafficking Victims Protection Reauthorization Act. 
The law recognizes that special care is demanded when dealing 
with the young and vulnerable.
    Under these laws, the Border Patrol is required to take 
unaccompanied children who are not from Mexico into custody, 
screen them and transfer them to the Department of Health and 
Human Services Office of Refuge Resettlement.
    I would note for the record that during this challenging 
time, even though Border Patrol has had to ramp up activities 
in the Rio Grande Valley, the agency's effectiveness rate has 
improved.
    For those out there who are looking for simple answers, to 
lay the blame on President Obama's policy on deferred action 
for childhood arrivals or even the Senate-passed comprehensive 
immigration reform legislation, I would note that neither would 
apply to these kids. Hence the assertion that the recent surge 
in unaccompanied children is due to lack of immigration 
enforcement does not pass the smell test.
    In a time of crisis such as this, Mr. Chairman, we need to 
get our priorities in line and find both near-term and long-
term ways to address this situation. On June 2, the President 
tapped Secretary Johnson to establish a unified coordinating 
group to ensure Federal unity of effort to address this 
situation.
    In turn, Secretary Johnson appointed FEMA Administrator 
Fugate to be the fellow coordinating official and lead those 
efforts throughout the Executive branch.
    Looking out to the long-term, we need to do more to turn 
the tide on this crisis by, among other things, fostering 
greater stability among our neighbors and dissuading families 
from taking such action.
    Over the weekend, Secretary Johnson issued a public service 
announcement in various Central American countries, debunking 
the myths about U.S. immigration policy and informing the 
parents about the danger of traveling from Central America to 
the United States.
    Today, I want to hear from the Department about the 
response and their work with other fellow agencies including 
the Departments of Health and Human Services, Defense, and 
State in addressing this crisis. We need to organize all our 
fellow agencies involved, not just DHS, to effectively address 
the sudden surge.
    Looking beyond DHS, there are questions to ask about HHS's 
resources, for that matter, States' engagement through regional 
security initiatives such as the Central American Regional 
Security Initiative. Do these programs have enough funding and 
personnel to be effective? I recognize that the panel assembled 
today may not be in a position to answer this question, but it 
is a question I will be pursuing.
    Dehumanizing and labeling these kids and their parents will 
not yield a solution. Labeling this as an administration 
failure will not address what is actually going on in El 
Salvador, Honduras, and Guatemala that would cause a parent to 
hand over their son or daughter to a smuggler or send that 
child through a perilous trek through Central American and 
Mexico to the United States.
    At this time, Mr. Chairman, we can use our platforms to 
rise to the occasion and be helpful or we can engage in 
political grandstanding at the peril of young lives. It is my 
hope that this committee with its strong history of 
bipartisanship, can choose the former and be a model for 
effective leadership on this matter.
    With that, Mr. Chairman, I yield back.
    Chairman McCaul. I thank the Ranking Member for his 
constructive comments. Other Members are reminded that opening 
statements may be submitted for the record.
    We are pleased here today to have a distinguished panel of 
witnesses before us here today.
    First, the Secretary--Jeh Johnson--of Homeland Security was 
sworn in on December 23, 2013 as the fourth Secretary of the 
Department of Homeland Security.
    Prior to joining DHS, he served as general counsel for the 
Department of Defense where he served as part of the senior 
management team and led more than 10,000 military and civilian 
lawyers across the Department.
    As general counsel of the Department of Defense, Secretary 
Johnson oversaw the development of the legal aspects of many of 
the Nation's counterterrorism policies and spearheaded reforms 
to the military commission systems at Guantanamo Bay.
    Sir, as you and I talked privately, you have traveled many 
times down to my home State of Texas and seen this crisis 
first-hand, and we thank you for doing that.
    He is accompanied today, this morning, by Mr. Greg Fugate, 
the administrator of the Federal Emergency Management Agency, 
and Mr. Ronald Vitiello, the deputy chief of the United States 
Border Patrol.
    Mr. Fugate and Mr. Vitiello will not be offering opening 
statements; they are here to answer any questions that Members 
may have.
    Secretary has submitted a written statement on behalf of 
those witnesses, which will appear in the record. The Chairman 
now recognizes the Secretary for 5 minutes for his opening 
statement.

STATEMENT OF HON. JEH C. JOHNSON, SECRETARY, U.S. DEPARTMENT OF 
      HOMELAND SECURITY, ACCOMPANIED BY W. CRAIG FUGATE, 
   ADMINISTRATOR, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. 
DEPARTMENT OF HOMELAND SECURITY, AND RONALD D. VITIELLO, DEPUTY 
 CHIEF, U.S. CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Secretary Johnson. Thank you, Chairman. You have my 
prepared statement. I will deliver an abbreviated version of 
it.
    Mr. Chairman, Ranking Member Thompson, Members of this 
committee, I thank you for the opportunity to testify today 
about our efforts to address the recent rise of unaccompanied 
children and others crossing our border in the Rio Grande 
Valley.
    With me today to answer questions are Craig Fugate, the 
administrator of FEMA, and Deputy Chief Ron Vitiello of the 
U.S. Border Patrol.
    To be clear, we face an urgent situation in the Rio Grande 
Valley. Last fiscal year, CBP apprehended more than 24,000 
unaccompanied children at the border. By mid-June of this year, 
that number has doubled to more than 52,000. Those from 
Guatemala--Guatemala, El Salvador, Honduras make up three-
quarters of that migration.
    On Friday, I traveled to South Texas for the fourth time in 
6 months in office, this time, to lead an interagency team to 
oversee our efforts there. While there, we met with officials 
at McAllen and Lackland to review the situation and hear 
directly from those on the ground what their needs are.
    While there, I spent time talking with the children again. 
It is a vivid reminder that this is a humanitarian issue as 
much as it is a matter of border security. We are talking about 
large numbers of children without their parents, who have 
arrived at our border hungry, thirsty, exhausted, scared, and 
vulnerable.
    How we treat the children in particular is a reflection of 
our laws and our values. Therefore, to address this situation, 
our strategy is three-fold. First, process the increased tide 
of unaccompanied children through the system as quickly as 
possible; No. 2, stem the increased tide of illegal migration 
into the Rio Grande Valley; and No. 3, do these things in a 
manner consistent with our laws and values as Americans.
    So here is what we are doing.
    First, on May 12, I declared a Level 4 condition of 
readiness within DHS, which is a determination that the 
capacity of CBP and ICE to deal with the situation is full, and 
we need to draw upon additional resources across all of DHS.
    I appointed Deputy Chief Vitiello, to my left, to 
coordinate this effort within DHS.
    Second, on June 1, President Obama, consistent with the 
Homeland Security Act, directed me to establish a unified 
coordination group to bring to bear the assets of the entire 
Federal Government on this situation. This group includes DHS 
and all of its components, the Department of Health and Human 
Services, Defense, Justice, State, and GSA.
    I, in turn, designated FEMA Administrator Fugate, to my 
right, to serve as the Federal coordinating official for the 
U.S. Government-wide response.
    Third, we have established added capacity to deal with the 
processing and housing of the children. We are creating 
additional capacity in places, and we are considering others.
    Fourth, DHS and HHS are increasing Spanish-speaking case 
management staff, increasing staff handling incoming calls from 
parents or guardians, raising awareness of the parent hotline 
provided by FEMA and operated by HHS, surging staff to manage 
the intake of CBP referrals to track shelter bed capacity and 
facilitate shelter designations.
    Here I must note from personal observation that our Border 
Patrol and other CBP personnel, as well as personnel from HHS, 
ICE, FEMA, and the Coast Guard are doing a remarkable job in 
difficult circumstances. All of these dedicated men and women 
deserve our recognition, support, and gratitude.
    Fifth, DHS is building additional detention capability for 
adults who cross the border illegally in the Rio Grande Valley 
with their children. For this purpose, DHS is establishing a 
temporary facility for adults and children on the Federal Law 
Enforcement Training Center's campus in Artesia, New Mexico. 
The establishment of this temporary facility will help CBP 
process those encountered at the border and allow ICE to 
increase its capacity to house and expedite the removal of 
adults with children in a manner that complies with Federal 
law.
    Artesia is one of several facilities that DHS is 
considering to increase our capacity to hold and expedite the 
removal of the increasing number of adults with children 
illegally crossing the Southwest Border.
    Sixth, DHS has brought on more transportation assets to 
assist in the effort. The Coast Guard is loaning air assets to 
help transport the children. ICE is leasing additional charter 
aircraft.
    Seventh, throughout the RGV sector we are conducting public 
health screening for all those who come into our facilities for 
any symptoms of contagious diseases or other possible public 
health concerns.
    Both DHS and HHS are ensuring that the children's 
nutritional and hygienic needs are met while in our custody, 
that children are provided regular meals and access to drinks 
and snacks throughout the day, that they receive constant 
supervision, and that children who exhibit signs of illness or 
disease are given proper medical care.
    We have also made clear that all individuals will be 
treated with dignity and respect and any instances of 
mistreatment reported to us will be investigated.
    Eighth, working through FEMA's National Response 
Coordination Center, we are coordinating with voluntary and 
faith-based organizations to help us manage the influx of 
unaccompanied children crossing the border. The American Red 
Cross is providing blankets and other supplies, and through 
their Restoring Family Links Program is coordinating calls 
between children in the care of DHS and families anxious about 
their well-being.
    Ninth, to stem the tide of children seeking to enter the 
United States, we have also been in contact with senior 
government officials of Guatemala, El Salvador, Honduras, and 
Mexico to address our shared border security interest, the 
underlying conditions in Central America that are promoting the 
mass exodus, and how we can work together to assure a faster, 
secure removal and repatriation.
    Last week, President Obama spoke with Mexican president 
Penna Nieto about the situation, as has Secretary Kerry. This 
past Friday Vice President Biden also visited Guatemala to meet 
with regional leaders to address the influx of unaccompanied 
children and families from Central America and the underlying 
security and economic issues that are causing this migration.
    The Vice President announced that the United States will be 
providing a range of new assistance to the region, including 
$9.6 million in additional funding for Central American 
governments to receive and reintegrate their repatriated 
citizens and a new $40 million U.S. Agency for International 
Development program in Guatemala over 5 years to improve 
citizen security. An additional $161.5 million will be provided 
this year to the Central American Regional Security Initiative 
to further enable Central American countries to respond to the 
nations' most pressing security and governance challenges.
    I will travel to Guatemala on July 8-9. The government of 
El Salvador has sent additional personnel from its consulate in 
the United States to south Texas to help expedite repatriation 
to its country.
    Tenth, DHS together with DOJ has added personnel and 
resources to the investigation, prosecution, and dismantling of 
the smuggling organizations that are facilitating border 
crossings into the Rio Grande Valley.
    Eleventh, we are initiating and intensifying our public 
affairs campaigns in Spanish, with radio, print, and TV post to 
communicate the dangers of sending unaccompanied children on 
the long journey from Central America to the United States and 
the dangers of putting children into the hands of criminal 
smuggling organizations.
    As the Chairman noted, I have personally issued an open 
letter to the parents of those who are sending their children 
from Central America to the United States, which has been 
distributed broadly in Spanish and English to highlight the 
dangers of the journey and to emphasize there are no free 
passes or permisos at the other end.
    We are stressing that the Deferred Action for Childhood 
Arrivals or DACA program, does not apply to children who arrive 
now or in the future in the United States and that to be 
considered for DACA individuals must have continually resided 
in the United States since June 2007, 7 years ago.
    We are making clear that the earned path to citizenship 
contemplated by the Senate bill passed last year will not apply 
to individuals who cross the border now or in the future, only 
to those who have been in this country for the last year-and-a-
half.
    Twelfth, given the influx of unaccompanied children in the 
Rio Grande Valley, we have increased CBP staffing and detailed 
115 additional experienced agents from less active sectors to 
augment operations there. I am considering sending 150 more 
Border Patrol Agents, based on my review of operations there 
this past week.
    Thirteenth, in early May I directed the development of a 
Southern Border and Approaches Campaign Plan effort that is 
putting together a strategic framework to further enhance 
security for our Southern Border.
    Finally, we will continue to work closely with Congress on 
this problem and keep you informed. DHS is updating Members and 
staff on the situation in conference calls twice a week and we 
are facilitating site visits to Border Patrol facilities in 
Texas and Arizona for a number of Members and their staff.
    I have directed my staff to be forthright in bringing to me 
every conceivable, lawful option for consideration to address 
this problem. In cooperation with the other agencies of our 
Government that are dedicating resources to the effort, with 
the support of Congress, and in cooperation with the 
governments of Mexico and Central America, I believe we will 
stem this tide.
    Thank you.
    [The prepared statement of Secretary Johnson follows:]
                  Prepared Statement of Jeh C. Johnson
                             June 24, 2014
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee: Thank you for the opportunity to testify today about our 
efforts to address the recent rise of unaccompanied children and others 
crossing our border in the Rio Grande Valley (RGV). With me today to 
answer questions are Craig Fugate, the administrator of FEMA, and Ron 
Vitiello, deputy chief of the U.S. Border Patrol.
    To be clear, we face an urgent situation in the RGV. Last fiscal 
year, CBP apprehended more than 24,000 unaccompanied children at the 
border. By mid-June of this fiscal year, that number has doubled to 
more than 52,000. Those from Guatemala, El Salvador, and Honduras make 
up about three-quarters of that migration.
    On Friday, I traveled to South Texas for the fourth time in 6 
months in office, this time to lead an interagency team to oversee our 
efforts there. While there we met with officials at McAllen and 
Lackland to review the situation and hear directly from those on the 
ground what their needs are. While there I spent time talking with the 
children again. It was a vivid reminder that this is a humanitarian 
issue as much as it is a matter of border security. We are talking 
about large numbers of children, without their parents, who have 
arrived at our border--hungry, thirsty, exhausted, scared, and 
vulnerable. How we treat the children, in particular, is a reflection 
of our laws and our values.
    Therefore, to address this situation, our strategy is three-fold: 
(1) Process the increased tide of unaccompanied children through the 
system as quickly as possible; (2) stem the increased tide of illegal 
migration into the RGV; and (3) do these things in a manner consistent 
with our laws and values as Americans.
    So, here is what we are doing:
    First, on May 12, I declared a Level IV condition of readiness 
within DHS, which is a determination that the capacity of CBP and ICE 
to deal with the situation is full and we need to draw upon additional 
resources across all of DHS. I appointed Deputy Chief Vitiello to 
coordinate this effort within DHS.
    Second, on June 1, President Obama, consistent with the Homeland 
Security Act, directed me to establish a Unified Coordination Group to 
bring to bear the assets of the entire Federal Government on the 
situation. This Group includes DHS and all of its components, the 
Departments of Health and Human Services, Defense, Justice, State, and 
the General Services Administration. I, in turn, designated FEMA 
Administrator Fugate to serve as the Federal Coordinating Official for 
the U.S. Government-wide response. Under Administrator Fugate's 
supervision, there are now more than 140 interagency personnel and 
members stationed in FEMA's National Response Coordination Center 
dedicated to this effort.
    Third, we have established added capacity to deal with the 
processing and housing of the children, we are creating additional 
capacity in places, and we are considering others. To process the 
increased numbers of unaccompanied children in Texas, DHS has had to 
bring the children to our processing center at Nogales, Arizona before 
they are sent to HHS. We are arranging additional processing centers to 
handle the rise in the RGV. Meanwhile, the Department of Defense has 
provided space at Lackland Air Base in Texas for HHS to house the 
children before HHS can place them. DoD is also providing facilities at 
Fort Sill, Oklahoma and Ventura, California for the same purpose. FEMA, 
DHS, and HHS are working to continue to identify additional facilities 
for DHS and HHS to house and process the influx of children.
    Fourth, DHS and HHS are increasing Spanish-speaking case management 
staff, increasing staff handling incoming calls from parents or 
guardians, raising awareness of the Parent Hotline provided by FEMA and 
operated by HHS, surging staff to manage the intake of CBP referrals to 
track shelter bed capacity, and facilitate shelter designations. We are 
developing ways to expedite background checks for sponsors of children, 
integrate CBP and HHS information-sharing systems, and increase 
capacity to transport and place children. (Here I must note, from 
personal observation, that our Border Patrol and other CBP personnel, 
as well as personnel from HHS, ICE, FEMA, and the Coast Guard, are 
doing a remarkable job in difficult circumstances. I have also 
witnessed how the not-for-profit Baptist Child Family Services stepped 
in quickly and is also doing a remarkable job housing the unaccompanied 
children at Lackland, identifying and then placing them consistent with 
HHS's legal obligations. All of these dedicated men and women deserve 
our recognition, support, and gratitude.)
    Fifth, DHS is building additional detention capacity for adults who 
cross the border illegally in the RGV with their children. For this 
purpose DHS is establishing a temporary facility for adults with 
children on the Federal Law Enforcement Training Center's campus at 
Artesia, New Mexico. The establishment of this temporary facility will 
help CBP process those encountered at the border and allow ICE to 
increase its capacity to house and expedite the removal of adults with 
children in a manner that complies with Federal law. Artesia is one of 
several facilities that DHS is considering to increase our capacity to 
hold and expedite the removal of the increasing number of adults with 
children illegally crossing the Southwest Border. DHS will ensure that 
after apprehension, families are housed in facilities that adequately 
provide for their safety, security, and medical needs. Meanwhile, we 
will also expand use of the Alternatives to Detention program to 
utilize all mechanisms for enforcement and removal in the RGV Sector. 
DOJ is temporarily reassigning immigration judges to handle the 
additional caseload via video teleconferencing. These immigration 
judges will adjudicate these cases as quickly as possible, consistent 
with all existing legal and procedural standards, including those for 
asylum applicants. Overall, this increased capacity and resources will 
allow ICE to return unlawful migrants from Central America to their 
home countries more quickly.
    Sixth, DHS has brought on more transportation assets to assist in 
the effort. The Coast Guard is loaning air assets to help transport the 
children. ICE is leasing additional charter aircraft.
    Seventh, throughout the RGV Sector, we are conducting public health 
screening for all those who come into our facilities for any symptoms 
of contagious diseases or other possible public health concerns. Both 
DHS and HHS are ensuring that the children's nutritional and hygienic 
needs are met while in our custody; that children are provided regular 
meals and access to drinks and snacks throughout the day; that they 
receive constant supervision; and that children who exhibit signs of 
illness or disease are given proper medical care. We have also made 
clear that all individuals will be treated with dignity and respect, 
and any instances of mistreatment reported to us will be investigated.
    Eighth, working through FEMA's National Response Coordination 
Center, we are coordinating with voluntary and faith-based 
organizations to help us manage the influx of unaccompanied children 
crossing the border. The American Red Cross is providing blankets and 
other supplies and, through their Restoring Family Links program, is 
coordinating calls between children in the care of DHS and families 
anxious about their well-being.
    Ninth, to stem the tide of children seeking to enter the United 
States, we have also been in contact with senior government officials 
of Guatemala, El Salvador, Honduras, and Mexico to address our shared 
border security interests, the underlying conditions in Central America 
that are promoting the mass exodus, and how we can work together to 
assure faster, secure removal and repatriation. Last week President 
Obama spoke with Mexican President Penna Nieto about the situation, as 
has Secretary Kerry. This past Friday, Vice President Biden also 
visited Guatemala to meet with regional leaders to address the influx 
of unaccompanied children and families from Central America and the 
underlying security and economic issues that are causing this 
migration. The Vice President announced that the United States will be 
providing a range of new assistance to the region, including $9.6 
million in additional funding for Central American governments to 
receive and reintegrate their repatriated citizens, and a new $40 
million U.S. Agency for International Development program in Guatemala 
over 5 years to improve citizen security. An additional $161.5 million 
will be provided this year under the Central American Regional Security 
Initiative to further enable Central American countries to respond to 
the region's most pressing security and governance challenges. I will 
travel to Guatemala on July 8-9. The government of El Salvador has sent 
additional personnel from its consulate in the United States to South 
Texas to help expedite repatriation to its country.
    Tenth, DHS, together with DOJ, has added personnel and resources to 
the investigation, prosecution, and dismantling of the smuggling 
organizations that are facilitating border crossings into the RGV. 
Homeland Security Investigations, which is part of ICE, is surging 60 
additional criminal investigators and support personnel to their San 
Antonio and Houston offices for this purpose. In May, ICE concluded a 
month-long, targeted enforcement operation that focused on the 
logistics networks of human smuggling organizations along the Southwest 
Border, with operations in El Paso, Houston, Phoenix, San Antonio, and 
San Diego that resulted in 163 arrests of smugglers. ICE will continue 
to vigorously pursue and dismantle these alien smuggling organizations 
by all investigative means to include the financial structure of these 
criminal organizations. These organizations not only facilitate illegal 
migration across our border, they traumatize and exploit the children 
who are objects of their smuggling operation. We will also continue to 
work with our partners in Central America and Mexico to help locate, 
disrupt, and dismantle transnational criminal smuggling networks.
    Eleventh, we are initiating and intensifying our public affairs 
campaigns in Spanish, with radio, print, and TV spots, to communicate 
the dangers of sending unaccompanied children on the long journey from 
Central America to the United States, and the dangers of putting 
children into the hands of criminal smuggling organizations.
    In collaboration with DHS, the Department of State has launched 
public awareness campaigns in El Salvador, Guatemala, and Honduras, to 
warn families about the dangers encountered by unaccompanied minors who 
attempt to travel from Central America to the United States, and to 
counter misperceptions that smugglers may be disseminating about 
immigration benefits in the United States. Our embassies in Central 
America have collaborated with CBP to ensure both the language and 
images of the campaign materials would resonate with local audiences. I 
have personally issued an open letter (see attached) to the parents of 
those who are sending their children from Central America to the United 
States, to be distributed broadly in Spanish and English, to highlight 
the dangers of the journey, and to emphasize there are no free passes 
or ``permisos'' at the other end. We are stressing that Deferred Action 
for Childhood Arrivals, or ``DACA,'' does not apply to children who 
arrive now or in the future in the United States, and that, to be 
considered for DACA, individuals must have continually resided in the 
United States since June 2007. We are making clear that the ``earned 
path to citizenship'' contemplated by the Senate bill passed last year 
will not apply to individuals who cross the border now or in the 
future; only to those who have been in the country for the last year-
and-a-half.
    Twelfth, given the influx of unaccompanied children in the RGV, we 
have increased CBP staffing and detailed 115 additional experienced 
agents from less active sectors to augment operations there. I am 
considering sending 150 more Border Patrol Agents based on my review of 
operations there this past week. These additional agents allow RGV the 
flexibility needed to achieve more interdiction effectiveness and 
increase CBP's operational footprint in targeted zones within its area 
of operations.
    Thirteenth, in early May I directed the development of a Southern 
Border and Approaches Campaign Planning effort that is putting together 
a strategic framework to further enhance security of our Southern 
Border. Plan development will be guided by specific outcomes and 
quantifiable targets for border security and will address improved 
information sharing, continued enhancement and integration of sensors, 
and unified command-and-control structures as appropriate. The overall 
planning effort will also include a subset of campaign plans focused on 
addressing challenges within specific geographic areas, all with the 
goal of enhancing our border security.
    Finally, we will continue to work closely with Congress on this 
problem, and keep you informed. DHS is updating Members and staff on 
the situation in conference calls two times a week, and we are 
facilitating site visits to Border Patrol facilities in Texas and 
Arizona for a number of Members and their staff.
    I have directed my staff to be forthright in bringing to me every 
conceivable, lawful option for consideration, to address this problem. 
In cooperation with the other agencies of our Government that are 
dedicating resources to the effort, with the support of Congress, and 
in cooperation with the governments of Mexico and Central America, I 
believe we will stem this tide. Thank you.
                                 ______
                                 
An Open Letter to the Parents of Children Crossing Our Southwest Border
    This year, a record number of children will cross our Southern 
Border illegally into the United States. In the month of May alone, the 
number of children, unaccompanied by a mother or father, who crossed 
our Southern Border reached more than 9,000, bringing the total so far 
this year to 47,000. The majority of these children come from Honduras, 
El Salvador, and Guatemala, where gang and drug violence terrorize 
communities. To the parents of these children I have one simple 
message: Sending your child to travel illegally into the United States 
is not the solution.
    It is dangerous to send a child on the long journey from Central 
America to the United States. The criminal smuggling networks that you 
pay to deliver your child to the United States have no regard for his 
or her safety and well-being--to them, your child is a commodity to be 
exchanged for a payment. In the hands of smugglers, many children are 
traumatized and psychologically abused by their journey, or worse, 
beaten, starved, sexually assaulted, or sold into the sex trade; they 
are exposed to psychological abuse at the hands of criminals. 
Conditions for an attempt to cross our Southern Border illegally will 
become much worse as it gets hotter in July and August.
    The long journey is not only dangerous; there are no ``permisos,'' 
``permits,'' or free passes at the end.
    The U.S. Government's Deferred Action for Childhood Arrivals 
program, also called ``DACA,'' does not apply to a child who crosses 
the U.S. border illegally today, tomorrow, or yesterday. To be eligible 
for DACA, a child must have been in the United States prior to June 15, 
2007--7 years ago.
    Also, the immigration reform legislation now before Congress 
provides for an earned path to citizenship, but only for certain people 
who came into this country on or before December 31, 2011--2\1/2\ years 
ago. So, let me be clear: There is no path to deferred action or 
citizenship, or one being contemplated by Congress, for a child who 
crosses our border illegally today.
    Rather, under current U.S. laws and policies, anyone who is 
apprehended crossing our border illegally is a priority for 
deportation, regardless of age. That means that if your child is caught 
crossing the border illegally, he or she will be charged with violating 
United States immigration laws, and placed in deportation proceedings--
a situation no one wants. The document issued to your child is not a 
``permiso,'' but a Notice To Appear in a deportation proceeding before 
an immigration judge.
    As the Secretary of Homeland Security, I have seen first-hand the 
children at our processing center in Texas. As a father, I have looked 
into the faces of these children and recognized fear and vulnerability.
    The desire to see a child have a better life in the United States 
is understandable. But, the risks of illegal migration by an 
unaccompanied child to achieve that dream are far too great, and the 
``permisos'' do not exist.
                                             Jeh C. Johnson
             Secretary of the U.S. Department of Homeland Security.

    Chairman McCaul. I thank the Secretary.
    The Chairman now recognizes himself for questions.
    Let me say, first, I commend you for your immediate 
response to this crisis. But we do have a crisis on the border. 
It is in our backyard. It is impacting my State particularly 
probably the greatest.
    When I see our military bases now turning into refugee 
camps here in the United States, I think that is something I 
never thought we would see in the United States.
    I talked with senior officials of Border Patrol down in the 
Rio Grande Valley sector. We have 250--over 250 children being 
apprehended every day down there.
    I think the saddest thing about this whole story is the 
exploitation of these children. I think, as you recently 
mentioned in your open letter, you said that it is dangerous to 
send a child on the long journey from Central America to the 
United States in the hands of smugglers. Many children are 
traumatized, psychologically abused by their journey, or worse, 
beaten, starved, sexually assaulted, or sold into a sex trade. 
They are exposed to psychological abuse at the hands of the 
criminals.
    You know, we see these publications down in Central 
America, saying that if you come into the United States, you 
can stay. Now, whether that is a misinterpretation of our 
policies, I think there is a lot of confusion out there. I 
personally believe that this administration's policies have 
contributed to this problem, and have encouraged more people to 
come.
    When I talk to law enforcement, whether it is border 
sheriffs or CBP, on the border, they believe that this problem 
will continue until we provide a deterrence, a strong message 
that if you do come, you cannot stay.
    So, Secretary Johnson, what are you doing in that respect? 
What deterrence are we providing to stop this? Because if we 
don't provide that deterrence, this problem will not stop.
    Secretary Johnson. I agree. First of all, we need to stem 
the tide.
    These gentlemen here, to my left and right, are leading a 
Herculean effort to deal with the current capacity, but we have 
got to stem the tide. I believe, among the things that I listed 
here, that what is critical is we correct the record. We 
straighten the misperceptions.
    The smuggling organizations are creating a misinformation 
campaign that there is a permisos or a free pass. I have even 
heard that you have to get here by May 2014 in order to get 
your free pass. So, the smuggling organizations have an 
incentive to induce these kids to have their families pay money 
to smuggle them up here, and so they are putting out 
misinformation, which we are trying to correct through our 
public awareness campaign.
    But we are also building, as I mentioned, increased 
detention capability for adults who bring their kids into the 
country, to expedite their removal and return back to their 
home nations.
    The other thing that we in the Department of Justice are 
very focused on right now is going after the networks of 
smuggling organizations, through their financial transactions, 
through prosecuting the personnel. We have surged DOJ and 
criminal investigators into Texas for that purpose. But I 
agree, Chairman, we need to stem the tide.
    Chairman McCaul. I think that--I know in 2006 we had a 
Brazilian crisis, and we provided mandatory detention, and it--
it worked. So I think--I think the administration needs to look 
at that. I think the National Guard, I know DOD doesn't like 
that option, but I think if they could help with the influx and 
allow Border Patrol to do their job on the border, I think that 
would be helpful as well.
    In the limited time I have, I want to focus on what I think 
could be a very good solution to this problem in addition to 
deterrence. You and I have talked about this issue, and it has 
to do with Mexico, and Mexico's cooperation with the United 
States. They are allowing this to happen in their country. The 
drug cartels are exploiting these children as they come through 
Mexico, and we know that the Mexicans' southern border is 
completely wide open.
    I know that we have offered assistance to Mexico that to 
date, I don't know whether that has been accepted, but my 
information is that it has not been. I would like to commit my 
efforts to work with you to get that problem solved, because I 
think, as you look at these children, they are all coming from 
Central America. If we can close the southern border of Mexico, 
that stops 99 percent of our problems here.
    So, if, Mr. Secretary, if you wouldn't mind commenting on 
that issue.
    Secretary Johnson. Well, first, as I mentioned in my 
opening comment, I want to hear every legal available option 
for consideration, whether it is from my own staff, whether it 
is from the interagency, or whether it is from Members of 
Congress or former Government officials who write op-eds. I 
want to hear every available option.
    Clearly, the key--a key to this is what the government of 
Mexico can do. I agree with your assessment, Chairman, and as 
you and I have discussed in private, we need to engage that 
government at the senior-most levels, and we have begun that in 
President-to-president discussions. I have had discussions with 
my counterpart. I think that the Mexicans' southern border, our 
shared border security interest is the key. I also think that 
engagement with the government of Guatemala is the key, which 
is why I am going there personally next month.
    So, but--no doubt, we have got--this is a critical way to 
stem the tide.
    Chairman McCaul. I encourage you. I think you are right. 
Central America as well, with the Secretary of State, State 
Department has a role to deal with Central America and this 
crisis coming out of there.
    With that, Chairman now recognizes the Ranking Member.
    Mr. Thompson. Thank you Mr. Secretary for your excellent 
testimony. How often have you had a discussion with Secretary 
Kerry or Burwell on this situation? What I am looking for is, 
right now the microscope is on you, but they have some other 
players in this effort also. Are you having discussions with 
other officials of the Cabinet?
    Secretary Johnson. Yes, definitely. On June 1, as I noted, 
the President established a Government-wide effort, pursuant to 
the Homeland Security Act, to deal with this and set up a 
unified coordination group, which I oversee, Administrator 
Fugate is in charge of it, which brings to bear the resources 
and assets of not only DHS, but HHS, DOJ, Department of 
Defense.
    So we have an effort which FEMA, day-to-day, Craig and his 
staff, day to day, coordinate and support, but in addition to 
that, we are in routine--I am in routine conversation with my 
Cabinet counterparts about this issue. I am having a meeting 
with my Cabinet counterparts right after this testimony as a 
matter of fact. Last Friday, I brought a group of interagency 
colleagues down to McAllen and Langley myself to--not Langley, 
Lackland, myself to see the situation. So, we are in good 
consultation with all these other agencies.
    Mr. Thompson. Yes, I am just trying to make sure that there 
is a understanding that it is not just Jeh Johnson who is 
responsible for this issue, but there are other players also 
who actually, we need to have a conversation with.
    One of the conversations that I think would be important is 
under existing law, how long would the children be in custody 
of DHS before they are passed off to HHS?
    Secretary Johnson. Under existing law, we are required to 
transfer the child within 72 hours to HHS, from the point at 
which we identify the child as an unaccompanied minor. I know 
that the provision in law says that there is an exception for 
extraordinary circumstances, but in general, the legal 
requirement is 72 hours.
    Mr. Thompson. I guess my question to Administrator Fugate 
is, have you been able to coordinate the resources so that 72-
hour pass-on is working?
    Mr. Fugate. At this time, with the number of children 
coming in, we are not meeting the 72 hours, but since June 1, 
we have added over 3,000 beds to the Health and Human Services 
Office of Refugee Resettlement, including the three military 
bases that previously were referenced.
    In addition to that, we wanted to get these kids as quickly 
as we could from the detention facilities to a bed, even if we 
could not get them into HHS's custody. So, Customs and Border 
Protection has built out one processing center. Another one is 
coming on-line in mid-July.
    So, at this point we have not reached the 72 hours, but we 
are building more capacity to get children in beds, but also, 
Health and Human Services is stepping up placement for the 
longer-term care of these children.
    Our other hope is that the quicker we can place children 
long-term, either reunited with legal guardians or parents, or 
with foster families while they await further proceedings, the 
fewer beds that will be required.
    So, we have increased capacity, but the number of children 
coming in have increased as well, and we have not reached the 
72-hour mark.
    Mr. Thompson. I guess the follow-up to that is, in your 
coordinating role, do you feel that the resources necessary to 
be successful have been made available to you?
    Mr. Fugate. Yes, sir. It is--the challenge is again, in 
building out facilities and bringing on additional foster care 
facilities. These are licensed facilities. It is diligent work 
by a lot of Federal agencies to get this done, and it is time-
consuming. That is why we looked at some intermediate steps to 
increase bed capacity within Customs and Border Protection.
    But you do have, I believe, additional requests that have 
been identified from OMB, that there will be additional 
resources required in the next year. We continue to work within 
our authorities and within the budgets we currently have.
    Mr. Thompson. Mr. Vitiello, can you tell us whether or not 
the Border Patrol as it is presently staffed can meet this 
influx of young people coming across the border?
    Chief Vitiello. As is typical, the men and the women of the 
Border Patrol have stepped up to this task. I think you heard 
the Secretary describe that we were there on Friday. We watched 
the hard, diligent, heroic work that they are doing to make the 
best of this situation.
    It is our--it is my assessment and what we heard from the 
leadership on the ground down there, the agents that are 
involved in this crisis, we are adequately staffed and even 
better staffed than we were this time last year.
    So we are concerned as this goes on about staffing levels 
and our ability to do the other Border Patrol functions. But 
the reports that we got on Friday, I am very comfortable that 
they have the resources that are available and they are using 
them in an adequate way to protect the border.
    This isn't a security problem in the sense that this 
population, both the family units and--and the children, are 
not trying to evade apprehension at the border. They are 
essentially coming in an area that is well-known by us, well-
patrolled by us and they are not evading arrest.
    Then in the other locations along the border, we are 
adequately or we are better-staffed or the same staffing that 
we had last year. So there is some risk involved here but the 
reports that we heard on Friday don't concern me.
    Mr. Thompson. Thank you.
    I yield back.
    Chairman McCaul. Chairman now recognizes the gentleman from 
New York, Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    Secretary Johnson, let me thank you for your testimony 
today. Before we get into this issue, let me thank you for what 
you have done as far as counterterrorism efforts. I want to 
personally thank you for that. It is greatly appreciated.
    On this issue, let me get to the question that the Chairman 
is raising regarding deterrence. In your statement, you say 
that you want to emphasize there are no free passes. I 
understand what you mean by that.
    But if you are a parent in Central America, in effect, this 
can look like a free pass because you are making the situation 
more humanitarian, you are making more facilities available, as 
Mr. Fugate said, you are providing foster families, all which 
is understandable. That is our obligation as human beings.
    But the other hand, if you are a family in Guatemala or El 
Salvador this, in a way, is a free pass. It is a much better 
life for them than they are getting right now in South America. 
So I don't know how that is going to in any way stall what is 
happening.
    On the issue of diplomatic engagements, it would appear 
that, as the Chairman said, the southern border of Mexico is 
the key here. Do we have any realistic hope that Mexico is 
going to be cooperative on that?
    Also, you mentioned going after the coyotes? What is the 
time frame on that? As a practical matter, we have been trying 
to do that for years. Is there any reason to think homeland 
security or DOJ can expedite that or be more effective?
    I am not reflecting on you; I am just saying we have been 
doing this for as long as I can remember, going after the 
coyotes and they are still there.
    So I guess, you know, what is the deterrence? Because the 
more you take what is proper humanitarian action, the more you 
are making it, to me, more accessible and more hospitable. It 
seems to be almost a Catch-22 unless we can really step up the 
diplomatic efforts regarding the southern border of Mexico and 
whatever pressure we can bring on El Salvador and other 
countries and going after the coyotes.
    Secretary Johnson. Well, a couple of things.
    First, I am convinced that the principal reason these 
kids--from everything I have heard, everything I have seen and 
from my own conversations with these kids, the principal reason 
they are leaving is the push factor from the countries they are 
leaving.
    The conditions in Honduras, for example, are horrible. It 
is the murder capital of the world.
    There is--there is this disinformation out there that there 
are permisos. That is what we are hearing. Permiso, free pass, 
like you get a piece of paper that says, ``Welcome to the 
United States. You are free.''
    That is not the case. When you are apprehended at the 
border, irregardless of age, you are a priority for removal. So 
they are given a notice to appear in a deportation proceeding.
    The way the law works, the 2008 law, we are required to 
give that child to HHS and HHS is required to act in the best 
interest of the child, which most often means placing that 
child with a parent who is here in the United States. But there 
is a pending deportation proceeding against the child.
    Now in terms of--but that is not a free pass. In terms of--
--
    Mr. King. But if I were a parent in Guatemala, wouldn't I 
see that as being a free pass? I mean, a child, a 5-year-old 
child getting an order to show up in immigration court, you 
know, are you going to actually deport that child? You know, to 
me, it is a free pass, you know, from their perspective.
    Secretary Johnson. I don't--Congressman, I don't see it as 
a free pass, particularly given the danger of migrating over 
1,000 miles through Mexico into the United States, especially 
now in the months of July and August that we are facing.
    A lot of these kids stow away on top of freight trains, 
which is exceedingly dangerous. I spoke to one kid who was 
about 12 or 13 who spent days climbed on top of a freight 
train, a boxcar.
    These kids, sometimes they fall off because they fall 
asleep. They can't hold on any longer. It is exceedingly 
dangerous.
    Mr. King. I am not saying it is a free pass. I am just 
saying how do we change their minds to not think it is a free 
pass considering the poverty they are under.
    Also, if I could ask on that, is the situation any worse in 
Honduras today than it was 2 years ago or 3 years ago or any 
tougher economically or gang-wise in these countries than it 
was several years ago before we had this mass influx?
    Secretary Johnson. I know it has been bad for a while. I 
know it has been bad for a while.
    If you are asking me to explain why the influx over the 
last couple of months all of the sudden----
    Mr. King. If you could, yes, sure.
    Secretary Johnson. I am not sure I have the answer to that 
question.
    I do believe that the smuggling organizations are putting 
out a lot of disinformation about the conditions, the legal 
conditions here in the United States to induce this activity. I 
agree with you, Congressman, that we have to put in place--and 
I think we are doing this--a number of deterrent factors, 
increased housing to detain parents, adults who come to this 
country with their children, expedited removals and the public 
relations campaign.
    One of the things I am doing in addition to everything else 
we have done on the public relations front is I am talking to 
the U.S. Conference of Catholic Bishops about how they can 
help. I have had very good conversations, and I think that they 
will because they realize that--the dangers of a parent sending 
a child through this type of migration.
    Mr. King. Thank you for your service.
    I yield back, Mr. Chairman.
    Chairman McCaul. I thank the gentleman.
    The Chairman now recognizes the gentlelady from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. Let me thank both the Chairman and the 
Ranking Member for the spirit of this hearing.
    The combined recognition that this is a humanitarian crisis 
way beyond our imagination, we might use hindsight, Mr. 
Secretary, and look at this and say: Why did we not see it?
    I think the variables of the world would argue that the 
world remains in crisis in many areas and it makes it very 
difficult, even when individuals are your neighbors, to be able 
to spot crises maybe before they begin to show themselves.
    So I am grateful for the response of the Border Patrol and 
the agencies and the President who has recognized that we have 
come.
    Let me first of all acknowledge that this should not be 
political grandstanding. I would commend some of my colleagues 
to read--I will hold up this article that says, ``Why 90,000 
Children Flooding Our Border Is Not an Immigration Story.''
    In a survey of 404 by the United Nations, they found that 
58 percent of these children were forcibly displaced and to a 
degree, it warranted international protection, meaning that if 
the United States breached its responsibility--and I know some 
adhere to the United Nations, I do, I respect it as an 
international organization--we would be breaching many of its 
conventions that we have adhered to.
    So we are doing the right thing. I think it is important 
that I ask unanimous consent to put this in the record, an 
article dated June 16, 2014.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
              Article Submitted by Hon. Sheila Jackson Lee
  why 90,000 children flooding our border is not an immigration story
Virtual cities of children are fleeing their homes. This is a lot 
        bigger than U.S. border control, a United Nations protection 
        officer explains.
        
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

A boy in Mexico peers through a border fence into Arizona following a 
special ``Mass on the Border'' on April 1, 2014 in Nogales, Ariz. (John 
Moore/Getty Images).

National Journal, June 16, 2014.

    The numbers are astounding.
    Just a few weeks ago, the United States was projecting 60,000 
unaccompanied minors would attempt to illegally cross the U.S.-Mexico 
border by the end of the year. That projection is now 90,000, and it 
may be surpassed.
    Virtual cities of children are picking up and fleeing El Salvador, 
Honduras, and Guatemala--some of the most dangerous places in this 
hemisphere. In Washington, the story has stoked the long-standing 
debate over border policy. But U.S. immigration policy is just a small 
part of this story. Yes, the U.S. immigration system is now bottle-
necked with the influx, prompting emergency response from the Federal 
Emergency Management Agency. But changing U.S. border policy won't stem 
the root of the exodus.
    ``The normal migration patterns in this region have changed,'' 
Leslie Velez, senior protection officer at the U.N. High Commission for 
Refugees, explains. These people aren't coming here for economic 
opportunity. They are fleeing for their lives.
    ``For the U.N. refugee agency to register an uptick in asylum 
applications in places other than the United States is a huge red flag 
for us.''
    Earlier this year, the United Nations High Commissioner on Refugees 
surveyed 404 children from Mexico and Central America who arrived in 
the United States illegally, and asked a simple question: Why did you 
leave? The report found ``that no less than 58 percent of the 404 
children interviewed were forcibly displaced'' to a degree that 
warranted international protection, meaning that if the U.S. refused 
these children, it could be in breach of U.N. conventions.
    Velez was one of the authors of that report, interviewing 
undocumented immigrant children across the U.S. immigration system for 
two hours each. They told Velez and her team stories of extreme 
violence, and fear of being caught up in gangs. Forty-eight percent of 
the children ``shared experiences of how they had been personally 
affected by the augmented violence'' at the hands of ``organized armed 
criminal actors, including drug cartels and gangs, or by state 
actors.''
    Recently, I spoke with Velez over the phone to learn more about the 
forces motivating children to make the journey north. Below is an 
edited transcript of our conversation.
                                 ______
                                 
When did it become apparent that something out of the ordinary was 
happening with migration out of Central America? 
    Our sister agency, the U.N. Office on Drugs and Crime, started the 
clock at the increase in violence and insecurity in the Northern 
Triangle in 2006.
    Around 2008, it was probably the first time it really hit the U.N. 
refugee agency's radar. When we went back to the numbers, there was an 
increase in asylum applications starting as early as 2005. It wasn't 
too significant until we got to 2008. And in 2008 to 2013 we noted a 
712 percent increase that were lodged in countries other than the 
United States [like Mexico, Panama, Belize, and Costa Rica].
So why are we hearing about this now?
    The numbers have been doubling every year since 2011. And for us, 
that's dramatic. For the U.S. government--who has been really 
challenged in order to process this large number--I think their 
capacity has really been tested in the last few weeks. I think that's 
what generated a lot of attention. Because the numbers have rapidly 
increased.
    And your next follow-up question is probably going to be, ``Why?''
Yes it is. Why?
    Out of the 404 children surveyed, only nine of mentioned anything 
about U.S. immigration policy.
    From reports that we are hearing from individuals on the ground, 
both from our U.N. offices that are there, as well as NGOs--in 
particular Catholic Relief Services in El Salvador--they have been 
really clear that on the ground a few important things are happening.
    One is that the criminal armed actors, specifically gangs, are 
really operating with significant impunity and targeting children at a 
younger and younger age. Recently there was a very public massacre and 
dismemberment of children as young as seven who had refused to join the 
gang. So it was a message to show who is in power, who is in control.
This is a huge story, involving tens of thousands of personal stories 
and the intricate histories of three troubled countries. But for those 
unfamiliar with the happenings in Central America--how would you 
encapsulate what's going on down there? 
    It's a humanitarian crisis in the region. The numbers are alarming, 
but the stories behind them are even more so. The situation is 
basically this: we have weak governments, entrenched poverty, and a 
growing control and power of criminal actors.
Why kids?
    That's a really good question. The kids are vulnerable because they 
are children. And they are being targeted.
    We liken the situation very much to the situation of the 
recruitment of child soldiers on other continents. Children are 
particularly vulnerable, they are susceptible to harm, they are easily 
terrorized, and the very fact that they are children is the single 
factor in the harm that they are experiencing. They are specifically 
being target to be recruited. They are the ones who are being bullied.
Much of the news has focused on the U.S. response at the border. But is 
there much journalism coming out of the conflict areas? 
    There's really little. Most of the media that covers it well is 
Spanish media.
Is that changing?
    I hope so.
Who is making the decision to flee, to go north? Is it the kids 
themselves, the parents? How much choice do the kids have in this and 
how do they make this decision? 
    ``This is not a migration story. This is a humanitarian crisis.''
    I think I hear the question you are asking but I'm going to give 
you a different answer.
    This is a situation of forced displacement. After interviewing 404 
children for our own report, when the numbers came back they showed 
that 58 percent of them were fleeing violence. Very little choice, that 
they were fleeing.
    I think your question went to, well, who has the agency here, is it 
the children making decision for themselves, the grandparents, the 
family members? Who is doing it?
    I guess the question back to you is, is there really a choice here? 
Already in the context of entrenched poverty in which criminal gang 
armed actors can really act with impunity. This is a bad recipe.
According to reports, as many as 60,000 minors have come to our border 
this year. When I hear numbers that high, I wonder, is this a 
systematic form of travel? Are there economies involved in this mass 
movement of people? Exploitation?
    Well, the 60,000 mark was hit maybe a good 3 or 4 weeks ago. The 
projections are about 90,000 by the end of the fiscal year. We're 
talking about unaccompanied children.
    In terms of how they are getting here: So many of them are just 
invisible. Some people are being smuggled, some people are being 
trafficked, some people think that they are paying a smuggler and they 
end up being trafficked, some people come with other relatives. There 
are so many different stories. And I think there are a lot of actors 
that are actually exploiting the fact that these children are 
increasingly vulnerable. And there are a lot of for-profit entities out 
there that are trying to profit [off] the children who are trying to 
leave.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Is the answer we just don't know? Is there a fog of information between 
Central America and the U.S.?
    Last year Mexico apprehended 5,500 [children] in the same year, 
23,000 arrived to the United States, and I'm not including Mexicans in 
the 23,000 figure. These are all children from El Salvador, Honduras, 
and Guatemala. Twenty-three thousand of them made it through Mexico 
without being detected.
In the wake of these trends, some lawmakers have called on increased 
southern border security for Mexico. What do you make of that?
    I think that's a knee-jerk reaction, which is not entirely 
inappropriate. But any conversation about increasing enforcement of 
other countries at points south has to include protection from sending 
people back to where they fear persecution or torture.
I've been reading that these children are coming north on rumors that 
the United States will let them in, that the Obama administration has 
lax policies toward minors. Did you find that at all in your survey?
    We interviewed 404 children asking extremely open-ended questions 
as to the reasons and the nature of having left and what they were 
expecting when they arrived. Out of the 404, only 9 of them mentioned 
any kind of possibility of the U.S. treating children well. Two said 
``immigration reform''; one said ``I hear they treat kids well.'' It's 
very general and from the perspective of a child. But only nine out of 
404 said anything about that.
So what is attracting them to the United States?
    First, I have to point out to you, it's not just the United States. 
That was a another red flag for us. There is an increasing trend to 
seek asylum in Mexico, which is much safer for them than where they are 
from. The number of asylum seekers in Nicaragua, in Belize, in Costa 
Rica, in Panama--all of that has grown 712 percent since 2008.
    This is not the normal flow. For the U.N. refugee agency to 
register an uptick in asylum applications in places other than the 
United States is a huge red flag for us. People are leaving to places 
where they can find safety.
So what are the countries experiencing the influx?
    The U.S., Canada, Mexico, Costa Rica, Panama, Nicaragua, Belize.
How many people have left El Salvador, Honduras, and Guatemala? I'm 
trying to imagine the long-term impacts of tens of thousands of young 
people leaving their homes behind.
    We don't know how many people have left. I can generally signal how 
many have been picked up on the radar by the states. As of last month 
we have 45,000 adults who have indicated a fear of return to U.S. 
border officials. Of that number, approximately 70 percent of that 
45,000 figure are from those same three countries.
    These are just the folks who are claiming fear of return, getting 
that registered. This is what has actually hit the radar. We have no 
idea about how many people don't get intercepted by border authorities. 
There is no way for us to track the number of individuals that are part 
of regular migration-enforcement activities.
    Already to be talking about a flow of over 100,000 people from 
three countries is quite alarming.
Are these refugees? Immigrants? Does the distinction matter?
    What we learned from our empirical study was that 58 percent of the 
children we interviewed flagged an international-protection concern. 
Where we drew the line, was that these children feared return because 
of violence and insecurity. They feared harm to themselves, and had the 
single conviction that they could not be protected in their countries. 
So that was our most conservative lens that we could look at the 
numbers. We excluded entrenched poverty, we excluded everything else. 
So 58 percent of the kids, in a statistically significant pool of 404, 
we wanted to be able to extrapolate to have a significant pool, present 
international protection concerns.
    So what does that mean? We did not interview them [to determine 
refugee status]. We interviewed them to find out why they left. We did 
a preliminary screening which to us was enough to say these individuals 
presented concerns.
    Which means that if a country was to reject these people from their 
borders without allowing them any access to asylum protection or 
complementary protection processes, it actually would be in breach of 
the conventions.
Is the U.S. handling this well?
    ``The humanitarian response is not going to solve the problem. The 
faucet has to be turned off or the water is going to keep flowing.''
    The U.S. is doing everything that I think it possibly can in this 
short-term context. We have really applauded that President Obama has 
recognized there is a humanitarian crisis, and that he engaged FEMA and 
has asked the Secretary of Homeland Security to respond. The machinery 
is in place, it's starting to move. The domestic response, in the short 
term, is doing the best that it can to get people out of the 
bottlenecking facilities that are just not equipped to deal with this 
type of flow.
    But what the U.S. could be doing better, is that this is really a 
regional issue. Each country is unique and if you look at the data in 
our report about what's happening in each country, you are going to see 
some clear difference. At the same time it's a regional challenge--
people are leaving and they are going to points North, points South--it 
requires a regional response. It's not on the U.S. alone to solve. But 
were supporting it to recognize that there is a foreign policy element 
here to all of the challenges.
    The humanitarian response is not going to solve the problem. The 
faucet has to be turned off or the water is going to keep flowing. To 
that end, the U.S. needs to address the root causes, and it has a role 
in addressing the root causes. First, on the top of the list, is to 
continue violence-prevention efforts--like job creation, education, 
strengthen women's counsels--do a lot more institution strengthening, 
more government programs.
What is the American media getting wrong about this story? Or, what's 
the take-home point we miss?
    This is not a migration story. This is a humanitarian crisis, and 
an example of consequences of weak governments. It's a humanitarian 
crisis and a foreign policy issue. We're responding in a humanitarian 
way, and supporting the government to do so, but that's not going to 
shut off the faucet.
    The normal migration patterns in this region have changed. While it 
is still a mixed migration flow--people are still coming for a number 
of reasons. There is a growing number of people who are literally 
fleeing for their lives.
    http://www.nationaljournal.com/domesticpolicy/why-90-000-children-
flooding-our-border-is-not-an-immigration-story-20140616
           Attachment.--Unaccompanied Children At the Border
U.S. Customs and Border Protection struggles to process the rising 
        numbers of minors
By Chet Susslin, June 20, 2014.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Jackson Lee. I also want to hold up what we are talking 
about. We are talking about a little baby holding a bottle, 
maybe not even carried by his own family.
    We are talking about children who are not in the Taj Mahal 
but are desperate and maybe internally displaced or chased off 
by the violence of their countries, and we are trying to 
respond to it. I think that is very important.
    I think it is also important to note that the Wilberforce 
Act was signed in 2008 by President Bush. This is the one about 
unaccompanied children that were supposed to be handled by HHS. 
It was legislation that originated in the Judiciary Committee. 
I remember it very well.
    The idea was for 20 children or 100 children to be handled 
by HHS, a more humanitarian--it was not an open-door policy. It 
was never, if you will, amnesty.
    Then I want to put into the record the June 15, 2012, 
statement by ICE on DACA, which has now been accused of being 
the open-door policy. It is dated June 15, 2012. It says, come 
to the United States under the age of 16 and continuously 
reside in the United States for 5 years.
    Chairman McCaul. Without objection, so ordered.*
---------------------------------------------------------------------------
    * The information has been retained in committee files and is 
available at http://www.uscis.gov/humanitarian/consideration-deferred-
action-childhood-arrivals-daca.
---------------------------------------------------------------------------
    Ms. Jackson Lee. What child can imagine that they would fit 
under DACA? It is clearly an issue of devastating human 
smuggling and human trafficking, something that my colleague, 
my Chairwoman, Mrs. Miller and myself have looked at and 
included this language even in our authorization bills some few 
weeks ago.
    So I ask these questions, as long as we can keep the facts. 
It is not an issue of the Wilberforce bill. It is not an issue 
of DACA.
    It is a humanitarian crisis of huge proportions, and we 
have to deal with it. It is also a question of detention 
facilities, and, as well, the need for diplomatic interaction, 
as we have done with the crisis and the leaders of Guatemala, 
El Salvador, and Honduras. They are in crisis. They are 
violent.
    I ask you about creating more processing centers, and as 
well, the Senate passed about a $2 billion out of their Labor-
HHS. Is this what you need, about $2 billion to $3 billion, to 
make sure we can respond to this?
    I also ask if someone would address the question, and I 
thank the Border Patrol for the work they have done, the 
suggestions that there have been some form of abuse. I think we 
should not run away from challenges that have been made 
regarding the treatment of these children. I think we should be 
open. We want to make sure they have facilities. So, I would 
appreciate your response to those questions.
    Secretary Johnson. Congresswoman, I will just answer 
quickly and then ask my colleagues if they would like to 
supplement.
    In general, in response to your question, we need to 
identify and create more processing center space, more shelter 
space for HHS, before they place the kids, and more detention 
space for adults with children. We do not have a lot of 
detention space for family units.
    So as a deterrent and to simply deal with the sheer 
numbers, we need to create more detention space for adults who 
bring their children. So that is one of our principal goals as 
part of this process.
    I will ask Administrator Fugate or Chief Vitiello if they 
have anything they want to add?
    Mr. Fugate. No.
    Secretary Johnson. Okay.
    Chief Vitiello. I would just add on the claims of abuse, my 
chief, the commissioner, and the Secretary have been very 
direct, and we are all focused on that issue. There is no room 
for abuse of detainees in custody, specifically children. Those 
matters will be taken up with the Office of Inspector General, 
and we will be fully cooperative in all manner of getting to 
the bottom of those allegations.
    Ms. Jackson Lee. I am very glad to hear you say that 
publicly and openly, that we are not running away from it, we 
are investigating and we care about these children and we are 
gonna address this in the way that the United States has always 
done in a humanitarian crisis.
    Thank you, Mr. Chairman.
    Chairman McCaul. The lady's time expired.
    Ms. Jackson Lee. I yield back.
    Chairman McCaul. I would remind the Members that the 
Secretary has to leave at 12:30, and I will strictly enforce 
the 5-minute rule.
    The gentleman from Alabama, Mr. Rogers, is recognized.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Johnson, when you took office, do you believe that we 
had effective control of the border, our Southern Border?
    Secretary Johnson. I recognized when I took office that we 
had some real issues in the Rio Grande Valley sector, in 
particular, with those coming from Guatemala, El Salvador, and 
Honduras.
    Mr. Rogers. Any areas of the border where we have a fence 
have we had children coming across?
    Secretary Johnson. If you are referring to----
    Mr. Rogers. For example, around San Diego, the southern 
part of California?
    Secretary Johnson. This has not been a big phenomenon in 
southern California or Arizona.
    Mr. Rogers. Any place we have had a fence, have we had 5-
year-old children coming across the border?
    Secretary Johnson. Not in very large numbers. It has got a 
lot to do with the fact that south Texas is so closely located 
to Central America, too. That is the migration path.
    Mr. Rogers. Well, let me ask, in the Rio Grande Valley, if 
we had the same sort of fencing we have along the southern 
border of California, do you believe these children would be 
coming across the border in the numbers they are coming across 
or anything close to it?
    Secretary Johnson. It is hard to answer because you are 
talking about the Rio Grande River, which is a very----
    Mr. Rogers. Well, I have been there. I know what I am 
talking about. We don't have a fence down there, and, if we 
did, we wouldn't have 5-year-old children coming across.
    You know, this Congress in 2006, because I was here, we 
authorized and appropriated the money for 700 miles of fencing. 
We have gotten most of that. But that was done in 2009. We 
haven't had any more since then. This is what we get for it.
    Let me ask this. I have been down to Nogales, where they 
have the large detention facility, and I have seen the folks 
that we detained be debriefed, cleaned up, put on a bus, and 
sent back.
    Why aren't we doing that with these children?
    Secretary Johnson. Well, first of all, Nogales is being 
used right now as a processing center for the unaccompanied 
children. They are leaving Nogales and they are going to HHS 
custody for shelter and then placement.
    Mr. Rogers. Well, why aren't we putting them on a bus like 
we normally do and sent them back down to Guatemala?
    Secretary Johnson. Because the law requires that I turn 
them over to HHS, sir.
    Mr. Rogers. Well, the law required Obamacare to be kicked 
in 2 years ago. That hasn't stopped the administration before 
when it wants to do something different.
    This is a humanitarian crisis. It is a National security 
crisis for our country.
    I don't know why these children are being treated any 
differently. You know, you talked a little while ago about 
trying to talk with the Guatemalan government about what we 
should be doing.
    I think what you need to do is ask the Guatemalan 
government where they want these kids dropped off when the 
buses bring them back down there.
    You know, what are we doing, other then taking them and 
putting them in a facility here, that is gonna make it more 
likely we will keep them here for months, if not years.
    Tell me what we are doing to get them returned home.
    Secretary Johnson. We are creating additional detention 
space for adults who bring their children. I am considering--I 
want to consider every option for stemming this tide, sir.
    The law requires, the law that was created in 2008, 
requires that we turn these kids over if they are unaccompanied 
to the Department of Health and Human Services within 72 hours, 
generally, so that is what we do. But they are turned over with 
a notice to appear, that is, you know, effectively a 
deportation proceeding that has been commenced against them. 
But the law requires I turn them over to HHS.
    Mr. Rogers. Do you believe these are exigent circumstances?
    Secretary Johnson. I believe these are exigent 
circumstances, yes.
    Mr. Rogers. Do you believe that the President should issue 
an Executive Order, due to these exigent circumstances, to deal 
with this crisis?
    Secretary Johnson. I am not sure I can comment on that. Of 
what nature?
    Mr. Rogers. To supersede the law. I mean, this is not the 
first time the President has gone around the law--don't know 
why he can't do it with these children.
    Secretary Johnson. Last time I looked an Executive Order 
can't supersede the law.
    Mr. Rogers. Well, that is what we thought, too. If we can 
find a way to get in front of the Supreme Court, we would 
resolve that.
    But right now we have a crisis, and I don't see this 
administration doing anything about it other than trying to 
house the children. I understand the humanitarian basis for 
that.
    But we need to send a signal to these other countries that 
it is not gonna work. You can't send your children up here and 
let them stay. We are gonna turn them right back and give them 
right back to you.
    That is what I am looking for from you is a way for us to 
do that. That is the clearest signal to these parents to not 
send these children up to us in the future.
    So, tell me what you can do, other than give them to HHS. 
Nothing? Have you called the National Guard out? Or asked for 
it?
    Secretary Johnson. Like I said, I would like to consider 
every option that is presented. I went through in my prepared 
testimony the 12 or 13 steps we have taken to deal with the 
crisis, which includes building more detention space----
    Mr. Rogers. Well, that is once they get in here. The 
President--or the Speaker of the House last week called on the 
President to mobilize the National Guard to go down and give 
some relief to the Border Patrol and the FEMA in this crisis. 
Why can't you call on the President to do that?
    Secretary Johnson. Well, sir, if you are asking me if I can 
take an unaccompanied child, turn him around on the border and 
send him right back to Guatemala, I don't believe the law would 
permit us to do that.
    Mr. Rogers. Thank you, Mr. Chairman. Yield back.
    Chairman McCaul. The Chairman recognizes Mr. Higgins, from 
New York.
    Mr. Higgins. Thank you.
    Mr. Secretary, I just--we had an incident in Buffalo 
regarding facilities for undocumented and unaccompanied 
children in Grand Island, New York. A local developer offered 
to GSA a property that the local developer doesn't own and 
either represented that the property was vacant and available 
or Federal agents assumed that the property was vacant and 
available.
    That offer of property made its way from GSA to HHS, and 
then finally to the Department of Homeland Security where three 
DHS agents showed up at the property unannounced, and upon 
their arrival, they realized the property wasn't vacant and 
wasn't available, and found it to be a 236-room functioning 
hotel and spa.
    Now, it would seem to me that someone that represents that 
they own a property and knows anything about it and offers that 
property to the Federal Government for use under this program, 
some due diligence would have had to have occurred to verify 
either the assumptions or to refute the misrepresentations that 
were made.
    Are you familiar with this? Can you offer any----
    Secretary Johnson. I have been informed that somebody 
within DHS looked at a hotel in upstate New York, and we were 
quickly informed that it is an up and running, functioning, 
occupied hotel. So, obviously, it is not a viable candidate for 
this situation.
    Mr. Higgins. Yes, but I think this misses the point. My 
real concern is that, you know, again, a local developer that 
doesn't own the property reaches out to a Federal agency, and 
it makes its way through one, two, three other Federal 
agencies, and Federal agents show up at the property and it is 
confirmed then that it could have easily been confirmed through 
some kind of Internet search, Google, that the property was not 
available. It just created a lot of confusion in the local 
community.
    Secretary Johnson. Well, I imagine that's just some 
investigators being thorough. But as I mentioned, that property 
obviously is not an option for--to deal with this situation. It 
is an up-and-running occupied hotel.
    Mr. Higgins. Right. Well, it just seems to me that more due 
diligence could have, should have been exercised here before, 
you know, Federal agents were sent unannounced to a functioning 
hotel and spa facility for the purposes of housing unoccupied 
children that crossed the border.
    I will yield back.
    Chairman McCaul. Thank the gentlemen.
    I would like to remind the Members, the purpose of this 
hearing is to address unaccompanied minors crossing the border.
    The Chairman now recognizes Dr. Broun, from Georgia.
    Mr. Broun. Thank you, Mr. Chairman.
    Mr. Secretary, on January 29 of this year, the Department 
of Homeland Security issued a document, an ad actually, 
requesting people to apply for a job to accompany these 
children, these unaccompanied children, to be placed across the 
country. In that document, it said up to 65,000 kids.
    So, back in January of this year, the Department already 
knew that these kids were coming, was actually trying to get 
contractors, independent contractors, to come on board to 
accompany these kids. At what point did y'all have a knowledge 
that there were going to be up to 65,000 children, 
unaccompanied children coming into this country?
    Obviously, this is before January 29.
    Secretary Johnson. Congressman, I have heard about this 
solicitation. I don't know where this estimate comes from or 
what it is based on, so I can't comment on the----
    Mr. Broun. Well, I didn't ask about the document, I asked 
about the--at what point did the Department project that there 
were going to be up to 65,000 children coming into this 
country?
    Secretary Johnson. Well, like I said, I don't know where 
that estimate comes from. I have heard about this document, but 
I have never seen it. I don't know where the estimate comes 
from.
    Mr. Broun. Well, the point is, what have y'all done? If 
January, the Department understood that there were going to be 
up to 65,000 unaccompanied children coming to the United 
States, as a medical doctor, I try to prevent disease. I try to 
prevent problems with my patients. The administration should be 
doing the same thing.
    If you knew that up to 65,000 unaccompanied children were 
going to be coming to this country, for Pete's sake, you should 
have been doing something about it. I don't see where this 
administration or the Department of Homeland Security has done 
anything.
    Am I wrong?
    Secretary Johnson. Very clearly. Since I have been in 
office, we have known that there is an issue of a rising tide 
of unaccompanied children coming into this country. I have 
known that since I have been in office for 6 months. The issue 
intensified, I would say, for me at least, in the period April 
or May.
    In April, I asked my staff to develop an overall campaign 
plan for the Southwest Border, the Rio Grande valley in 
particular, to deal with the children and to deal with the 
rising tide of those coming from Honduras, Guatemala, and El 
Salvador, adults and children. I saw this myself when I visited 
there in January.
    Mr. Broun. Mr. Secretary, I apologize for interrupting you, 
because I just have about 2 minutes left, and I have got a lot 
of questions. But the point is, nothing has been done except 
for just to get ready for these children to come. Is that 
correct?
    Secretary Johnson. I have to disagree.
    Mr. Broun. Okay. Well, I would like to know what y'all have 
been doing to try to stop the flood. Because I believe that the 
administration policies is what has invited these kids to come 
here.
    Now, I understand that these kids are being placed with 
family members across the country. I have seen some statistics 
that over 90 percent of these individuals, and you just said, 
that they were given a notice to appear, but 90 percent have 
actually absconded, and never been heard from again. How are 
you tracking and following up with these individuals if they 
don't show up in court?
    Secretary Johnson. Well, I am not--I don't know where the 
90 percent comes from. I do know that through HHS, we have a 
process to track the kids when they move. If they move with 
their--with the adult whose supervision that they are under, 
that HHS places them with, there is a process to track them. I 
inquired and I am told that there is----
    Mr. Broun. These kids have come here illegally. They have 
been lawbreakers already. You place them with families, and it 
is my understanding that some of these families may be illegal 
themselves? Is that correct?
    Secretary Johnson. I am sure that is true in certain 
circumstances.
    Mr. Broun. Okay. So what is the Department doing to try to 
deport or deal with these families that are illegal in 
themselves? Then you have got another lawbreaker, and the kid--
y'all should be following up.
    I don't have but just a second or two, but who has told 
y'all--who has given the Department of Homeland Security the 
directive of not enforcing the law to deport people who are 
identified who are here illegally?
    Secretary Johnson. Well, I would have to disagree with that 
characterization, sir. There are priorities for removal focused 
on public safety, National security, and border security. We 
have prioritized the enforcement of the law in that manner.
    Mr. Broun. Well, I disagree. It has been very obvious the 
President has been very public that he has said that he is not 
going to deport these illegal aliens, he is going--we don't 
even deport people who have broken the law and have committed 
felonies. I think this administration is inviting these kids, 
inviting illegal aliens to come to this country, and is--wants 
to give them legal status, and I find that intolerable.
    Thank you, Mr. Chairman. My time has expired.
    Chairman McCaul. The Chairman now recognizes the--Ms. 
Jackson Lee for the purpose of entering statements into the 
record.
    Ms. Jackson Lee. Thank you, I ask unanimous consent to 
submit the American Immigration Lawyers Association statement 
dated June 24, 2014. The statement of the Women's Refugee 
Commission, dated June 24, 2014, and finally, a Washington Post 
story, ``Young Migrants Stuck in Limbo on Mexican Border, 
Children Now Stuck Alone in Shelter Bases,'' June 20, 2014. I 
ask unanimous consent.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
       Statement of the American Immigration Lawyers Association
                             June 24, 2014
    The American Immigration Lawyers Association (AILA) submits this 
statement to the Subcommittee on Immigration and Border Security. AILA 
is the National association of immigration lawyers established to 
promote justice and advocate for fair and reasonable immigration law 
and policy. AILA has over 13,000 attorney and law professor members.
                      current humanitarian crisis
    Contrary to the title assigned to this hearing, the escalation in 
the movement of unaccompanied alien children (UACs) is a regional 
humanitarian crisis born from the rapid growth in crime, violence, and 
poverty that has affected Mexico and several Central American countries 
for many years. In October 2011, the United States experienced a 
dramatic rise in UACs, particularly from the countries of El Salvador, 
Guatemala, and Honduras. The number of unaccompanied children 
apprehended by U.S. Customs and Border Protection (CBP) jumped from 
17,775 in fiscal year 2011 to 41,890 in fiscal year 2013.\1\ For the 
fiscal year 2014, beginning October 1, 2013 up through May 31, 2014, 
CBP has already apprehended 47,017 unaccompanied children just in the 
Southwest Border sectors alone.\2\ The children making the difficult 
and treacherous migration journey are now younger than in years past 
(many under 13), and a higher percentage are girls.\3\
---------------------------------------------------------------------------
    \1\ UNHCR Report, ``Children on the run: Unaccompanied children 
leaving Central America and Mexico and the need for international 
protection.'' May 2014. http://www.unhcrwashington.org/sites/default/
files/UAC_Children%20on%20the%20Run_Full%20Report_May2014.pdf.
    \2\ CBP Border Patrol Statistics. http://www.cbp.gov/newsroom/
stats/southwest-border-unaccompanied-children.
    \3\ ``Obama creates group to help border crossing kids'' June 2, 
2014 http://www.usatoday.com/story/news/nation/2014/06/02/obama-
immigration-group-undocumented-children-border/9876003/.
---------------------------------------------------------------------------
    This humanitarian crisis affects not only the United States but the 
entire Central American region as well. The United States is the 
largest country in the region, with the most developed asylum and 
humanitarian protection regime. Hence, the greatest number of displaced 
individuals continues to seek asylum in the United States. Yet other 
countries in the region, in particular, Belize, Nicaragua, Panama, 
Mexico, and Costa Rica, have seen a striking 435 percent increase in 
asylum applications from El Salvadorans, Hondurans, and Guatemalans; an 
even more dramatic increase considering the small size of these 
nations.\4\
---------------------------------------------------------------------------
    \4\ UNHCR, ``Children on the Run''.
---------------------------------------------------------------------------
    Drawing upon interviews with 404 children aged 12 to 17 who had 
left their home countries, the U.N. High Commissioner for Refugees 
(UNHCR) concluded that the ``the children's responses to the questions 
of why they left . . . were as complex as the children themselves.'' 
The reasons most frequently cited by children--even by those who had a 
parent or family member with whom they wished to reunite--were domestic 
abuse within the home, gang and cartel violence, deprivation of basic 
survival necessities, and labor and sex trafficking.\5\ Violence and 
destabilization in these countries has grown in recent years due to the 
strength of transnational criminal actors (including gangs).\6\ In many 
cases, State actors are unwilling or unable to stem the violence.
---------------------------------------------------------------------------
    \5\ UNHCR, ``Children on the Run''.
    \6\ International Centre for the Human Rights of Migrants 
(CIDEHUM), Forced Displacement and Protection Needs Produced by New 
Forms of Violence and Criminality in Central America.
---------------------------------------------------------------------------
    UNHCR found that the majority of the children made statements 
indicating that they may well be in need of international protection. 
Children who migrate without an accompanying parent or guardian face a 
harrowing journey, during which they are often targeted for theft, 
sexual abuse, and abduction.\7\ Some may be lured by false promises 
from smugglers or local media touting U.S. policies that do not exist 
or that cannot benefit them. But the root causes that make these 
children desperate to leave their home countries and seek a safe haven 
are indisputable. Given the severity of conditions in Mexico and these 
Central American nations, it would not be accurate to attribute the 
surge in child migration to any specific circumstances in the United 
States or actions taken by the U.S. Government.
---------------------------------------------------------------------------
    \7\ ``Children traveling solo across U.S. border face dangerous 
trip.'' June 4, 2014. http://www.npr.org/2014/06/04/318733312/children-
traveling-solo-across-u-s-border-face-dangerous-trip.
---------------------------------------------------------------------------
    The dramatic increase in the influx of UACs on the Southwest Border 
has raised speculation as to its cause, including accusations that 
DHS's Deferred Action for Childhood Arrivals (DACA) initiative or 
perceived weaknesses in the enforcement system have drawn more children 
to our borders. However, no one arriving in the United States after 
June 15, 2007 would even qualify for the DACA initiative, and it is 
well-known that human smugglers and traffickers spread rumors about 
non-existent immigration benefits, new laws, and opportunities to 
encourage people to make the journey to the United States. Such 
misinformation should be counteracted with better public information 
campaigns by the Government and credible non-Governmental 
organizations.
    Claims that the President's enforcement policies are insufficiently 
robust ignore the overwhelming evidence that immigration enforcement 
has reached unprecedented levels under this administration. By early 
2014, DHS will have removed 2 million people during the course of the 
Obama administration, at a time when net migration to the United States 
from Mexico is at or near zero and border crossings are at a 40-year 
low. Immigration detention rates continue to rise and now total about 
430,000 individuals each year, at a cost of $2 billion annually to 
American taxpayers. Federal criminal prosecutions of immigration-
related offenses are at the highest point in history--up 468 percent 
from fiscal year 2003. The border is more secure than ever. Increased 
manpower, infrastructure, and technology on the border have resulted in 
heightened enforcement with record numbers. As a result, removals are 
happening more quickly than ever, often at the expense of due process. 
In 75 percent of all removals, DHS relied on summary procedures that 
allow enforcement agents to bypass the immigration court system.
    Even more severe detention and deportation practices are not likely 
to change the desperate behavior of those fleeing from the violence, 
instability, and poor conditions in the sending countries. The current 
humanitarian crisis will only be solved when those factors are 
lessened, when gang violence is not an overriding fear, and when abuse 
and trafficking are not ever-present. Therefore, while the 
administration has taken important steps to provide necessary 
international assistance, its announced ``surge'' in resources to 
expand its capacity to detain families--including women and young 
children--is an inappropriate response. The announcement is 
particularly troubling given the recent history of family detention. In 
2009, the administration ended the detention of immigrant families at 
the T. Don Hutto detention facility due to inhumane conditions and 
abuses. Revisiting this failed experiment would be a step backward. For 
families that cannot be released, alternatives to detention are 
extremely effective, far more humane and cost-effective than 
institutional detention, and would preserve America's core commitment 
to the protection of families. Moreover, a harsher system would 
undermine or even violate long-standing U.S. obligations to protect 
children and other vulnerable individuals and would greatly diminish 
America's status as a humanitarian leader.
                     u.s. principles on protection
    Welcoming and protecting the vulnerable and those fleeing 
persecution is a deeply-rooted American value that has defined our 
country since its founding and is firmly established in our laws. In 
1968, the United States acceded to the 1967 U.N. Protocol Relating to 
the Status of Refugees, which extends the obligation of non-
refoulement, or the duty not to return a refugee to a country where 
there is a risk that his or her life or freedom would be threatened on 
the basis of certain grounds--an obligation that was first enshrined in 
the 1951 Convention Relating to the Status of Refugees. Additionally, 
the United States is bound under the U.N. Convention Against Torture 
not to return an individual to a country where the person would likely 
face torture. In 1980, the United States enacted the Refugee Act to 
bring its laws into compliance with international law and has continued 
to be a leader in the area of asylum and refugee protections 
internationally.
    The United States also has specific protocols for the treatment and 
protection of children that are guided both by U.S. immigration law and 
child welfare principles. Unaccompanied immigrant children are a 
highly-vulnerable population given their age, lack of English language 
skills, and the severe trauma many experienced before or after arriving 
in the United States. Significant numbers of these children may have 
been trafficked or are at risk of being trafficked. They commonly 
exhibit a combination of physical, emotional, and other trauma symptoms 
and urgently need intensive case management services, such as 
counseling, medical care, and access to legal services while in 
custody.
    Since the 1990s, the United States has followed guidelines that 
were established following the 1993 Supreme Court case, Reno v. Flores, 
507 U.S. 292 (1993). These protocols govern the detention, release, and 
repatriation of UACs and require that there be adequate food, drinking 
water, and bathroom facilities as well as proper medical care for those 
in custody. Importantly, children are required to be separated from 
unrelated adults when held in custody and should be transferred to 
facilities more appropriate for juveniles, such as foster care homes, 
within 3 to 5 days.
    In recognition of the vulnerability of child migrants, Congress 
passed several laws intended to protect UACs in Government custody: In 
1990, Congress amended the Immigration and Nationality Act and created 
a special form of protection called ``Special Immigrant Juvenile'' 
status for abused, neglected, or abandoned children who are in the 
custody and care of a State or agency and who cannot be reunified with 
their parents.
    The Homeland Security Act of 2002 (HSA) tasked the Department of 
Homeland Security (DHS) with the apprehension, transfer, and 
repatriation of UACs and the Department of Health and Human Services 
(HHS) Office of Refugee Resettlement (ORR) with their long-term 
custody, care, and placement. Upon apprehension, UACs from countries 
other than Mexico are placed into removal proceedings. While these 
proceedings are pending, they remain in ORR custody until a parent, 
legal guardian, or other suitable custodian can be found. The William 
Wilberforce Trafficking Victims Protection Reauthorization Act of 2008 
(TVPRA) requires that CBP transfer custody of UACs from countries other 
than Mexico or Canada to ORR within 72 hours, barring exceptional 
circumstances. For children from Mexico or Canada, the TVPRA requires 
that they be screened to determine whether they have a fear of 
persecution or have been trafficked. If they have not, and are 
determined to have made an independent decision to return, children 
from Mexico or Canada are returned across the border and are not taken 
into ORR custody.
    For the past 2 decades, the existing system has managed an influx 
of between 5,000 to 20,000 UACs each year with numbers steadily rising 
since 2011. In response to the more dramatic increase in 2014, this 
spring the administration initiated a coordinated and comprehensive 
response to the crisis. First, the Secretary of Homeland Security 
declared a Level IV condition of readiness--the highest level of 
contingency planning within DHS, through which DHS personnel can be 
reassigned to assist in the emergency. The President then directed an 
interagency Unified Coordination Group to address the situation. 
Federal Emergency Management Agency (FEMA) Administrator Craig Fugate 
was appointed as the Federal Coordinating Official.
    On May 30, the President's Office of Management and Budget (OMB) 
sent a letter to the leaders of both the Senate and House 
Appropriations Committees showing that the projected costs of caring 
for and resettling child migrants from Central America could reach 
$2.28 billion next year--well over double what the administration asked 
for in its fiscal year 2015 budget.\8\ On June 10, the Senate 
Appropriations subcommittee on Labor, Health and Human Services, and 
Education indicated that it would increase funding for the UAC program 
by $1.03 billion in fiscal year 2015, bringing the total funding 
proposal to $1.94 billion.
---------------------------------------------------------------------------
    \8\ ``OMB: Child migrants to cost U.S. $2.3 billion'' May 31, 2014. 
http://www.politico.com/story/2014/05/omb-child-migrants-
107284.html#ixzz34XLyaHHV.
---------------------------------------------------------------------------
                            recommendations
    While the United States has made great strides in the last 20 
years, the protection regime is still inadequate to meet the needs of 
those it is designed to safeguard. More must be done to ensure that the 
most vulnerable are protected. The United States can strengthen its 
overall protection regime, not only for UACs but for everyone who comes 
to our country seeking protection.
  <bullet> Ensure that children and other vulnerable populations are 
        not exploited or abused in custody.--While DHS has taken steps 
        to shorten the length of time children spend in detention and 
        improve the care and treatment of children, reports of abuse at 
        the hands of agents and officers persist. On June 11, 2014, a 
        group of civil, immigrant, and human rights organizations filed 
        an administrative complaint on behalf of 116 children who had 
        reported abuse and mistreatment while in CBP custody.\9\ The 
        complaint includes reports that children were shackled, 
        subjected to inhumane detention conditions, had inadequate 
        access to medical care, and were verbally, sexually, and 
        physically abused.
---------------------------------------------------------------------------
    \9\ Complaint to DHS OCRCL and OIG by National Immigrant Justice 
Center, Esperanza Immigrant Rights Project, Americans for Immigrant 
Justice, Florence Immigrant and Refugee Rights Project and the ACLU 
Border Litigation Project. http://www.immigrantjustice.org/sites/
immigrantjustice.org/files/
FINAL%20DHS%20Complaint%20re%20CBP%20Abuse%20of%- 
20UICs%202014%2006%2011.pdf.
---------------------------------------------------------------------------
    This complaint follows a long history of reported abuse and 
        highlights an urgent need to address the detention of children 
        and other vulnerable populations. A report by the American 
        Immigration Council shows over 800 complaints received by CBP 
        from 2009-2012, including reports of inhumane detention, 
        physical, verbal, and sexual abuse, including some by 
        minors.\10\ AILA recognizes that most officers and agents 
        perform their jobs professionally and do not engage in abuses. 
        However, the administration should take these complaints 
        seriously to ensure that the culture at CBP does not accept 
        abuse. Abuse at the hands of immigration officers and agents 
        compounds the trauma and abuse that many of these children have 
        already suffered. Greater oversight and accountability is 
        needed for CBP as it encounters and interacts with children, 
        many of whom have fled violence and persecution in their home 
        countries and are in the aftermath of a dangerous journey here. 
        Short-term detention facilities must also be regulated and 
        improved as they are the first stop for the children in the 
        process.
---------------------------------------------------------------------------
    \10\ American Immigration Council. ``No Action Taken: Lack of CBP 
Accountability in Responding to Complaints of Abuse'' May 2014. http://
www.immigrationpolicy.org/special-reports/no-action-taken-lack-cbp-
accountability-responding-complaints-abuse.
---------------------------------------------------------------------------
  <bullet> Ensure adequate access to legal orientation programs and 
        counsel.--Children who are in detention should be given 
        information about their rights, the U.S. immigration system, 
        opportunities for relief, and the complaint process. Such 
        orientation should be provided in a language and manner that is 
        meaningful and age-appropriate to the child, and can be 
        understood. Adequate funding and training should be in place so 
        that each child is screened for vulnerabilities such as risk 
        for trafficking as mandated.
    Unaccompanied alien children, like other indigent persons appearing 
        in removal proceedings, have no right to legal counsel paid for 
        by Government. This compounds their vulnerability as they move 
        through our Nation's complicated removal system. For asylum 
        seekers, the lack of legal counsel contributes to the 
        immigration court backlog, and to the prolonged state of 
        uncertainty for many seeking protection in the United States. 
        Six out of ten individuals, including asylum seekers, children, 
        and mentally-ill respondents, appear before immigration courts 
        without legal counsel. Children, even those who survived trauma 
        or persecution or live in fear of return, are left to navigate 
        our laws and to present their claims without any legal 
        assistance when representation by an attorney is the ``single 
        most important factor'' affecting the result in an asylum 
        case.\11\ Adequate consideration and resources should be given 
        to facilitate the representation of asylum-seekers in 
        immigration court.
---------------------------------------------------------------------------
    \11\ Jaya Ramji-Nogales, Andrew Schoenholtz & Philip Schrag, 
Refugee Roulette: Disparities in Asylum Adjudication, 60 Stan. L. Rev. 
295, 340-41 (2007).
---------------------------------------------------------------------------
    AILA welcomes the announcement this month by the Department of 
        Justice and the Corporation for National and Community Service 
        of a new AmeriCorps partnership that will create 100 positions 
        for AmeriCorps members to provide legal services and paralegal 
        services to UACs in immigration courts starting next year. 
        Planning for this program preceded the current crisis and will 
        not likely be up and running until next year. For that reason 
        it is unlikely to help resolve the immediate humanitarian 
        crisis of migrant children.
  <bullet> Strengthen the U.S. protection regime.--Core to America's 
        leadership on the world stage is the strength and generosity of 
        our humanitarian protections. Nonetheless, in many ways, our 
        protections do not go far enough. Screening for trafficking, 
        fear of persecution, and other vulnerabilities needs to be 
        improved including through improvements in training, oversight, 
        and redress procedures, particularly of CBP Officers and agents 
        who play the critical role as the first contact for individuals 
        coming to U.S. borders.
    In response to the current crisis, some are calling for more rapid 
procedures to deport those who come. Any changes that further curtail 
due process would be a mistake as they are likely to jeopardize 
meaningful access to asylum and other humanitarian relief for children 
and families. Already DHS has dramatically increased the use of 
expedited removal and other summary removal procedures for those 
apprehended in the wide swath of land considered the border region. 
These procedures hinder meaningful access to present claims and to seek 
eligible relief. The United States cannot compromise humanitarian 
principles and must ensure that children and families who come are 
given an opportunity to present their case before an asylum officer or 
an immigration judge.
    The solution to this humanitarian crisis will require a 
comprehensive and coordinated effort by the U.S. Government, foreign 
governments, and international and domestic non-governmental 
organizations. These steps will take time to develop and implement. In 
the mean time the United States cannot compromise its long-standing 
commitment to humanitarian principles including the protection of 
refugees and child welfare in the hope of finding a quick solution to a 
complex problem. In the past decade, other nations with fewer 
resources, such as Turkey, Lebanon, and Jordan have responded to huge 
migrations of people fleeing war or violence. The United States has 
called upon these and other nations to respect and honor their 
obligations to protect those who are vulnerable. Now is not the time 
for the United States to back away from its own principles.
                                 ______
                                 
            Statement of the Women's Refugee Commission \1\
---------------------------------------------------------------------------
    \1\ This testimony has also been submitted to the House Committees 
on the Judiciary and Foreign Affairs.
---------------------------------------------------------------------------
                             June 24, 2014
                      current humanitarian crisis
    Since 2011, the Women's Refugee Commission has been closely 
monitoring the increasing number of refugee children coming to the 
United States to seek protection. Through our research, we concluded 
over 2 years ago that the United States would continue to receive more 
vulnerable migrants from Central America due to the regional 
humanitarian crisis born from the rapid growth in crime, violence, and 
poverty that has affected Mexico and several Central American countries 
for many years.\2\ As we predicted, without major changes in U.S. aid 
or foreign policy to the Central American region, the danger to 
children and families with young children would only increase and more 
and more vulnerable populations would need to flee their homes. 
Unfortunately, our predictions rang true, and the United States, along 
with other countries in the region with a strong rule of law, has 
experienced a surge of refugees seeking protection on our territories. 
The United States, along with Panama, Belize, Nicaragua, and Costa Rica 
are experiencing a surge in people seeking protection and are faced 
with many challenges in ensuring the protection of these large numbers 
of children.\3\ The number of asylum claims in the entire region has 
increased by 712%.\4\
---------------------------------------------------------------------------
    \2\ Women's Refugee Commission, Forced from Home: The Lost Girls 
and Boys of Central America, 2012. http://womensrefugeecommission.org/
component/docman/?task=doc_download&- gid=844.
    \3\ UNHCR Report, ``Children on the run: Unaccompanied children 
leaving Central America and Mexico and the need for international 
protection.'' May 2014. http://www.unhcrwashington.org/sites/default/
files/UAC_Children%20on%20the%20Run_Full%20Report_May2014.pdf.
    \4\ Id, http://unhcrwashington.org/children.
---------------------------------------------------------------------------
    Beginning in October 2011, the United States has experienced a 
dramatic rise in unaccompanied alien children (UACs), particularly from 
the countries of El Salvador, Guatemala, and Honduras. The number of 
unaccompanied children apprehended by U.S. Customs and Border 
Protection (CBP) jumped from 17,775 in fiscal year 2011 to 41,890 in 
fiscal year 2013.\5\ For the fiscal year 2014, beginning October 1, 
2013 up through May 31, 2014, CBP has already apprehended 47,017 
unaccompanied children just in the Southwest Border sectors alone.\6\ 
Particularly concerning is that the children making the difficult and 
treacherous migration journey are now younger than in years past (many 
under 13), and a higher percentage are girls, many of whom arrive 
pregnant as a result of sexual violence.\7\
---------------------------------------------------------------------------
    \5\ Id.
    \6\ CBP Border Patrol Statistics. http://www.cbp.gov/newsroom/
stats/southwest-border-unaccompanied-children.
    \7\ ``Obama creates group to help border crossing kids'' June 2, 
2014 http://www.usatoday.com/story/news/nation/2014/06/02/obama-
immigration-group-undocumented-children-border/9876003/.
---------------------------------------------------------------------------
                          why they are coming
    There has been a great deal of research into the root causes of 
this surge of unaccompanied children fleeing the region. In 2012 we 
interviewed 161 children to find out why they were coming. In our 
interviews, the children reported to us that they were predominately 
being pushed from their homes due to rising violence and insecurity in 
their home countries. Moreover, almost every single child we spoke with 
reported having a good understanding of the dangers of trying to 
migrate through Mexico and into the United States without 
authorization. They knew of the risks of kidnapping, rape, and even 
death. The children we spoke with told us they felt like they would die 
if they stayed in their home country, and although they might die 
during the journey, they at least would have a chance.
    In 2013, the U.S. Conference of Catholic Bishops traveled to 
Central America to interview children who had tried to migrate to the 
United States. Their report reaffirmed our findings that violence in 
the three countries of El Salvador, Guatemala, and Honduras was the 
overriding factor leading to the migration of these children.\8\ One 
mother they spoke with told them that she knew her son might die on his 
journey to the United States but she preferred that he die trying to 
find safety, then on her doorstep.
---------------------------------------------------------------------------
    \8\ USCCB, Mission to Central America: the Flight of Unaccompanied 
Children to the United States, November 2013. http://www.usccb.org/
about/migration-policy/upload/Mission-To-Central-America-FINAL-2.pdf
---------------------------------------------------------------------------
    Most recently, in 2014, United Nations High Commissioner for 
Refugees (UNHCR) interviewed over 400 children who had left their homes 
countries. Most children--even those who had a parent or family member 
with whom they wished to reunite--cited domestic abuse within the home, 
gang and cartel violence, deprivation of basic survival necessities, 
and labor and sex trafficking as the reasons for their migration.\9\ 
Most significantly, UNHCR found that the majority of the children made 
statements indicating that they may be in need of international 
protection.
---------------------------------------------------------------------------
    \9\ UNHCR, ``Children on the Run''.
---------------------------------------------------------------------------
    There have been numerous reports and claims by Government 
authorities that many of these children or the family members who may 
try to help them migrate are being encouraged to undertake the 
dangerous journey by false promises from smugglers or inaccurate media 
reporting on U.S. policies that do not exist or that cannot benefit 
them. But it is impossible for us to dispute the root causes that make 
these children desperate to leave their home countries and seek a safe 
haven. No child or parent would agree to pay a dangerous smuggler to 
take a young child on such a harrowing journey if they did not feel it 
was the only option. No promise of a tenuous and temporary status in 
the United States, such as administrative closure or Deferred Action 
for Children Arrivals (DACA), would encourage someone to risk their 
lives, or risk the lives of their child. It is the underlying severe 
conditions in Mexico and these Central American nations that is forcing 
this migration pattern, not the lure of intangible reform.
    Furthermore, the facts do not support that rumors or U.S. policy 
with respect to these populations is what is encouraging the migration. 
Nicaragua is the poorest country in the region. At the same time 
Nicaragua, like El Salvador, Honduras, and Guatemala, has a history of 
migration to the United States, resulting in many Nicaraguan children 
having family members in the United States. Yet, we have not seen any 
increase in the number of Nicaraguan children arriving at the Southern 
Border. The difference is that Nicaragua, as one of the safest 
countries in the region, is not experiencing the violence that is 
driving children from its three neighbors.
       the u.s. detention and treatment of unaccompanied children
    The United States has been a global leader in the way it has 
received and processed unaccompanied children seeking protection. Since 
2002, in accordance with international protection standards, the U.S. 
Government has employed alternative models of detention for most 
children arriving on our shores who are waiting for adjudication of 
their immigration court processes. As noted in our 2008 report, Halfway 
Home, we believe the Government's movement to more child-appropriate 
custody models was an important advancement in the rights of these 
children and an effective way to enforce our immigration laws. Although 
not a perfect system, ORR shelters and programs have strived to ensure 
the Government considers the best interest of the child in detention, 
placement, and reunification decisions for the time a child is in 
deportation proceedings.
    In recent months, the Government's intricate system of shelters, 
foster homes, and secure detention facilities has been overwhelmed by 
the numbers of children in need. In response, the Government has 
modified its procedures to meet the goal of appropriate detention and 
care of these children. Despite its best intentions, ORR has been 
unable to keep up with the demand on its resources. As a result we have 
seen children warehoused in border facilities that were never intended 
to hold children for any length of time until more appropriate 
arrangements can be made. We have seen our Customs and Border 
Protection Agents, who have no special training on how to work with 
traumatized children, working overtime to screen and care for these 
children instead of carrying out other pressing law enforcement duties.
    In our research, we have interviewed hundreds of children who have 
reported mistreatment, abuse, or neglect at the hands of U.S. 
Government officials during their detention. The most striking thing 
about these interviews is that despite unacceptable treatment, these 
children almost always remind us that they are still thankful to be in 
a country where they might have a future. Most recently, in June 2014, 
a group of civil, immigrant, and human rights organizations filed an 
administrative complaint on behalf of 116 children who had reported 
abuse and mistreatment while in CBP custody.\10\ The complaint includes 
reports that children were shackled, subjected to inhumane detention 
conditions, had inadequate access to medical care, and were verbally, 
sexually, and physically abused. Additionally, a recent FOIA by the 
Houston Chronicle identified more than 100 incidents of sexual abuse of 
children in ORR shelters that were never referred for further criminal 
investigation. The numerous reports and complaints of abuse of children 
in immigration custody highlight a need to address the oversight of 
places of detention where children are held.
---------------------------------------------------------------------------
    \10\ Complaint to DHS OCRCL and OIG by National Immigrant Justice 
Center, Esperanza Immigrant Rights Project, Americans for Immigrant 
Justice, Florence Immigrant and Refugee Rights Project and the ACLU 
Border Litigation Project. http://www.immigrantjustice.org/sites/
immigrantjustice.org/files/
FINAL%20DHS%20Complaint%20re%20CBP%20Abuse%20of%- 
20UICs%202014%2006%2011.pdf
---------------------------------------------------------------------------
    The United States must remember that severe detention conditions 
have never been a deterrent against unauthorized migration anywhere in 
the world. Holding children in Border Patrol stations for up to 2 weeks 
and denying them adequate nutrition or recreation only serves to harm 
them, not dissuade more from coming. Harsh detention or deportation 
proceedings will not stop this migration flow, it will only violate 
long-standing U.S. protections afforded to children and other 
vulnerable migrants and greatly diminish America's status as a 
humanitarian leader.
  u.s. detention and treatment of migrant and asylum-seeking families
    Not all children arriving at the border are unaccompanied. Children 
also come to the United States with their parents. Since 2012, the 
number of families arriving at the Southern Border of the United States 
has increased significantly. They are fleeing the same violence driving 
the unaccompanied children.
    The vast majority of families arriving at the border are made up of 
women with very young children. Almost all are asylum seekers fleeing 
violence, including gang violence, organized crime, and domestic 
violence. Just like unaccompanied children, the majority of families 
come from Honduras, Guatemala, and El Salvador. The journey for these 
families, just like that for unaccompanied children, is extremely 
perilous. The Women's Refugee Commission has interviewed hundreds of 
women in detention, and the women we have spoken to universally tell us 
that they were well aware of the risks before fleeing their homes. No 
mother makes that trip with her young children or baby unless she feels 
she has no other choice.
    In 2001, as part of the overall increase in immigration enforcement 
and in an effort to deter family migration, the United States began 
detaining families, first at a converted nursing home in Leesport, PA 
and later at a prison in Taylor, Texas. In 2009, Immigration and 
Customs Enforcement (ICE) stopped using that prison--the by then 
notorious T. Don Hutto facility--to detain families after a firestorm 
of opposition\11\ and a lawsuit that was filed by the ACLU and 
University of Texas. When the Women's Refugee Commission visited Hutto, 
we found conditions that were wholly inappropriate for children and 
families and in violation of the Flores Settlement Agreement governing 
the immigration detention and custody of children.
---------------------------------------------------------------------------
    \11\ For more information on the use of family detention in the 
United States and the T. Don Hutto facility conditions see ``Locking Up 
Family Values: The Detention of Immigrant Families'', Women's Refuge 
Commission and Lutheran Immigration and Refugee Service, 2007. http://
wrc.ms/Ye9KnE.
---------------------------------------------------------------------------
    As documented in our 2007 report on family detention, ``Locking Up 
Family Values: The Detention of Immigrant Families,'' young children at 
Hutto were clothed in prison jumpsuits and had catatonic expressions on 
their faces. Mothers were brought to tears by the simple question, 
``How are you?'' Families slept in freezing cold prison cells, next to 
toilets without a privacy curtain to separate the sleeping and hygiene 
areas. The families were confined to their cells for up to 12 hours a 
day. Children received only 1 hour of education a day, and were only 
allowed to go outside for short periods of time--on the days guards 
were in the mood. Pregnant women were denied adequate access to medical 
care and did not have enough food to eat.
    Perhaps most disturbing was the fundamental breakdown in family 
structure that detention created. Guards would threaten parents that if 
they didn't keep their children in line, the family would be separated. 
Parents turned to strict discipline to make sure their children 
behaved--leading children to react with anger at their parents and 
eroding trust that their parents were able to take care of them.
    It would have been prohibitively costly and all but impossible for 
ICE to retrofit the facility to make it suitable for children. The 
Government's only realistic option for complying with the terms of the 
Hutto Settlement was to close the facility for families. In doing so, 
DHS acknowledged that it is extremely difficult and costly to detain 
families in a manner that is appropriate for children and complies with 
U.S. and international law. Contrary to concerns at the time, family 
arrivals did not increase after this shift in policy. The increase in 
arrivals did not begin until 3 years later when conditions of violence 
in Central America became more pronounced.
    Following the closure of Hutto to families, ICE continued to detain 
families at the Berks Family Residential Facility in Leesport, 
Pennsylvania. This facility, which has been renovated to meet the 
unique needs of this population, has the capacity to house 96 
individuals. In addition, ICE uses a variety of alternatives to 
detention for families, including supervised release, bond, and parole. 
Both the Berks facility and the use of Alternatives to Detention meet 
the terms of the Flores Settlement Agreement, which sets out National 
policy for the detention, release, and treatment of all children who 
are in the custody of DHS. Flores requires DHS to place children in the 
least restrictive setting appropriate to the children's needs pending 
the outcome of their immigration removal case.
    All families who are apprehended by Customs and Border Protection 
(CBP) or ICE receive Notices to Appear. Those who are not in custody, 
including those who are in Alternatives to Detention, are required to 
check in with ICE regularly, and to appear in immigration court. 
Despite reports of rumors that families who arrive in the United States 
are given a free pass (or a ``permiso'') to enter and stay, every 
family who is apprehended is required to appear in immigration court 
and is formally placed in removal proceedings.
    Alternatives to detention have been shown to be 96% effective in 
ensuring appearance in immigration proceedings. They are also 
significantly less expensive than detention, and far more appropriate 
for families with children. Families should be accorded special 
consideration befitting their unique vulnerabilities and circumstances. 
We are deeply concerned by the Government's recent announcement that it 
will drastically expand the detention of families and will expedite the 
processing of asylum cases. These policies endanger the well-being of 
children and families and present a risk that families with legitimate 
claims to asylum and other forms of protection will be summarily 
returned to countries where their lives are at risk. As history 
demonstrates, the detention of families and the denial of their basic 
human rights is inhumane, costly, and harmful to the well-being of 
children.
                            recommendations
    The United States has long been a global leader in the promotion of 
human rights and the provision of protection for those fleeing 
persecution. Not only have we led by example in the past, we also hold 
others accountable to receive refugees in times of crisis. Now is the 
time to reaffirm and stand by our principles. The solution to this 
humanitarian crisis will require a comprehensive and coordinated effort 
by the U.S. Government, foreign governments, and international and 
domestic non-governmental organizations. While this is being 
implemented, the United States must not compromise its long-standing 
commitment to humanitarian principles, including the protection of 
refugees and child welfare, in the hope of finding a quick solution.
    We have the tools we need. The answer is not to turn on our backs 
on those arriving. Rather we must address root causes to prevent 
vulnerable populations from having to make the difficult decision to 
flee their homes and at the same time treat migrants humanely and 
support our infrastructure to process cases through our immigration 
court efficiently and fairly so that those who need protection receive 
it.
Foreign Assistance
  <bullet> Address root causes of this migration flow by investing in 
        development, justice, and accountability programs in the three 
        countries from which the majority of children and families are 
        coming.
  <bullet> Conduct repatriations in a safe manner and support 
        reintegration programming so that children and families are not 
        just thrust back into the same dangerous situations that forced 
        them to flee in the first place.
  <bullet> Partner with countries in the region to crack down on 
        traffickers and smugglers who are preying upon migrants and 
        bringing many of the children and families across the border.
  <bullet> Provide support to governments in the region who are also 
        receiving migrants in order to strengthen and implement 
        internationally compliant protection systems.
Emergency Shelters and Detention
  <bullet> Ensure that detention facilities used for immigration 
        compliance purposes are only used as a last resort and for the 
        shortest time possible. Any detention facilities used to house 
        adults with children must be equipped to handle the unique 
        needs of this population and must comply with the Flores 
        Settlement Agreement, the Family Residential Standards, and 
        relevant terms of the Hutto Settlement Agreement.
  <bullet> Expand the use of cost-effective alternatives to detention, 
        including community support programs, for families and other 
        adult migrants. Alternatives to detention, such as community 
        support programs, electronic monitoring and ankle bracelets, 
        have been proven to be 96% effective in ensuring that people 
        appear for their immigration hearings and comply with court 
        orders.
  <bullet> Ensure that no one is exploited or abused in custody. CBP 
        should immediately create public, enforceable standards for its 
        short-term hold facilities; PREA and all relevant custody 
        standards and protections must be fully implemented in ALL DHS 
        and HHS custodial situations; DHS and HHS should allow civil 
        society to regularly and thoroughly monitor conditions in their 
        facilities, including emergency and short-term facilities.
  <bullet> Ensure that all persons in immigration custody are given 
        information about their rights, the U.S. immigration system, 
        opportunities for relief, and the complaint process. For 
        unaccompanied children, such orientation should be provided in 
        a language and manner that is meaningful and age-appropriate to 
        the child, and can be understood.
  <bullet> Ensure that Know Your Rights presentations or Legal 
        Orientation Presentation Programs (LOP) are available in all 
        facilities housing child, families, or adults, including short-
        term and emergency facilities.
  <bullet> HHS must provide resources to adult sponsors of all released 
        children so that they are aware of their obligations and can 
        ensure that children comply with immigration court 
        requirements. Some children may have relief under current 
        immigration law and others may be returned to their home 
        country after full proceedings that respect due process.
  <bullet> HHS should expand post-relief services to ensure that 
        children who are released to families or sponsors are safe and 
        appear in immigration proceedings. Like alternatives to 
        detention, post-relief services are more cost-effective and 
        more humane than detention, and serve to ensure compliance with 
        court proceedings.
Immigration Courts and Protection Mechanisms
  <bullet> Provide sufficient funds and support to effectively resource 
        immigration courts and asylum officers to eliminate the backlog 
        and process cases effectively, efficiently, and fairly. 
        Adequate funding and training should be in place so that all 
        children and their parents receive screening for international 
        protection concerns.
  <bullet> Afford everyone seeking refuge in this country full 
        protection under U.S. and international law. There should be no 
        exceptions for any child, family, or refugee seeking 
        protection. Ensure due process and a meaningful opportunity to 
        access protection mechanisms. Screenings must take into account 
        the traumatic experiences of those fleeing. In many cases, 
        people fleeing rape, abuse, and other violence are too 
        traumatized to recount intimate details, particularly if they 
        are still in detention. Expedited screenings must not become a 
        tool to repatriate people back to dangerous situations.
  <bullet> Maintain and improve upon the protections currently extended 
        to children, families, and other migrants seeking asylum 
        seekers and other forms of protection to ensure that migrants 
        with legitimate claims are not returned to violence and abuse. 
        The United States' threshold for protection is already in many 
        ways less welcoming and protective than international 
        standards. The United States must ensure that any new attempts 
        to expedite removals do not further erode these protections. 
        This crisis provides an opportunity to strengthen our overall 
        protection regime, not only for unaccompanied children and 
        families, but for everyone who comes to our country seeking 
        protection.
  <bullet> Support and expand the provision of legal assistance for 
        children, including both appointed counsel and the facilitation 
        of pro bono representation through the private sector. The 
        provision of attorneys for these children will make the system 
        more efficient and effective, and ensure that more children 
        comply with proceedings. Children with attorneys are more 
        likely to appear for their court dates than children without as 
        they have help understanding the system and learning what 
        relief they may or may not be eligible for. Child advocate or 
        guardian ad litem programs are also critically important for 
        the most vulnerable children.
  <bullet> Adequate consideration and resources should be given to 
        facilitate the representation of children and adults in 
        immigration court through support of pro-bono representation 
        programs.
Reform our immigration laws
  <bullet> Pass comprehensive immigration reform that puts migrants in 
        the United States on a pathway to citizenship and reduces 
        backlogs and waiting times in the family visa process that 
        encourages unlawful migration.
  <bullet> Include in any reform package a mechanism by which parents 
        who are eligible for a legalization program can bring their 
        children to join them in a safe, lawful, and timely manner.
                                 ______
                                 
              Article Submitted by Hon. Shiela Jackson Lee
            young migrants stuck in limbo on mexican border
By Joshua Partlow and Nick Miroff, June 20, 2014.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Brayan Duvan Soler Redondo, a 14-year-old Honduran boy, overlooking the 
Rio Grande. He is staying at a migrant shelter in Reynosa. He is 
traveling alone and trying to get to the United States to find work to 
help his family. (Joshua Partlow/The Washington Post)

    REYNOSA, Mexico.--Susanna Torres was a dimple-cheeked preteen 
living lonely with her stepmother in El Salvador--her father had 
disappeared, her mother was on Long Island, N.Y.--when she hatched her 
plan.
    For three years, she secretly socked away the money her mom sent 
for school until she had $6,000. It was enough to hire a smuggler and 
join the underground network of buses and train tops, through jungles 
and deserts.
    She had one thing in mind when she left in her freshman year of 
high school to travel 1,400 miles north to the United States by 
herself.
    ``I wanted to be with my mom,'' she said.
    Instead, she found herself on the banks of the Rio Grande in early 
June, too exhausted to walk on. She ended up behind coils of razor wire 
in a home for child migrants run by the Mexican government, watching 
``Ice Age'' on DVD as she waited to be deported.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Sudden surge in unaccompanied children at border
    As migrants stream north from Central America, thousands of 
children such as Susanna are ending up alone and adrift in a border-
land limbo. On the U.S. side, they are being crammed into Border Patrol 
stations designed to detain and deport single males, not provide food 
and care for third-graders without their parents. On the Mexican side, 
they are bunking down in the rough world of church shelters, surrounded 
by sunburned men heading north for work or reeling from deportation.
    ``Right now I'm small, but I've heard they're giving minors the 
opportunity to work in the U.S.,'' said Brayan Duvan Soler Redondo, a 
14-year-old Honduran boy who has spent the past two weeks alone in a 
shelter here in Reynosa. ``I have to trust in God to get me to the 
other side.''
    The surge of juveniles across the Rio Grande in south Texas is a 
new challenge for U.S. immigration policy and the debate in Washington 
about whether to change it. Although the overall number of illegal 
migrants arrested along the southern U.S. border is still far lower 
than the 900,000 per year or more apprehended before 2006, U.S. agents 
are ill-equipped to deal with so many Central Americans, let alone 
children.
    In the past, border cities on the Mexico side have been more likely 
to have large groups of deportees on their streets--not child travelers 
on their way north--as illegal immigration from Mexico plummeted to its 
lowest levels in 40 years. Shelters became filled with anxious fathers 
kicked out of the United States, desperate to swim the river or hike 
the desert at night to get back to jobs, wives and U.S.-born children.
    The children and mothers coming now from Guatemala, El Salvador, 
and Honduras are different. In many cases, they appear to be heading 
north to reunite with parents or husbands already in the United States. 
Some are being summoned by relatives because of rumors that the United 
States is offering ``permits'' for women and children to stay. The 
children, as young as 4, often arrive with no legal guardian but carry 
handwritten notes for the Border Patrol with relatives' phone numbers.
    To avoid the sweltering Texas heat, the border-crossers are fording 
the Rio Grande in large groups in the early evening, wading through 
shallow crossings or floating over in cheap dinghies. They follow dirt 
paths through cottonwood groves up to the levee roads where Border 
Patrol vehicles are parked every night, waiting. ``Sometimes they'll 
come right up and knock on your windows,'' said Chris Cabrera, an agent 
and Border Patrol union spokesman.
    On one recent evening, a group of 15, including a woman with a baby 
strapped to her back and seven other children, emerged from the brush 
and climbed up the levee. They waited on the gravel road for the Border 
Patrol trucks to arrive, making no attempt to flee or hide.
    The U.S. government is giving rare access inside the facilities 
where thousands of unaccompanied immigrant children are being held 
after they were caught crossing the border from Mexico. (AP)
    ``Are there any unaccompanied minors?'' one border patrol agent 
asked in Spanish, as he took down names and nationalities. ``Who came 
alone?''
    A thin boy in an Aeropostale T-shirt raised his hand.
    More children are on their way. A draft of an internal Border 
Patrol memo for the White House from last month estimated that the 
number of unaccompanied minors detained by the border patrol will reach 
90,000 this year, higher than expected, and rise to 142,000 next year. 
President Obama has declared a humanitarian crisis and pledged $2 
billion to build temporary housing for the new migrants. Thousands of 
unaccompanied children picked up by Border Patrol are being held on 
military bases and in converted warehouses if they don't have parents 
or guardians who can claim them.
    Texas Attorney General Greg Abbott (R) requested $30 million from 
the Department of Homeland Security on Thursday to send more law 
enforcement officers to the border, because children have ``so 
overwhelmed the U.S. Border Patrol that federal agents are devoting 
time and resources to the humanitarian aspects of the influx, and are 
not available to secure the border and successfully stop criminal 
activity,'' his office said in a statement.
    For those detained by Mexican authorities before they reach the 
United States, many will be deported. Some of these children await 
removal at the Attention Center for Border Minors, a government-run 
shelter in Reynosa, where as many as 400 children arrive each month.
    ``The majority of their parents are already in the United States. 
That's the main reason the children are coming,'' said Josee Guadalupe 
Villegas Garciia, the organization's director, who said he thinks U.S. 
immigration rules have gone lax. ``This was something President Obama 
ordered.''
    Maynor Delgado, a 16-year-old from Guatemala, has spent 84 days at 
the shelter, watching TV and making bracelets to pass the time, calling 
his family on Fridays, unsure whether he will be deported or released. 
``I don't know how my papers are,'' he said.
    His parents gave him $7,000 to pay a guide and join five others--
none of them relatives--on the journey from his home town of 
Quetzaltenango, an 11-day trek by taxi, train and bus, with stays at 
crowded stash houses and campsites, eating occasionally and sleeping on 
the ground. He has an older brother in Washington and wanted to join 
him to help support his parents.
    ``My family is poor. My mom washes clothes,'' he said. ``I'll do 
whatever I can find.''
    On his journey north, Brayan, the Honduran boy, parted ways with 
his elder brother after a fight over money. Left on his own, Brayan 
said he begged for food and rides along the way, until he arrived at a 
church in Reynosa, and eventually to Path of Life, a private migrant 
shelter. ``I'm traveling with empty pockets,'' he said, patting his 
shorts. ``Zero.''
    He has no money to pay for a guide across the river and is afraid 
to venture out into city streets controlled by the kidnapping and drug-
trafficking cartel.
    ``I have no idea how long I'm going to be here,'' he said.
    Susanna Torres's mother, Rosa, a 39-year-old nursing-home employee 
in Huntington, Long Island, didn't know until she received a phone call 
this month from the Mexican shelter that her daughter was traveling to 
find her. ``I had no idea,'' she said. ``I was very worried.''
    She has talked with a lawyer about her daughter's chances of being 
with her and her two other children in the United States but was told 
it's a ``slow process.''
    ``I want to be with my daughter, but there's nothing I can do,'' 
she said. ``To be with your kids is the most important thing in life. I 
only ask God that he protects her.''
    David Nakamura in Washington contributed to this report.

    Chairman McCaul. Mr. O'Rourke from Texas is recognized.
    Mr. O'Rourke. Thank you, Mr. Chairman. I would also ask 
unanimous consent to submit for the record a statement from the 
First Focus Campaign for Children regarding the issue facing 
migrant children and families.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
             Statement of First Focus Campaign for Children
                             June 24, 2014
    Chairman McCaul, Ranking Member Thompson, and Members of the 
Committee on Homeland Security, we thank you for the opportunity to 
submit this statement for the record for this hearing entitled 
``Dangerous Passage: The Growing Problem of Unaccompanied Children 
Crossing the Border.''
    The First Focus Campaign for Children is a bipartisan advocacy 
organization dedicated to making children and families a priority in 
Federal policy and budget decisions. As an organization dedicated to 
promoting the safety and well-being of all children in the United 
States, we urge Congress to work towards finding comprehensive 
solutions to address the Central American child migration crisis that 
prioritizes the best interest of the child and addresses both the 
immediate needs of the children who have recently entered the United 
States as well as the root causes of their forced migration.
    There is no doubt that the recent influx of unaccompanied children 
across the Southern Border represents a humanitarian crisis. Recent 
data from the Department of Homeland Security (DHS) reveals that since 
October 1, 2013, 47,017 children have entered the United States, with 
the majority coming from Mexico, Honduras, El Salvador, and Guatemala 
and a significant increase in the number of girls and young 
children.\1\ \2\ According to a recent report by the U.N. High 
Commissioner for Refugees (UNHCR), the majority of the children are 
escaping extreme violence and instability in their home countries, 
spurred by drug traffickers and increased gang activity.\3\ While some 
children are also motivated by domestic abuse, extreme poverty, high 
unemployment rates and hopes of reunifying with family members in the 
United States, the vast majority are fleeing desperate situations which 
force both youth and their families to make the very difficult decision 
to stay and accept near certain death or risk ``probable death'' by 
migrating to surrounding countries. On their arduous and dangerous 
journey, many children fall victim to trafficking, sexual abuse, and 
violence. In fact, UNHCR estimates that nearly two-thirds of the 
unaccompanied minors they interviewed qualify for international 
protection due to violence and abuse in their home countries.\4\
---------------------------------------------------------------------------
    \1\ Southwest Border Unaccompanied Children, U.S. Customs and 
Border Protection (April, 2014) http://www.cbp.gov/newsroom/stats/
southwest-border-unaccompanied-children.
    \2\ Children on the Run: Unaccompanied Children Leaving Central 
American and Mexico and the Need for International Protection, UNHCR 
(2014).
    \3\ Julia Preston, New U.S. Effort to Aid Unaccompanied Child 
Migrants, New York Times, June 2, 2014 Available at: http://
www.nytimes.com/2014/06/03/us/politics/new-us-effort-to-aid-
unaccompanied-child-migrants.html?_r=1.
    \4\ Children on the Run: Unaccompanied Children Leaving Central 
American and Mexico and the Need for International Protection, UNHCR 
(2014).
---------------------------------------------------------------------------
    These children are some of the most vulnerable, and yet despite 
their hope of finding protection and safety in the United States, they 
are faced instead with a complicated immigration system that does not 
reflect their specific needs. After apprehension and screening by 
Customs and Border Patrol (CBP), children are held for up to 72 hours 
in detention centers that are frequently not equipped to meet 
children's needs and lack personnel who are trained in working with 
traumatized children. A recent lawsuit by the ACLU and other civil 
rights groups against CBP cited over 100 instances of abuse and 
maltreatment of unaccompanied children in CBP custody, including 
freezing cold cells, inadequate access to food or medical care, and 
incidents of physical and sexual abuse.\5\ Upon release from CBP, 
children are either immediately repatriated to their home country or 
referred to the Office of Refugee Resettlement (ORR) within the 
Department of Health and Human Services (HHS) to be placed in shelter 
care or released to a parent, relative, or other sponsor pending the 
outcome of their immigration hearing. All unaccompanied children are 
placed into removal proceedings, and must undergo the same immigration 
process as adults. Despite their age, even children as young as 2 years 
old are not appointed legal counsel, forcing them to undergo 
proceedings alone or rely on the limited pro bono representation 
provided by non-profit organizations.
---------------------------------------------------------------------------
    \5\ Unaccompanied Alien Children Report Serious Abuses by U.S. 
Officials During Detention. American Civil Liberties Union, June 11, 
2014. Available at: https://www.aclu.org/immigrants-rights/
unaccompanied-immigrant-children-report-serious-abuse-us-officials-
during.
---------------------------------------------------------------------------
               concerns with the current federal response
    We recognize that the administration has taken several steps to 
address the unprecedented surge in child migrants, including creating 
an interagency Unified Coordination Group led by the Federal Emergency 
Management Agency (FEMA) to deal with the emergency situation and 
announcing a new ``justice AmeriCorps'' program, launched in 
partnership by the Department of Justice (DOJ) and the Corporation for 
National and Community Service.\6\ \7\ Last week, the administration 
also released a plan to increase foreign aid to the Mexico, Guatemala, 
El Salvador, and Honduras, with a focus strengthening citizen security, 
gang prevention, youth development, public policy campaigns, and 
reintegration and repatriation program.\8\ The plan also includes 
increased enforcement measures, including increased resources for 
expediting the removal proceedings of families and placing families and 
children in family detention centers. We believe that the 
administration's belated response continues to fall short of meeting 
the needs of these extremely vulnerable children, especially given that 
the projections for the current influx have been available since early 
this year. Thus, we urge the administration to devote more resources 
and engage more stakeholders with expertise in child welfare in both 
the short- and long-term response to this crisis. The following are 
some specific concerns we have with the administration's response to 
date:
---------------------------------------------------------------------------
    \6\ The Department of Justice (June, 6, 2014) Justice Department 
and CNCS Announce New Partnership to Enhance Immigration Courts and 
Provide Critical Legal Assistance to Unaccompanied Minors [press 
release]. Retrieved from http://www.justice.gov/opa/pr/2014/June/14-ag-
609.html.
    \7\ The White House, Presidential Memorandum--Response to the 
Influx of Unaccompanied Alien Children Across the Southwest Border, 
June 2, 2014. Available at: http://www.whitehouse.gov/the-press-office/
2014/06/02/presidential-memorandum-response-influx-unaccompanied-alien-
children-acr.
    \8\ White House Fact Sheet. Unaccompanied Children from Central 
America. June 20, 2014. Available at: http://www.whitehouse.gov/the-
press-office/2014/06/20/fact-sheet-unaccompanied-children-central-
america.
---------------------------------------------------------------------------
  <bullet> Appointing FEMA to be the lead of the emergency response and 
        utilizing large institutional shelters may be a short-term 
        necessity, but FEMA lacks the expertise in dealing with the 
        long-term, unique needs of these child refugees. We are also 
        gravely concerned regarding the conditions in the border 
        detention centers as well as the large emergency-style shelters 
        in which thousands of children are currently being housed. HHS 
        announced that $350 million would be awarded in grants for 
        shelters to house and provide services for unaccompanied 
        children, and currently three military bases are being used for 
        this purpose, including Lackland Air Force Base (San Antonio, 
        Texas), Naval Base Ventura (Oxnard, CA), and Fort Sill 
        (Oklahoma).\9\ Research has consistently shown that large 
        institutional settings are not appropriate for children, 
        particularly for those who have experienced trauma and have 
        special needs.\10\
---------------------------------------------------------------------------
    \9\ U.S. Department of Health and Human Services. Administration 
for Children and Families. Residential Services for Unaccompanied Alien 
Children, Office of Refugee Resettlement, HHS-2015-ACF-ORR-ZU-0833, 
June 6, 2014. Available at: http://www.cnsnews.com/sites/default/files/
documents/HHS%20Grant%20Illegal%20minors.pdf.
    \10\ Dozier, M., Kaufman, J., Kobak, R., O'Connor, T.G. Sagi-
Schwartz, A., Scott, S., Shauffer, C., Smetana, J., van Ijzandoorn, 
M.H., Zeanah, C.H. ``Consensus Statement on Group Care for Children and 
Adolescents: A Statement of Policy of the American Orthopsychiatric 
Association.'' American Journal of Orthopsychiatry, 84.3 (2014): 219-
225.
---------------------------------------------------------------------------
  <bullet> We are concerned with recent changes by the ORR to expedite 
        the release process of unaccompanied children to potential 
        sponsors by waiving the fingerprint checks for sponsors 
        claiming children over the age of 12 and for sponsors who are 
        parents or legal guardians. While we support placement in 
        community-based settings over shelter care, we are concerned 
        that policy changes that weaken the screening process for 
        potential sponsors may put children at risk, particularly given 
        the extremely limited follow-up services.
  <bullet> Recent data released by the DHS on the number of 
        unaccompanied children who have been apprehended include a 
        significant number of Mexican children, the majority of whom 
        are being returned rather than referred to ORR. Prior to 
        passage of the Trafficking Victims Protection Reauthorization 
        Act (TVPRA) of 2008, Mexican children apprehended at the border 
        were often immediately returned to Mexico while Central 
        American children and those from other non-contiguous countries 
        were automatically referred to ORR. While the TVPRA of 2008 
        required CBP to follow a new process to screen for certain 
        vulnerabilities before repatriating Mexican children, the 
        number of Mexican children referred to ORR remains relatively 
        low given the high number of children apprehended. Given that 
        CBP lacks sufficient training to appropriately screen children, 
        significant concerns remain that many Mexican children who may 
        be victims of trafficking or have other humanitarian concerns 
        continue to fall through the cracks.
  <bullet> While the new legal aid program ``justice Americorps'' is 
        step in the right direction to address the critical need to 
        provide legal representation to unaccompanied children, we have 
        concerns with the limited experience of the lawyers, the 1-year 
        service period, and the restrictions to providing counsel to 
        youth 16 and older, who are at the greatest risk losing their 
        right to humanitarian relief upon reaching the age of 18.
  <bullet> The administration's recent decision to dedicate resources 
        to expedite removal proceedings for children families as well 
        as open family detention centers place is a misguided plan with 
        grave consequences. The administration ended the policy of 
        family detention in 2009 with the closing of the T. Don Hutto 
        detention facility in Texas due to the public outcry concerning 
        the conditions families and children were subjected to in such 
        settings.
  <bullet> The increase in U.S. foreign aid that was recently announced 
        for Mexico, Honduras, El Salvador, and Guatemala is 
        insufficient to fully address the violence and instability in 
        the region that are causing children to flee. While the 
        administration noted that aid is intended to address the 
        increased violence in the region, there was insufficient 
        mention of the need to fund efforts to mitigate the dangers 
        posed by drug traffickers and smugglers in the region. Rather 
        than use resources on public awareness campaigns to clarify 
        current U.S. immigration policies, more funding should be 
        targeted to addressing the extreme violence and desperate 
        situations that are driving children and families to flee.
                            recommendations
    We urge both Congress and the administration to hold the best 
interest of the child paramount in all solutions that are being 
developed to address this crisis. The following are specific 
recommendations from the First Focus Campaign for Children, many of 
which were included in the plan presented last week by Senators Robert 
Menendez (D-NJ), Dick Durbin (D-IL), Mazie Hirono (D-HI), and 
Representatives Luis Gutierrez (D-IL) and Lucille Roybal-Allard (D-CA).
  <bullet> All the Federal agencies that deal with unaccompanied 
        children, including DHS, DOJ, and HHS should adopt a best 
        interest of the child standard to guide all decisions made 
        regarding the care of unaccompanied children as well as their 
        eligibility for humanitarian relief.
  <bullet> Congress should increase funding levels to HHS, DHS, DOJ, 
        and other relevant agencies so that adequate resources are 
        available to ensure that children are receiving proper 
        treatment and services that reflect their unique needs and 
        vulnerabilities. On June 10, 2014, Senator Harkin introduced a 
        bill that provides $1.94 billion to HHS to address the surge of 
        unaccompanied children. The Labor-HHS bill with this provision 
        has been approved by the sub-committee but is pending passage 
        by the full Senate Appropriations Committee.\11\ Congress 
        should move quickly to approve this bill.
---------------------------------------------------------------------------
    \11\ Erik Wasson, Senate to provide 1.9 billion for rise in child 
migrants, The Hill, June 10, 2014. Available at: http://thehill.com/
policy/finance/208840-senate-toprovide-19b-to-handle-spike-in-child-
migrants.
---------------------------------------------------------------------------
  <bullet> CBP should contract with child welfare experts to screen 
        children along the border so that children are properly 
        evaluated for trafficking and other humanitarian concerns and 
        connected to services.
  <bullet> DHS and HHS/ORR should ensure that temporary CBP holding 
        facilities and emergency shelters meet the required 
        humanitarian standards for children set forth in the Flores v. 
        Reno settlement and the TVPRA and codify these standards in DHS 
        regulations.\12\ The Flores Settlement, born out of a class 
        action brought by the ACLU against the INS sets standards of 
        how a minor in the custody of the INS should be treated. It 
        stipulates that facilities will provide access to toilets and 
        sinks, drinking water and food, medical assistance, adequate 
        temperature control and ventilation, adequate supervision of 
        minors, and contact with family members. Likewise, family 
        detention centers should not be reopened; rather, effective 
        alternatives to detention should be used whenever possible for 
        families.
---------------------------------------------------------------------------
    \12\ Stipulated Settlement Agreement at 7, Flores v. Reno (1997). 
Available at: http://immigrantchildren.org/cases/FLORES%20CASE/
Flores%20Procedural%20Docs/FloresStpultd- Setlmt%20AGMT.pdf.
---------------------------------------------------------------------------
  <bullet> ORR should ensure that children are placed into community-
        based care whenever possible, including placement with parent 
        or relative sponsors, and strengthen screening mechanisms for 
        sponsors to ensure children are being placed in safe and 
        appropriate settings. When community-based care is not an 
        option, children should be placed in proper facilities and 
        other settings that are adequately equipped to meet the 
        medical, mental health, and other special needs of children, as 
        well as pregnant and parenting teens, rather than placing 
        children in large institutional settings.
  <bullet> ORR should strengthen and significantly expand the follow-up 
        services provided to children and their sponsors once they are 
        released from Federal custody to ensure their safety and well-
        being.
  <bullet> All unaccompanied children placed into removal proceedings 
        should be provided legal representation and child advocates to 
        increase their chances for obtaining immigration relief and to 
        ensure consideration of their best interests. Congress should 
        pass The Vulnerable Immigrant Voice Act of 2014 by Congressman 
        Jeffries, which would address the dire need for unaccompanied 
        children to have access to legal counsel. The new Federal 
        ``justice Americorps'' legal services grant should also be 
        modified so that it includes 16- and 17-year-old youth who risk 
        losing their eligibility for immigration upon reaching the age 
        of 18.
  <bullet> The Department of State, in partnership with over relevant 
        Governmental and non-Governmental agencies in the United States 
        and in the sending countries, should develop a program focused 
        on the safe and successful repatriation and reintegration of 
        children that are returned to their home countries.
  <bullet> Foreign aid should be targeted to address the instability 
        and violence being caused by drug traffickers and smugglers in 
        Honduras, Guatemala, El Salvador, and Mexico and a 
        comprehensive strategy in partnership with governments in the 
        region should be developed that is focused on restoring 
        children's safety, rights, and opportunity in their home 
        countries.
  <bullet> Congress should establish a bicameral and bipartisan 
        committee focused on developing strategies to meet the needs of 
        child refugees and address the root causes of the child 
        migration crisis.
    We thank you again for the opportunity to submit this statement for 
the record. We look forward to working with Congress in the weeks ahead 
to find solutions to address the short- and long-term needs of these 
vulnerable children who are in dire need of protection and assistance. 
Should there be any questions regarding this statement, please contact 
Wendy Cervantes, Vice President of Immigration and Child Rights.

    Mr. O'Rourke. Mr. Secretary, I want to thank you for your 
testimony so far today. Everything that you have done so far to 
address the issue that we are discussing in today's hearing, 
and I would also like to commend through you your director in 
El Paso for ICE, Adrian Macias and your assistant director, 
Jesus Piacencia.
    There have been not unaccompanied alien children, but 
migrant families transported from the Rio Grande valley to El 
Paso. Hundreds of them so far. More plane loads coming in this 
week. Your team on the ground in El Paso has just been 
exceptional in how they are handling and processing these 
families and how they are working with social service groups 
like Enunciation House in El Paso to make sure that the 
interests of these children and families and the security of 
our country are protected.
    So, I want to thank you for that.
    I also want to--you and I have discussed this privately, 
but I want to say publicly that the Border Patrol Agents, the 
CBP Officers who are on the front lines of this crisis, are 
doing an extraordinary job in very difficult circumstances.
    We hear story after story of Border Patrol Agents bringing 
toys from their own homes for these kids who are in incredibly 
vulnerable, difficult situations, who are--Border Patrol Agents 
who are working in cramped conditions. Sometimes, conditions 
that I know you are addressing, but border on perhaps unsafe, 
unsanitary, and I know that we are quickly changing that.
    So, I just want to thank all those agents and officers who 
are on the line facing this issue directly.
    I also--to follow up on Ms. Jackson Lee's comments, I want 
to thank you and the Office for Civil Rights and Civil 
Liberties for addressing the claims and allegations brought by 
the ACLU and others about mistreatment of migrant children in 
custody of Border Patrol. We don't know what the facts are. We 
just know the allegations have been made. But you have promised 
to follow up on that aggressively and get to the facts and 
address that issue once we have all the facts. So, I want to 
thank you for that, as well.
    Mr. Chairman, I would like to address the larger context of 
this issue, brought up by you in your opening remarks about 
what has created the conditions for this crisis that we have 
right now. I will acknowledge, I do think that the President's 
piece-meal administrative approach to this when it comes to the 
DREAMers or through DACA might contribute to a perception that 
there are these permisos that are available in the United 
States.
    Mr. King's point that, given the way that these children 
are processed, and given an order to appear and placed with a 
family in the United States, that may also create the 
perception.
    There is also the fact that Congress, in the year-and-a-
half that I have been here, has been unable to vote on a 
comprehensive immigration reform bill. I think that contributes 
to this issue.
    Ms. Jackson Lee brought up the Wilberforce Act from 2008 
under President Bush and the Congress at that time. But all of 
those facts about Congress and the administration's ability or 
inability to deal with immigration are lost on the families and 
the parents of these unaccompanied children who are sent north.
    I can only imagine--we just celebrated my daughter, Molly's 
sixth birthday yesterday. I can only imagine what that must be 
like to be in a position to put her on a train north through 
Mexico up to the border with the United States, not knowing how 
she will fare, if she will get there, what will happen to her 
once she arrives. Conditions have to be really bad--
unimaginably bad to me for that to happen.
    So, while I agree that maybe Mexico can do more--although I 
find it ironic that so many of us question whether we have an 
appropriate border policy, that we would be implementing or 
imposing one on another country. Mexico can do more. Perhaps we 
could completely fence the border and build a giant moat with 
alligators to keep kids and people away. Maybe we could put 
these kids on a bus and just drop them off at the border with 
Guatemala.
    I don't think any of those are consistent, No. 1, with the 
law; No. 2, with our values; No. 3, with my conscience or the 
conscience of many of the people in this country. I think we 
have to address the issues in those countries of origin. We 
have some complicity in this. We are the world's largest drug 
market. Those countries are in between the world's largest drug 
suppliers and the world's largest drug market.
    I think your public relations campaign, Mr. Secretary, to 
those countries, to tell them that this is a dangerous journey 
is well-intentioned. I don't know how frankly effective that is 
going to be. I think we need a public relations campaign in the 
United States: ``If you use drugs, you are complicit in the 
dangers that these children face.''
    We do have a humanitarian crisis here. There is no easy 
solution. It certainly won't be solved by walls or border 
enforcement. I think we need to go the--to the countries of 
origin.
    With that, Mr. Chairman, I will yield back.
    Chairman McCaul. The gentleman--the Chairman now recognizes 
Mrs. Miller, from Michigan.
    Mrs. Miller. Thank you, Mr. Chairman.
    I would say that, unfortunately, the Central Americas have 
had a very long history of both bad economies and violence. 
Both of these things are probably as bad now as they have ever 
been. But to say that that is a reason that we suddenly have 
tens of thousands of children--children almost entirely coming 
from Guatemala and Honduras and El Salvador, traveling 
thousands of miles through Mexico--all the way up through 
Mexico, and then illegally entering the United States simply 
isn't true.
    I think that this humanitarian crisis can be laid directly 
at the feet of President Obama as a result of his DACA policy 
in 2012. So, I hope that our hearing today doesn't just point 
out the problem, which is very, very bad. Getting worse, no end 
in sight. But I hope that we can coalesce around some actual 
options and solutions.
    Several weeks ago, I called on the President to call up the 
National Guard. Clearly, this is a National emergency. I don't 
think individual States like Texas or Arizona would have to 
pay--foot the bill if they had their own National Guard come 
up. Because this is a National problem.
    A number of Members of Congress have subsequently joined 
me, and I appreciate that, in calling up the National Guard. 
Last week, both Governor Rick Perry and Speaker Boehner, as 
well, asked the President to call to Guard.
    I have also called on the administration--several weeks--
almost a month ago--to begin a very aggressive public relations 
campaign, in the centrals, telling parents not to put their 
children in danger by paying Mexican drug cartels up to $8,000 
a head to smuggle their children into the United States. I am 
glad to see that this was actually No. 11 on the Secretary's 
list, of his action list that he testified to today in our 
hearing.
    Regarding Mexico, which is our neighbor and in fact, one of 
our largest trading partners, they are behaving so badly and so 
dishonorably, they are complicit, complicit in human smuggling 
coming up from the centrals. I think we need to take some 
steps, additional steps now to protect America by getting our 
neighbors' attention.
    Instead of increasing funding hundreds of millions of 
dollars as the President called for, I think we need to stop 
foreign aid to the centrals immediately.
    I am just going to give you a couple of examples of what 
some of our USAID is being used for in the centrals: Developing 
civil society programs, climate change, addressing the gender 
gap in education and workforce. I mean, we would be better off 
spending this money in the inner cities of America. We can 
start with Detroit.
    I would say no more money from America until they step up 
to their own responsibilities and stop their citizens from 
illegally migrating to the United States.
    Again, regarding Mexico, how can we continue to have free 
and fair trade with a country that not only takes our money but 
is actually profiting from these drug cartels, from human 
smuggling of children? It is sickening to watch these children 
on the top of the train, ``the beast,'' as they call it--
sitting on the top of these trains coming up thousands of miles 
through Mexico and the Mexican government is doing nothing.
    Well, I think we need to act decisively. We need to act 
now. I would say no more financial assistance either to--from 
the United States either to the centrals that are shipping up 
their children to Mexico, through Mexico and to the United 
States.
    I also think in regards to trading with Mexico, we need to 
reopen, reexamine, and perhaps repeal both NAFTA, which is the 
North American Free Trade Agreement. I think we need to do the 
same with CAFTA, which is the Central America Free Trade 
Agreement.
    We need to whack them, our neighbors, to understand that 
they are just not going to keep taking our money and we are 
just going to be sitting here like this--we are not the ATM 
machine--while this humanitarian crisis is happening with these 
innocent, innocent children.
    I would just ask the witnesses what you think of these 
additional options. The Secretary asked for some options.
    In my opinion, we are not going to enforce our way out of 
this. We are not going to enforce our way out of this 
situation. We need to have some policy change and here are some 
suggested options.
    Do any of the witnesses have a comment?
    Secretary Johnson. Congresswoman, I agree with you that a 
key to solving this problem is Mexico and Central America, 
which is why we, I personally am in dialogue with them.
    I believe that in a number of respects, we have a very 
valuable relationship with the government of Mexico in a number 
of respects that promotes the economies of our countries and 
this continent. But I do believe that we have to engage with 
them on our shared border security interest. I intend to have 
that conversation with them. Our President has had that 
conversation with their president.
    We need to stress the situation that exists in south Texas 
as a result of the migration that passes through their country 
from Central America and we are doing that. I believe the 
discussions had been ratcheted up, if you will, over the last 
several months as a result of the situation we face. So I agree 
with you with respect to that.
    With respect to DACA, we have to keep reemphasizing as I 
did in the letter I sent, which I believe was probably read by 
millions of people by now, at least I hope it was, DACA is for 
kids who have been in this country for 7 years, not for 
somebody who crosses the border today or tomorrow or yesterday. 
It is for somebody who has been in this country 7 years.
    The smuggling organizations have a motive to distort and to 
pass out disinformation to encourage parents to pay them $3,000 
or $4,000 a person to bring their kid into this country and 
that is what they are doing. They have launched a 
misinformation campaign, which we have to correct.
    Mrs. Miller. Thank you, Mr. Chairman. Yield back.
    Chairman McCaul. The Chairman recognizes Ms. Sanchez, from 
California.
    Ms. Sanchez. Thank you, Mr. Chairman and thank you, 
gentlemen, again, for being before us today.
    I just want to make a couple comments to some of the things 
that I have heard here, and I then I do want to ask you a 
question.
    First of all, you know, people are slamming Mexico because 
they are--they have got these drug cartels, et cetera. The 
reality is the demand is coming from the United States.
    I mean, what are we--where are we? Where are we? Why 
haven't we done something about this demand for drugs? I mean, 
it is a supply-and-demand issue. People, Americans are putting 
cash on the barrelhead to get these drugs.
    So we can't just look at a country that is transiting drugs 
or a country that is sending drugs. We have got to say what are 
we doing about the demand here in the United States? Because 
that is where, you know--that is where this money comes from.
    Second, I just want to address--and I agree on so many 
things with Mrs. Miller, especially when it comes to borders. 
But I would have to respectfully disagree on a couple of things 
that I heard from her about not working with Central American 
countries or Mexico.
    First of all, we know--this has been proven time after time 
after time--that the education of a mother--around the world, 
the education of a mother is central to the nucleus of the 
family, the stability of the family and the economics of the 
family. So this is a long-term investment that we make when we 
have USAID in so many countries working to educate young ladies 
because they will be the mothers of the future.
    With respect to working with institutions or working to 
make institutions in countries, we also do that all over the 
world. If you have a place, a country and you can't trust the 
judicial system, you can't think you are going to get a fair 
shake if you get picked up off the street or if you have got a 
business saying you can't get a contract enforced, that is what 
makes America so great is that we have these incredible 
institutions, these democratic institutions, with a small ``d'' 
by the way, guys, and these judicial institutions that we work 
on every day to make great America and we try to put that and 
help other countries to do.
    So I think these types of things that we are working on in 
other countries are incredibly important to give hope--to give 
hope to people who live in those countries and to have them 
have an ability to stay in those countries and not leave them 
and come up to an America that we know right now when we see 
the border is being taxed.
    I would like to ask you about this whole issue because some 
have said that gang members or individuals with criminal 
records are the ones that are accompanying these children who 
are coming up and being apprehended.
    So my first question is: How does the Border Patrol screen 
these individuals for these issues and what are your findings 
so far?
    Chief Vitiello. Each of the individuals who are arrested 
are interviewed by law enforcement professionals. So their 
observations plus the biometric capture of their fingerprints 
are checked against the databases of the holdings of the United 
States Government. So everybody over 14 gets all ten 
fingerprints taken and sent against the NCIC database to check 
their prior criminal record in the United States.
    We have not reports from RGV where this problem is the most 
acute, reports of people who are recognized as being gang 
members as part of the population that is under 17.
    Ms. Sanchez. My last question because I am running out of 
time: Given the influx of these unaccompanied minors that are 
coming into the country, mostly across the Texan border, you 
are putting Border Patrol there. Where are these personnel and 
resources coming from to handle this influx?
    What about the other areas? If you are pulling them from 
other areas, what are we seeing happen there?
    Chief Vitiello. We have looked carefully and taken a 
handful of folks from along the Southwest Border from areas 
that are not as active as what we are seeing in the RGV. Those 
people are dedicated for more boots on the ground, for the 
Border Patrol function as well as post-arrest interviews to 
gather intelligence to find leads for investigative follow-up 
to hand over to ICE to attack the networks that are responsible 
for the alien-smuggling in that area.
    Ms. Sanchez. My time is up and I thank you. I will submit 
the rest of my questions for the record.
    Thank you.
    Chairman McCaul. The Chairman recognizes the gentleman from 
Pennsylvania, Mr. Meehan.
    Mr. Meehan. Thank you, Mr. Chairman.
    Mr. Secretary, I am very grateful for your leadership of 
this agency at this particularly difficult time. You know my 
respect for you.
    I do respectfully disagree with you on this issue with 
regard to the--you know, the deferred action on child arrivals.
    I have been, as you know, a prosecutor and we have been 
fighting violence and drugs for the last decade or more. The 
one changed factor has been the new permissive policy of this 
administration on deferred action for child arrivals.
    I also want to associate myself with the comments of my 
colleagues both here and on the other side. I hope every 
college kid who is sitting here with their visions of the 
important world they are playing with social activism and, you 
know, looking at investments for colleges or global warming 
will appreciate that when they are sitting in their dorm 
smoking dope purchased from these drug gangs, this is the 
implication, and maybe there is a little time for social 
activism there, too.
    But, regardless, let me ask you a question about--you are 
apprehending children at the border with adults and you are 
gonna hold them and send them back, and I appreciate that 
policy.
    But let me understand what is the distinction if you take 
an adult with their children, who arguably are more responsible 
because they are with their children, and yet if the child 
comes without their adult, we are going to take the child at 
the border and reunify with an adult who is probably here not 
under legal status.
    So what is the difference? Why aren't we obtaining this 
child, reunifying and returning both of them?
    Secretary Johnson. [Inaudible.] Thank you.
    If an adult is apprehended at the border and they brought 
their children with them, they are a priority for removal. We 
are building additional space to hold them so they can be 
returned quickly. We need to do that. I believe that is 
important to do.
    Mr. Meehan. But what is the difference?
    Secretary Johnson. If you are in the--the difference, is if 
you are talking about reuniting a child with a parent who is in 
the interior, first of all, the law requires that if it is in 
the best interest of the child to do that, we will do that.
    There is a deportation proceeding pending against the child 
at that point. With respect to the parent, if the parent is a 
convicted criminal, has a criminal record or is in some respect 
a priority for removal under our existing policies, then they 
should be removed.
    Mr. Meehan. Well, with all due respect, what percentage 
right now of children are appearing for these hearings?
    Secretary Johnson. I do know that unaccompanied children in 
removal proceedings are, in fact, removed.
    Mr. Meehan. What percentage, once reunited, are returning 
for these status hearings?
    Secretary Johnson. I don't have that percentage. But I do 
know that they are----
    Mr. Meehan [continuing]. Probably not very high.
    Secretary Johnson. I don't have the number off-hand. I do 
know----
    Mr. Meehan. That is something we should know, if this is so 
fundamental to the policy. But I would suspect not very high.
    This is a part of a concern, and I don't know the answer, 
but I also want to be very honest with the American people. 
This idea that somehow we are going to institute legal 
proceedings and take--you know, process--we have got 65,000 
children that have come over the line.
    Now, you know and I know, when--suppose we go through a 
legal process and find that that child has--is now subject to a 
judicial order for return. You know and I know, when I was a 
prosecutor, it took two agents to accompany that child back to 
his country. We used to fly an individual back--65,000 
children. How are we gonna return them?
    Secretary Johnson. Congressman, I will say two things. 
First of all, we are talking about children as young as 5 and 7 
years old. This is a humanitarian issue.
    Mr. Meehan. I know that.
    Secretary Johnson. So, when you are talking about somebody 
who is desperate to be reunited with her mother or her father 
in the United States, I think as Americans, we need to be 
careful about how we treat these kids.
    Mr. Meehan. I--let me just----
    My time is--we all get it. This is what is so difficult 
about this. This is--we are dealing with children, and we get 
it, but we ought not be leaving the American people with the 
false impression that somehow the system is going to work and 
is actually going to lead to removals. Once those children are 
here, they are staying here.
    Secretary Johnson. Well, the other point I would make, if I 
could, is that we have to stay focused through this situation 
on public safety, National security, and border security. So 
there are a number of people who are in this country who still 
need to be removed, to whom we need to continue to apply 
resources. So I have got to keep my eye on that ball, as well.
    Mr. Meehan. Thank you, Mr. Chairman. I yield back.
    Chairman McCaul. The Chairman recognizes Mr. Vela, from 
Texas.
    Mr. Vela. Thank you, Mr. Chairman.
    I want to begin by respectfully disagreeing with my 
colleague from Michigan in terms of the comments related to 
trade with Mexico. The state of--the total trade volume between 
the State of Michigan and the country of Mexico is $52 billion. 
Michigan exports $12 billion in products to Mexico and 175,000 
jobs in Michigan depend upon trade with Mexico.
    Over the past few weeks, as I have tried to wrap my arms 
around this situation, as you have, what it has boiled down to, 
in my view, is I view it as three separate crises. We have the 
crisis in Central America, and tomorrow the House Committee on 
Foreign Affairs will be addressing that. We know that the White 
House has initiated a response in that regard, and so we will 
save that for another day.
    The second crisis I see is a logistical crisis with respect 
to this sudden influx. You have addressed well the detention 
aspect of that. But one thing I am wondering about from the 
adjudicative standpoint, what are your thoughts on what we need 
to do in order to make our adjudicative process more efficient?
    Secretary Johnson. Well, in the short term, Congressman, we 
are surging ICE and DOJ resources into the region to deal with 
removal proceedings, to deal with asylum claims. We have had 
that conversation with Department of Justice, and they are 
definitely supporting the effort.
    We need more lawyers and judges down there and we need more 
video teleconferencing, where it is appropriate, to expedite in 
a better way the run-of-the-mill removal proceeding, which, as 
I am sure you know, can take a very, very long time.
    We have got resources all around the country that we think 
we can devote to this so that everybody is doing a fair share 
of the work here. So, we would like to see the process move 
more expeditiously when it involves removal, involves asylum 
claims. We are doing that; we have a plan to do that.
    Mr. Vela. Now, is the administration request, in terms of 
dollars, does it include this part of the process?
    Secretary Johnson. I believe it does.
    Mr. Vela. Okay.
    The third crisis I see, and I have some figures here that 
suggest that, in the last fiscal cycle, that 85 percent of the 
unaccompanied children that were being detained were being 
reunited with family. Do you know if that is an accurate 
reflection of what we are seeing to date in this fiscal cycle?
    Secretary Johnson. I know that just over 50 percent of 
those unaccompanied children that HHS is placing it is placing 
with a parent. I have seen the number 85 percent, to suggest 
that 85 percent are being placed with a family member, but I 
don't know that to be--I have seen it, but I don't know that to 
be accurate. I have seen it in various places.
    Mr. Vela. That sounds like the statistics that I have 
looked at in terms of the last fiscal cycle.
    My point, I suppose, is that that is the third crisis I 
see, is which is addressing the immigration reform crisis, 
because, in my view, that those parents and those family 
members that these children are being reunited with, are the 
people that are working in our hotels and our restaurants and 
our construction sites. Certainly it is something we need to 
address very quickly.
    I--just yesterday, in McAllen, Texas, local leaders met and 
they did address one thing that we are seeing in terms of the 
72-hour detention.
    Some of the folks have been taken to buses so that they can 
be sent to the other facilities. But the numbers are so 
overwhelming that the bus stations are closing because there 
are not enough buses. So some of the local nonprofits are 
having to take care of some of those families.
    My question is: What Federal grant programs are there that 
we can tap into on an urgent basis, so that these nonprofits 
that are working alongside CBP and DHS down there can work 
with?
    Secretary Johnson. I know we have had a terrific volunteer 
effort. I know the Red Cross has really stepped up to this, as 
well as a number of Texas-based volunteer organizations have 
done a heroic job.
    In terms of grant-making, I would have to take a closer 
look at that, to see what might be available. Perhaps 
Administrator Fugate has some thoughts, but I would have to 
take a closer look at it.
    Mr. Vela. We can work with your offices on those two 
points. I do want to close by thanking you, Mr. Vitiello, and 
the agents at Customs and Border Patrol. I have witnessed 
first-hand on plane rides up to the capital from Brownsville 
your agents caring for some of these unaccompanied minors. I 
know how hard they are working, and I just want to thank you 
and your agency on behalf of all of the people that I 
represent. Yield back.
    Chairman McCaul. Chairman now recognizes the gentleman from 
South Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Let me just say for the record, thank you gentlemen for 
your service to our country. Secretary Johnson, I am a big fan. 
I think you are the right man at the right time in this job. 
But you have got an immense challenge ahead of you. As I 
mentioned before, all of the different hats that you have to 
wear to protect our country.
    But we are in a crisis situation in this country, and if my 
comments today show frustration, let me tell you that I am 
frustrated. I am frustrated by the crisis on the border. I am 
frustrated that last night, we saw the IRS commissioner 
continue to obstruct Congress's investigation into the IRS's 
targeting of conservative groups by a crashed hard drive and 
lost e-mails. I am frustrated that Brian Terry's death hadn't 
been vindicated through the ``Fast and Furious'' investigation. 
I am frustrated when we see the release of terrorists from 
Guantanamo Bay and not informing Congress. A lot of lawlessness 
in this country.
    I think about and I am reminded of John Adams, who, 
regardless of the mood in Boston, defended the British soldiers 
in the Boston Massacre. Regardless of how we feel about 
immigration reform in this country, how can we sit by and watch 
our country's National sovereignty, my country's National 
sovereignty violated over and over and over on our Southern 
Border? Not just this situation with children, but for a long 
time we have seen a increase in illegal immigrants coming into 
this country. We are calling the Guatemalans and Hondurans and 
El Salvadorans, OTMs, Other Than Mexicans, the term of CBP.
    But I am concerned about the Middle Eastern, the Asian, the 
Africans that are also coming into the country not to take the 
job, not to bring their children in so that they can have a 
better life, but possibly to do harm to this great Nation. That 
is a concern that we ought to have.
    If children can come across because CBP Agents are changing 
diapers or warming formula or doing other things other than 
securing the border, then I am sure that elements that want to 
do harm to this country can exploit our poor Southern Border 
also.
    Let the record show that since 2006, there has been an 
increase of over 9,000 CBP Agents in this country since 2006 to 
now. Over 9,000 more agents to secure our border, and our 
border is less secure today, I think, than it ever has been.
    I want to read a portion of a leaked draft memo from Deputy 
Chief Vitiello, dated May 30. It reads, ``the large quantity of 
DHS interdiction intelligence investigation process and 
detention removal of resources currently dedicated to address 
unaccompanied alien children is compromising DHS capabilities 
to address other transborder criminal areas, such as human 
smuggling and trafficking, illicit drug, weapons, commercial 
and financial operations. If the U.S. Government fails to 
deliver adequate consequences to deter aliens from attempting 
to illegally enter the United States, the result will be an 
even greater increase in the rate of recidivism and first time 
illicit entries.
    ``To stem the flow an adequate consequences must be 
delivered for illegal entry into the United States and for 
facilitating human smuggling either as a direct member of an 
illicit alien smuggling organization or as a private 
facilitator. These consequences must be delivered both at the 
border and within the interior of the United States--United 
States--e.g. through expanded ICE homeland security 
investigations to target individuals facilitating unaccompanied 
alien children and family unit travel to the United States.''
    I agree with those words completely. This administration's 
mishandling of this situation just encourages more lawlessness. 
It encourages more folks to come here. If you talk about 
utilizing the resources of the United States, everything that 
is at your disposal we heard earlier. The National Guard should 
be called out. Article IV section 4 guarantees every State that 
joins this union protection against this. Protection against 
this, Article IV, Section 4. Look it up.
    Every resource. How about Voice of America? Are we 
directing a Spanish-speaking Voice of America into Central 
America saying, ``You cannot come into this country illegally, 
you will not get citizenship. In fact, you are going to be 
deported back to your home country.'' That is a resource that 
can be used? Are we doing that? Maybe we are. But I say we 
should, just like we should have the National Guard on the 
border.
    So, Mr. Secretary, you mentioned in your statement that we 
should do everything consistent with the laws and values of 
this country. We have laws on the books. The 2006 Secure Fence 
Act. We have got a very porous Southern Border. We don't have a 
Secure Fence Act. There are numerous laws that say if you enter 
into this country illegally, you will be deported. That is 
against the sovereignty of this Nation, that you cannot enter 
this country illegally. Are we enforcing that? No, we seem to 
be looking the other way.
    So, would you agree with me, and are you willing to say 
that if you enter the United States illegally of any age, you 
will be deported back to your home country?
    Secretary Johnson. Congressman, as you well know, we have 
to prioritize removals in accordance with the resources that 
Congress gives us. So, I have a finite amount of enforcement 
resources, border security resources, and so for the sake of 
homeland security, what we need to do is go after the worst of 
the worst first, which is what I believe we are doing. I think 
we could do a more effective job of that, but I believe that we 
need to prioritize and go after those who represent threats to 
public safety.
    Mr. Duncan. We have increased your CBP Officers almost 
9,000 in 10 years or less.
    Secretary Johnson. That is right. I am sure that deputy 
chief definitely thanks you for that. I support it too.
    So, in terms of your question about border security, let me 
say this. I continually inquire, in this current situation, are 
we taking our eye off the ball? I want to know that in the RGV 
sector in particular, that our Border Patrol Agents are focused 
on border security as well as dealing with the volume of the 
kids that are coming in.
    Over the last month-and-a-half or so, we have surged a lot 
of resources into that part of the country, FEMA, HHS, and 
others, Coast Guard is down there, to support CBP in their 
effort. As recently as I think yesterday, the chief and the 
deputy chief and I have discussed this, and I will let the 
deputy chief answer for himself, but I believe it is the case 
that our Border Patrol Agents on the border are on the job, 
they continue to do their job.
    Mr. Duncan. Mr. Secretary, I am out of time, whatever the 
Chairman will allow, but let the record reflect that the 
President asked for an additional $1.4 billion to assist this 
effort, and we are $18 trillion in debt. With that, Mr. 
Chairman, if the deputy secretary would like to answer and you 
will allow that?
    Chairman McCaul. Yes.
    Chief Vitiello. Just to reiterate, we have been surging the 
resources that the Border Patrol has, CBP, the Department into 
RGV for the last several years. So they are better-resourced 
now than they were last year. This particular issue is a 
challenge for us. There in fact are more people focused on 
moving the flow and booking in and processing both aliens and 
adult--family units and adult males, all the people that come 
across. But they are better-resourced than they have been 
previously.
    Mr. Duncan. Thank you, for that. For the record, I would 
like to include the article that has his memo that was leaked, 
thank you. Yield back.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
                 Article Submitted by Hon. Jeff Duncan
  internal memo: ``dream act'' deluge ``compromising'' border security
by Caroline May, 6 Jun 2014.
    The deluge of unaccompanied children crossing the border illegally 
is ``compromising'' the government's ability to combat other border 
threats and has been incentivized by government policies, according to 
a leaked internal draft memo from Deputy Chief of Border Patrol Ronald 
D. Vitiello.
    ``Specifically, the large quantity of DHS interdiction, 
intelligence, investigation, processing, detention and removal 
resources currently being dedicated to address [unaccompanied alien 
children] is compromising DHS capabilities to address other transborder 
criminal areas, such as human smuggling and trafficking, and illicit 
drug, weapons, commercial and financial operations,'' Vitiello's memo, 
obtained by the Center for Immigration Studies and viewed by Breitbart 
News, reads.
    ``Insufficient attention to these mission areas will have immediate 
and potentially long lasting impacts on criminal enterprise operations 
within the Rio Grande Valley and across the country,'' it adds.
    The document is dated May 30, titled ``Unaccompanied Alien Children 
Transfer Process Bottleneck,'' and reveals that DHS expects the number 
of UAC apprehensions this fiscal year to be greater than 90,100 and 
next fiscal year to be 142,000.
    Vitiello writes that the ``urgency'' to deal with the overcrowding 
in detention facilities is causing the level of enforcement and 
repercussions for illegal entry to deteriorate.
    ``The current urgency to alleviate dangerous overcrowding in DBP 
detention facilities is resulting in the necessary delivery of 
suboptimal consequences for illegal entry,'' he wrote. ``If the US 
government fails to deliver adequate consequences to deter aliens from 
attempting to illegally enter the US, the result will be an even 
greater increase in the rate of recidivism and first time illicit 
entries.''
    Vitiello further noted that certain government policies are serving 
as additional incentives for illegal entry.
    ``Releasing other than Mexican family units, credible fear claims, 
and low-threat aliens on their own recognizance, along with 
facilitating family reunification of UAC in lieu of repatriation to 
their country of citizenship, serve as incentives for additional 
individuals to follow the same path,'' Vitiello wrote.
    ``To stem the flow, adequate consequences must be delivered for 
illegal entry into the US and for facilitating human smuggling, either 
as a direct member of an illicit alien smuggling organization or as a 
private facilitator. These consequences must be delivered both at the 
border and within the interior US, e.g. through expanded ICE Homeland 
Security Investigations to target individuals facilitating UAC and 
family unit travel to the US,'' the memo reads.
    In a statement CBP told Breitbart News that ``the draft memo 
appears to be an internal, incomplete working document, neither signed 
nor made official.''
    CBP's statement noted that while apprehensions of Mexicans have 
slightly increased over last year the number of apprehensions from 
countries other than Mexico, specifically Central America has increased 
by 50 percent. Vitiello's memo notes that currently just 3 percent of 
apprehensions from countries other than Mexico, predominantly Central 
American countries, are being repatriated to their countries of origin, 
as there are limited flights back.
    ``Significant border-wide investments in additional enforcement 
resources and enhanced operational tactics and strategy have enabled 
CBP to address the changing composition of attempted border crossers, 
but the rising flow of unaccompanied children and family units into the 
Rio Grande Valley present unique operational and resource challenges 
for CBP and HHS,'' the CBP statement contined, going to note President 
Obama's interagency Unified Coordination Group led by Federal Emergency 
Management Agency (FEMA) Administrator Craig Fugate to deal with the 
influx.
    In announcing the interagency Unified Coordination Group this week, 
President Obama declared the surge of UACs an ``urgent humanitarian 
situation.''
    Meanwhile Obama's immigration critics have pointed the finger of 
blame for the deluge at Obama himself.
    ``This is a direct result of the President's statements that he was 
not going to enforce the law with regard to people who entered the 
country as youngsters. It's an open invitation for others to come. What 
he has done in the last months, aided by members of Congress, is to 
create the impression that no one is going to be deported, and 
especially young people who come into the country are not going to be 
deported. So they are focusing way too much on attempting to cope with 
the flood of young people coming into the country and not nearly enough 
on reducing the flow,'' Alabama Sen. Jeff Sessions said this week.
    http://www.breitbart.com/Big-Government/2014/06/06/Border-Patrol-
Memo-Points-To-Gov-t-Policies-As-Force-For-More-Illegal-Immigration

    Chairman McCaul. The Chair recognizes the gentleman from 
California, Mr. Swalwell.
    Mr. Swalwell. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for your attention and your 
agency's hard work on this crisis.
    I just want to go through a few questions. First, would you 
agree Mr. Secretary that we have a broken immigration system in 
the United States?
    Secretary Johnson. Yes.
    Mr. Swalwell. Would you agree that because we have a broken 
immigration system, because there is great uncertainty about 
our immigration system, that in this chaos, this crisis with 
unaccompanied minor children has occurred?
    Secretary Johnson. I wouldn't put it exactly that way, but 
I do believe that uncertainty in the law and uncertainty that I 
believe the smuggling organizations are creating is a reason 
for the recent influx.
    Mr. Swalwell. Mr. Secretary, you would agree that this 
crisis and the attention that your Border Patrol Agents has had 
to give to these children has diverted away from their 
attention to securing the rest of our Southern Border?
    Secretary Johnson. As I mentioned a moment ago, that is an 
issue that I am constantly focused on, to make sure that that 
doesn't happen. As I think the deputy chief's comments reflect, 
we have surged a lot of resources into the Rio Grande Valley 
sector to make sure that everybody remains focused on their job 
in addition to dealing with the recent increase, to process 
people through the system as well as maintaining our presence 
on the border, and I believe we are continuing to do that.
    Mr. Swalwell. Mrs. Miller, my colleague from Michigan, 
placed this crisis and its blame squarely at the feet of 
President Obama's DACA program, the deferred action program, 
and that was implemented in 2012. Is that correct?
    Secretary Johnson. DACA was implemented in June 2012.
    Mr. Swalwell. Here we are, where the peak levels of 
unaccompanied children migration is occurring in 2014. Is that 
right?
    Secretary Johnson. Yes, and DACA is intended for kids who 
came into this country 7 or more years ago.
    Mr. Swalwell. If Mrs. Miller is, indeed, right that this is 
squarely the President's fault because of DACA, wouldn't you 
have expected to see these peak levels of children coming 
across the border perhaps in 2012 or 2013, rather than now? So, 
I guess I am asking, is it fair to solely place this on DACA? 
Or this something much more complicated?
    Secretary Johnson. Well, let me be clear. I believe first 
and foremost--and I believe most people believe first and 
foremost--from everything I have heard, everything I have seen, 
and from my own conversations with these children, that the 
principle reason they are leaving their countries is the 
conditions in those countries. They are really bad. It has to 
be really bad for a parent to want to part company with his or 
her own 7-year-old. That is the principle reason we are seeing 
this.
    I do also believe that the smuggling organizations are 
creating a misinformation campaign about the legal situation in 
this country. It is in their interest to create that 
misinformation, and I believe they are. I believe, therefore, 
it is imperative for us to correct the record about what is 
available and what is not to somebody who crosses the border 
today.
    Mr. Swalwell. Mr. Secretary, you would agree, there are 
some short-term and long-term solutions to what we can do? A 
short-term solution----
    Secretary Johnson. Yes.
    Mr. Swalwell [continuing]. Would be something that you have 
already done, which is writing an open letter to the parents of 
children crossing our Southwest Border to dispel the myths 
about what it means to come here and the dangers that the 
children will go through in their path?
    Secretary Johnson. If it were--you know, if this 
administration's policies were the principle reason they were 
coming here, then you would see kids from a whole bunch of 
other countries, too.
    Mr. Swalwell. Would you agree, another short-term solution 
would be working, as the President and the Vice President have 
been doing so, to work with Mexico and Guatemala on that much 
smaller border between Mexico and Guatemala in addition to 
working on our much more vast border?
    Secretary Johnson. Yes.
    Mr. Swalwell. Mr. Secretary, would you agree that a long-
term solution would be putting certainty in our immigration 
policy so that there are not misconceptions as to what it means 
to children anywhere across the world?
    Secretary Johnson. Yes.
    Mr. Swalwell. Thank you, Mr. Secretary.
    With that, I yield back the balance of my time.
    Chairman McCaul. The Chairman recognizes Mr. Palazzo.
    Oh. Palazzo is on my left.
    Barletta.
    Mr. Barletta. Thank you, Mr. Chairman.
    You know, I do believe that DACA and our failure of 
enforcing our immigration laws are the cause of this. The 
number of unaccompanied children has grown since 2012. Last 
year was a record of 5,000. Now, we have 65,000. But I don't 
blame just the President for not enforcing our immigration 
laws. I know many do. It is not just that. It is even Members 
of Congress. Congress has to share in the blame, as well. Any 
Member of Congress that starts talking about a pathway to 
amnesty--and that is what it is--lays out the welcome mat for 
people around the world that want to come into the United 
States illegally while our borders are not secured.
    It is irresponsible to talk about what we will do before we 
can stop the flow into the country. This is not a surprise, 
what has happened. It is everyone. We need to secure our 
borders and make sure people cannot get into the country 
illegally. We need to make sure people can't overstay their 
visas.
    But I have two questions--the first one, if I could get a 
quick answer, because I want to get to the second one, is--
Secretary Johnson--my constituents are frequently on flood 
alert. We prepare for emergencies, invest in mitigation. We are 
still dealing with the aftermaths of Sandy of Irene and Lee. My 
understanding is that the President's March budget request did 
not ask for additional funding to pay for this crisis at the 
border.
    We know that we knew about it as far back as January.
    Here is my question--how can you guarantee me and my 
constituents that the money to address the crisis at the border 
won't come from the same pots that helped Pennsylvanians back 
home deal with floods? By putting FEMA in charge, you have kind 
of signaled a disaster declaration is coming. I am concerned 
that our flood disaster funding will be constantly drained by 
the situation.
    If you could quickly answer that?
    Secretary Johnson. Well, I can assure you, Congressman, 
that if your constituents, or anybody else faces a major 
disaster, we will support a response.
    Mr. Barletta. But is it coming out of those same pots of 
money? Are we draining the money that will be used for flood 
disasters by using FEMA? Is it coming out of that same pot?
    Secretary Johnson. FEMA's coordinated role doesn't mean 
that FEMA is undertaking to support all these agencies. All 
these agencies are paying for this out of their own----
    Mr. Barletta. Yes. I am just worried about where the money 
is coming from and does that mean that that pot gets drained a 
little more?
    If we could, quickly because----
    Mr. Fugate. Yes. Congressman, the funds being used for this 
were already funds that were expended under current authority 
to deal with these issues.
    Funding that is being directed is done through interagency 
agreements. Money is not coming out of the DRF to pay for those 
functions, which are primarily responsible and funded by 
Congress through other appropriations.
    Mr. Barletta. Okay.
    If I could go back to the--you know, if it is not our lack 
of enforcing immigration laws, why don't they stop somewhere in 
Mexico? Why come all the way to the United States? Why put 
these children a thousand miles and risk their lives to get to 
the United States?
    There is nowhere in Mexico that is better than Honduras or 
Guatemala? I don't buy that, and I don't think the American 
people do either.
    The Department of Homeland Security was created to stop bad 
things from happening before they happen. Here is a copy of the 
ad that DHS put out in January 29. In fact, we wanted an answer 
from the contractors by February 19. It said there will be 
approximately 65,000 children in total.
    My question is: Who knew that there was going to be 65,000? 
The largest amount that ever came was 5,000. Somewhere we pull 
out this number of 65,000. It happens to be correct.
    Why was the administration surprised? Why are we acting 
surprised now if in January, we expected this to happen? Why 
weren't we prepared, if we expected 65,000?
    Why didn't we do anything to stop this in advance? You 
talked in your testimony that the President talked to the 
president of Mexico last week and Vice President Biden just 
recently--why then if back in January 29 we anticipated this 
happening?
    Secretary Johnson. First of all, I don't know where that 
estimate comes from. Given the----
    Mr. Barletta. It is in our own--it is in DHS's ad.
    Secretary Johnson. I don't know where the estimate comes 
from. I don't know who created the 65,000 estimate. In all 
likelihood, we will probably exceed that in the rate we are 
going.
    We have known this has been a problem since I took office 6 
months ago. I have been hearing about this issue going back to 
my confirmation hearing.
    So--and we have known we have had a problem in the Rio 
Grande Valley sector, which is why in April, I asked my staff 
to create a campaign plan for the Rio Grande Valley sector, in 
particular for the Southwest Border, to bring to bear all the 
resources of DHS on this issue.
    We have known we have had an issue with third-country 
nationals, children and adults. I issued the campaign plan in 
early May. The numbers very clearly have spiked more recently 
in April, May, which has required us to bring to bear the 
resources of the entire Federal Government.
    Mr. Barletta. But we shouldn't be surprised because we saw 
it coming as far back as January. Somebody did in DHS. I would 
like to know who it is. If you could find out----
    Secretary Johnson. I am not disagreeing with you. We have 
known this was an issue since I took office, sir.
    Mr. Barletta. But it went from 5,000 to 65,000. Something 
happened. When the largest amount that ever came of 
unaccompanied children was 5,000, which was last year, 
something happened that 65,000 showed up and somebody knew 
about it. And surprise?
    Secretary Johnson. I think it was more like 38,000 last 
year.
    Mr. Barletta. Well, from 5,000 to 38 to 65. So since DACA, 
we have gone from 5,000 to 38 to 65----
    Secretary Johnson. No. Sir, you want to somehow put it on 
the doorstep of DACA. I keep saying that----
    Mr. Barletta. No, no, no. I am blaming Congress as--I am 
blaming Congress as well and our lack of immigration 
enforcement.
    There is nothing wrong with our immigration laws. We just 
don't enforce them. We have released 36,000 criminal aliens 
back onto the streets--160 of them committed murder. If we 
could release people who have committed murder, I am sure has 
something to do with it.
    Thank you. Yield back.
    Chairman McCaul. The gentleman's time is expired.
    Mr. Richmond, from Louisiana.
    Mr. Richmond. Thank you, Mr. Secretary, for coming today.
    Let me just go back to some basic questions because I have 
heard today a number of times that we should just send the kids 
back.
    Do many of the kids actually not make it and die along the 
long route to make it to our border?
    Secretary Johnson. The route is definitely treacherous. I 
can't tell you with any degree of certainty who doesn't make it 
because I am just not in a position to know that.
    I have heard in a number of different places that these 
kids are exploited by the smuggling organizations. They travel 
over a thousand miles up the coast of Mexico on trains and 
trucks. It is getting hot. It is exceedingly dangerous.
    Mr. Richmond. What happens to them if we just turn them 
around?
    Secretary Johnson. Well, if we just turn them around, they 
just go back to the conditions that they were motivated to 
leave from.
    Mr. Richmond. If they make it back. If they make the long 
journey back.
    Besides the humanitarian reasons and reasons of conscience 
and morals, the William Wilberforce Act would keep you from 
turning them around, wouldn't it?
    Secretary Johnson. Well, the 2008 law is not in conflict 
with commencing a deportation proceeding against the child. It 
is my understanding that the law would not permit an expedited 
removal of an unaccompanied child. That is my understanding of 
the law.
    We do expedited removals. Let's say a Mexican crosses the 
border. They are apprehended by one of the Chief's Border 
Patrol Agents. We can do an expedited removal of the Mexican 
right back into the country of Mexico. We can do expedited 
removals of adults into Central America where there is no 
immigration judge involved.
    But in terms of an expedited removal for an unaccompanied 
child, my understanding of the law is that that is not 
available.
    Mr. Richmond. As much as you heard today that we should 
just either turn them around or expeditiously remove them, do 
you know of any legislation introduced that someone put their 
name on to repeal the William Wilberforce Act?
    Secretary Johnson. Not to my knowledge.
    Mr. Richmond. We also talked a little bit about--and I 
heard you mention a little bit about Mexico and the fact that 
you have--the Vice President has met and the President has had 
telephone conversations. Has the government of Mexico started 
taking any steps, any affirmative steps to help us with this 
issue?
    Secretary Johnson. We have over the last several years been 
in discussions with them about our shared border security 
interest and we have increased that engagement in light of this 
current situation. I believe we will continue to have 
productive conversations.
    Mr. Richmond. Well, specifically on this issue and the fact 
that you just mentioned that we are looking at probably over 
60,000 unaccompanied minors this year, have they taken any 
steps to help us with this issue right now besides just 
conversations?
    Secretary Johnson. I am sure that they will help us with 
the public affairs campaign. Excuse me. We will continue our 
discussions about our shared border security interest. I have 
had those discussions beginning in February, and I believe they 
will be productive.
    Mr. Richmond. Mr. Chairman, I know that the Secretary has 
to leave so I will yield back so that my colleagues can ask 
some questions.
    Chairman McCaul. Thank you for that.
    To get through all the Members in the time we have, I am 
going to strictly enforce a 5-minute rule.
    Mr. Perry, from Pennsylvania.
    Mr. Perry. Thanks, Mr. Chairman.
    If it hasn't already been done, I would like to submit a 
copy of the advertisement that has been referenced under 
unanimous consent into the record.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
          Advertisement Submitted For the Record by Hon. Perry
          
          
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Perry. Alright. I would also like to just reject 
categorically any claims made by Members of this committee that 
somehow America or American citizens are at fault for this 
crisis, this situation on the border.
    With that having been said, gentlemen, thank you very much 
for your service in these difficult times. We are very 
appreciative.
    I would like to turn to Mr. Vitiello. Is that correct?
    Chief Vitiello. Vitiello.
    Mr. Perry. Vitiello? Thank you, sir.
    How long have criminals been smuggling people across the 
border to your knowledge?
    Chief Vitiello. My entire career, 29 years.
    Mr. Perry. So at least 29 years. Have smugglers lied to 
people south of the border that might be interested in seeking 
to cross the border about the conditions or what they might 
encounter or their status when they come here? Have smugglers 
lied to people in the past?
    Chief Vitiello. That is the experience of the Border 
Patrol.
    Mr. Perry. So in your opinion, in your estimation, what has 
changed recently in the last 2 or 3 years that has fostered 
this immense increase in traffic, especially of people that are 
young, 17 and below, coming--what has changed?
    Are there any metrics at all that you know of to support 
the claim that you might make shortly?
    Chief Vitiello. I think lots of things have changed.
    I think the conditions--I mean, we have talked about all of 
the push factors. I have seen these reports. People are 
fleeing, you know, difficult conditions, they are reuniting 
with family in the United States, they are fleeing economic 
uncertainty and failed governments both locally and nationally.
    Mr. Perry. So the conditions that you are talking about, 
the crime, the uncertain conditions, the poor conditions 
economically, what has changed dramatically, because would you 
admit that the numbers have increased dramatically?
    Chief Vitiello. There is no doubt about that.
    Mr. Perry. So is there a corresponding increase 
dramatically in poorness of conditions in these countries south 
of the border to correlate?
    Chief Vitiello. I just don't know. I mean, I think it has 
been a while that those conditions have existed.
    Mr. Perry. Yes, it has been a while, right?
    So my concern is there is some narrative here that seems to 
be perpetrated among--upon the American citizens that somehow 
things have exponentially decreased south of the border and 
that is counterpart to this exodus south of the border into the 
United States. That is what is causing it. I am not sure it is 
true. You don't know at this time of any metric that would 
support that.
    Chief Vitiello. I don't--not in metrics.
    Mr. Perry. So do you think that there is any difference in 
our policy? I would agree with the remarks of Mr. Barletta that 
a Congress that has implied that wholesale amnesty might be in 
order if you make it across the border.
    But are there any other policies from the administration or 
otherwise that might be contributing to this circumstance 
currently on the border?
    Chief Vitiello. I think that we are addressing in the broad 
spectrum all of the things that I believe will help make this 
better.
    Mr. Perry. I understand. But is there any particular policy 
that might be--you know, whatever the numbers are, 5,000 to 
38,000 to 65,000, is there anything that you can think of that 
support it?
    Chief Vitiello. I am not sure I would categorize it as 
policy. I think that we have struggled not to have a sufficient 
level of, you know, in this case, detention for people who 
bring their children across the border.
    Then, as it relates to the unaccompanied children, the law 
dictates how they are processed, both in the initial for book-
in and deportation proceedings, and then turning over to HHS--
--
    Mr. Perry. I understand that, but what has changed to drive 
so many to come recently? What has changed?
    Chief Vitiello. I am not sure.
    Mr. Perry. Okay. I am not sure. I am not sure either, but I 
think our policy has changed. The public perception that you 
can come here and stay has changed.
    Chief Vitiello. I have seen those reports.
    Those are reflected in the intelligence we have collected. 
It is in the open----
    Mr. Perry. It is not reflected? It is not reflected?
    Chief Vitiello. No, it is reflected.
    Mr. Perry. It is reflected.
    Chief Vitiello. It is in the open-source reports.
    Mr. Perry. So has human trafficking also gone up as a 
result of these increased numbers?
    Chief Vitiello. I am not sure it has gone up. Populations 
have gone--have increased, which leads me to believe that 
smuggling has increased as well.
    Mr. Perry. All right. Mr. Secretary, I have got to move on. 
I appreciate your answers.
    Regarding the 29 January advertisement for escort services, 
I understand you were on the job for about a month. So, you are 
somewhat unaware. Do you know what drove that policy decision? 
Do you have any idea? To advertise.
    Secretary Johnson. I haven't seen the document.
    Mr. Perry. All right, I am gonna provide it and have it----
    Secretary Johnson. I believe it is a recruitment document.
    Mr. Perry. There are a couple points of contact, Mr. Tony 
Ross and Rachel Ali. If you could in writing respond to me 
about what the policy decisions were that drove the 
advertisement.
    Do you know if this is unprecedented? Have we advertised 
for these escorts in the past? If not, why not? If now, why 
now?
    Secretary Johnson. I would have to see the----
    Mr. Perry. All right. I yield back, but I would like those 
answers in writing. Can I get a commitment to get them?
    Secretary Johnson. I always believe in being responsive to 
Congress.
    Mr. Perry. Thank you, Mr. Chairman. Yield back.
    Chairman McCaul. The Chairman recognizes the gentlelady 
from New York, Ms. Clarke.
    Ms. Clarke. Thank you, Mr. Chairman.
    I want to thank Mr. Secretary, Honorable Fugate, Mr. 
Vitiello for your testimony here today. It has been very 
enlightening. I want to thank you for your thoughtful approach 
to really handling a multifaceted, multidimensional, very 
complex crisis.
    There are a lot of moving parts here, and it is clearly 
something that we have to work with in terms of as a work in 
progress.
    I was glad to hear about the diplomatic component to what 
you are doing in terms of reaching out to El Salvador, 
Honduras, Guatemala.
    My question is a logistical one, similar to the one Mr. 
Vela raised, which is: What, exactly, do you anticipate in 
terms of the logistical challenge of reuniting children who 
don't have any relatives in the United States? How do we work 
with embassies, consulates to reunite children from various 
countries with their parents back home? How do we identify 
that? Have you given thought to that as of yet?
    Secretary Johnson. Well, once the child is identified as an 
unaccompanied child, the law requires that DHS turn the child 
over to HHS. So your question really goes to HHS----
    Ms. Clarke. Okay.
    Secretary Johnson [continuing]. And their process, which I 
am not fully equipped to answer. But they have a process of 
identifying a family member and acting in the best interest of 
the child.
    Ms. Clarke. Very well. I just wanted to get a sense, 
because I can imagine it is a daunting task.
    I did want to comment for the basis of this hearing, that I 
find it troubling that we would want to move a military 
operation, such as the National Guard, to our borders to 
address unaccompanied minors.
    I just want to put that on the record, because we can't say 
it is a humanitarian crisis on the one hand--and I think just 
about every colleague has acknowledged that--and then want to 
put arms on the border to meet children who are fleeing clearly 
untenable situations in their homelands.
    Do you have a sense of the average amount of children 
coming in daily and which nations, what percentage are coming 
from what nations?
    Secretary Johnson. In the Rio Grande Valley sector, where 
almost all of this is occurring, we are encountering about--the 
number varies, but we are encountering lately about 350 a day.
    Ms. Clarke. Do you have a sense--are they--I mean, do you 
get a sense that they are being--for instance, if they are 
being smuggled, are they children from varying countries, or 
are they typically grouped by country?
    Secretary Johnson. Honduras, Guatemala, El Salvador.
    Ms. Clarke. So you could conceivably run into children 
traveling together, but from different countries?
    Secretary Johnson. I am not sure about that. I am not sure 
about the--how they configure themselves in these groups. I do 
know that something like three-quarters of them are from 
Honduras, El Salvador, Guatemala.
    Ms. Clarke. Okay. I would be interested, Mr. Secretary, if 
we could drill down at some point to get a better sense of, you 
know, which countries seem to have larger percentages of 
children coming in.
    If, Mr. Vitiello, if you could get a sense of, are these 
children meeting in the desert? Are they meeting on railway 
cars? Because at least what we are seeing from the press is 
that the children tend to gravitate and come across together, 
so you are not seeing, like, individual kids, necessarily, but 
children traveling together?
    Secretary Johnson. Well, they very clearly come in groups. 
They are herded, shepherded by a civilian guide, by a guide, at 
various points along the journey, that is part of the smuggling 
organization. It starts at the point of origin in Central 
America and it goes through Mexico. So they are clearly 
traveling in groups. They are not traveling alone.
    The numbers are roughly equivalent among the three 
countries. Honduras might be slightly larger than the other 
two, but they are roughly equivalent.
    Ms. Clarke. Very well.
    I yield back, Mr. Chairman. I thank you once again.
    Chairman McCaul. Thank the gentlelady.
    Mr. Palazzo is recognized.
    Mr. Palazzo. Thank you, Mr. Chairman.
    As an active member of the National Guard, I see first-hand 
the importance of the National Guard supporting our armed 
forces as we protect our country. As Guard members return from 
overseas, many of them stand ready and willing for their next 
mission.
    As many of my colleagues have pointed out today, the 
National Guard can play a pivotal role in securing America's 
borders. We have seen successful Guard missions in the past 
with Operations Jump Start, Phoenix, and Nimbus.
    Last year I called on the Department to use the National 
Guard to help secure the border. In May 2013, I offered an 
amendment in this committee to the Border Security Results Act, 
which would ensure that DHS considers lessons learned from past 
National Guard missions on the border. Both the current and 
previous administrations have used the National Guard on more 
of a short-term, ad hoc basis rather than on any long-term, 
strategic plan.
    Secretary Johnson, wouldn't it be beneficial for the 
Department to partner with the National Guard and develop a 
long-term strategy for the Guard to assist along the borders? 
Wouldn't it be the borders would be more secure if we had a 
well-planned, budgeted strategy that consistently uses the 
Guard members rather than just using them sporadically?
    Secretary Johnson. Congressman, first of all, I want to 
consider every option to deal with this circumstance. I take no 
lawful option off the table.
    As I am sure you know, the Guard has limitations, including 
Posse Comitatus: A Guard can't be involved directly in law 
enforcement. There are some exceptions to that. The Department 
of Defense obviously has a lot to say about this, too. It is 
their resource. It comes out of their budget. There are a lot 
of demands on the Guard, particularly in this season. You know, 
we are dealing with hurricane season. There may be different 
crises they respond to.
    But, I have heard the calls from some that we put the Guard 
on the border. I would want to understand better what the 
options are for the use of the Guard depending on the direction 
of this situation takes. But I don't take any option off the 
table. But there are definitely some limitations on the use of 
the Guard in this respect, I think, and we have to be mindful 
of those.
    Mr. Palazzo. Mr. Vitiello, I mean, you have been with the 
border protection for awhile, were you a part of any of these 
Guard missions in the past? Can you comment on whether there 
are pros and cons?
    Chief Vitiello. So, yes, we have had a great relationship 
over the years with the National Guard in Operation Jumpstart 
and the on-going Operation Phalanx Now, in where we use 
National Guard resources to do things like surveillance and 
sensor response, or sensor monitoring for us. It is not without 
its challenges.
    We were blessed to have the Guard when we were building the 
new 6,000 agents, and it gave us a bridge to more capability on 
the ground. We learned from them in the resources that we are 
reusing from DOD as they come back from theater and are pressed 
into service for border security. So, we have learned a lot 
from them in all manner, with regard to plans, strategic 
deployments, et cetera.
    But having the Guard on the border has some limitations, 
and this work is best done by law enforcement agents. In my 
opinion, learning from the Guard, there are some things that 
they can do. I think the Secretary is right to keep our options 
open. But as it relates to this particular problem, where it is 
most acute in the Rio Grande valley, it is not a challenge to 
arrest people who come as children or families with children. 
The other zones along the Southwest Border and in south Texas 
are well-patrolled and are either better equipped than they 
were last year or just as well-equipped as they were last year.
    Mr. Palazzo. All right. Well, I think originally, when I--
last year, it was suggesting the amendment was to ask DHS to 
study the lessons learned. It was to look in it. Don't take any 
option off the table. But the Guard has been basically 
sustaining combat missions, humanitarian assistance missions, 
disaster relief for the past 12 years. They have proven that 
they can multi-task and do numerous things. I still believe it 
is much more cost-effective and efficient to surge the Guard to 
the border, get the operational control, and work them into 
your plan.
    They are going to train somewhere every year, and you can 
rotate them in, you can rotate them out. Fix the issues. Figure 
out what they could do. To Congressman Clarke's issue, yes, we 
don't want kids walking across the border and being met with 
guns, but I don't think they would be met with guns. There are 
probably other agencies, non-profit or Federal groups that 
could be out there.
    But you know, our borders are dangerous. People are--
because we don't have control over our borders, we don't know 
what is coming across. But we do know there are drug cartels, 
there is gun running, there are drugs, and you know, that would 
be an other mission. It could be an escort mission. It could be 
a rove-and-patrol. It could be a communications. It could be 
providing the necessary assistance. Because I don't think it 
would be wise to expand the full-time employees of the Border 
Protection Agency. I don't think the American people want to 
see more Federal law enforcement agencies when they have this 
tool, this cost-effective tool at its fingertips.
    So, I would just want to urge Mr. Secretary to really 
consider this. I know every member of the National Guard that I 
served with would love the opportunity to secure our borders. 
The American people want to know that our borders are secured 
and that we are safe and sound. So, thank you for being here 
today. Yield back.
    Chairman McCaul. The Chairman now recognizes Mr. Barber, 
from Arizona.
    Mr. Barber. Thank you, Mr. Chairman, and I want to thank 
you for convening this hearing on this very important issue, 
this crisis that we are facing on our borders, particularly in 
Texas and Arizona, and thank you, Mr. Secretary and the other 
witnesses for being with us this morning.
    My State is directly affected by the influx of these 
children from Central America. We have the Nogales Border 
Patrol station, which is in my neighboring district, but 
nevertheless, the impact is felt throughout southern Arizona. I 
share the concern of many of my colleagues, virtually all of us 
have either children, young children, or grandchildren, and we 
can imagine what it must be like for these children to be in a 
strange environment without their family members. I just want 
to say that I have seen what our Border Patrol Agents are 
doing, and they are doing a noble job trying to keep up with a 
very difficult situation.
    The cartels are exploiting the situation in many ways. I 
want to get to a question about that in a moment. I am very 
concerned about the influx and what implications it has, Mr. 
Secretary, for the security of the border. I represent one of 
nine border districts, 83 miles of border. The people who I 
represent, particularly those who live and work along the 
border, are really concerned about their safety. The concern 
that they have expressed to me is that as Border Patrol Agents 
have been pulled into the Nogales station in particular to care 
for these children, we have compromised their ability to secure 
the border and to keep people safe.
    Right now, we have about 1,200 kids, I believe, at the 
Nogales--in the Nogales community. They have been moved from 
the Border Patrol station into a warehouse where they are 
trying to accommodate the need. We have estimated that maybe 
60,000 unaccompanied minors will be coming and be apprehended 
this year. As I said before, the Border Patrol Agents, many of 
whom are family members, have children, have been bringing in 
books, have been bringing in toys, bringing in diapers, caring 
for these children. Clearly this is not their job, but this is 
what they are doing.
    So, Mr. Secretary, three questions: First of all, how many 
unaccompanied minors are still in CBP custody as we speak, and 
how many of them are in custody in the Tuscon sector? Let me 
start with that question, and then I will move on to two 
others.
    Secretary Johnson. Well, first of all, I am going to 
Nogales tomorrow to inspect the situation there. One of the 
things I will be asking is the question you asked. Are we 
having to divert Border Patrol personnel from their Border 
Patrol duties? That is very important to me that we minimize 
the circumstances of that. The capacity at Nogales, I think is 
about 1,200. It is near capacity, with unaccompanied children. 
We were at one point sending family units there. We are not. We 
are just sending the unaccompanied children there. From that 
point, they go to HHS custody.
    Overall, children apprehended in the Rio Grande Valley 
sector, I don't have the--that are in-custody right now, I 
don't have the number off-hand. It is probably--I don't have 
the number off-hand. I wouldn't want to hazard a guess, but I 
can get that to you.
    Mr. Barber. Very good. Well, I appreciate the fact that you 
are going to be asking about the impact that the agents being 
asked to come to Nogales to staff up for these children, what 
effect that is having on border security. I have been in touch 
with people who live and work along the border of ranchers and 
in fact have heard from some agents about the fact that they 
have been pulled off shifts, that we have less agents on the 
ground that are helping to secure the border, so Mr. Secretary, 
if you could get back to us with some information about how 
many have been pulled and what the impact is.
    Let me just close with this one question. It is a comment 
and a question. I have been particularly discouraged by the 
fact that virtually nobody in Arizona knew that these children 
were coming. I found out about it through the newspaper. The 
local sheriff found out about it the same way. Even the sector 
chief found out about it as the children were arriving. What 
steps is the Department taking to make sure that if we have any 
additional transfers like this, that local authorities and 
officials are properly identified?
    Secretary Johnson. Well, first of all, it shouldn't have 
happened that way. The Congressional delegation, local 
officials, should have gotten notice that this situation 
necessitated that we extend our processing to Nogales, and I 
have instructed my staff that when we have to go to these 
places, we give the Congressional delegation and local 
officials advance information about that.
    Mr. Barber. Thank you, Mr. Secretary. Thank you for what 
you are doing to keep up with this terrible situation. I 
particularly want to thank our Border Patrol Agents for what 
they are doing every day. I yield back.
    Chairman McCaul. Chairman recognizes Mrs. Brooks, from 
Indiana.
    Mrs. Brooks. Thank you, and thank you again, Mr. Chairman, 
for holding this very important hearing, and thank you all for 
your service.
    My question I want to follow up on the smuggling questions 
and actually, to Chief Vitiello, could you please talk with us 
a little bit about additional resources that are being provided 
to you all to prosecute the smugglers, and has there been an 
increase in prosecutions of smugglers in the last 6 months?
    Chief Vitiello. I would have to get back to you for 
specifics on, you know, prosecution cases in the last 6 months. 
But we have surged our own resources to develop leads for case 
work to understand what we know or what we can know more about 
alien smuggling networks.
    ICE has also--ICE, the Homeland Security Investigations 
group, has also surged resources at this problem for the same 
purpose, for them to increase their level of case work looking 
at smuggling networks.
    Just to the point on--as it relates to Border Patrol 
resources, the Nogales Placement Center is being conducted on 
agent overtime. We have added overtime in all of the locations 
that have helped us process folks whether it be Nogales or El 
Paso and certainly in the Rio Grande Valley.
    Mrs. Brooks. So smuggling operations have been going on for 
years and years. This is not new. I am a former U.S. attorney 
in the Bush administration. We did smuggling cases.
    But this is at unprecedented levels is what it seems, 
particularly obviously with children.
    What are the smuggling operations? What is your 
intelligence telling you? What kind of groups?
    Is it MS-13? Is it Barrio 18? Is it the gangs that have 
developed smuggling organizations and is that really what is 
bringing these groups in?
    Chief Vitiello. I think that over the years, over the last 
several years, the sophistication of smuggling networks and 
their connectivity to cartels has been a concern for quite some 
time.
    The work that we have from the field intelligence reports 
that have been generated to our office suggest that people 
contract smugglers both in the point of origin. Sometimes they 
wait until they are in, you know, the--Mexico. Sometimes they 
wait until they are at the border.
    But that is the kind of thing that we recognize. Post-
arrest interviews give us information. We look for indications 
for intelligence in things like pocket trash, develop phone 
numbers and then pass those leads in the local sense to the 
interagency and then certainly to Homeland Security 
Investigations to follow up and try to attack those networks as 
they bring folks in.
    Mrs. Brooks. Do you have any idea from the young people 
that you have interviewed how many kids have died?
    Chief Vitiello. I don't have any direct information about 
that.
    Mrs. Brooks. Do we have any information about any children 
who have died or are missing?
    Chief Vitiello. Not specifically.
    I mean, I think that, you know, we recognize that this 
journey is a very difficult one. Certainly at the border over 
the years, we have seen people fail in their attempt by 
succumbing to the elements and I don't think it would be 
different for this population.
    Mrs. Brooks. Mr. Secretary, as you have indicated, there is 
a public relations campaign that you initiated.
    Are we talking about increasing prosecutions or--of 
smugglers in Central America so that we can create that 
deterrent effect and let people know that they are being 
prosecuted, what the penalties are and that we are actually 
catching any of the smugglers if we are?
    Maybe we, in our law enforcement resources or working with 
the Mexican authorities, are not being successful in our 
smuggling prosecutions; I am curious whether or not we are 
talking about that at all.
    Secretary Johnson. The answer is yes.
    I would like to add to what the deputy chief said. Homeland 
Security Investigations, which is part of ICE, has been surging 
resources to deal with the smuggling organizations. In the 
month of May, they made something like 163 arrests of so-called 
smugglers and I have directed that we add resources to that. 
The Department of Justice is also adding resources to this 
effort.
    I think the key is the money trail because the money trail 
often originates in the United States. So if we can track the 
money, we can stop the flow of money that goes to pay these 
organizations to smuggle the kids, we go a long way to dealing 
with this problem.
    Mrs. Brooks. Are you publicizing the prosecution of 160 
individuals, which I would commend you for the month of May in 
Central America, you know, letting everybody know who has been 
arrested and what has happened?
    Secretary Johnson. It is in our interest to do that, yes.
    Mrs. Brooks. With respect--and I have grave concern that 
the groups like MS-13, which are growing in this country, are 
bringing these kids in who now owe MS-13. Would that be 
correct? They owe them a bit of debt for bringing them into 
this country.
    Is that fair to say, Chief Vitiello?
    Chief Vitiello. It is often the case that people contract 
with smugglers without a payment up-front. So that is a 
concern.
    Mrs. Brooks. So now these young people are coming into our 
communities owing the gangs some debt. Would that be correct?
    Chief Vitiello. It is important for us to know who is 
responsible for the smuggling and recognize where the networks 
are in all three countries.
    Mrs. Brooks. I certainly hope we keep track of them in our 
country.
    Thank you. I yield back.
    Chairman McCaul. Let me say to the gentlelady's point, this 
committee will be introducing an anti-smuggling bill in the 
near future.
    Mr. Sanford is recognized.
    Mr. Sanford. Yes, sir.
    Mr. Vitiello, thank you for your testimony.
    Mr. Fugate, you have been incredibly patient during this 
testimony because a lot of questions haven't been oriented 
towards you. But given the fact we are in hurricane season and 
I am from the coast, I will be calling.
    To you, Mr. Secretary, I am a huge fan. You know, the 
things you have done in the United States military, I think, 
just incredible.
    I have been watching you over the last couple hours during 
testimony. I wrote down bearing of a military officer, verbal 
dexterity of a Philadelphia lawyer, and decisiveness of a CEO.
    Secretary Johnson. I don't know where you get Philadelphia 
lawyer----
    Mr. Sanford. So I am a big fan.
    But in the few minutes I have, I am going to ask a couple 
of fairly pointed questions. I would ask that you answer them 
as quickly as possible so I can run through my quick 5 minutes, 
all with the caveat of I am a big fan. Fair enough?
    Secretary Johnson. Okay. Yes, sir. Here it comes.
    Mr. Sanford. Okay. You know, going back to being a pup 
lieutenant way back when, it just strikes me that, you know, as 
you guys set up a perimeter in the military, it is not a 
conditional perimeter. It is not contingent on what Mexico 
might do or Pakistan might do; it is an absolute perimeter.
    I think one of the things that the American public is 
thirsting for is the same kind of decisiveness and reality they 
see in the military in a perimeter that isn't breached on the 
Southern Border. Why can't we have that in short form?
    Secretary Johnson. Well, first of all, you have to realize 
these kids probably want to get caught. In some cases, as----
    Mr. Sanford. Well, not want to. I am mean, they are running 
to officers.
    Secretary Johnson. They will run to the nearest officer and 
say, ``Here I am.''
    Mr. Sanford. Right.
    Secretary Johnson. So you have to ask, you know, will an 
increased border presence deter that?
    Mr. Sanford. I guess let me phrase again because I only 
have a couple minutes.
    Should we have a border that is in essence conditional? 
Because part of the testimony was based on what we might get 
Mexico to do, what we might not get Mexico to do, or what we 
might get Guatemala to do.
    Shouldn't it be as at least a goalpost, an absolute rather 
than a conditional border?
    Secretary Johnson. We need to have secure borders, 
absolutely, if that is your question. We need secure borders.
    So one of the things that I have tried to do here in my 
testimony is lay out all the things we are doing to deal with 
this situation, which not only involves processing the kids but 
turning the tide around.
    Mr. Sanford. But I mean, part of what we are doing now, I 
mean--because I think that there is a real difference between 
words and actions and a lot of our actions have been absolute.
    I mean, I think that our words have been absolute. I mean, 
the words that you used were, ``We are going to bring to bear 
all assets of the Federal Government.''
    I think that most people don't believe that. They believe 
that if we brought to bear all assets of the Federal 
Government, we could have a secure border.
    Secretary Johnson. Well, let me say this. I am going to say 
what I said before. I want to know every option, and I want to 
consider every option. I am prepared to seriously consider 
every lawful option----
    Mr. Sanford. No. We have been here a couple hours so I 
understand.
    But I guess going to the point though of as a strategy--I 
mean, you are an able, fit guy, military guy. As a strategy, if 
you loved your kid and wanted to get him in America, wouldn't 
you send the kid first and given our present policy of 
nondeportation and sending them to a family somewhere domestic 
in the United States, get them secure?
    Then you would be able to evade and move and maybe get into 
the border on your own and then get reunited with your family.
    Secretary Johnson. I have to tell you, I--the conditions 
for me to--my kids are 18 and 19. But the conditions for me to 
part with them when they were 8 or 9 and say, ``Go have this 
thousand-mile journey and I will see you later,'' would have to 
be pretty dire before I would give up the responsibility for--
--
    Mr. Sanford. If I am not mistaken, I think a billion people 
around the earth live on like a dollar a day or some 
astoundingly low number. I don't remember the exact statistic.
    But I mean, I think there are a number of dire 
circumstances around the globe, which goes back to conditional 
versus an absolute border.
    One last question since I am out of time. I think that, you 
know, there was frequent reference to ``I don't think the law 
allows me to send an unaccompanied minor home.'' My question to 
you would be which comes first, the law or the Constitution? 
Because as I read through the 14th amendment, I think the 
Constitution is fairly clear on what citizenship entails.
    Secretary Johnson. Well, let me be clear. I don't believe 
that the law would allow us to send an unaccompanied child home 
in an expedited removal proceeding.
    They are given notices to appear. Deportation proceedings 
are begun when they are apprehended.
    Mr. Sanford. But for practical purposes, as the testimony 
with you on the other hand suggested once they are here, they 
are here? You didn't refute that.
    Secretary Johnson. Well, the law requires that once a child 
is identified as unaccompanied, CBP has to give them to HHS, 
and they do what is in the best interest of the child. That is 
what the law passed by the Congress requires.
    Mr. Sanford. Understood, and I am out of time 
unfortunately. I know you have to go, but thank you very much 
for your testimony, sir. Yield back.
    Chairman McCaul. Thank you. Let me thank the witnesses for 
your testimony.
    Mr. Secretary, let me personally thank you for showing up 
on such a short notice on such a very important issue. I know 
you didn't create this. You inherited this. I know you are 
working hard to resolve it, and I pledge the support of this 
committee to work with you towards that effort. With that--
Members may have additional questions in writing.
    Without objection, this committee stands adjourned.
    [Whereupon, at 12:31 p.m., the committee was adjourned.]



       CRISIS ON THE TEXAS BORDER: SURGE OF UNACCOMPANIED MINORS

                              ----------                              


                         Thursday, July 3, 2014

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                       McAllen, TX.
    The committee met, pursuant to call, at 12:00 p.m., at 
South Texas College, Technology Campus, Room 193, Building B 
Auditorium, Hon. Michael T. McCaul [Chairman of the committee] 
presiding.
    Present: Representatives McCaul [presiding], Broun, and 
Jackson Lee.
    Also present: Representatives Granger, Green, Olson, 
Farenthold, Ellmers, Salmon, Barletta, Swalwell, and Vela.
    Chairman McCaul. The Committee on Homeland Security will 
come to order.
    The committee is meeting today in McAllen, Texas to examine 
the crisis on the Texas-Mexican border regarding unaccompanied 
children.
    First I would like to thank everybody, including the 
witnesses and Governor Perry, for being here today.
    I also would like to thank South Texas College for their 
hospitality in hosting us here today, and Dean Mario Reyna as 
well.
    I appreciate the effort taken on behalf of all those 
involved to have this important field hearing.
    This is an official Congressional hearing, as opposed to a 
town hall meeting, and as such, we must abide by certain rules 
of the Committee on Homeland Security and the House of 
Representatives. I kindly wish to remind our guests today that 
demonstrations from the audience, including applause and verbal 
outbursts, as well as the use of signs or placards, are a 
violation of the rules of the House of Representatives. It is 
important that we respect the decorum and the rules of the 
committee.
    I have also been requested to state that photography and 
cameras are limited to accredited press only.
    Before I recognize myself for an opening statement, I ask 
unanimous consent that the gentlewoman from Texas, Ms. Granger; 
the gentleman from Texas, Mr. Gene Green; the gentleman from 
Texas, Mr. Olson; the gentleman from Texas, Mr. Farenthold--it 
is good to have a lot of Texans here today--the gentlewoman 
from North Carolina, Mrs. Ellmers; and the gentleman from 
Arizona, Mr. Salmon, be permitted to sit on the dais and 
participate in today's hearing; and the gentleman from 
Pennsylvania, Mr. Barletta, as well.
    Without objection, so ordered.
    I also ask unanimous consent that a written statement from 
Texas Border Coalition be included into the record.
    Without objection, so ordered.
    [The information follows:]
                Statement of the Texas Border Coalition
                              July 3, 2014
    Chairman McCaul and Members: Thank you for this opportunity to 
submit my statement on behalf of the Texas Border Coalition. Our 
concern is the urgent need for collaboration with local community 
leaders who understand this region, as Federal and State officials 
respond to the current humanitarian and security situation here on the 
border. Only by working closely with border communities can any State- 
or Federal-level response hope to be successful.
    The Texas Border Coalition is made up of elected and business 
leaders who strive to speak on behalf of 2.1 million Americans in 17 
border counties of the 1,250-mile Texas-Mexico border. Ours is a region 
of contrasts, exhibiting differences and similarities of language, 
culture, tradition, and economy. The multi-national, multi-cultural 
nature of our communities on both sides of the international boundary 
gives our region a distinct sense of place.
    The Texas Border Coalition welcomes your committee to the border 
region today, even for the solemn purpose of this hearing. Those of us 
who live, work, and raise our families here experience daily the 
tremendous vitality of our border communities, and we welcome each of 
you to experience a little of the region we call home. However, all too 
often the attention of State and Federal officials only turns our way 
in times of real or perceived crisis. And so it is today.
    There is a humanitarian and security crisis in progress here, and 
although it has only recently captured the attention of the National 
media, this situation has been unfolding for over a year. In recent 
months, tens of thousands of unaccompanied minors, some heartbreakingly 
young, have entered the United States illegally. Most of them have 
travelled here from Central America. They are lured by the mistaken 
belief, partly spread by criminals who profit from their journey, that 
they will be allowed to remain in the United States. Some of the 
youngest are with their mothers and some have relatives in the United 
States, but most of these children are totally alone.
    There are those who argue that the influx of illegal child 
immigrants proves the failure of border security, but that argument 
misses the point. Unlike other undocumented immigrants, these children 
are not trying to hide. As soon as these children enter U.S. territory, 
they are eager to turn themselves in to the authorities, because they 
believe what the traffickers have told them; they believe the 
Government will let them stay.
    To the contrary, many of them are housed in deplorable conditions 
in our summer heat or dropped off at a bus station to find their way to 
relatives, in preparation for legal proceedings to determine whether 
they can be deported back to their home countries.
    So now they're here, and you're here. The Rio Grande Valley, which 
is my home and has been all of my life, is probably just about as 
foreign to many of you as it is to the Central American children. But 
to our local business and community leaders, this is home. Leaders like 
my neighbor and fellow TBC member Mayor Jim Darling of McAllen, whose 
community has responded swiftly and generously to the needs of these 
Central American children and families. Our local and county leaders 
know our border region like you know your home towns, and we can and 
should play a crucial role in the State and Federal response to this 
situation.
    I urge you to form a partnership with local and county elected 
leaders, local law enforcement agencies, business leaders and our faith 
community to find real solutions to the influx of immigrant children. 
This does not need to be, and should not be, a formal, bureaucratic 
process that takes months to convene. The problems are too pressing. We 
need a straightforward collaborative process that gets local leaders to 
the table with State and Federal decision makers to develop practical, 
real-world solutions to these problems. And we need to figure out a way 
to fairly compensate the communities that shouldered the burden.
    Texas Border Coalition is on the record in many different forums 
about the dire need for more investments at the border crossings to 
increase manpower, upgrade technology, and modernize infrastructure. We 
welcome Congressional interest in expenditures on border security in 
response to the flood of children from Central America. However, 
without immediate and on-going collaboration with local border 
communities, the proposed billions in Federal tax dollars for 
``aggressive deterrence,'' and State and Federal law enforcement 
resources require local collaboration and local knowledge of the needs 
of border communities to be successful.
    We suggest dealing immediately with the crisis that confronts the 
children trekking here from Central America. Our communities have been 
working closely with other local governments, law enforcement agencies, 
community groups, and faith partners to make sure we can continue to 
aid the humanitarian effort. I am proud of these efforts and the 
contributions of many of our citizen volunteers and donors.
    Congress needs to craft solutions that deal with the long-term 
problems that underpin this situation. For example, U.S. efforts to 
partner with the Mexican government to help improve their economy have 
helped reduce the numbers of Mexicans seeking illegal entry into our 
country. We should do the same with Central American nations to improve 
their economy and security situations.
    Congress also needs to deal with a failed immigration system that 
fosters lawlessness. TBC recognizes the difficulty of the task, both in 
term of policy and politics. However, the reality remains that until 
you tackle immigration reform, no amount of security spending is going 
to achieve your desired ends.
    Thank you again for travelling to our border home and for your 
interest in finding solutions for the current situation. The Texas 
Border Coalition stands ready to partner with State and Federal 
officials to craft practical solutions that fit border communities and 
relieve human suffering, while making smart, effective improvements to 
border security. We look forward to working alongside you to resolve 
this crisis.

    Chairman McCaul. I now recognize myself for an opening 
statement.
    Here in Texas, we are facing an escalating refugee and 
National security crisis. Since October, more than 50,000 
unaccompanied minors have crossed our Southern Border into the 
United States. Nearly two-thirds of those crossed here, right 
here in the Rio Grande Valley Sector. CBP estimates that next 
year more than 150,000 unaccompanied children may attempt to 
cross the U.S.-Mexico border.
    These children are being exploited by the drug cartels who 
are turning a profit by smuggling these kids into the United 
States at a cost of $5,000 to $8,000 per child. Many are under 
the age of 10, traveling thousands of miles along through 
Mexico from Central America on buses or so-called ``death 
trains.'' These children are often subjected to beatings, 
starvation, sexual assault, and are at risk of being 
trafficked. As a father of five, I cannot fathom handing my 
child over to a criminal element and setting them out on this 
long and dangerous passage.
    When they arrive in the United States, they are told to 
turn themselves in to the nearest Border Patrol Agent. Border 
Patrol stations like the one we saw here today in McAllen 
become holding facilities until these minors can be moved to 
Lackland Air Force Base in San Antonio or another appropriate 
shelter. But the point is our military bases are turning into 
refugee camps. I never thought I would see this in the United 
States of America.
    We saw three children younger than my kids--7, 8, and 9--
with their grandmother, mothers in Pennsylvania, all in tears, 
crying. I have to say on a personal level what an impact that 
had for me to see that just as a human, and the human, 
compassionate element to this. But I believe it is our policies 
driving this migration into the United States.
    It is obvious that the Department of Homeland Security is 
currently not adequately prepared to deal with this influx of 
unaccompanied children. This has left State and local officials 
to fill the void, and it takes the Border Patrol away from 
their main mission, and that is securing the border.
    This week, the White House started a process to request 
additional funding and measures to address this crisis, 
including the additional authority to remove these Central 
American children as well. In addition, the White House wants 
to enhance penalties for smuggling children, similar to 
legislation that I introduced last week. I look forward to 
reviewing the details of the President's request.
    To fix this crisis, the administration must first recognize 
that its failed immigration and border policies are the source 
of this problem. At the hearing I held in Washington last week, 
the committee heard repeatedly that the horrible economic 
conditions and violence in Central America were the only reason 
why these children are coming. No one questions the fact that 
the circumstances in these countries are terrible, but these 
conditions are not new and they have not suddenly gotten worse.
    What is new is a series of Executive Actions by the 
administration to grant immigration benefits to children 
outside the purview of the law, a relaxed enforcement posture, 
along with talk of comprehensive immigration reform. Just this 
week, the President defiantly vowed to take more administrative 
actions on immigration very soon. Such unilateral actions and 
failed policies, in my judgment, are what caused this dire 
situation here in Texas in the first place, and could cause it 
to be worse. The message these policies are sending is that if 
you come, you can stay. This makes its way back to Central 
America, and more children are being put in the arms of the 
cartels. In fact, newspapers there seem to be encouraging 
illegal immigration based on these policies, and recent 
internal DHS surveys of these children reveal that more than 70 
percent believe they are going to remain here in the United 
States.
    In some ways, this is true. While these kids and families 
are given notices to appear, the reality is that it will take 
years to work through the immigration system. To break this 
cycle, we need to send a message of deterrence: First, 
mandatory detention; and then we should explore ways to 
properly return those who come here illegally. Not doing so 
puts more young lives at risk of exploitation, like the 
children we saw here today.
    In addition, we should also better engage with the 
government of Mexico to step up their efforts to secure their 
southern border. We appropriate millions of dollars to Mexico 
for this purpose. The problem begins with Mexican officials who 
turn a blind eye to Central Americans who cross the porous 
Mexican border, and I urge the president of Mexico at this 
hearing, and his interior minister, to get serious about 
securing their southern border as well.
    Securing the border is the obligation of the Federal 
Government. States should not be required to protect what is 
the Federal Government's responsibility under our Constitution. 
But in spite of that, Governor Perry has boldly recently 
announced that he will surge border security operations along 
the border to make up for the administration's failures. The 
President needs to immediately send the National Guard to the 
Southwest Border to free up Border Patrol Agents so they can 
perform their primary mission, and that is securing the border.
    Drug cartels and other criminals have and will continue to 
exploit any weakness in our border security efforts. We must 
stem the flow and stop children from being subjected to this 
dangerous and sometimes fatal journey.
    I look forward to hearing from Governor Perry and our other 
witnesses here today about the situation on the ground and what 
more DHS and the administration and the Congress can and should 
be doing to address this problem. The details from today's 
hearing will be incorporated into the findings of the Speaker's 
Working Group chaired by Congresswoman Kay Granger and 
established to investigate and make recommendations in a 
solution-oriented way to address this crisis.
    Finally, we saw the heroic actions of our Border Patrol 
here today. I have seen them over my countless years of dealing 
with this issue, trying to resolve this issue, and I just want 
to thank them for their efforts day in and day out in what is 
oftentimes a thankless job for what I would consider to be the 
heroes that we have alongside our Southwest Border, and also 
for the compassion and the care that they provide these 
children crossing. I can only imagine, as a father and as a 
human, what runs through their minds on a daily basis dealing 
with children and oftentimes babies that we are finding at 
these detention centers.
    So thank you not only for myself, but I know I speak on 
behalf of this entire delegation. We thank you for your heroic 
efforts.
    [Applause.]
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                              July 3, 2014
    Here in Texas we are facing an escalating refugee and National 
security crisis. Since October, more than 50,000 unaccompanied minors 
have crossed our Southern Border into the United States--nearly two-
thirds of those crossed here in the Rio Grande Valley. CBP estimates 
that next year more than 150,000 unaccompanied children may attempt to 
cross the U.S.-Mexico border.
    These children are being exploited by the drug cartels who are 
turning a profit by smuggling these kids to the United States at a cost 
of $5,000 to $8,000 per child. Many are under the age of 10, traveling 
thousands of miles alone through Mexico from Central America on buses 
or so called ``death trains.'' These children are often subjected to 
beatings, starvation, sexual assault, and are at risk of being 
trafficked. As a father of five, I cannot fathom handing my child over 
to a criminal and setting them out on this long and dangerous passage.
    When they arrive in the United States, they are told to turn 
themselves into the nearest Border Patrol Agent. Border Patrol 
stations, like the one we saw here in McAllen today, become holding 
facilities until these minors can be moved to Lackland Air Force Base 
in San Antonio or another shelter. Our military bases are turning into 
refugee camps--I never thought I would see this in America.
    It is obvious that Department of Homeland Security is not 
adequately prepared to deal with this influx of unaccompanied children. 
This has left State and local officials to fill the void and takes the 
Border Patrol away from securing the border. This week, the White House 
started the process to request additional funding and measures to 
address this crisis, including the additional authority to remove these 
Central American children. In addition, the White House wants to 
enhance penalties for smuggling children, similar to legislation I 
already have introduced. I look forward to reviewing the details of 
these requests.
    To fix this crisis, the administration must first recognize its 
failed immigration and border policies are the source of the problem. 
At the hearing I held in Washington last week, the committee heard 
repeatedly that the horrible economic conditions and violence in 
Central America were the only reason these kids are coming. No one 
questions the fact that the circumstances in these countries are 
terrible, but these conditions are not new, and they have not suddenly 
gotten worse.
    What is new is a series of Executive Actions by the administration 
to grant immigration benefits to children outside the purview of the 
law--a relaxed enforcement posture--along with talk of comprehensive 
immigration reform. Just this week, the President defiantly vowed to 
take more administrative actions on immigration very soon--such 
unilateral actions and failed policies are what caused this dire 
situation here in Texas in the first place.
    The message these policies are sending is ``if you come, you can 
stay.'' This makes its way back to Central America, and more children 
are put in the arms of the cartels. In fact, newspapers there seem to 
be encouraging illegal immigration based on these policies. And recent 
internal DHS surveys of these children reveal that more than 70% 
believe they are going to remain here.
    In some ways, this is true. While these kids and families are given 
``notices to appear,'' the reality is that it will take years to work 
through the immigration system.
    To break this cycle we need to add in some real deterrence--first, 
mandatory detention and then we should explore ways to promptly return 
those who come here illegally. Not doing so puts more young lives at 
risk of exploitation.
    In addition, we should also better engage with the government of 
Mexico to step up their efforts to secure their southern border. The 
problem begins with Mexican officials who turn a blind eye to Central 
Americans who cross the porous Mexican border. I urge the president of 
Mexico and his interior minister, to get serious about securing their 
borders as well.
    Securing the border is the obligation of the Federal Government. 
States should not be required to protect what is the Federal 
Government's responsibility under our Constitution. However, Governor 
Perry recently announced that he would surge border security operations 
along the border to make up for the administration's failures.
    The President needs to immediately send the National Guard to the 
Southwest Border to free up Border Patrol Agents so that they can 
perform their primary mission--securing our border. Drug cartels and 
other criminals have and will continue to exploit any weakness in our 
border security efforts.
    We must stem the flow and stop children from being subjected to 
this dangerous, and sometimes fatal, journey. I look forward to hearing 
from Governor Perry and our other witnesses here today about the 
situation on the ground and what more DHS and the administration can 
and should be doing to address this problem. Details from today's 
hearing will be incorporated into the findings of the Speaker's Working 
Group established to investigate and make recommendations to address 
this crisis.
    Finally, I want to recognize the tireless efforts of our Border 
Patrol for their compassion and care they provide to these children. 
Thank you from myself and all the Members here with us today.

    Chairman McCaul. The Chairman now recognizes the active 
Ranking Member, the gentle lady from Texas, Ms. Sheila Jackson 
Lee, for an opening statement.
    Ms. Jackson Lee. Mr. Chairman, thank you so very much for 
your courtesies of extending me the time as the Ranking Member 
of this subcommittee, and I give you greetings from the Ranking 
Member of the full committee, Mr. Thompson.
    You ended just as I would like to begin, and that is, 
Governor, to thank all of you here in the State of Texas that 
have always risen to accept the challenge, and it is my 
personal commitment, along with my colleagues, that as the 
President has put forward the $2 billion to address this 
humanitarian crisis, that Texas will stand in the very noble 
position to receive the funding necessary for reimbursement but 
to continue some of the hard work that you have already engaged 
in.
    We thank your Department of Health that has been absolutely 
unending; your DPS, Texas Rangers. I am very grateful that you 
have offered your commitment. You know that we worked together 
during Hurricane Katrina, and again Texas opened her heart to 
receive those who were in great need.
    So let me acknowledge that the Federal Government is doing 
its work--I think that is going to be my role today--but that 
we can always do a better job. So I do want to take note of the 
Border Patrol and thank them for the work they have done in 
207,000 arrests from fiscal year October 2013 and on-going. 
They have not diminished in the assignment that we have given 
them. ICE, on the other hand, likewise. Last year, 107,000 
deportations in this region, now 115,000.
    I think it is a failing concept to suggest that the Federal 
Government is not doing its job. But we have a humanitarian 
crisis, and let me just for a moment acknowledge State 
Representative Tony Dale here in Texas, State Representative 
Allen Fletcher, and let me acknowledge the chairman of the 
board of South Texas. I know these are all constituents of 
Congressman Rose Benavidez. I also want to acknowledge Mr. 
Swalwell of the San Francisco Bay area. Thank you for being 
here. Mr. Gene Green of Houston, thank you. Our own Congressman 
Filemon Vela, who has been here throughout this time frame, and 
he has been working in his district. He represents all 
throughout the Rio Grande Valley. We want to acknowledge 
Senator Hinojosa, who is here as well. Let me thank you so very 
much for all that you all have done.
    So I believe that this is a humanitarian crisis, and I know 
in Washington we use the term ``humanitarian,'' and I think we 
need to continue to use that terminology because if we look and 
do our homework, we will find out that, according to the United 
Nations--we don't have to make it up--these children have been 
forcibly displaced. Anyone, as my Chairman has indicated, that 
has spent time loving and hugging and seeing these children, 
listening to the Border Patrol Agents, as I have done, going 
from McAllen and Brownsville, going out on the Rio Grande and 
going up and down, seeing the hard work the Border Patrol is 
doing, but they will tell you these are the most orderly, 
behaved children who simply want an opportunity to be free from 
the murderous conditions from which they flee.
    I ask the question: Is not America that great? As we are on 
the edge of the Fourth of July, a time that reflects all of us 
fleeing from those of--our ancestors fleeing from persecution, 
and then announcing the greatness of this Nation, are we not 
able to address a humanitarian crisis? I think we are.
    So let me offer to you something that cannot be refuted. 
The three Central American countries have among the highest per 
capita homicide rates in the world, with Honduras topping the 
list and the other two nations in the top five.
    When the Bishop testified in Washington, DC, Governor, he 
indicated that he has spoken to individuals who had, in fact, 
said to them that their children would be killed dead on the 
spot if they did not join a gang. What would any of us do as 
parents? We would take them and we would flee.
    Now, let me make it very clear, the South Texas region 
needs our help, and they have done an enormous job. The Baptist 
Center, the Catholic Charities and Sacred Heart that we were 
able to visit, and even the volunteers that have been able to 
come into the detention centers, they have done a magnificent 
job.
    But it is very important to know that a massive deportation 
policy for children and a mandatory detaining for children is 
not a humane thing to do. We must find a way to follow the law. 
Republicans voted for the law in 2008, and that is the law that 
transfers these children to Health and Human Services.
    Now, maybe we need added help. We are all across America 
looking for facilities, and I might add that there are people 
raising their hand. I spoke to people in Dallas. I have spoken 
to people in Houston. I imagine there are people beyond our 
boundaries ready to offer these facilities so these children 
can go through the normal court proceedings.
    I am ready to provide funding for more ICE officers, more 
resources for the Border Patrol, more help for the State, but 
in particular the Border Patrol that gives them more 
technology, that gives them more resources down here on the 
border, that adds more ICE officers for transport and other 
necessary ERO responsibilities. More immigration judges and 
more infrastructure work is what we are prepared to do.
    But I do believe that we should be cautious; cautious in 
rushing to judgment on any form that would detain children.
    So, Mr. Chairman, I am here to listen. I am very delighted 
to have the opportunity to hear from very distinguished 
Members, as well as our Governor, and as well as Bishop Seitz 
who was there before.
    But I do want to end on this note. I do want to end on this 
note. I always like to take things when I visit people who are 
detained for reasons that are not of a criminal nature, whether 
it is to visit with those in Darfur or to be able to engage in 
Afghanistan, or to be able to talk to children wherever they 
are, homeless children.
    These are lollipops. I took lollipops, along with my 
colleagues, into those detention centers where children were. I 
wasn't armed. I wasn't fearful for my life. This is not a 
National security crisis. This is a humanitarian crisis. So the 
question is how can we, as good Americans and Republicans and 
Democrats, do what the Chairman has said, be able to have in 
place an orderly process that people will know that crooks and 
criminals and thieves and smugglers and traffickers who are 
lying to them in Central America cannot be coddled? That is who 
we should go after. But the children should be given the basic 
coverage of the law that is in existence today that will allow 
us to treat them in a humane way.
    I hope this hearing will give us the additional insight to 
be able to do this. I do believe that the United States is 
doing and following the law, but we need to do better, and I 
look forward to doing so as we proceed in this hearing.
    I yield back.
    [The statement of Hon. Jackson Lee follows:]
                  Statement of Hon. Sheila Jackson Lee
                              July 3, 2014
    I thank Chairman McCaul for holding today's hearing on 
unaccompanied children crossing our Southern Border.
    I am pleased to join Members from the Committee on Homeland 
Security and welcome my Congressional colleagues who have traveled to 
Texas.
    I would like to specifically acknowledge the presence of Rep. 
Filemon Vela, who represents a district here in the Rio Grande Valley, 
and who has been very engaged on the issue before us today.
    This year, the Border Patrol has apprehended over 50,000 
unaccompanied children crossing our Southern Border.
    My colleagues and I had the opportunity to visit the local U.S. 
Customs and Border Protection (CBP) facilities where many of these 
unaccompanied children, along with family units and others, are being 
processed by the Border Patrol.
    To look at the faces of the children, many of whom are very young, 
is to understand that this situation is first and foremost a 
humanitarian crisis.
    I am troubled by testimony submitted today that speaks to cartels 
and crime, which have nothing to do with the issue at hand.
    I hope we can keep that distinction in mind in our discussion 
today.
    These children are not perpetrators or criminals--they are, in many 
cases, victims.
    They are fleeing persistent violence and dire economic 
circumstances in Guatemala, Honduras, and El Salvador, and are seeking 
a safe haven in the United States, as so many people before them have 
done.
    According to the United Nations Office on Drugs and Crime, these 
three Central American countries have among the highest per capita 
homicide rates in the world, with Honduras topping the list and the 
other two nations in the top five.
    Many of these children are also likely undertaking the dangerous 
journey to reunite with family members in the United States, in the 
absence of action on comprehensive immigration reform.
    As a parent, I can only imagine what kind of desperation prompts 
mothers and fathers to hand their children over to smugglers or send 
then on a perilous journey to the United States in the hope of a better 
life.
    I also would like to commend the men and women of the Border Patrol 
for their hard work responding to this situation and express my sincere 
appreciation for their professionalism under the most difficult 
circumstances.
    Despite these challenges, and due to the additional resources in 
the area, Border Patrol's effectiveness rate has actually increased--
from 67 percent at this time last year to 78 percent this year.
    Also, it is my understanding that Border Patrol is meeting its goal 
of processing unaccompanied children within 24 hours.
    Unfortunately, the process appears to break down after that point.
    The Trafficking Victims Protection Reauthorization Act, signed into 
law by President Bush in 2008 and its language was supported by many 
Members of this Committee, both Democrat and Republican.
    The law requires that unaccompanied children taken into custody, 
screened, and transferred to the Department of Health and Human 
Services Office of Refugee Resettlement within 72 hours.
    However, unaccompanied children are currently in CBP custody for an 
average of 5 days, apparently due to a lack of bed space.
    Last night in Brownsville, we saw an unaccompanied 3-year-old child 
who had been in CBP custody for days and days.
    Despite Border Patrol's best efforts, the Department of Health and 
Human Services had not yet taken custody of the little girl.
    So the older girls in CBP custody with her were keeping watch over 
the child, passing her care to others as they were transferred 
elsewhere.
    This is unconscionable.
    We will be asking the Department of Health and Human Services about 
this delay and what can be done to address it.
    All Federal agencies, not just DHS, must do their part.
    Today, I hope to hear from our Border Patrol witness, Chief Oaks, 
about the current situation at the border, how his agents are managing 
the influx of unaccompanied children, and what additional resources he 
may need.
    I also hope to hear from the Hidalgo County Judge, Mr. Garcia, 
about any local impacts this situation is having on his community.
    And finally, I hope to hear from Bishop Seitz about the ``push 
factors'' driving families to send their children to the United States, 
as well as what Catholic Charities and other similar organizations are 
doing to assist these children and families in the Rio Grande Valley 
and across the Southern Border.
    In closing, I hope we can use today's hearing to engage in 
constructive dialogue and avoid political grandstanding.
    Sensationalizing or politicizing the situation does nothing to fix 
the problem.
    Protesting buses of innocent children being transported for 
processing is not indicative of who we are as Americans.
    We must be better than that as a committee, as a Congress, and as a 
Nation.
    Again, I thank the witnesses for joining us today. I look forward 
to a productive hearing. I yield back.

    Chairman McCaul. I thank the Ranking Member. I would like 
to associate myself with your remarks with respect to thanking 
our Department of Public Safety. Members are reminded that 
statements may be submitted for the record.
    [The statements of Hon. O'Rourke and Hon. Hinojosa follow:]
                  Statement of Honorable Beto O'Rourke
                              July 3, 2013
    Chairman McCaul, thank you for holding today's field hearing. On 
June 24, 2014, the Committee on Homeland Security held its first 
hearing on this subject and I appreciate the Chairman's willingness to 
continue this important conversation. I would also like to acknowledge 
and thank Bishop Mark Seitz from the Catholic Diocese of El Paso, U.S. 
Conference of Catholic Bishops for testifying at today's field hearing. 
Bishop Seitz brings a unique perspective to this subject and the 
findings from his January 2014 report titled ``USCCB: Mission to 
Central America: Flight of the Unaccompanied Immigrant Children to the 
United States'' provides great insight into the current situation our 
country is facing today.
    With the increasing numbers of unaccompanied children and families 
arriving at the U.S.-Mexico border, we must understand who these 
individuals are, what is propelling them to travel on a very dangerous 
journey, and what can be done to best address their welfare. I am 
especially proud of my district of El Paso, Texas, which has stepped up 
in recent weeks and responded in a coordinated effort to address this 
current crisis and provide relief to migrants in need. The El Paso 
Border Patrol (BP), led by Chief Patrol Agent Scott Luck and Assistant 
Chief Patrol Agent Robert Boatwright, Immigrations and Customs 
Enforcement (ICE) Field Office Director Adrian Macias, and Assistant 
Director Jesus Placencia, and Ruben Garcia, Director of Annunciation 
House that has provided the needed social services to migrants and 
their families transferred to El Paso, each deserve special recognition 
for their work. The many other front-line personnel from Customs and 
Border Protection (CBP) and ICE also deserve thanks for their tireless 
work over the past months and weeks. I will also continue working with 
CBP to ensure that El Paso is treated equitably with other Border 
Patrol sectors for transfers of families from the Rio Grande Valley.
    The dramatic flow of children and families across the Southwest 
Border is a symptom of a humanitarian crisis, not a security one. While 
I agree to a certain extent that more can be done in Mexico, for 
example, to help secure their border, we must address push-factor 
issues in the countries of origin if we hope to stem the flow of 
unaccompanied children and families to the United States. I commend the 
administration's plan to increase foreign aid to Mexico, Guatemala, El 
Salvador, and Honduras, with a focus on strengthening citizen security, 
gang prevention, youth development, public policy campaigns, and 
reintegration and repatriation programs. However, for this to be 
successful, metrics must also be developed to ensure that this money is 
being spent wisely and achieving its intended goals. Further, Mexico 
must work with its Central American neighbors to strengthen 
institutions sustaining the rule of law and protect human rights.
    Lastly, I would like to comment on President Obama's June 30, 2014 
letter to House and Senate leadership. While President Obama will be 
submitting a formal detailed request for an emergency appropriation 
when Congress returns from recess, I want to ensure that any request 
Congress considers maintains a balanced approach between deterrence of 
migration and the protection of children and families seeking safety. 
Protections afforded through current laws, such as the Trafficking 
Victims Protection Reauthorization Act (TVPRA) of 2008, are essential 
and should not be sidestepped for the sake of rapidly deporting 
individuals back to their home country. Additional resources should be 
for the purpose of ensuring fair and humane treatment of migrant 
children and families fleeing violence and persecution and addressing 
the root cause of migration in their home countries.
    I hope that the Homeland Security Committee, and other Members in 
Congress, can continue to have a balanced discussion about the causes 
and solutions to the crisis we are currently facing along our border.

                                 ______
                                 
                   Statement of Hon. Rubeen Hinojosa
                              July 3, 2014
    As the Representative for the 15th Congressional District of Texas, 
I must express my views regarding the humanitarian crisis we currently 
have along the U.S.-Mexico border. To be clear, this is not just a 
border crisis. In fact, we have several crises that our Nation must 
resolve if it intends to fully address the issue of migration and the 
thousands of unaccompanied children from Central America who are 
entering the United States through our Southern Border. The majority of 
these unaccompanied children are classified as Other Than Mexican (OTM) 
and have traveled from El Salvador, Honduras, and Guatemala.
    According to the U.S. Department of Health and Human Services 
(HHS), which cares for the children post-apprehension by the Border 
Patrol, approximately 3,100 unaccompanied children remain in Customs 
and Border Patrol (CBP) custody in the Riio Grande Valley. So far, 60 
percent of the children are being reunited with a parent and 20 percent 
are reunited with a family member. HHS reports about 340 children are 
apprehended daily along the South Texas border.
    Just last week, several of my Congressional colleagues and I were 
able to tour the U.S. Department of Homeland Security's facilities in 
South Texas and visit some of the unaccompanied children who have fled 
their countries due to unprecedented levels of crime and violence. 
During our tour, I was able to witness first-hand all that is being 
done by our Federal agencies and charities to help these refugees.
    Touring the facilities, however, was not easy. There were young 
children without mothers or fathers and young boys and girls with just 
the clothes on their backs. As a father and grandfather, I can't begin 
to imagine the pain and emotional toll that these children have 
experienced in the past several weeks.
    I was also saddened to hear that the body of a young boy from 
Guatemala was found in the desert, just a few miles from our Southern 
Border. According to news accounts, this boy was found with the rosary 
still around his neck and his brother's Chicago phone number scribbled 
on the inside of his belt buckle. This child had hoped to reunite with 
his brother in Chicago.
    To be sure, the Federal Government must protect and care for these 
refugees in the most humane way possible, ensuring that they receive 
the appropriate housing, medical services, and education they need 
while they are in our care. Some of the conditions that these children 
and mothers have to endure are deplorable, and we must correct this 
immediately.
    Along the same lines, the Federal Government must do more to 
mitigate the death of migrants on our Southern Border. According to the 
Texas Civil Rights Project, from 2011-2013, there were approximately 
278 unidentified bodies found in Falfurrias, Texas, Brooks County 
alone. This is clearly unacceptable. It is also worth noting that 
Brooks County is one of many Deep South Texas counties that continue to 
incur the cost of burial services for unidentified migrants. There is 
no doubt in my mind that we must do more to end the prevalence of 
migrant deaths on our Southern Border as well as offer assistance to 
rural communities.
    In the short term, there are steps that Congress can take to 
address these crises. Congress can help by providing Federal funds to 
local governments, charities, and nonprofit organizations that are 
assisting these refugees with basic necessities. For example, the city 
of McAllen has already provided much-needed assistance to these 
refugees. Congress can also reimburse local governments and nonprofit 
organizations to cover cost of burial services for unidentified 
migrants and for the work they are doing to help families on both sides 
of the border identify the human remains of loved ones.
    With regard to comprehensive immigration reform, there is a great 
deal that Congress can do now in the 113th Congress. While my 
Republican colleagues may simply call for increased border security, I 
believe that we in Congress have a responsibility to tackle these 
issues in a holistic manner. Simply put, comprehensive immigration 
reform is long overdue, and Congress must work to fix our broken 
immigration system now.
    Finally, while I applaud the President's request of Congress to 
approve and move Federal emergency funds to be used to address the 
humanitarian crisis and to send much-needed resources to the Southern 
Border, I strongly believe that Congress and the administration can do 
more to support our Central American neighbors in tackling some of the 
economic, security, and social challenges that have led to increased 
levels of crime and violence in their nations. To this end, I support 
increasing Federal funding for the Millennium Challenge Corporation and 
the Central American Regional Security Initiative to assist Central 
American nations in strengthening their judicial, security, and 
educational systems and in promoting sustained economic growth and 
poverty reduction. By working more closely with our Central American 
neighbors, I am confident that we can solve some of these complex 
problems.
    In closing, I simply want to underscore the urgency of the issues I 
have outlined above and the need to take positive and constructive 
steps to resolve them. With this in mind, I urge my colleagues to work 
in a bipartisan manner to pass comprehensive immigration reform in the 
113th Congress and to work to address the humanitarian crisis on our 
Southern Border.
    I also ask for unanimous consent to enter the attached letter from 
Ambassador Rubeen Zamora of El Salvador into the hearing record.
    Thank you.
Attachment.--Letter from Ambassador to the United States Rubeen Zamora, 
                         Embassy of El Salvador
                                     June 30, 2014.
The Honorable Rubeen Hinojosa,
Chairman, Congressional Hispanic Caucus, U.S. House of Representatives.
    Dear Chairman Hinojosa: I would like to refer to the meeting held 
on June 18th, 2014 and convey to you and to the Members of the 
Congressional Hispanic Caucus our appreciation for convening such an 
important discussion to address the significant surge in the number of 
Unaccompanied Alien Children (UAC's) migrating to the United States. 
Also, I would like to thank you for the letter dated June 27th, 2014 
that you sent to me and to the Ambassadors of the Republics of 
Guatemala and Honduras regarding the same topic.
    As pointed out in the discussion, this situation needs to be 
handled in a comprehensive way considering not only the pull factors, 
but also the push factors that motivate the departure of our nationals 
from their local communities. It has been widely stated that those 
factors include not only the citizen insecurity in the region but also 
the economic challenges that are holding back the creation of better 
opportunities for our youth and for our citizens in general.
    As the president of El Salvador, Mr. Salvador Sanchez Cereen, 
mentioned to U.S. Vice President Joseph Biden during his visit to 
Guatemala last June 2011, a humanitarian approach to the current crisis 
at the U.S. Southwest Border is a proper way of dealing with this 
unfortunate circumstance that is affecting our children and their 
families. However, President Sanchez Cereen also reiterated the 
necessity that all incumbent parties at all levels be committed to 
solving this crisis in order to provide an adequate, timely, and 
coordinated response that is sustainable in the long term.
    As you are aware, one of the efforts that the Government of El 
Salvador has been implementing with the government of the United States 
since 2011 is the Partnership for Growth (PFG). This initiative was 
conceived to cope with two major challenges identified as key elements 
to address some of the root causes of the adult and youth immigration 
flows. Those challenges identified are citizen insecurity and the lack 
of economic opportunities which have been cited as causes of UAC's 
coming into the U.S.
    Additionally, after a successful completion of the First Compact of 
the Millennium Challenge Corporation (MCC), El Salvador submitted a 
Second Compact proposal aimed at developing the coastal maritime zone 
of the country. The above-mentioned Compact was approved by the MCC but 
its implementation has since been delayed. Nonetheless, under the 
current conditions, the prompt execution of said Second Compact is an 
imperative as it was entirely envisioned to improve the business 
climate, to trigger new domestic and foreign investments, and to 
further develop a skilled human capital in El Salvador.
    These are some of the efforts that the Government of El Salvador 
has clearly projected to create in-country job opportunities for 
Salvadorans, in the understanding of our role as key catalyst for the 
promotion of fair living conditions and motivation for their local 
development. Moreover is also crucial to provide viable options to our 
citizen's aspirations in helping the Central American countries remain 
competitive at a regional ground.
    Finally, El Salvador has been making great strides in implementing 
outreach campaigns focusing in Municipalities that are lenient toward 
migration, such as the one titled ``Si estaas pensando en migrar, el 
primer paso es informarte'' or ``If you are thinking of migrating, the 
first step is to inform yourself.'' This Embassy will be glad to 
provide you with additional information about this campaign should you 
require further details.
    Therefore, it is our hope that jointly we can find common ways to 
address not only the heartbreaking situation faced by our kids at the 
border, but also the above-referred motivational causes that ultimately 
generated such unsafe and perilous journey to the United States. The 
Government of El Salvador stands ready to enhance our cooperation with 
the United States around these and other issues of mutual concern in 
order to improve the lives of the citizens of our nations.
    Chairman Hijonosa, we recognize your longstanding leadership in 
this and other regional issues and truly value your reiterated gestures 
of solidarity with our country. We look forward to continued 
conversations with you and the United States Congress, and avail 
ourselves of this opportunity to reiterate our respect and esteem.
                                             Rubeen Zamora,
                                                        Ambassador.
    Chairman McCaul. Steve McCraw, thank you for your efforts; 
our border sheriffs; the Catholic Church. I had a good visit 
with the Bishop last night about their role in terms of 
deterring these children from making the journey in the first 
place.
    I will end with this. The three little girls that I talked 
to with their grandmother this morning on the river, on the 
raft, literally got turned over and fell into the water and 
almost drowned. These girls were traumatized. They were crying, 
and they wanted to go back home to Guatemala. We don't know 
what future lies ahead of them, but I think the better route is 
to stop it in the first place.
    With that, I would like to introduce Governor Perry, 
longest-serving Governor in the State of Texas.

STATEMENT OF THE HONORABLE RICK PERRY, GOVERNOR, STATE OF TEXAS

    Governor Perry. Mr. Chairman, thank you. To each of you, 
thank you for coming. This is an historic moment, and many of 
you I have had the privilege to work with for a long time.
    Gene, you and I in the House of Representatives back some 
20-plus, almost 30 years ago.
    Sheila, 20 years' worth of working with you.
    Mr. Chairman, I cannot think of an individual who I would 
rather have sitting in the Chair of Homeland Security than 
yourself because of your background, because of who you are, 
your passion.
    Kay, I want to say to you in particular, thank you for 
leading the Speaker's Working Group on Humanitarian Crisis on 
the Southern Border.
    Sometimes the public doesn't think we work together too 
well. I might have been critical of Washington a time or two.
    [Laughter.]
    Governor Perry. But the fact is, this is an opportunity for 
us as Americans, not as Democrats or Republicans but as 
Americans, to deal with an issue that the world is watching.
    Again, I just want to say thank you in a very heartfelt way 
for coming to the border of Texas not only to see this 
humanitarian crisis that faces us but also to find the 
solutions.
    Senator Hinojosa and I have had the privilege to work 
together for some 30-plus years and to find solutions. We play 
on a different team on the political side of things, but we 
have worked together so many times to find solutions to 
challenges that face us as a State, and that is how I look at 
this one, as working with you as our Federal partners and 
finding ways and solutions.
    Let's make no mistake about it, there is more than one 
crisis happening on the U.S. border. The first, as has been 
very eloquently on display here in just the first two speakers, 
is a humanitarian crisis.
    Michael, as you and Sheila and you all have seen 
yourselves, the power of what is going on, of this growing 
number of individuals who are crossing our border illegally, 
and so many of them are children. Last week I, too, was here at 
the McAllen facility, and Kevin took us through, and we saw 
these children being housed as they await action by Washington.
    Whether it is the right decision from my perspective to 
immediately deport them or the short-sighted and tragic 
decision to essentially turn them loose in the United States, 
some may think by allowing them to stay here that it is a more 
humane option, and I assure you, it is not. Let me assure you 
and share with you why I think that. Nobody is doing any of 
these children the slightest favor by delaying the rapid return 
to their countries of origin, which in many cases is not 
Mexico.
    Allowing them to remain here will only encourage the next 
group of individuals to undertake this very, very dangerous and 
life-threatening journey. Those who come must be sent back to 
demonstrate, in no uncertain terms, that risking your lives on 
the top of those trains and the ways that they are coming here, 
it is not worth that. Even those who have survived this very 
treacherous journey are still at risk. We have already had one 
confirmed case of H1N1. David Lakey, Dr. Lakey can address that 
if you need some more information about that.
    We have been informed by our Federal partners of two 
additional cases of Type A influenza that are likely to be 
H1N1, in addition to reports of other illnesses and diseases 
that you all have read about.
    The second crisis that is going on on the border is one of 
National security. The rapid influx of illegal immigration has 
strained the Border Patrol and the resources that they have and 
that we have put on ourselves as a State; and, frankly, they 
are already insufficient for the task at hand. Officials who 
should be guarding the border are dealing with the overflow 
instead of fulfilling their primary task.
    So as a result, the border between the United States and 
Mexico is less secure today than at any time in the recent 
past, which is exactly the reason that the Lieutenant Governor, 
the Speaker and I, and members of the Legislature ordered this 
additional surge that Director McCraw is overseeing, as well as 
John Nichols with the National Guard.
    We know that the drug cartels and these transnational gangs 
are already seeking to take advantage of the situation. They 
are attempting to circumvent security and spread this pain and 
suffering on both sides of the border through their criminal 
activities.
    We are also in danger at the hands of those who might be 
slipping through from countries who have known terrorist ties, 
a wide range of potential threats that are facing us from 
abroad. This is not the time to be distracted by something 
else. That is why Texas has taken steps to supplement its law 
enforcement operations along the border.
    Currently, we are directing an additional $1.3 million over 
and above what we have already put into place. I might add, 
this is in addition to a half-a-billion dollars that the State 
of Texas has already expended on border security since 2005. 
This is not a new issue for us. Our current operations include 
increased DPS aircraft patrols, maritime operations, 
utilization of the Ranger recon teams. These are folks who are 
very quickly able to respond to areas where suspected activity 
is taking place.
    Madam Jackson Lee, I readily welcome the funding President 
Obama has publicly announced. But I also ask the following 
things of the Federal Government. First, increase the Texas 
National Guard units that are involved in border security 
operations. That includes--and, Kay, you and I worked together 
to keep some aviation assets here in the State because we know 
how important those are. But to keep those Lakota UH-72 
aircraft in Texas in this operation.
    Second, if the U.S. Border Patrol is going to release 
illegal immigrants into our communities to await a court date, 
every one of them needs to be medically screened to ensure 
their health, and also the health of our citizens as well.
    Third, Texas needs to be reimbursed for the $500 million-
plus that we have spent securing the border over the past 
decade. We have been fulfilling a Federal responsibility, and 
the hard-working people of the State of Texas shouldn't have to 
shoulder that cost by themselves.
    Finally, my message to President Obama is to secure this 
border, Mr. President, finally address this issue and secure 
this border. Invest sufficient resources to put an adequate 
number of Border Patrol Agents on the ground permanently, 
utilize existing technology, including drones and other assets 
that we know--we know how to do this. Steve McCraw can share 
with you how to secure that border. We have done it before.
    So again, I want to say thank you to each of you for loving 
your country and your respective States and your service in the 
United States Congress. Thank you very much.
    [The prepared statement of Governor Perry follows:]
                    Prepared Statement of Rick Perry
                              July 3, 2014
    Good afternoon. I'd like to open my remarks by thanking and 
commending the Members of this committee who made the trip down here. 
Chairman McCaul is demonstrating true leadership in elevating the 
visibility of what's happening along the border.
    I would also like to recognize Chairwoman Granger, who is leading 
the Speaker's Working Group on the Humanitarian Crisis at the Southern 
Border, and other Members of Congress who are here today in response to 
these on-going crises.
    And make no mistake, there is more than one crisis happening along 
the U.S. border.
    The first is a humanitarian crisis, suffered by a growing number of 
individuals crossing our border illegally . . . many of them just 
children.
    Last week, I witnessed the difficult conditions these children are 
being housed in while they await action by Washington, whether it's the 
right decision to immediately deport them, or the shortsighted and 
tragic decision to essentially turn them loose in the United States.
    Some might think allowing them to stay is a more humane option, I 
assure you, it is not.
    Nobody is doing any of these children the slightest favor by 
delaying a rapid return to their countries of origin, which in many 
cases is not Mexico.
    Allowing them to remain here will only encourage the next group of 
individuals to undertake the same life-threatening journey.
    Those who have come must be sent back to demonstrate, in no 
uncertain terms, that risking their lives to cross Mexico and enter our 
country simply isn't worth it.
    Even those who have survived the treacherous journey are still at 
risk.
    We've already had one confirmed case of H1N1 in Texas, and have 
been informed by our Federal partners of two additional cases of Type A 
influenza that are likely to be H1N1, in addition to reports of other 
illnesses at other detention facilities.
    The second crisis is a crisis of National security.
    The rapid influx of illegal immigrants has strained border 
resources that were already insufficient to the task at hand. Officials 
who should be guarding the border are dealing with the overflow instead 
of fulfilling their primary tasks.
    As a result, the border between the United States and Mexico is 
less secure today than at any time in the recent past, which is why we 
ordered the new surge.
    We know that drug cartels and transnational gangs are already 
seeking to take advantage of the situation, attempting to circumvent 
security and spread pain and suffering on both sides of the border 
through their criminal activities.
    We're also in danger at the hands of those who might be slipping 
through from countries with known terrorist ties. With a range of 
potential threats facing us from abroad, this is not the time to turn 
our attention elsewhere.
    That's why Texas has taken steps to supplement its law enforcement 
operations along the border.
    Currently, we're directing $1.3 million in additional funding per 
week to increase our law enforcement efforts through at least the end 
of the calendar year. This is in addition to the more than $500 million 
we've committed to border security since 2005.
    Our current operations include increased DPS aircraft patrols, 
maritime operations, and the utilization of Ranger Recon teams, who are 
able to quickly respond to remote areas where suspected activity is 
taking place.
    I welcome the funding President Obama has publically announced, but 
also ask the Federal Government for the following:
    First, increase the Texas National Guard units involved in border 
security operations . . . That includes keeping the fleet of UH-72 
Lakota aircraft in Texas to continue its vital missions.
    Second, if the U.S. Border Patrol is going to release illegal 
immigrants into our communities to await a court date, every one should 
be medically screened to ensure their health and the health of our 
citizens.
    Third, Texas should be reimbursed for the $500 million we've spent 
securing the border over the past decade. We've been fulfilling a 
Federal responsibility, and the hardworking people of Texas shouldn't 
have to shoulder that cost on their own.
    And finally, secure this border once and for all. Invest sufficient 
resources to put an adequate number of Border Patrol Agents on the 
ground permanently, and utilize existing technology, including drones, 
to help plug the gaps in security operations currently being filled by 
Texans.
    Thank you again for the opportunity to appear before this 
committee. I am happy to answer any questions you may have.
                               Attachment
                      summary/role by texas agency
Dept. of State Health Services (DSHS)
    DSHS, its health service regions, and local health departments in 
the Rio Grande Valley are monitoring the situation to evaluate the 
impact on public health in Texas. DSHS officials have visited U.S. 
Customs and Border Protection (CBP) shelters and ports of entry that 
hold UACs until they can be processed for placement with the Federal 
Office of Refugee Resettlement (ORR). A sampling of conditions observed 
at CBP facilities includes: Overcrowding; potential for infectious 
disease outbreak; lack of medical screening; lack of separation area; 
and extreme heat. These visits have informed the suggestions made to 
the Federal Government about what standard public health precautions 
need to be considered in CBP temporary detainment facilities. CBP has 
been provided with information about infectious disease, hygiene 
issues, and Texas communicable disease law. Texas has also offered its 
expertise to Federal entities as they establish standard operating 
procedures and contingency plans for hurricanes and disease outbreaks.
  <bullet> Costs Incurred.--$23,000 for 1,915 flu vaccines that were 
        State-purchased. Texas will be reimbursed the full amount.
    <bullet> DSHS could incur future costs if there is an infectious 
            disease outbreak.
  <bullet> Anticipated Action if Border Crisis Continues.--Texas has 
        recommended the Centers for Disease Control (CDC) partner with 
        DSHS to conduct inspections of facilities where children are 
        being held to ensure mass shelter standards are applied. There 
        will also be continued cooperation with locals to monitor 
        health resource needs and direct calls offering volunteer 
        medical services to locals.
Dept. of Family and Protective Services (DFPS)
    DFPS' Residential Child Care Licensing (RCCL) division licenses, 
monitors, and investigates any allegations of abuse/neglect at private 
facilities who contract with ORR to provide placements for UAC.
  <bullet> Costs Incurred.--At this time, DFPS has not incurred any 
        additional costs. The State has received requests for the 
        agency to waive requirements from the State's minimum standards 
        of care, on a short-term basis, for currently-licensed 
        facilities who house minors. These requests have been absorbed 
        into each region's normal workload. Examples of approved 
        requests include allowing more than four children per room or 
        allowing facilities to use cots instead of beds.
  <bullet> Anticipated Action/Costs if Border Crisis Continues.--RCCL--
        If ORR expands permanent capacity in Texas, the State will have 
        an increased number of facilities to license, monitor, and 
        investigate. CPS--The process for vetting the caregivers to 
        whom these children are being released is unclear. If abuse/
        neglect does occur, these children or families could have 
        contact with Child Protective Services.
Dept. of Health and Human Services (HHSC)/Office of Immigration & 
        Refugee Affairs (OIRA)
    OIRA does not play a current role in the current border crisis 
because: (1) State statute only authorizes OIRA to assist refugees and 
legal immigrants; and (2) the OIRA Program at HHSC is designated by the 
Federal Office of Refugee Resettlement (ORR) to oversee services to 
refugees in Texas. OIRA is 100 percent Federally-funded by the ORR and 
funds are designated for refugee services.
  <bullet> Costs Incurred.--None.
  <bullet> Anticipated Action/Cost if Border Crisis Continues.--There 
        is no anticipated action by OIRA in the future because in order 
        to assist in the current border crisis OIRA would require a 
        change in State statute to authorize OIRA to assist illegal 
        immigrants and there would also need to be new State and/or 
        Federal funding to support any new services to illegal 
        immigrants.
Dept. of Public Safety (DPS)
    Texas has directed DPS to immediately begin law enforcement surge 
operations on the border to combat criminal elements taking advantage 
of our porous border and overwhelmed Federal resources (due to Border 
Patrol being diverted from its security mission to process and care for 
the influx in illegal immigrants). Current operations include: Trooper 
Strike Teams, Ranger Reconnaissance Teams, aircraft patrols to identify 
criminal and suspicious activity, maritime patrols using shallow water 
interceptors equipped with automatic weapons, and additional resources.
  <bullet> Costs Incurred.--$1.3 million per week for border surge 
        operations beginning June 18, 2014.
  <bullet> Anticipated Action/Costs if Border Crisis Continues.--
        Continue with enhanced DPS operations; $36.4 million for a 28-
        week surge (June 18-December 31); or $67.6 million for a year.
Texas National Guard
    Lacking arrest authority, the Texas Military Department supports 
the border mission through target identification, personnel tracking, 
and counter-drug operations. The National Guard and State Guard forces 
work closely with DPS and USBP, bringing expertise and equipment to the 
theater otherwise unavailable to law enforcement. Air assets have 
proven a critical capability for the National Guard on the border. 
There are currently 239 National and State Guard troops conducting 
border operations. Current operations, since 2012, air-centric 
operations--heavily reliant on UH-72 Lakota aircraft--have resulted in 
an almost 70% increase in detection & interdiction compared to ground-
based operations.
  <bullet> Costs Incurred.--
    <bullet> There are six UH-72 Lakota aircraft in the Texas National 
            Guard operated by Counter Drug for mission support on the 
            border. The total cost to operate is $8.3 million annually.
    <bullet> Task Force Liberty operates eight UH-72 Lakota aircraft 
            stationed at the border. The total cost to operate is $15.5 
            million annually.
    <bullet> The 42 Texas State Guard stationed on the border cost $2.3 
            million per year, paid for with a contract with DPS.
  <bullet> Anticipated Action/Costs if Border Crisis Continues.--
    <bullet> Mission costs will continue to accrue as long as the 
            National Guard has the funding and a relevant mission on 
            the border.
    <bullet> As pressure at the border has increased, the Guard has had 
            to limit its number of flight days due to inadequate 
            funding and limited numbers of pilots. Operational safety 
            requirements limit the number of hours per month a pilot 
            may fly. Pilots are maxing out their flight hours earlier 
            and earlier in the month because there is such high demand 
            for their support.
    <bullet> Texas has requested the use of drone technology 
            capabilities of the National Guard, which could be 
            significantly expanded. Drones have longer loiter times, 
            lower fuel and personnel costs, and allow for expanded 
            border surveillance, better target observation, and 
            improved apprehension support.
Border Sheriff's Coalition
    Texas Border Sheriffs have responded to the need for increased 
patrols to assure public safety, have coordinated with Customs and 
Border Protection as illegal immigrants turn themselves in to local law 
enforcement, and have participated in the humanitarian effort.
  <bullet> Costs Incurred.--None yet calculated.
  <bullet> Anticipated Action/Costs if Border Crisis Continues.--Border 
        Sheriffs will need more resources and manpower to ensure public 
        safety if the surge of illegal immigration continues.
Texas Education Agency (TEA)
    TEA is currently not playing a role within the current border 
emergency because of the end of the school year. Come the start of the 
2014-2015 school year TEA is anticipating impact from a continued 
border crisis, but cannot fully estimate impact until schools enroll 
students. A school district is required to educate any child enrolled 
in the school district. But the responsibility of enrolling is placed 
on the parent/guardian of that child. Any incarcerated child 
(previously this included Federally-detained children) is excluded from 
being required to attend school unless the facility makes 
accommodations with a local school district to enroll their children.
  <bullet> Costs Incurred.--None yet calculated.
  <bullet> Anticipated Action/Costs if Border Crisis Continues.--
    <bullet> State funding is reactionary and based on the number of 
            students enrolled within a school. The Average Daily 
            Attendance funding of approximately $7,500 per student will 
            be required from the State by the local school districts. 
            Should a significant number of these children remain in 
            Texas, and enroll in school, the State will face 
            significant costs. Federal funding is based on the previous 
            year's students served. There is little ability for the 
            Federal Government to provide additional dollars quickly.
    <bullet> All students must be immunized before attending school, 
            but homeless students are exempted. Again how these 
            students are classified will weigh heavily on the 
            requirements for their enrollment and DSHS would need to 
            weigh in on this requirement.
              how much texas has spent on border security
    Texas has had to fill in the gaps left by the Federal Government--
allocating over $500 million since 2005 for border security through new 
technology, improved communications equipment, law enforcement 
personnel, and other resources.
    Breakdown by biennium:
  <bullet> 2006-2007.--$2.4 million (border security operations center 
        and technology).
  <bullet> 2008-2009.--$110,274,772 (helicopters, new technology, 
        increased State law enforcement officers on the border, & 
        overtime for local law enforcement).
  <bullet> 2010-2011.--$94,092,579 (boots on the ground, Texas Rangers, 
        Texas Task Force II, narcotics enforcement, aircraft 
        operations, border operations center, technology training, & 
        crime lab).
  <bullet> 2012-2013.--$153,689,712 (boots on the ground, vehicles, 
        tools to identify cartels & gangs, surveillance aircraft, video 
        link technology from helicopters to mobile command posts & 
        patrol boats, operating costs for patrol boats, & joint 
        operations & intelligence centers).
  <bullet> 2014-2015.--$108,943,963 (boots on the ground, vehicles, 
        computers, joint operations & intelligence centers, & marine 
        unit tools).
*Note that the biennium figures do not reflect total increases in 
salaries and benefits for State law enforcement officers stationed 
along the border. In addition, the figures do not include certain other 
State-wide funded items of which a portion goes to the border.
**Note that Texas has not been reimbursed for any costs.
       summary--impact the current border crisis has had on texas
  <bullet> Diverted Border Patrol from its security mission to 
        processing and caring for the increased number of illegal 
        immigrants apprehended, which has left our border even more 
        exposed to criminal elements.
  <bullet> Strained resources available to the State if a disaster were 
        to occur, such as a hurricane. Contractors the State uses for 
        disaster response are being contracted with by the Feds to 
        assist in the UAC border crisis.
  <bullet> Anticipated.--DFPS. Continued loss of foster care capacity. 
        ORR pays on a per-bed basis and at a higher rate than the 
        State. Residential Treatment Centers and Child Placing Agencies 
        will turn their beds over to ORR, reducing the number available 
        for children/youth in State foster care.
  <bullet> Anticipated.--DFPS--CPS. The process for vetting the 
        caregivers to whom these children are being released is unclear 
        and may suffer abuse/neglect by these caregivers. If abuse/
        neglect does occur, they will have contact with Child 
        Protective Services.
  <bullet> Anticipated.--Public Ed. Increased enrollment in schools 
        because the UACs will be enrolled in local schools districts 
        when they are placed with family or friends waiting for their 
        immigration court date.
Border Apprehension Data
  <bullet> From 2010 to 2013.--91% increase in apprehensions along the 
        TX-Mexico border; 158% increase in apprehensions in the RGV 
        sector.
  <bullet> In the first 9 months of this fiscal year, U.S. Border 
        Patrol has apprehended over 160,000 illegal immigrants in the 
        Rio Grande Valley (RGV), surpassing the 154,453 apprehensions 
        made in the preceding fiscal year in the RGV.
  <bullet> In Federal fiscal year 2013, 52% of those apprehended along 
        the TX-Mexico border were from countries other than Mexico 
        (OTM).
  <bullet> This year, record high numbers of OTMs are crossing the 
        U.S.-Mexico border:
    <bullet> So far this Federal fiscal year, 181,724 OTMs have been 
            apprehended along the entire U.S.-Mexico border, surpassing 
            the 148,988 OTM apprehensions last fiscal year.
    <bullet> So far this Federal fiscal year, 137,181 of these OTM 
            apprehensions occurred in Texas, compared with 125,883 last 
            fiscal year.
  <bullet> Since May, Border Patrol has been apprehending over 1,100 
        illegal immigrants a day in the RGV--with over 200 a day being 
        UAC (UACs are only 18% of those illegally crossing).
  <bullet> UAC apprehensions along the U.S.-Mexico border have 
        increased 99% from this same time last year (over 52,000 UAC 
        apprehensions so far in fiscal year 2014 compared to over 
        26,000 UAC apprehensions this same time last year).
  <bullet> UAC apprehensions in the RGV border sector have increased 
        178% from this same time last year (over 37,000 UAC 
        apprehensions so far in fiscal year 2014 compared to over 
        13,000 UAC apprehensions this same time last year).
  <bullet> U.S. Dept. of Homeland Security (DHS) projects total UAC 
        apprehensions along the U.S.-Mexico border this fiscal year 
        will be a 132% increase from those in fiscal year 2013 (90,000 
        UAC apprehensions this year vs. 38,759 last year); 142,000 
        projected for fiscal year 2015.
Additional Border Security Data
  <bullet> In 2013, the Texas Department of Public Safety (DPS) 
        documented illegal border crossings by persons from countries 
        with ties to terrorism, such as Bangladesh, Albania, Somalia, 
        Syria, Pakistan, and Afghanistan.
  <bullet> TX border sectors, combined, have 7 Border Patrol Agents per 
        border mile, while the other Southwestern Border sectors have 
        17 Border Patrol Agents per border mile.
  <bullet> Federal resources are overwhelmed as UACs and families fill 
        Federal detention facilities, requiring the diversion of a 
        large number of USBP agents from their mission of securing our 
        border to care for these people.
                                 ______
                                 
                               Attachment
                the human cost of failed border policies
                   texas governor rick perry (op-ed)
June 25, 2014
    The first thing I saw was a boy crying. Terrified and sobbing 
against the window of the holding cell, he couldn't have been more than 
12 or 13. The room was full of other young boys, their curious eyes 
peering out at us as we walked by. These were the ones who made the 
trip alone.
    The room next door was filled to overflowing with mothers and 
children, some covered in foil blankets, lying on the cement floor. The 
next room over, empty, except for the garbage that was being swept away 
in preparation for its next wave of occupants.
    When we stepped outside, I heard a baby wailing over the hum of the 
industrial fans and the steady words of the Federal official giving the 
tour. The sheer number of people in such a small space made it 
difficult to quickly pinpoint the source, but I finally spotted the 
baby being held by a young mother in the quarantine area taped off in 
the back. The otherwise quiet crowd simply stared back at us. The very 
real human consequences of our country's lax border security and 
muddled immigration policies huddled right there, under an open shelter 
in the stifling Texas heat.
    This is the McAllen Border Patrol detention facility, where men, 
women, and children of all ages who have illegally entered the United 
States are detained and processed. Some are caught attempting to cross 
the border, while some give themselves over willingly. Many are 
children from Central America traveling alone, who have paid coyotes to 
smuggle them through Mexico or made the trip on the tops of freight 
trains. All have quite literally risked their lives to set foot in our 
country.
    It's impossible to see these children without wondering how many 
more were lost somewhere along the way. The desert's a dangerous place 
to begin with, even before the worst of summer's brutal heat arrives, 
and the border is trafficked by treacherous individuals who see fellow 
humans as an expendable means to turn a dollar.
    What's happening along our Southern Border is a mounting tragedy, 
its root cause Washington's failure, diplomatically and strategically, 
to address our border security and illegal immigration problem.
    To be clear, the Federal officials who operate these facilities 
daily are doing the best they can with what they have, trying 
desperately to keep up with a seemingly unending tide of immigrants 
coming to our border because they've heard current U.S. policy will 
quickly reunite them with loved ones in our country.
    This is a complex situation and a growing humanitarian crisis that 
will require a multifaceted solution. But it's a situation I fear our 
President will continue to brush off until he has seen it first-hand.
    The United States needs to act decisively. First off, the Federal 
Government needs to make it crystal clear that attempting to cross our 
border illegally simply isn't worth the considerable risk. People in 
Guatemala, El Salvador, Honduras, and elsewhere who are considering 
making the trip need to know that they will be immediately sent back to 
their country of origin when they're detained, not sent to various 
locations across the United States or placed in the care of loved ones.
    Secondly, the United States Government needs to send more resources 
to finally, once and for all, secure the border. Federal engagement was 
insufficient to begin with, and the crush of illegal entrants is 
draining what resources they had in the area. These gaping holes are 
just waiting to be exploited by drug cartels and transnational gangs, 
and create a National security issue as they could be used by people 
from countries with known terrorist affiliations.
    That's why Texas has directed the State's Department of Public 
Safety to amplify its law enforcement operations along the border, 
targeting the criminals seeking to take advantage of this humanitarian 
crisis.
    This is a problem, however, beyond the scope of just one State. 
We'll do what we can, but it's up to Washington to move quickly to ease 
the suffering I witnessed Monday afternoon, suffering that is mirrored 
in Federal facilities across the border States.
    Until they step up to the task, that suffering will continue, as 
will the tragedies we don't even know about taking place on both sides 
of this unsecured border.
                                 ______
                                 
                               Attachment
         letter submitted for the record by governor rick perry
                                   August 21, 2009.
The Honorable Barack Obama,
President of the United States, The White House, 1600 Pennsylvania 
        Avenue, NW, Washington, DC 20500.
    Dear Mr. President: As violence in northern Mexico continues, it is 
paramount that our international borders be secured to ensure the 
safety of our citizens and the security of our homeland. To reiterate 
my standing request with your administration, I respectfully ask that 
you authorize the use of 1,000 Title 32 National Guard personnel in 
support of civilian law enforcement along the Texas-Mexico border. This 
is the most viable solution to provide an immediate improvement to U.S. 
public safety and increased patrol presence along our border.
    I am deeply troubled by news reports about disagreements between 
federal agencies preventing Guard personnel from being deployed to the 
border region. Please use the authority of your office to quickly fix 
this situation and get the 1,000 troops we need to Texas.
    The security situation in the border region remains a serious one. 
Last year, Mexican organized crime cartels, which dominate the 
lucrative drug and human smuggling market, were responsible for 6,290 
organized crime murders in Mexico, including 1,600 across the river 
from El Paso in Ciudad Juaarez. Drug cartels have resorted to using 
terroristic tactics, employing former military commandos and 
transnational gangs such as the Barrio Azteca, Texas Syndicate, MS-13, 
and the Mexican Mafia. Last month, Border Patrol Agent Robert Rosas was 
shot and killed on U.S. soil while responding to a report of a border 
incursion. He is one of 50 Border Patrol officers targeted by gunfire 
since 2008.
    Cartels are also recruiting American teenagers to conduct cartel 
operations on both sides of the border. Laredo teens and Los Zetas 
members Gabriel Cardona and Rosalio Reta are currently serving 
sentences of life and 70 years, respectively, for seven murders carried 
out on the U.S. side of the border.
    U.S. border security must be improved in the interest of safety and 
economic opportunity in the United States and Mexico. I have spoken 
with former border governor and current DHS Secretary Janet Napolitano 
a number of times, and have requested the following National Guard 
security plan for the Texas border region:
  <bullet> 600 personnel to be deployed with 24 Border Reconnaissance 
        Platoons, with 25 personnel each, to cover 20 locations;
  <bullet> 125 personnel to support Texas Parks and Wildlife Department 
        (TPWD) maritime operations;
  <bullet> 175 personnel to support air operations, command and 
        control, and military personnel support functions; and
  <bullet> 100 personnel to support TPWD and Texas Ranger Tracking 
        Teams.
    Since my original request in January 2009, I have received no 
indication that Texas will be getting the boost in personnel needed to 
fill in the gaps along our border and protect our communities.
    As you and your administration consider deploying Guard troops to 
the U.S.-Mexico border, please ensure sufficient deployment duration 
and authorize Title 32 status. Title 32 will maximize the efficacy and 
capabilities of these additional personnel by allowing them to be 
seamlessly integrated into our state's proven and successful multi-
agency border security strategy. Texas has unique border security 
challenges and threats, with which we are keenly familiar on the state 
level.
    While helpful, the additional investigative resources recently 
authorized for the southwest border do not diminish the need for 
additional uniformed patrol resources to significantly increase the 
visible presence along the border, which would detect and deter cartel 
and transnational gang operations.
    I hope you will approve Texas' request for 1,000 Title 32 National 
Guard troops, under the control of the governor, to be deployed to the 
Texas-Mexico border. Enhanced border security is critical to our 
collective homeland security, and an improved law enforcement effort 
along the border will help families and employers on both sides live 
safer, more secure and more prosperous lives.
            Sincerely,
                                                Rick Perry,
                                                          Governor.
                                 ______
                                 
                               Attachment
         letter submitted for the record by governor rick perry
                                       May 4, 2012.
The Honorable Barack Obama,
President of the United States, The White House, 1600 Pennsylvania 
        Avenue, NW, Washington, DC 20500.
    Dear President Obama: There are many consequences of having an 
unsecure border. Not only are drug seizures up and cartels infiltrating 
our communities, but, as your administration is fully aware, there is a 
surge of unaccompanied illegal minors entering the United States. Aside 
from being part of an obvious humanitarian crisis, these unaccompanied 
illegal minors have left the federal government scrambling to triage 
the results of its failed border security and immigration policies.
    This is precisely what happens when the federal government refuses 
to recognize its responsibility for our nation's immigration and border 
security, and fails to immediately work with the countries of origin to 
return these unaccompanied illegal minors to their homes. On a recent 
conference call, a member of your own administration indicated that 
fewer than 10 percent are deported.
    To be clear, Texas has been working diligently to protect the 
immediate health and safety of our citizens and the unaccompanied 
minors now in our state. However, by failing to take immediate action 
to return these minors to their countries of origin and prevent and 
discourage others from coming here, the federal government is 
perpetuating the problem.
    Inaction encourages other minors to place themselves in extremely 
dangerous situations. The vast majority of these unaccompanied illegal 
minors come from Guatemala, El Salvador and Honduras, as well as 
Mexico. In the first six months of this fiscal year, reports indicate 
more than 5,200 unaccompanied minors have crossed the border illegally 
into the United States, with more than 1,300 arriving in March alone. 
This represents an increase of more than 90 percent over the same 
period last year. On their journey, they are exposed to violent and 
ruthless criminal organizations and many are robbed, assaulted, 
kidnapped, seriously injured or even killed. But the dangers don't end 
there for them, or for our citizens. Recently, dozens of these minors 
have had to be quarantined due to a measles scare and an outbreak of 
chicken pox, providing a warning of the additional risks this situation 
poses.
    These unaccompanied illegal minors should be cared for in their 
home countries, rather than burdening our already unsustainable 
entitlement systems. Projections indicate the number of illegal 
crossings will continue to increase. With no long-term plan to address 
this situation, the federal government is simply ignoring the fiscal, 
health and social interests of our own citizens. We cannot and should 
not be held responsible for the citizens of other nations.
    Every day of delay risks more lives. Every child allowed to remain 
encourages hundreds more to attempt the journey. Our country can no 
longer provide the temptation for these unaccompanied minors to engage 
in this tragic and illegal migration. To end it, the federal government 
must stop new arrivals at the border, repatriate those already here and 
prevent and discourage others.
    I have asked my staff to further work with the U.S. Department of 
Homeland Security to determine the extent of this situation and seek 
answers to questions your administration has thus far been either 
unwilling or unable to answer.
    I urge you to begin immediate consultation with governments of the 
countries of origin. These nations must assume responsibility for their 
own citizens, recognizing that they have the power and ability to 
prevent this dangerous situation.
    This must stop, Mr. President, and it is your responsibility to 
make that happen.
            Sincerely,
                                                Rick Perry,
                                                          Governor.
                                 ______
                                 
                               Attachment
         letter submitted for the record by governor rick perry
                                     June 20, 2014.
The Honorable Barack Obama,
President of the United States, The White House, 1600 Pennsylvania 
        Avenue, NW, Washington, DC 20500.
    Dear President Obama: I write to invite you to visit Texas to see 
firsthand the humanitarian crisis unfolding as a result of the massive 
influx of unaccompanied alien children (UAC) crossing our border with 
Mexico. There is no doubt that I have disagreed with you and your 
administration on many policies over the years. This crisis, however, 
transcends any political differences we may have. The safety and 
security of our border communities is being threatened by this flood of 
illegal immigration, and the crisis worsens by the day.
    While I am encouraged by your recently announced initiatives to 
more aggressively repatriate illegal immigrants back to their countries 
of origin, and provide additional aid to those countries to combat 
violence and security issues that prompt many of their citizens to flee 
to the United States, these steps only address symptoms of the problem.
    The problem remains our porous border and federal policies 
encourage, rather than discourage, illegal immigration. The federal 
government must commit the resources necessary to truly secure our 
border and adopt policies that won't reward those who come here by 
releasing them on their own recognizance with a Notice to Appear (NTA) 
in federal court. In the current system, these notices effectively 
amount to a ``free pass'' into our country with little to no 
consequences for failure to comply.
    All of these problems and solutions are the responsibility of the 
federal government, but Texas cannot sit idly by waiting for a 
resolution while our communities become overwhelmed by illegal 
immigrants and their need for the basic necessities of food, shelter 
and sanitation. That's why, in an effort to stem the tide, we have 
authorized the Texas Department of Public Safety to conduct law 
enforcement surge operations combatting criminal activity associated 
with illegal immigration and drug trafficking. This effort will cost 
our taxpayers approximately $1.3 million per week.
    Therefore, I respectfully request the following immediate actions 
from your administration:
    Under Title 32, deploy an additional 1,000 National Guard troops to 
the Texas-Mexico border, including additional Lakota helicopters, and 
give the National Guard arrest powers to support Border Patrol 
operations until sufficient Border Patrol resources can be hired, 
trained and deployed to the border.
    Direct the Federal Aviation Administration to allow the National 
Guard to utilize Predator drones along the Texas-Mexico border for 
identifying and tracking human and drug trafficking.
    Direct the Centers for Disease Control or another appropriate 
federal agency outside the Department of Homeland Security (DHS) to 
conduct, in conjunction with the Texas Department of State Health 
Services (DSHS), inspections of facilities in which illegal immigrants, 
including UACs, are being housed to ensure accepted international and 
national emergency sheltering standards are met. Preliminary reports 
from DSHS officials who have visited such facilities indicate 
insufficient bathroom facilities, lack of adequate water supplies and 
other conditions that could result in epidemics of pertussis, 
tuberculosis and other diseases. The conditions affect not only the 
UACs but also employees working there and the community at large when 
those detained are released.
    Modify or rescind policies that serve as a magnet to encourage 
illegal immigration, including:
  <bullet> DHS Catch and Release policies by which DHS issues an 
        illegal immigrant an NTA before an immigration judge and 
        releases them. The U.S. Department of Justice reports that 33 
        percent of those released on their own recognizance failed to 
        appear in FY 2013.
  <bullet> DHS policies specifically regarding UACs from countries 
        other than Mexico (OTM) that prohibit the agency from 
        immediately deporting UACs back to their country of origin. 
        After DHS processes OTM UACs, DHS issues an NTA, locates a 
        relative in the United States, and delivers the OTM UAC to a 
        relative, regardless of the relative's immigration status.
    Mr. President, the complex situation along the border is 
deteriorating, and it requires a multifaceted approach to resolve, and 
must begin with border security. On behalf of Texas' 26 million 
residents, I request you take immediate and decisive action.
            Sincerely,
                                                Rick Perry,
                                                          Governor.

    Chairman McCaul. Thank you, Governor. We appreciate your 
efforts, your leadership. The State of Texas has stood up where 
I think the Federal Government has failed in this border 
security effort.
    I do think with a crisis comes a call to action. So I agree 
with you, now is the time. Now is the time to finally secure 
the border. We have been talking about this, Steve McCraw and 
I, for many, many years. It is time to get it done, and I can't 
think of a better reason to do it.
    I want to go back to a letter, Governor, you wrote in 2012 
to the President of the United States, Barack Obama. I think 
you recognized before anyone, early on, what was getting ready 
to happen, a very prescient letter where you stated, ``Every 
day of delay risks more lives,'' and you are talking about the 
unaccompanied children issue.
    At that time, 5,000 minors had crossed. You said, ``Every 
child allowed to remain encourages hundreds more to attempt the 
journey. Our country can no longer provide the temptation for 
these unaccompanied minors to engage in this tragic and illegal 
migration. To end it, the Federal Government must stop new 
arrivals at the border, repatriate those already here, and 
prevent and discourage others to prevent this tragic and 
illegal migration.''
    This letter was sent in May of 2012.
    Governor Perry. May, a little over 2 years ago.
    Chairman McCaul. What response did you receive from the 
President of the United States?
    Governor Perry. We haven't yet. This is a bigger issue than 
just the UAC issue. Partly because we live with this every day 
here, those of us who spend time in the State, particularly 
those individuals who live on the border, we had a Border 
Affairs Committee in 1999 that we put together because we 
realized that this was an area of the State that had, frankly, 
been overlooked for way too many years from Austin, Texas.
    Julia and Eddie and others who have been just champions of 
supporting the El Paso to Brownsville, the entire border region 
of Texas. So bringing to the attention of Washington, and not 
just this administration but previous administrations as well, 
some of the challenges that we have here, particularly with 
border security. But this issue of the children, the first time 
it was brought to our attention was over 2 years ago.
    Again, hindsight is always a lot clearer. But had we 
addressed this diplomatically, had we addressed in El Salvador 
and Honduras and Guatemala and in Mexico, as well as on the 
border with the securitization of this border, we would most 
likely not be here today with the tragic events at hand with 
these children who are now coming in massive numbers because 
they think, they have been told, they have been manipulated, 
they have been threatened that if you will come here, you can 
stay in America.
    We are a country of laws. We have to respect those laws. If 
we do not today clearly send the message of you cannot come 
into the United States just because somebody is handing out a 
flyer, then this is only going to get worse, and a humanitarian 
crisis will turn into a monumental tragedy for those children 
and, I would suggest to you, for citizens along this border, 
because these great men and women of the Border Patrol are 
being distracted from their primary responsibility of defending 
and securing this border from some pretty evil people, and we 
cannot afford that. They have to have some relief. They have to 
have some support.
    Chairman McCaul. Thank you, Governor. I would submit that 
had these warnings been heeded 2 years ago, then perhaps we 
wouldn't be having this conversation here today.
    As a father, as a former Federal prosecutor, deterrence 
works. A message of deterrence does work. As you said, if the 
message is we are open for business, you can come in and can 
stay, they will continue to come until we send a different 
message.
    I would like to pivot to, going back to, again, a crisis 
and a call to action, securing the border. You called for the 
deployment of the National Guard. I agree with you, sir. I know 
you sent a letter to the President. So have I. I have had 
extensive discussions with the Secretary of Homeland Security, 
Jeh Johnson. We are fortunate to have the Adjutant General of 
the National Guard sitting behind you.
    We need to do that, but we need to do it in a way where the 
National Guard can do their job, what they are trained to do. I 
think what the frustration has been, whether it was Operation 
Jump Start or Phalanx, even though it is under Title 32 
authority of the Governor and the State, they have been 
relegated to essentially pushing paper behind desks. What I am 
concerned with in this situation, they will be processing 
children rather than doing what I think they can do best, and 
that is get the border secure, and working with Border Patrol 
in a law enforcement capacity as well.
    I know you have called for that in a letter. I know you can 
activate them under Title 32. There is a Department of Defense 
policy, unfortunately, out there that states that they cannot 
be used in what is called an operational role but rather a 
supportive role, which would be, again, pushing paper behind a 
desk and processing children.
    My question to you is: We can change the policy if we 
really get the administration's attention that we need to 
change that policy. People in this State want the National 
Guard down there to do the job they can do. Can you tell me 
what your position is with respect to that DOD policy?
    Governor Perry. Obviously, we have requested, I think since 
2009, 1,000 National Guard troops to be temporarily on the 
border until 3,000 Border Patrol Agents could be trained to 
take their positions in a permanent way under Title 32, which 
obviously the State of Texas would not have to be picking up 
the cost of that, and appropriately so from my perspective.
    But, Mr. Chairman, I would say, and I think General Nichols 
would share with you this in detail, as well as Director 
McCraw, but the Border Patrol has been--excuse me, the National 
Guard has been actively engaged here. They have been doing 
substantive operations here. We just don't have the numbers 
that we need.
    I mean, I think this goes back to the entire conversation 
that we need to have, finding solutions, which is what I hope 
we are really all about here today as we go forward, boots on 
the ground. Both Steve McCraw and John Nichols will share with 
you that you can secure the border, because we have done it in 
sectors. We have not had the resources and the manpower for a 
1,200-mile-plus border, which we are dealing with here.
    But we have those resources in this country. I mean, we can 
do this. I know we can do this. It is just a matter of having 
the wherewithal, the courage, and the desire, because I know we 
have the resources.
    So I think this is really not that difficult a task from 
the standpoint of how to do it. Do we have the will to do it I 
think is the bigger issue here that we face as a country.
    Chairman McCaul. I think the will is there, certainly now. 
I will argue that they have been operational in a very limited 
role in counter-drug operations, but not in terms of border 
security across the border.
    Governor Perry. That is correct.
    Chairman McCaul. I think you would share my feelings and 
position that we need to expand that use.
    Governor Perry. Yes, sir.
    Chairman McCaul. If we are going to deploy the National 
Guard, let's let them do their job.
    Governor Perry. Yes, sir. We do not need to have them have 
one arm tied behind their back in this process. I mean, if we 
really care, if we really care about this border that we know 
today is, in fact, being penetrated by individuals from 
countries that have strong terrorist ties, if we really care 
about protecting our citizens, we need to use all of the 
personnel that we have available to do that. I don't think any 
of us, if we knew that there were bad people coming into our 
neighborhood, that we would not want the police to use every 
resource that they have to keep our citizens safe, and that is 
really what this is about.
    I mean, the unaccompanied children issue is a humanitarian 
crisis, and we know that. But they are being used. They are 
being used by very vile individuals to detract from the role of 
our Border Patrol and our other law enforcement. When your 
enemy changes tactics, then you are going to be forced to 
change your tactics too, or you are going to be defeated.
    So this is a tactical issue that the drug cartels, from my 
perspective, are engaged in, and we have known about it for a 
couple of years. I will be honest, I don't think we have been 
quite nimble enough from a National security standpoint to deal 
with it.
    Yes, it is a humanitarian crisis that is growing every day. 
But it is being driven by National security penetration by drug 
cartels.
    Chairman McCaul. Governor, thank you for your leadership.
    The Chairman now recognizes the Ranking Member.
    Ms. Jackson Lee. Governor, thank you so very much for your 
testimony, and thank you for your concern.
    All of us as representatives are always interested in our 
constituents. You happen to have all of us in the entire State 
of Texas, and that means that you have the families and friends 
and local government officials that are here in this region. My 
colleague, Congressman Filemon Vela, is the only one here at 
the table besides my good friend Congressman Farenthold that 
are in the region, as I understand it. Some of us are in other 
places in Houston.
    So I have taken the opportunity to listen to some of those 
voices over the years as a Member of the Homeland Security 
Committee, and they are very jealous, if you will, about the 
richness of their community. They have some challenges. Some of 
them are not for fences. Some of them have a great deal of 
confidence in the Border Patrol. Some of them are in 
agriculture. In fact, as we were on the Rio Grande, in the area 
there, we saw sugar cane coming up almost to the edge of the 
water. Those are challenges that the Border Patrol has, but 
that is private land.
    Governor Perry. Indeed.
    Ms. Jackson Lee. So I would just ask a simple question. 
Should we respect and engage with the citizens in this region 
about how we approach the safety and security of the border 
even though it is a Government responsibility, a Federal 
Government responsibility? You have been kind enough to join 
it. But isn't that, that we should take note of the different 
terrain in this area?
    Governor Perry. Yes, ma'am. Thank you for bringing up the 
agricultural aspect of this area of the State. For 8 years I 
had the great privilege to be the Agriculture Commissioner. As 
a matter of fact, Sheriff J.E. Guerra was one of my mentors, 
and there were some extraordinary individuals who I had the 
opportunity to work with.
    As we have discussed how you deal with Mexico, which is our 
No. 1 trading partner, and the agricultural aspect of that, as 
this debate raged through the years that we are going to build 
a fence from Brownsville to El Paso, and people who don't know 
Texas, people don't understand the massive amount of land, the 
private property that would be impeded upon, if you will, from 
the standpoint of their privacy.
    Ms. Jackson Lee. So we should take that into consideration.
    Governor Perry. Oh, absolutely, you should take it into 
consideration. It is the reason that I would suggest that so 
many of the private landowners have been very, very open about 
allowing the Border Patrol to come on their land. Actually, as 
a side note I wanted to share with you, one of the problems 
that we have here is some of these private preserves, these 
private preserves that are environmental preserves that have 
been put into place over the course of the last few years; and, 
Mr. Chairman, it is something that I think the committee should 
take a look at because they are not being allowed access, it is 
my understanding, by the Border Patrol and by the law 
enforcement, and they have become somewhat havens.
    Listen, the drug cartels know these things very quickly.
    Ms. Jackson Lee. If I might, Governor, I have a short 
period of time, so I will let you finish that sentence. I 
appreciate it. I have some other questions for you.
    Governor Perry. Right. But my point is that I am sure that 
we could go up and down the Rio Grande and find folks on both 
sides of this issue.
    Ms. Jackson Lee. My point is, the point I am trying to make 
is that sometimes we offer suggestions from the Federal 
Government or the State government and we are not engaging the 
local community.
    I want to get to the point of maybe taking issue with 
whether we are as safe as we were pre-9/11, or pre-ramping up 
the Border Patrol. I have been on Homeland Security now since 
the very beginning. Border Patrol Agents were 4,000; they are 
now 21,000. We get intelligence reports, and for a period of 
time we heard a lot about OTNs and the intrusion of individuals 
coming from the Mideast. I frankly believe the Border Patrol 
has control of that. Every Border Patrol Agent that I spoke to, 
and leadership, over these 3 days indicated that they are 
decidedly safer today than we were before.
    So let me get to these children and ask the Chairman, can I 
ask unanimous consent to put into the record H.R. 3887 that 
passed in the 110th Congress, I believe, and the words are for 
the Homeland Security Act, ``An unaccompanied alien child in 
the custody of the Secretary of Health and Human Services shall 
be promptly placed in the least restrictive setting that is in 
the best interest of the child.'' It gives discretion if the 
child is a danger to themselves, a danger to the community, or 
risks flight.
    All that I have heard over the past 3 days----
    Chairman McCaul. Without objection, so ordered.*
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
    Ms. Jackson Lee. Thank you.
    None of these children were a danger to themselves. I also 
have information that indicates that there is a 712 percent 
asylum application for El Salvadorans, Guatemalans, and 
Hondurans, and not the same amount from those from Mexico. It 
has been steady. Panama, Belize, Costa Rica, Nicaragua. The 
assumption is that they are coming from these countries because 
there is horrific violence, that there is a humanitarian 
crisis.
    So the question I would have, Governor, is: Can we not 
balance our desire for security with the recognition that we 
have passed a law that is not a law that undermines National 
security? It is simply to provide for this possible influx of 
children that have come over a period of time, and it is not 
going to encourage more children to come if these innocent 
children who are 5-year-olds--I can't believe they are 
calculating enough to think ``I am going to go here so I can 
inspire my other fellow classmates or babies to come,'' like 
the 2-year-old who was in a diaper who was totally without 
anyone, who are trying to get placed as we speak today. That 
child could not be used as an example to encourage others.
    Can we not find the kind of balance and humanitarian needs, 
and also to provide the extra funding in this supplemental to 
help our Border Patrol? I just take issue--and I respect all of 
the thinking on this, but I take issue with the idea that our 
Border Patrol team is not well placed with resources to do 
their jobs.
    Governor Perry. That is a good question.
    Ms. Jackson Lee. Yes, and I respect the National Guard, but 
I would----
    Governor Perry. You ask a very good question.
    Ms. Jackson Lee. I would argue that the National Guard 
militarizes. If you want them to do their military assignments, 
it militarizes the border, and I don't know whether we have 
asked or that is an answer to children and whether or not it 
responds to what is not yet determined as to whether this 
border is so porous that we have terrorists coming through. I 
think that we have that under control.
    Governor Perry. I think if we ask--I think if we stay 
focused on the only issue at hand that I am hearing you talk 
about, which is the children, which is a humanitarian crisis, 
we have multiple crises here. Speaking of balance, I totally 
agree with you. I would love to have a balanced approach when 
it comes to the Border Patrol, because when you look at the 
United States border from El Paso to California, there are 17 
Border Patrol Agents per mile dedicated to that region of the 
United States. From El Paso to Brownsville, it is 7 Border 
Patrol Agents per mile.
    I am all for balance. Let's get Texas balanced when it 
comes to the number of Border Patrol Agents relative to the 
rest of the country; 4,000 to 21,000. That is a good step in 
the right direction, but they are in the wrong place, I would 
suggest to you.
    Chairman McCaul. The gentle lady's time has expired.
    Dr. Broun from Georgia.
    Mr. Broun. Governor Perry, in your recent op ed, you 
stated, ``The root cause is Washington's failure diplomatically 
and strategically to address our border security and illegal 
immigration problem.'' This failure to develop a comprehensive 
strategy has resulted in border security which simply squeezes 
the balloon from one area of the border to another, while also 
failing to focus on the diplomatic efforts that are necessary 
which would have an equal impact about addressing the problem 
prior to these individuals reaching our porous borders.
    Frankly, Governor, I blame four administrations, two 
Republican and two Democrat, for not addressing these issues.
    As Governor, do you see this as a leadership problem on the 
part of the administration? Is it just this administration, or 
is it previous administrations as well, as I believe it is?
    Governor Perry. Well, this issue has been going on for a 
long time. I am tired of pointing fingers and blaming people. I 
hope what we can do is come up with some solutions here, 
because we know how. The fact is, we know how to secure the 
border. I mean, I can have Steve McCraw up here and probably in 
15 minutes lay it out so clear to anyone, here is how you 
secure the border.
    The question is this: Do we, as the United States of 
America, believe in our rule of law, and do we believe that we 
need to have a secure border between the United States and 
Mexico? I do. I think that is one of the Constitutional 
enumerated responsibilities of the Federal Government, to 
secure the border.
    I won't get off onto my Tenth Amendment speech about 
getting out of our hair and a whole bunch of other stuff. You 
already all know that already.
    But my point is that we just need to have a discussion in 
this country, do we need to have a secure border that will stop 
illegal activity or bring it to astoundingly low levels as we 
have done in Texas when we have surged into those areas with 
our law enforcement working with our Border Patrol and our 
Federal counterparts. We know how to do this. We just need the 
resolve, the resources of the Federal Government to do their 
Constitutional duty.
    Mr. Broun. Governor, I agree with you, securing the border 
is absolutely the first and foremost thing that we need to do 
to deal with this humanitarian crisis, as well as the National 
security issue that we face as a Nation, and I disagree with my 
colleague from Texas, Ms. Jackson Lee, in that it is still a 
very real problem that this porous, open border is also a very 
real National security risk.
    But going back to your op ed, you talked about the 
diplomatic solutions. Of course, with these kids, diplomatic 
solutions are going to have to play a part, not just securing 
the border, but we are going to have to work with the Mexican 
government, the governments of the other Central American 
countries where these kids are coming from to try to help stop 
this flood, this so-called tsunami, to use a trite phrase, of 
kids flowing into this country.
    But in terms of the diplomatic efforts to strengthen our 
own border security, as you mentioned in your op ed, where 
would you focus to have the greatest impact to stop this?
    Governor Perry. Obviously, we had a great working 
relationship in a lot of areas with Mexico. We probably have 
some areas that we can improve upon. Again, I haven't seen the 
focus on the North American region from a diplomatic 
standpoint.
    I know I am going to get a little bit off the subject here, 
Mr. Chairman, but when I look at Canada and the XL Pipeline, 
when I see Mexico and the opportunities on the energy industry 
with Mexico and the lack of engagement and, frankly, the lack 
of trust that we should be building up with two neighbors that 
ought to be our strongest partners, it causes me some concern. 
So I don't know if the trust level between Canada and the 
United States, Mexico and the United States is where it could 
be, or certainly where it should be.
    So again, diplomatic relationships and using the leverage, 
but also using the personal relationships, and both of those 
are lacking from my perspective. I don't know, again, what is 
going on behind the scenes, but I haven't publicly seen the 
outreach that we have had in previous administrations with 
those, both Canada and Mexico in particular. I hope that we can 
see an outreach and both leverage and, well, let's say a carrot 
and a stick may be needed here to deal with this, because you 
cannot allow that many young people across your country on the 
back of trains and in buses and not know about it. A Marine 
can't go to Tijuana and be apprehended, yet thousands of young 
people are crossing the border with Mexico. There is some 
disconnect there, and we diplomatically have not engaged in 
that to the level at which I am comfortable we could be if we 
really cared about that. Matter of fact, both of those issues.
    Mr. Broun. Governor, I agree with you on that. I hope that 
our administration will start dealing with the Mexican 
government to get them to secure their southern border to 
prevent the flood through their country, as well as stop 
turning a blind eye towards the transit of these kids through 
the country of Mexico. I think it is absolutely critical that 
this administration start focusing those diplomatic efforts to 
do that.
    My time has expired. Thank you, Governor, and I yield back.
    Chairman McCaul. The Chairman recognizes Mr. Vela from 
Texas.
    Mr. Vela. Thank you, Mr. Chairman.
    Governor, I want to begin by thanking you for your 16 years 
of service to the State, and also take this opportunity to 
thank you, Senators Hinojosa and Lucio and the rest of the 
Texas State Senate and our House of Representatives--
Representative Geda was here earlier; I think he might have 
stepped out--for all you have done for South Texas, especially 
with respect to--we have 1.2 million people living here. We are 
a great American community, and with what you all have done 
with respect to the merger of the University of Texas Pan 
American and Brownsville Edinburgh and the new medical school 
and the feasibility of a SpaceX launching pad, that is 
something you deserve thanks for.
    With respect to our presence here today, it seems to me 
that with respect to the National Guard, what I am wondering 
is: How do you think that would have prevented the influx? We 
have 1,000 National Guard at our borders, you would propose. 
How would that have prevented the influx of these unaccompanied 
children who, for all practical purposes, are surrendering 
themselves?
    Governor Perry. The power of boots on the ground I don't 
think can be overstated. The message needs to be sent very 
clearly. It is not a matter of once you come into the United 
States you are going to be deported. This is you are not going 
to be coming into the United States. Had, in 2009 and in 2010, 
those 1,000 National Guard troops been upon the border, I would 
suggest to you their presence here, and then the ensuing 
training of the 3,000 Border Patrol Agents to permanently take 
those individuals' place because that was a temporary fix, if 
you will, 2012 would not have seen this great influx of young 
people coming in, the beginning of this great influx in 2012 
that we saw. It would not have happened.
    I would ask you at the appropriate time to have either--and 
particularly Director McCraw share with you what we have seen 
from the standpoint of our ability to substantially lower the 
criminal activities along the border when we have surged into 
those places. It is just like a Neighborhood Watch, if you 
will. I mean, it is really some pretty common sense. When you 
have a substantial law enforcement presence in a particular 
site, you are not going to have the activities, criminal 
activity or, for that matter, I don't think you are going to 
have this great influx of young people coming up here, because 
I truly believe this is manufactured to some degree by the drug 
cartels, because not only is it the drug cartel violence that 
is going on there and their intimidation and what have you, but 
it is also them organizing and pushing this caravan, if you 
will, into this area of the State.
    Mr. Vela. We could probably debate those points all day 
long, so let me ask you this. In your op ed, you mentioned--
this is what you said: ``What is happening along our Southern 
Border is a mounting tragedy, its root cause being Washington's 
failure diplomatically and strategically to address our border 
security and illegal immigration problem.'' Right?
    Governor Perry. I am agreeing with you so far.
    Mr. Vela. So would you agree that the humanitarian or the 
socioeconomic conditions and conditions of violence in Central 
America are also one of the root causes of the crisis that we 
are experiencing?
    Governor Perry. I don't argue that. As a matter of fact, I 
think that is what I said there, either directly or obliquely. 
But the fact is we are wanting to draw this line and say here 
is where we are and we are going to have to continue doing what 
we have been doing and address the result of it. I would 
suggest to you that if you send a clear message that you are 
not coming into the United States, and if you are here you are 
going to be cared for and get you back into traveling condition 
and you are going to be sent back to where you are from, 
substantially stymie the flow that we have seen because we know 
what was happening in 2012, and I want to say it is like 5,000, 
and then the projection for 2015 is 160,000.
    I am just going to tell you that unless the United States 
clearly sends the message of we are not going to allow for this 
unimpeded flow of individuals into our country, and you get 
here and you can stay here, then it will be a deluge. After El 
Salvador and Honduras, what is the next group of people to 
decide to come here? I mean, do they start shipping people from 
other places in the world? I mean, there has to be a point in 
time where we stand up and say we are going to secure the 
border of our country, we are going to be a rule of law. If we 
don't do that, I will suggest to you that the American people 
will address this in a number of different ways, electorally 
and otherwise.
    Mr. Vela. May I have one more, Mr. Chairman?
    Chairman McCaul. Very quickly.
    Mr. Vela. Would you also agree at least that one of the 
root causes of the crisis that we are currently experiencing is 
also the fact that 85 percent of these children are coming here 
to be reunited with their parents? Would you agree with that, 
that the reunification factor is one of the root causes of what 
we are seeing?
    Governor Perry. I don't know whether those numbers are 
correct or not. But the issue at hand is not if we are going to 
address this flood of individuals who are coming to this 
country, whatever reason they are coming for. We cannot, as a 
country that respects the rule of law, allow for basically the 
turning away from the legal system that we have in this 
country.
    Chairman McCaul. Mr. Barletta from Pennsylvania.
    Mr. Barletta. Thank you, Mr. Chairman.
    We are trying to deal with this on a Federal level. But, 
Mr. Governor, as the mayor of Hazelton for 11 years, I saw 
first-hand what a burden illegal immigration has on local 
government. When I saw our population grow by 50 percent but 
our tax revenue stay the same, realizing we had an illegal 
immigration problem, the quality of services suffered.
    On Monday, I helped sound the alarm to help stop potential 
relocation of unaccompanied minors to a property in my hometown 
in downtown Hazelton, Pennsylvania which had been identified as 
a potential housing facility. The United States Committee on 
Refugees and Immigrants has now stated that they are not 
looking at locations in Hazelton but will continue to look for 
potential places across the country.
    Governor Perry. Have you been told where those are?
    Mr. Barletta. No. I am getting to that. But I am worried 
for a number of issues, not only for Hazelton, which is now not 
a problem, but for other cities.
    What are the health risks, in your opinion, to these 
children and to the community that they are going to be sent 
to? Do you know, are background checks being conducted not only 
on the unaccompanied minors but on the adults who will take 
custody of them? Do we know if they are predators? Do we know 
anything about them, if they are gang members, associated with, 
anything about their background? How long will the minors 
remain in the United States, and what impacts will there be on 
our public schools and on other public services, including our 
health care providers? These are all local issues, real issues 
that small governments have to deal with. Can you speak on that 
based on your experience?
    Governor Perry. I think those are all very legitimate and 
appropriate questions for people in the other 49 States as 
well, and the reason I ask you that, Congressman, is because I 
don't think our Government is being forthright, being 
transparent in the process that is going on. I think we have 
seen the reaction in Georgia and California and Pennsylvania, 
and I think you are going to see that in a lot of places across 
the country.
    Again, we are either going to be a country that respects 
our rule of law, or we are not. We are going to be a country 
that is going to secure its border, or we are not. If we are 
not going to be either one of those, then the Federal 
Government needs to stand up and say here is the way it is 
going to be.
    My instincts are that the American people are not going to 
be particularly happy about that. They do want this to be 
addressed. They want it to be addressed thoughtfully. But 
securing this border, until that is done, all of these other 
conversations that folks want to have about immigration reform 
or what have you, they are going to fall on deaf ears with this 
country. That is my perspective when I go and talk to people 
across the United States.
    Mr. Barletta. I agree with you. The problem starts in 
Washington and ends up on the border, then ends up in Hazelton, 
Pennsylvania and across the country for everyone to try to deal 
with it. What always stops me when someone wants to talk about 
immigration reform, I always go to the background checks 
because as a mayor, I know what is involved in doing a proper 
background check.
    How do we find information on this? Because I saw the human 
side today, these three beautiful little girls with their 
grandmother who risked their lives to come here. I saw that, 
and it broke my heart. But there is also the realist in me who 
also saw others that again could be here not for good reasons, 
and that is the ones I am concerned about because there will be 
innocent Americans every time who pay that price. If we don't 
do the due diligence to make sure that we are not allowing 
people into this country that will harm Americans, which I 
believe is our first priority of Government, is to protect the 
American people, then we are not doing our job.
    That is where it stops for me, and I am not convinced that 
we know enough about the children that are here. We talked 
about what are the causes. I do believe that most are here 
because there is somebody in the country already here 
illegally, which is the cause of not enforcing our immigration 
laws. We have created another crisis now with the children.
    So I want to thank you for coming with your perspective.
    Governor Perry. Yes, sir.
    Chairman McCaul. This crisis I think will literally impact 
every district across the Nation eventually.
    The Chairman recognizes the gentleman from California, Mr. 
Swalwell.
    Mr. Swalwell. Thank you, Chairman.
    Thank you, Governor.
    Governor Perry. Yes, sir.
    Mr. Swalwell. I came here not looking for placing blame but 
looking for solutions, and at that facility this morning I saw 
children, and I saw mothers holding their children. I talked to 
a young El Salvadoran boy and asked him why he came here. He 
said he traveled alone, and he said he came here for a better 
life. He wasn't holding an invitation in his hand from 
President Obama. He didn't know what DACA meant. He didn't know 
what the Traveler Protection Act was.
    So I understand in your op ed, you said that the root cause 
was a belief that they would be allowed to stay here. So I just 
wanted to walk through some figures with you.
    You would agree that the Trafficking Victims Protection Act 
was passed in 2008. Is that right? In 2008 it was passed?
    Governor Perry. I will let your statement stand as fact.
    Mr. Swalwell. You would agree that in 2008, only 7,500 
unaccompanied minors came across our border?
    Governor Perry. That is factual.
    Mr. Swalwell. In 2012, the President took Executive Action 
with the Deferred Action Children Act.
    Governor Perry. Yes, sir. If where you are going with this 
is where I think you are going with it, here is what you need 
to understand.
    Mr. Swalwell. Governor----
    Governor Perry. I have been the Governor here for 14 years.
    Mr. Swalwell. Governor, if you don't mind----
    Governor Perry. But here is----
    Mr. Swalwell. Do you agree that in 2012----
    Governor Perry. Here is what I agree to. The reason people 
are coming is because----
    Mr. Swalwell. If I may, Governor----
    Governor Perry [continuing]. The border has not been----
    Mr. Swalwell. I will ask the questions, Governor.
    Governor Perry [continuing]. Secured. And until we----
    Mr. Swalwell. Governor, may I ask the questions?
    Governor Perry. Until we get the border secure, you are not 
going to see a stop to any people. As a matter of fact, you are 
going to see a flood, more than this. I hope you will agree 
that the responsibility to secure the border is the Federal 
Government's, not the State of Texas', not the County of 
Hidalgo----
    Mr. Swalwell. Governor, I would agree. But would you agree 
that after the Deferred Action Executive Action was taken, 
25,000 or fewer? That was 2 years ago.
    Now today, in 2014, we are at 50,000, probably 80,000 by 
the end of the fiscal year.
    So is it your position that it has taken 2 years for the 
word of DACA to travel to Guatemala, El Salvador, and Honduras, 
and 4 years for the Trafficking Victims Protection Act to 
travel to them, and that is the reason they are all coming 
here?
    Governor Perry. I think what has happened is the abject 
failure of the Federal Government to do its responsibility, and 
what you have seen is a catalyst that has been growing year by 
year, and people understanding that if you will get from 
wherever you are to the border of the United States, you can 
cross and the Federal Government is not going to impede you 
from coming into this country and staying here, and that is why 
Americans are upset.
    Mr. Swalwell. Governor, you are calling for----
    Governor Perry. That is why Americans are upset.
    Mr. Swalwell [continuing]. Additional Border Patrol Agents. 
But during our briefing this morning, we were told this is not 
a matter of catching them, that these children are running into 
open arms. So wouldn't additional Border Patrol Agents only 
increase the number of open arms that these children are 
running into?
    Governor Perry. I think I addressed that earlier when I 
said that when you have the National Guard, when you have a law 
enforcement effort--and, frankly, it gets back to the issue of 
whether or not we are going to have a diplomatic relationship 
with Mexico to the point of where they trust us, we trust them, 
and they secure their southern border. I mean, if it is going 
to come down to we are going to put enough people on the border 
and put them on the border--I am not talking about 40 miles 
back and apprehend, and that has been our objective when we 
surged into the border region, is put them on the border, have 
that law enforcement presence there.
    Again, if the point is we are going to continue with the 
same old policies that we have had and we don't apprehend at 
this particular point in time and send those individuals back 
to where they are from----
    Mr. Swalwell. Governor, you mentioned several times send 
them back to where they are from----
    Governor Perry [continuing]. 160,000, and then 320,000--
yes.
    Mr. Swalwell. I appreciate that because I----
    Governor Perry. Do you not agree that they need to be sent 
back to where they are from?
    Mr. Swalwell. I do agree on a case-by-case basis. We do not 
want them to come here.
    Governor Perry. Okay. Do you agree that they need to be 
sent back to where they are from?
    Mr. Swalwell. Would you agree, Governor, that the 
challenge, though, is that where they are from doesn't 
necessarily cooperate with us? We need to put pressure on 
Guatemala and Honduras and El Salvador----
    Governor Perry. Absolutely, absolutely.
    Mr. Swalwell [continuing]. To receive them.
    Governor Perry. Absolutely, I agree with you on the 
diplomatic side. But you agree--I want you on the record here, 
in front of God and everybody--you agree that they need to be 
sent back to the country that they are from?
    Mr. Swalwell. Governor, I agree we can, on a case-by-case 
basis--I am not saying all of these----
    Governor Perry. But I heard you say earlier that you agree 
that they need to be sent back to where they are from.
    Mr. Swalwell. But I hope you understand that it is not as 
easy as catching a child from Guatemala and then just dropping 
them on the corner in Guatemala.
    Governor Perry. I didn't say it was going to be easy. This 
has never been easy. I have written the President since 2005 
about the difficulties that we face along this border. The 
citizens of this region deserve to be able to live in a safe 
and secure area. Our responsibility as citizens, both as a 
State governor in my case and you as a Congressman, is to 
secure this country. Sending young people back, if that is what 
we have to do to send a message, because if we don't, then the 
only alternative I see is instead of 5,000, then 8,000--I mean, 
the flow is not going to stop.
    If we are going to be a country that respects the rule of 
law, and if we are ever going to have a conversation about 
immigration reform, which my bet is that you and I would 
probably like to see that happen, it will never happen until 
you secure the border.
    Mr. Swalwell. Governor, I appreciate that, and I thank the 
Chairman. My point is that this is something more complicated 
than these children are coming because of President Obama 
invited them.
    Governor Perry. It is an incredibly complicated issue, 
Congressman. It is an incredibly complicated issue. But I 
really believe that we can find a solution, and that is the 
important thing for me. Thank you again for being here. We can 
find the solution to this. I mean, we are smart enough, we are 
big enough, we are wealthy enough to find the solution to this. 
But we first must secure that border, because that is what 
Americans want us, demand that we do.
    Chairman McCaul. The gentleman's time has expired.
    Mr. Swalwell. Thank you, Mr. Chairman.
    Chairman McCaul. Kay Granger from Texas.
    Ms. Granger. Thank you.
    Thank you, Governor, for being here and for all you have 
done over all these years about this issue. This is the second 
time I have been to McAllen this week. I traveled here just to 
personally see----
    Governor Perry. They would like you back in 2 days.
    [Laughter.]
    Governor Perry. For tomorrow would be good, the 4th of 
July.
    Ms. Granger. Yes. I wanted to see what was being done here 
and what needed to be done, and we all did that way. I saw 
things I didn't want to see. I saw children that were kept in 
places that--on dirty floors and sleeping without blankets and 
things that we expect in Beirut, we don't expect here in 
McAllen, Texas.
    At Lockheed--sorry. At Lackland, there were 1,200 children 
being taken care of. They were being taken care of very well, 
600 boys on one floor, 600 girls on the other floor, 30 to a 
room, given good health care and checks.
    But I was traveling with the First Lady of Honduras, and 
she became very, very emotional. I said to her, I said if it 
were my country, I would hate to see the loss of the children 
from my country and all their futures and what they believed 
and what they were going to add, their talents, and she said 
that was exactly what she was thinking of, the huge loss.
    I thought, to those children, they are going to lose their 
culture, they are going to lose their family and their friends, 
and I am afraid they are never going to be really united with 
their families.
    So I talked to her and I said--and the next day I talked to 
the Foreign Minister of Honduras and said I think we should 
send these children home, and she said yes, she wanted the 
children to go home. But I said I thought that if we did it 
right, we could put the children first and we could get a 
situation where we sent them back home but we helped Honduras 
keeping them safe, some of the shelters that we have done in 
Jordan and Lebanon, all sorts of places, and then work with 
that government to make the government make that safer so the 
children didn't want to leave and break the law. I think that 
is possible. It ain't easy, just like you said. It ain't easy, 
but it is certainly possible.
    I think with leadership like the leadership that you have 
exhibited where you are very straightforward, you say we are a 
country of rules, this is what we need to do, we need to back 
it up, and we need to let the people who are trained to keep us 
safe and to secure that border do their job in sufficient 
numbers to have a safe border, I just think absolutely that 
that is the direction we need to take.
    I think we need to do it very quickly, because we start out 
with 52,000, and I don't know what we will have when we start 
enacting laws. But I think that there is something we all need 
to do, and that is to try to stop it at this level so we can 
know who we are dealing with.
    I think the worst fear I have is I watched those 1,200 at 
Lackland get on buses, that we will never see those kids again, 
and their families won't either. It is a dangerous, dangerous 
trip they took to get where they are, and for us to keep those 
children and say we are going to return you to families, I 
think we all need to be very aware of the other dangers they 
have, the human traffickers with cartels. So I think we need to 
also in our thinking take that to a different level.
    So I would ask, of course, for your continued guidance and 
leadership in this. Thank you.
    Chairman McCaul. Any response?
    Governor Perry. I agree with everything she said, sir.
    [Laughter.]
    Chairman McCaul. Smart man. I always agree with Kay 
Granger, all the time. That is always the best policy.
    [Laughter.]
    Chairman McCaul. Thank you, Kay.
    The Chairman now recognizes Gene Green from Texas.
    Mr. Green. Thank you, Mr. Chairman. Thank you for allowing 
those of us who are not on Homeland Security to actually 
participate.
    Governor, welcome.
    Governor Perry. Yes, sir.
    Mr. Green. You and I served together since sometime in the 
1980s. I am going to try and take my ``D'' hat off, and you can 
take your ``R'' hat off, because we have plenty of time to do 
that, because I always was taught in the legislature that our 
goal is to do what is good for Texas, just like as a Member of 
Congress I hope to do what is good for our country.
    I agree with what my colleague from Georgia said. Securing 
our borders has been a challenge for decades, although I have 
to admit I love Texas history, and I am sure glad the royalty 
in Spain and the governor of Mexico, they didn't secure the 
borders on the Sabine either back in the 1820s and 1830s. So we 
have had this problem for a long time, and it is easier said 
than done on securing borders.
    Governor Perry. I agree.
    Mr. Green. I am looking forward to Mr. McCaul's statement 
on it because I have never not voted in my 20 years-plus in 
Congress, voted for expansion and more money for Customs and 
Border Protection. We have always done that, and I would think 
that we will continue to do it. In fact, in the immigration 
reform bill, there was this committee, the Homeland Security 
Committee, passed bipartisan I think a much better part of that 
bill than the Senate did. Even though the Senate had a lot more 
money, I think ours, this committee and Congressman McCaul was 
smarter in doing it, and I would hope we could vote on that 
sometime.
    Let me get to a couple of things, though, that came up. 
First of all, one of your comments, your four statements, we 
were told now, and hopefully we will in a later panel, that 
every child who comes here is going to be tested for their 
health issues before they are released, and hopefully the next 
panel will guarantee that to us in just telling it to us.
    The other thing is that it is hard enough to do a 
background check on adults. There is no way we are going to do 
a background check on those three granddaughters we saw over 
there from Guatemala. If somebody wants a background check on 
every immigrant, it is just not going to happen. We just can't 
do that. We have enough trouble with the adults that come over, 
having access to the files in those countries on someone. So 
let me put that aside.
    I don't know of anything in the last 6 or 7 years that the 
President has said ``you have a free pass to come to our 
country.'' The 2008 legislation was actually signed by 
President Bush and passed by a voice vote in the House of 
Representatives. So if we need to go back and change that, but 
I don't think that was an invitation to anyone. I think that 
was in response to what we were trying to do to treat children, 
and it is not unlike what we do in Texas.
    When I practiced law, if I had a juvenile case, that child 
under 17 years old went to juvenile court. They were treated 
much better in juvenile court than they were if they were 17 or 
older because they went to adult court. So we tried on the 
Federal level to do that, treat children as children.
    Now, we do know that in Central America we have gang 
problems, and some of the problems in those countries, I know 
El Salvador particularly, a lot of their problems, if we 
deported a substantial number of gangs from Texas I am sure, 
but also California, and rightfully so--I have a very urban 
district in Houston. We have enough home-grown outlaws. We 
don't need to bring them in. So we need to deport them.
    But I don't know of anything the President said that said 
this is open season, and frankly I don't remember President 
Bush saying it either. It has been a challenge, at least I know 
while you have been Governor. You had President Bush and 
President Obama. I don't think there has been an invitation. I 
know in Congress, whether it is D's or R's that run it, we have 
increased border protection.
    Now, I do agree with you on one thing. I didn't know the 
statistic, that we have fewer Border Patrol per mile, and I 
would like to use that as a standard, and we need to correct 
that.
    Governor Perry. Please do.
    Mr. Green. Because we need to have the same emphasis that 
California, Arizona, and the very small part of New Mexico that 
is a border.
    The other thing that in your letter you sent in May 2012, 
that Congress has increased border protection money since then, 
too. Now, it may not be spent. You and I have some 
philosophical disagreements on the National Guard. I was with 
the National Guard in Iraq, our Texas units and Army Reserves 
in Iraq and Afghanistan. They weren't doing border protection. 
They were doing their military job. I think they can be used as 
a force multiplier, but I still want our Border Patrol doing 
their job, and I would much rather have a trained Border Patrol 
Agent than a National Guard person there who is not trained to 
do what the Border Patrol is supposed to do.
    I know I have heard the term ``we are being invaded from 
Mexico.'' That is a little hyperbole. If we are being invaded, 
then maybe we need to move the airborne division there, but 
that is not the case. People are coming here to work. They are 
coming here, and these children are coming for lots of reasons, 
including misinformation in their own country. But that is the 
other thing.
    Have you heard that there has been any suggestion by 
whether it is the Homeland Security Secretary or the President 
to these countries in Latin America that said, you know, you 
can come in here if you are a child, just come in here and 
surrender to a Border Patrol Agent? I have not seen that.
    Governor Perry. Can I address that?
    Mr. Green. Sure.
    Governor Perry. Gene, thank you. I think it is a bit more 
nuanced, the messages.
    Mr. Green. President Bush said we don't do nuance in Texas.
    [Laughter.]
    Governor Perry. I am thinking that--and let me just back up 
for a little history here. I can't remember the dates of this. 
You may be able to give it to me better. But there was a 
program that we referred to as Catch and Release that got----
    Mr. Green. I remember that, and Congress actually worked 
hard to change that.
    Governor Perry. You did. But those are the nuanced messages 
that I am talking about. You get caught, you get brought in to 
San Angelo, Texas, and then you are given a summons that says 
show up for a court date, and everybody knows how that was 
going to turn out. So both the citizens of this country and 
Members of Congress were a bit outraged, and they addressed 
that.
    Then we had apprehend and get transported to somewhere 
else. Maybe you were apprehended on the Texas border and then 
you got sent to Arizona. So those are nuanced messages that if 
you can just get across the border, then you are going to have 
an opportunity to move around. The message gets sent, Gene. I 
don't think that is really nuanced, to be real honest with you.
    No, the President of the United States didn't stand up and 
say come, and I hope I haven't ever said that, and if I did, I 
needed to be more nuanced.
    [Laughter.]
    Governor Perry. But let me share with you. I never asked 
for the National Guard to come and stay. What we asked for was 
1,000 National Guard to come here in a temporary basis until 
3,000 Border Patrol which are trained every day to do what you 
and I both agree they need to be doing, and thank you for 
supporting the concept of Texas needs to have, at least in 
equity per mile, if our border is going to be--I think our 
border is just as important as the other States that are border 
States.
    Anyway, my point is that I do think that this nuanced 
messaging--and again, this has been going on for some time. I 
would just like to look for the solutions. We know what the 
problem is, and the solutions from my perspective--and again, 
we can maybe disagree a little bit on the exact way to deal 
with it and what we are facing, but we know how to secure the 
border.
    I think if we will agree that we can put the resources on 
the border in an appropriate number, that a lot of these other 
issues will go away.
    Mr. Green. I know I am out of time, and I know we are 
trying to move on. I appreciate the time, Mr. Chairman. I like 
your leadership on some of the Border Patrol and Homeland 
Security. We will work together to get it done.
    Governor Perry. We will. We can do this.
    Chairman McCaul. The Chairman recognizes Mr. Salmon from 
Arizona.
    Mr. Salmon. Thank you.
    Governor, a couple of things. First of all, thank you for 
being here today.
    I went to the facility in Nogales, Arizona about 3 weeks 
ago where there were 1,250 children. At the time it was the 
only facility of its kind, and it was a makeshift facility. The 
first thing that happened when I walked in--and I am not a real 
emotional guy, but I broke into tears when I saw what was 
transpiring before my eyes.
    We are talking a lot about these children and what is best 
for these children. I think that the point that you are making 
is one that we have to focus on with a laser beam, and that is 
ultimately if we don't stop it now, the waves will keep coming. 
How many of those kids aren't in the facilities? How many are 
not making it? How many are dying in the desert?
    I understand that one out of every three teenage girls is 
being raped as they make that journey. I understand that many 
of these children are being sold into slavery and some into 
prostitution, many of them. If we don't create a deterrent to 
stop that from happening, this untold carnage is going to 
continue to happen.
    I happen to agree with you that actions speak louder than 
words. If they believe that these children are going to come 
here, they are going to bounce around the system until we 
bounce them out to their relatives, some of them that are in 
this country that are here illegally, then it is going to keep 
coming, and it is going to come from Nicaragua, and it is going 
to come from other countries as well, and the carnage is not 
going to stop. Is that real compassion? I would submit it is 
not.
    The second thing that I would like to point out is that 
just throwing money at the problem alone--$2 billion, that is 
what the President has asked for--if we don't have a focused 
plan, or if we don't let the CBP officers or ICE do their jobs, 
then that money is wasted.
    I talked to the CBP folks at that facility, all the way 
down the line, spent a whole day there with them, and they told 
me of the abject cause for their low morale, and that is that 
they are not allowed by this administration to do their job. 
They are cops. Yet what happens? So they find a family unit, 
and they drop them off at a bus station, and they give them a 
date to come back to court. I said, well, how many of them come 
out for that court date? They started to laugh, and they said 
are you serious? None of them come back, they just stay.
    The children, because of the 2008 law, they are guaranteed 
a hearing, and those hearings are taking anywhere from 3 to 7 
years before the hearings can be accomplished. We have got to 
change that law. We have to, and treat the children who are 
coming from Central America just like we would treat the 
children coming from Mexico or Canada. Let us just make that 
amendment. The administration has asked for that.
    If we do that and we act through actions and not just 
words, let's dig that placard out that Truman had that said 
``The buck stops here,'' for all of us, for Congress, for the 
President. Let's say the buck stops here and let's just fix it 
and stop this carnage from happening.
    The last thing I would like to say, and it is a question 
for you, the President just said a couple of days ago that he 
has decided to go it alone on immigration reform, that he is 
frustrated with the way things have happened. Governor, do you 
think that if the President goes it alone and comes out through 
Executive Order and not involving the Congress, do you think 
that will help or hurt this situation?
    Governor Perry. I think it is really fascinating that the 
one place that the President really needs you, all of you, is 
on this issue, and it is because of the appropriation of the 
dollars. There have been some other issues that the President--
I remember him talking about his pen and a phone, but that the 
President has bypassed Congress, and maybe he could or should. 
I don't know. I am not going to weigh in.
    But this is the one time that I really think the President 
does need all of you, Democrats and Republicans alike, to be 
working with you and reaching out. Gene, I have found--you left 
us and went to Congress. The few times that I tried to do 
something without you, you spanked me pretty good.
    [Laughter.]
    Governor Perry. As I recall.
    So one of the things that I have learned over my 14 years 
of being Governor, and then the other 16 years of being a State 
Rep and the other roles that I have had the privilege to play, 
was that an executive in Government, the President of the 
United States or the Governor of a State, can't go it alone. 
You are not going to be successful.
    I hope that all of us will share with the President that we 
are willing to sit down and work with him. One of the reasons I 
asked him to come here, I wanted him to see this because, just 
like you, Congressman, I think if he walked in that sally port 
and he saw what all of you have seen, then he would realize 
that this is bigger than politics, this is bigger than--but it 
is not bigger than America. We can find the solutions to these 
issues and stop this tragedy that is occurring all across 
Central America and Mexico and into the United States.
    Mr. Green. Thank you, Governor.
    Chairman McCaul. The Chairman recognizes Mr. Olson from 
Texas.
    Mr. Olson. Before I thank my Governor, I would like to 
thank Chairman McCaul for inviting me to be a part of the 
committee and participate in this very important hearing. Thank 
you, my friend.
    Governor Perry, good afternoon.
    Governor Perry. Howdy.
    Mr. Olson. My wife Nancy couldn't be here today, but she 
ordered me, ordered me to say thank you to you, for your life 
of service to Texas, taking care of my family and 27 million 
Texans. Thank you, thank you, thank you. Knowing that you and I 
share a common bond as former pilots in the military, she had a 
call sign for you: ``Prosperity Perry.'' Has a ring to it, 
doesn't it?
    Governor Perry. That is kind of a long call sign, actually.
    [Laughter.]
    Mr. Olson. Yes. Well, ``prosperity.'' That ought to work 
out.
    Governor Perry. I kind of like ``maverick'' better.
    [Laughter.]
    Mr. Olson. Cross the Air Force with the Navy. I appreciate 
that, sir.
    Governor Perry. Yes, sir.
    Mr. Olson. I want to talk about President Obama's blindness 
to a crisis that threatens our State with a tsunami of 
disaster. You have authorized $1.3 million for DPS per week to 
get involved in border security, $1.3 million coming from 
Texas. As you know, you are not like us. You can only spend 
money you have. So, Governor Perry, you are going to have to 
come up with some money. If this goes on for 6 months, you are 
going to have to come up with $33.5 million.
    My question to you is: What is going to happen to other 
services that have to be impacted? Any idea what is going to 
happen, Governor?
    Governor Perry. Well, obviously, Texas is fortunate in the 
sense of its economy is doing better than most other States. 
Matter of fact, 37 percent of all the new jobs created since 
2000, 37 percent of all the private-sector new jobs created in 
the United States were created in this State over the last 13-
plus years. So the State of Texas is in a surplus condition in 
its State government.
    But the fact is, from 2005, we all remember 2008-2009, that 
even Texas wasn't immune to what happened in that particular 
period of time. We had to struggle; not as bad as other States. 
But the fact is during that period of time, we were spending 
money on securing this border. We were diverting money that, 
frankly, could have been spent for transportation 
infrastructure.
    I can promise you, Judge Garcia and Senator Hinojosa and 
Senator Lucio would have loved to have had some of those 
dollars in the far transportation district to have built some 
transportation infrastructure in this State. But public safety 
trumped that.
    The legislature--and I think it was a fairly overwhelming 
vote to send that money for border security in 2005, in 2007, 
in 2009, in 2011, in 2013, and it is over a half-a-billion 
dollars now that, frankly, was your responsibility. Again, I 
want to remind you that I put a request in for you to pay it 
back.
    But you are absolutely correct, this is not the State's 
responsibility. It is not Arizona's responsibility. It is not 
New Mexico's responsibility. It is not Jerry Brown's in 
California's responsibility. We have a Constitution that 
clearly enumerates the powers that are supposed to be dealt 
with by the Federal Government, and defending and securing this 
country's borders is one of those that we are failing.
    Mr. Olson. Yep. There is a bigger problem that is a crisis, 
though, sir. As you know, by law, when DHS gets ahold of one of 
these children, they have 72 hours to turn them over to HHS. I 
have seen HHS up close on the Energy and Commerce Committee for 
the past year through their roll-out of HealthCare.gov. In my 
51 years here on God's earth, I have never seen a greater 
debacle from the Federal Government. It was terrible. How can 
we trust these people to ramp up with these kids coming across 
the border when they can't even get this bill up and running? 
They had 3 years to do that. They have 3 hours, 3 days. How can 
we trust them or the Government?
    My point is: Who wants to do this? Somebody in the District 
of Columbia? Somebody in Austin? Or local people?
    Governor Perry. I don't want to--I don't think this is the 
right forum to discuss the Affordable Care Act.
    Mr. Olson. Just an example of how we got there.
    Governor Perry. I know. But I am just saying, we know how 
to fix this. I mean, we know how to address this issue. Again, 
the next panel you are going to have the opportunity to talk to 
some real pros, some people that I have extraordinary 
confidence in, men and women who have a plan.
    Again, it goes back to why I would really like for the 
President to come, or to at least--and thank you all for coming 
again, for being here. But I wish someone from the 
administration would come and sit down with the men and women 
who have put the surge operations together over the course of 
these last 7 years, not because we think we are perfect but 
because we know it works.
    Kay, you were spot-on when you talked about just spending 
the money for the sake of spending the money and it is not 
going to do any good. Having a plan--and we will be happy to 
sit down and show them how we in Texas have done this, and my 
bet is we have probably done it in a fairly efficient way. I 
mean, since 2005--and again, we only surged into areas of the 
border, and I think that is important to keep in mind because 
when we are going into 300 miles versus 1,200 miles, there are 
some substantial cost increases.
    But since 2005, and we have been able to surge into these 
areas and drive down substantially the amount of activity, 
criminal activity, and done it for $500 million, half-a-billion 
dollars, which is a lot of money. But compared to the $2 
billion that the President says I am going to make available, 
then I think there is some scalability here, and I think there 
is some partnering here that we don't want to miss out on.
    Frankly, that is one of the reasons why I am here today, is 
to offer this expertise. If there is a State that has had more 
experience of dealing with this issue and, I might add, doing a 
pretty good job of dealing with the issues at hand with our 
surges, if there is somebody that is any better or more 
experienced, I would love to have them sitting at the table 
with us as well.
    But I think it is really important for us to leave here 
with some solutions in our minds about, you know what? Here is 
a way to address this, and here is an avenue for us to address.
    Chairman McCaul. I agree with you, and that is why we are 
here.
    The Chairman now recognizes the gentle lady from North 
Carolina, Mrs. Renee Ellmers, her first trip to the border.
    Mrs. Ellmers. Yes, and thank you, Mr. Chairman, for 
allowing me to come along on this trip, not being a Member of 
Homeland Security Committee.
    Thank you, Governor Perry, for your leadership to the State 
of Texas and your willingness to be a leader on this issue of 
immigration. Obviously, as you have pointed out, we have to 
start with the border. Although many disagree on the path that 
we need to take for immigration reform as a whole, I think 
everyone that I have spoken to, regardless of party 
affiliation, regardless of who you are, what State you live in, 
everyone agrees that the border has got to be secure, and 
obviously you are ground zero for that action.
    I bring greetings from our Governor, Pat McCrory, and I 
know he is a good friend of yours.
    Governor Perry. Yes. I hope I am not on the phone with him 
before the day is up with offering services for a hurricane.
    Mrs. Ellmers. Thank you, yes.
    Governor Perry. But we will be if that is what is required.
    Mrs. Ellmers. Well, thank you, and we are certainly all 
praying that that will not be the case.
    But obviously in North Carolina, we do not have the hurdles 
that you have here in Texas with the border situation. But just 
as so many of the other States and areas are affected by the 
migration of these individuals coming across our border, so too 
is North Carolina. I know I am one, as you are, and you have 
pointed out numerous times that we are here to find solutions.
    I am here to find solutions on immigration in general, but 
especially because of this humanitarian crisis that we are 
experiencing, and coming here to learn and seeing it first-hand 
so that I can bring this back to my constituents and hopefully 
be a voice on this issue as well.
    You know, to some of our colleagues, we have talked a lot 
about what might have occurred to create some of this 
situation, and like you, I am looking for solutions. I don't 
want to finger-point. But I think you have to--you can't, you 
simply can't ignore--in our binders, page 7, Table 1, which 
talks about the number of unaccompanied alien children 
apprehensions from 2008 to 2014, you can see the numbers, and 
you can see where they are escalated, and you can see what 
policy was put in place at that time, and then you can see a 
result.
    Whether the result was because it was written in stone that 
way or whether it is because it was perception, and then 
perception became reality, that is what we have been dealing 
with. So now we do have to find the solutions.
    Sir, one of the things that, again, getting back--and I am 
just going to come off of what my colleague, Mr. Olson, was 
talking about, the $1.3 million a day that you have directed 
your Department of Public Safety to allocate, you are talking 
about dealing with, I guess at the more local level, illegal 
immigration and drug trafficking. How has this changed the 
dynamic?
    Of course, this is your State commitment. We are not 
talking about border security necessarily on the border.
    Governor Perry. I might add that it is on top of what we 
have already appropriated, I think $110 to $120 million in the 
2013 legislative session.
    Mrs. Ellmers. How has this changed for the positive, and 
how can we, as we are looking at solutions, incorporate this 
into our plan of action?
    Governor Perry. I want to save us just a little bit of time 
here because when Director McCraw gets up here, he is going to 
give you some very hard factual data and, giving you name of 
surge operation, here is the amount of criminal activity, here 
is the amount of apprehensions that occurred. What I will tell 
you in a broad sense is it is astounding how you drive down 
those activities when you have that law enforcement presence, 
when you have the boots on the ground, and it truly makes a 
difference. If we were able to do that from El Paso to 
Brownsville, I will suggest to you that it will have a likewise 
astounding impact on our border from the standpoint of folks on 
this side of the border will be substantially safer, and at 
some point in time we will have--and this is a conversation for 
another time too, but we will have two administrations, one in 
the United States and one in Mexico, that build a trusting 
relationship, and we can together, as we did in Columbia, deal 
with the drug cartels and the criminal element in Mexico and 
make that entire region, this entire region safer and more 
prosperous.
    Mrs. Ellmers. Thank you, and I yield back.
    Chairman McCaul. I thank the gentle lady.
    The Chairman recognizes the gentleman from Corpus Christi, 
Texas, Mr. Farenthold.
    Mr. Farenthold. Thank you, Chairman McCaul. As a former 
Member of this committee and a representative of the Rio Grande 
Valley in the last term of Congress, it really means a lot to 
be here, be back amongst some old friends, and talk about some 
issues that have been troubling us since I have been elected to 
Congress.
    I do have two takeaways, I think, that really have stuck 
with me from this hearing. I think, Governor Perry, you pointed 
out accurately that border security needs to come first. The 
American people feel like a promise was broken by the Reagan 
administration with the last round of immigration legislation, 
that the borders would be secured if we granted amnesty. We 
have to regain that trust by securing the borders first.
    I also think actions speak louder than words. You know, 
they have telephones and internet in Central America, and when 
children and families come up here, they call back and say, 
yeah, we are going to be here for a while it looks like, and 
they don't see them back in Central America, it encourages more 
people to come.
    As I see it, there are basically three classes of people 
crossing the border illegally that we are dealing with. We are 
going to kind of set adults aside because I don't think it is 
really outside the scope of this hearing. But we have families 
with kids that come, and we have kids that come. What I have 
learned down here is we treat them differently. Families with 
kids we process as quickly as we can. They are still put in 
these horribly overcrowded detention centers, but eventually 
they are released with a notice to appear and go down to 
Catholic Charities and the local bus station and proceed on to 
wherever their eventual destination in the United States was at 
their expense, and with only a notice to appear, which we have 
seen very often they don't.
    The kids are another problem. You can't just set the kids 
loose. You have to do something with them. So after CBP has 72 
hours to deal with them, and then they are released to HHS who 
tries to place them in a facility until they can find a parent 
or someone in the United States to take care of them. We will 
set aside the argument that we should probably be looking for 
somebody in their home country to take care of them.
    What has this done to Texas? We don't have the beds for 
this number of children. What is happening with that?
    Governor Perry. You bring up a concern that I have.
    Representative Ellmers, your home town is getting a pretty 
good lashing right now by the first major hurricane of the 
season. I don't think we have had a hurricane in 4 years. Is 
that right, Sheila? I don't think we had had--it has been 4 at 
least. I mean, we have been blessed in that sense.
    What I worry about as the chief executive officer, I can 
assure you that Kim Nim Kid and Steve McCraw and John Nichols 
all have it on their mind, if we were to have a major event 
like they are having in North Carolina and South Carolina at 
this particular moment, hitting your constituents, Gene, they 
don't have a place to go.
    Mr. Farenthold. So, Governor, do you think the other States 
need to step up and, if they have beds for these children--
typically they are only there for a couple of weeks until we 
find an adult to deal with them. What else do we do?
    Governor Perry. The States have always been good about 
working with each other, and it doesn't make any difference 
whether you are a Democrat Governor or when Joe Manchin was the 
Governor of West Virginia. He was one of the first people on 
the phone to me to offer assistance with some aviation assets. 
Bobby Jindal, when Gustav came through, Bobby----
    Mr. Farenthold. So we need to work it out.
    I am about out of time. I have one more question, sir.
    Governor Perry. Yes, sir. Sorry.
    Mr. Farenthold. I don't mean to cut you off.
    So what the President has asked for recently is the ability 
to do expedited repatriation, more judges to handle some of 
these claims, and some money to pay for it. Those are kind of 
his three big asks in his last speech.
    Governor Perry. Right.
    Mr. Farenthold. As a conservative, do you have a problem 
with any one of those requests?
    Governor Perry. As an American, let me put it that way, and 
I don't think it matters whether you are a conservative or a 
liberal because this issue isn't about----
    Mr. Farenthold. I think the only part we are going to argue 
about is where that money comes from. Do we just turn on the 
printing presses and make it, or do we find it from somewhere 
else?
    Governor Perry. Well, here is my issue. I think the dollars 
need to be spent on border security first, and I am going to 
stay on that record, and I am going to sound like a broken 
record. But the fact is, until we secure this border----
    Mr. Farenthold. But we are still going to have the kids.
    Governor Perry. I understand that.
    Mr. Farenthold. If we had 100 percent border security, 
every child that--let's assume border security is we stop 
everybody within a mile of the border. We are still going to 
have people we are going to have to send back, and we are going 
to have to deal with those, especially the children.
    Governor Perry. I understand that, and we prioritize every 
day in Austin, Texas about where we are going to expend our 
dollars and appropriate thusly, and I would suggest to you, you 
have a lot of smart people in Washington, DC and capable 
individuals, and you will appropriate where the priorities are. 
If the priority is to be able to expedite those young people 
back to the countries that they come from, then I suggest that 
that is what will occur. I hope that is, in fact, a priority 
with this administration and with this Congress.
    Mr. Farenthold. If we can't find the money somewhere else, 
it is basically saying there is nothing we do in Government 
less important than this, and I think we will all agree there 
are a lot of things we do in Government that are less important 
than this.
    Governor Perry. I am thinking you are correct.
    Mr. Farenthold. Thank you.
    Chairman McCaul. Thank you, Governor. Thanks so much for 
being here today.
    Governor Perry. You are welcome.
    Chairman McCaul. Thanks for your leadership.
    Let me just say this for the record. This committee passed, 
in a bipartisan way, which is almost unheard-of in the climate 
in Washington, a border security bill. But it has yet not seen 
the light of day on the Floor. I think if anything comes out of 
this crisis, it demands that we put that bill on the Floor and 
pass it.
    With that, Governor, thanks again.
    Ms. Jackson Lee. Will the gentleman yield for a moment?
    Chairman McCaul. You have a great team behind you.
    I yield to the gentle lady.
    Ms. Jackson Lee. I thank the gentleman.
    This was a bill that we worked with extensively. Let me 
make mention of Ms. Miller, who was my Chairwoman on the Border 
and Maritime Security Subcommittee. I think it is important for 
Texas to know that we have passed out of the Homeland Security 
Committee a very extensive bill that responds to concerns by 
the State and Governor as well, but also has the humanitarian 
element to it, particularly in the area of the question of 
human trafficking. So I would support the gentleman from Texas, 
that we pass that bill. I know you can't cause a bill to be 
passed in the House of Representatives, but I would encourage 
the Speaker to put that bill on the Floor and for us to be able 
to vote on it.
    I thank the gentleman for yielding, and I thank you, Mr. 
Governor, for your service to the State and to the Nation. 
Thank you very much.
    Governor Perry. Can I just say again, as you leave, this 
may be a monumental moment for this country, because if there 
is one issue, I think America is begging to see Washington 
really work and work well and to address a major issue that 
faces us, and this committee has that opportunity, Democrats 
and Republicans alike, working together to find a solution to 
this great challenge of our time. I have truly enjoyed sitting 
in front of you, and I have great hope that you, with the work 
that you are about to do, working together, can send a message 
all across this country that not only is Washington a 
functional place but that men and women can sit together. We 
can disagree on some areas but find that middle ground and find 
that solution to this issue that challenges us.
    God bless you, and thank you.
    Chairman McCaul. Well said. Thank you. Thank you, Governor.
    I welcome the second panel to today's hearing.
    First we have Mr. Kevin Oaks, who is the chief patrol 
agent, sector agent for the Rio Grande Valley sector. Chief 
Oaks most recently served as the operations division chief in 
the Office of the United States Border Patrol in Washington. He 
was also in Afghanistan.
    Now you are down the border. You have been in some 
interesting places.
    His distinguished career includes a variety of leadership 
positions, including chief patrol agent, the Buffalo Sector, 
and commander of the Border Patrol Tactical Unit.
    Next is my good friend Steve McCraw, director of the Texas 
DPS, a position he assumed in August 2009. Prior to his 
service, he had served over 20 years in the Federal Bureau of 
Investigations, where I had the distinct honor and privilege to 
work with him as a Federal prosecutor.
    Next, Mr. J.E. Guerra, appointed interim sheriff for 
Hidalgo County, one of the largest law enforcement agencies in 
the State. In April this year he joined. He has a long record 
of service, most recently serving as precinct constable before 
becoming sheriff.
    Next, Honorable Ramon Garcia, serving a term as chief 
administrative officer for the county of Hidalgo. In his 
capacity as county judge, he chairs the Hidalgo County 
Commissioners Court, the governing body that makes policy 
decisions that guide the direction of county operations.
    Last, we have the Most Reverend Mark Seitz, the Bishop of 
the Catholic Diocese of El Paso.
    Thank you so much for being here today.
    He is testifying on behalf of the U.S. Conference of 
Catholic Bishops. Bishop Seitz is testifying on behalf of the 
Committee of Migration of the Conference, which sets broad 
policy and direction for the Church's work in the area of 
migration.
    Witnesses' full statements will appear in the record.
    The Chairman now recognizes Chief Oaks for his testimony.

  STATEMENT OF KEVIN W. OAKS, CHIEF PATROL AGENT, RIO GRANDE 
  VALLEY SECTOR, U.S. BORDER PATROL, U.S. CUSTOMS AND BORDER 
                           PROTECTION

    Mr. Oaks. Good afternoon, Chairman McCaul, Ranking Member 
Jackson Lee, and distinguished Members. Thank you for the 
opportunity to testify today about U.S. Customs and Border 
Protection's efforts to address the recent rise of 
unaccompanied children and others crossing our border into the 
Rio Grande Valley.
    As you know, Secretary Johnson testified on June 24 before 
the Homeland Security Committee about these very issues, and my 
testimony today echoes and reaffirms his comments.
    We face an urgent situation in the Rio Grande Valley. Last 
fiscal year, CBP apprehended more than 24,000 unaccompanied 
children at the border. By mid-June of this fiscal year, that 
number has doubled to more than 52,000. Those from the 
countries of Guatemala, El Salvador, and Honduras make up about 
three-quarters of that migration.
    I am on the front lines of this effort. The Border Patrol 
has done heroic work during difficult and challenging 
conditions. I have personally seen first-hand the Border Patrol 
Agents stepping up to ensure that we remain vigilant and 
effective in securing the border while also providing care for 
people who are desperate, many of whom are children and women 
traveling with children. I am proud of our efforts, and I am 
particularly proud of the men and women of the United States 
Border Patrol who daily exemplify the highest commitment to 
service to our country.
    As Secretary Johnson said on June 24, this is a 
humanitarian issue as much as it is a matter of border 
security. We are talking about large numbers of children, 
without their parents, who have arrived at our border. How we 
treat the children, in particular, is a reflection of our laws 
and our values.
    Therefore, to address this situation, the Department's 
three-pronged strategy is to process the increased tide of 
unaccompanied children through the system as quickly as 
possible, stem the increased tide of illegal migration into the 
Rio Grande Valley, and do these things in a manner consistent 
with our laws and values as Americans.
    The Department has taken a number of steps, including 
declaring a Level IV condition of readiness so additional 
resources from across the Department are available. On June 1, 
the President directed Secretary Johnson to establish a Unified 
Coordination Group to bring to bear the assets of the entire 
Federal Government. The group includes the Department of 
Homeland Security and all of its components, the Departments of 
Health and Human Services, Defense, Justice, State, and the 
General Services Administration. Secretary Johnson, in turn, 
designated FEMA Administrator Fugate to serve as the Federal 
Coordinating Official for the U.S. Government-wide response. 
Under Administrator Fugate's supervision and leadership, there 
are now more than 140 interagency personnel stationed in FEMA's 
National Response Coordination Center directed to this effort. 
The broad range of these efforts is detailed in my testimony.
    Of particular note, given the influx of unaccompanied 
children in the RGV, we have increased CBP staffing and 
detailed 115 experienced agents from less active sectors to 
augment operations in the Rio Grande Valley. Secretary Johnson 
has also authorized sending another 150 Border Patrol Agents 
based on his review of our operations. These additional agents 
allow the Rio Grande Valley the flexibility needed to achieve 
more interdiction effectiveness and increase CBP's operational 
footprint in our targeted zones.
    In early May, Secretary Johnson directed the development of 
the Southern Border and Approaches campaign planning effort 
that is putting together a strategic framework to further 
enhance security of our Southern Border. We also have ramped up 
our efforts with the governments from the countries from which 
these people are coming--El Salvador, Guatemala, Honduras, and 
also Mexico. The Secretary will be traveling to Guatemala next 
week, and we have launched a public messaging campaign in 
Central America to discourage migrants from taking this 
dangerous journey.
    Finally, we will continue to work closely with Congress on 
this problem and keep you all informed. DHS is updating Members 
and staff as the situation evolves with conference calls, and 
we are facilitating site visits to Border Patrol facilities in 
Texas and Arizona. Secretary Johnson has directed his staff and 
agency leaders to be forthright in bringing him every 
conceivable and lawful option for consideration to address this 
problem.
    In cooperation with other agencies and our Federal 
Government that are dedicating resources to this effort, with 
the support of Congress, and in cooperation with the 
governments of Mexico and Central America, we believe we can 
stem this tide.
    Thank you very much, and I will take any questions as they 
come.
    [The prepared statement of Mr. Oaks follows:]
                  Prepared Statement of Kevin W. Oaks
                              July 3, 2014
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee: Thank you for the opportunity to testify today about U.S. 
Customs and Border Protection (CBP) efforts to address the recent rise 
of unaccompanied children and others crossing our border in the Rio 
Grande Valley (RGV). As you know, Secretary Johnson testified on June 
24 before the House Committee on Homeland Security about this 
situation. My testimony today echoes and reaffirms his comments.
    We face an urgent situation in the RGV. Last fiscal year, CBP 
apprehended more than 24,000 unaccompanied children at the border. By 
mid-June of this fiscal year, that number has doubled to more than 
52,000. Those from Guatemala, El Salvador, and Honduras make up about 
three-quarters of that migration.
    As Secretary Johnson said on June 24, this is a humanitarian issue 
as much as it is a matter of border security. We are talking about 
large numbers of children, without their parents, who have arrived at 
our border--hungry, thirsty, exhausted, scared, and vulnerable. How we 
treat the children, in particular, is a reflection of our laws and our 
values.
    Therefore, to address this situation, the Department's strategy is 
three-fold: (1) Process the increased tide of unaccompanied children 
through the system as quickly as possible; (2) stem the increased tide 
of illegal migration into the RGV; and (3) do these things in a manner 
consistent with our laws and values as Americans.
    So, here is what we are doing:
    First, on May 12, Secretary Johnson declared a Level IV condition 
of readiness within DHS, which is a determination that the capacity of 
CBP and ICE to deal with the situation is full and we need to draw upon 
additional resources across all of DHS. He appointed Deputy Chief 
Vitiello to coordinate this effort within DHS.
    Second, on June 1, President Obama, consistent with the Homeland 
Security Act, directed Secretary Johnson to establish a Unified 
Coordination Group to bring to bear the assets of the entire Federal 
Government on the situation. This group includes DHS and all of its 
components, the Departments of Health and Human Services, Defense, 
Justice, State, and the General Services Administration. Secretary 
Johnson, in turn, designated FEMA Administrator Fugate to serve as the 
Federal Coordinating Official for the U.S. Government-wide response. 
Under Administrator Fugate's supervision, there are now more than 140 
interagency personnel and members stationed in FEMA's National Response 
Coordination Center dedicated to this effort.
    Third, we established added capacity to deal with the processing 
and housing of the children, we are creating additional capacity in 
places, and we are considering others. To process the increased numbers 
of unaccompanied children in Texas, DHS has had to bring some of the 
children to our processing center at Nogales, Arizona before they are 
transferred to HHS. We are arranging additional processing centers to 
handle the rise in the RGV. Meanwhile, the Department of Defense (DoD) 
has provided space at Lackland Air Force Base in Texas for HHS to house 
the children before HHS can place them. DoD is also providing 
facilities at Fort Sill, Oklahoma and Ventura, California for the same 
purpose. DHS and HHS are working to continue to identify additional 
facilities for DHS and HHS to house and process the influx of children.
    Fourth, DHS and HHS are increasing Spanish-speaking case management 
staff, increasing staff handling incoming calls from parents or 
guardians, raising awareness of the Parent Hotline (provided by FEMA 
and operated by HHS), surging staff to manage the intake of CBP 
referrals to track shelter bed capacity, and facilitate shelter 
designations. We are developing ways to expedite background checks for 
sponsors of children, integrate CBP and HHS information-sharing 
systems, and increase capacity to transport and place children. (As 
Secretary Johnson noted on June 24, the Border Patrol and other CBP 
personnel, as well as personnel from ICE, FEMA, the Coast Guard, and 
HHS, are doing a remarkable job in difficult circumstances. Not-for-
profit groups like the HHS-grantee BCFS \1\ also have stepped in 
quickly and are doing a remarkable job sheltering the unaccompanied 
children at Lackland, identifying and then placing them consistent with 
HHS' legal obligations. All of these dedicated men and women deserve 
our recognition, support, and gratitude.)
---------------------------------------------------------------------------
    \1\ BCFS--not an acronym--was formerly known as Baptist Child 
Family Services.
---------------------------------------------------------------------------
    Fifth, DHS is building additional detention capacity for adults who 
cross the border illegally in the RGV with their children. For this 
purpose DHS established a temporary facility for adults with children 
on the Federal Law Enforcement Training Center's campus at Artesia, New 
Mexico. The establishment of this temporary facility will help CBP 
process those encountered at the border and allow ICE to increase its 
capacity to house and expedite the removal of adults with children in a 
manner that complies with Federal law. Artesia is one of several 
facilities that DHS is considering to increase our capacity to hold and 
expedite the removal of the increasing number of adults with children 
illegally crossing the Southwest Border. DHS will ensure that after 
apprehension, families are housed in facilities that adequately provide 
for their safety, security, and medical needs. Meanwhile, we will also 
expand use of the Alternatives to Detention program to utilize all 
mechanisms for enforcement and removal in the RGV Sector. DOJ is 
temporarily reassigning immigration judges to handle the additional 
caseload via video teleconferencing. These immigration judges will 
adjudicate these cases as quickly as possible, consistent with all 
existing legal and procedural standards, including those for asylum 
applicants following credible fear interviews with embedded DHS asylum 
officers. Overall, this increased capacity and resources will allow ICE 
to return unlawful migrants from Central America to their home 
countries more quickly.
    Sixth, DHS has brought on more transportation assets to assist in 
the effort. The Coast Guard is loaning air assets to help transport the 
children. ICE is leasing additional charter aircraft.
    Seventh, throughout the RGV Sector, we are conducting public health 
screening for all those who come into our facilities for any symptoms 
of contagious diseases or other possible public health concerns. Both 
DHS and HHS are ensuring that the children's nutritional and hygienic 
needs are met while in our custody; that children are provided regular 
meals and access to drinks and snacks throughout the day; that they 
receive constant supervision; and that children who exhibit signs of 
illness or disease are given proper medical care. We have also made 
clear that all individuals will be treated with dignity and respect, 
and any instances of mistreatment reported to us will be investigated.
    Eighth, working through FEMA's National Response Coordination 
Center, DHS is coordinating with voluntary and faith-based 
organizations to help us manage the influx of unaccompanied children 
crossing the border. The American Red Cross is providing blankets and 
other supplies and, through their Restoring Family Links program, is 
coordinating calls between children in the care of DHS and families 
anxious about their well-being.
    Ninth, to stem the tide of children seeking to enter the United 
States, DHS has also been in contact with senior government officials 
of Guatemala, El Salvador, Honduras, and Mexico to address our shared 
border security interests, the underlying conditions in Central America 
that are promoting the mass exodus, and how we can work together to 
assure faster, secure removal and repatriation. Last month, President 
Obama spoke with Mexican President Penna Nieto about the situation, as 
has Secretary Kerry. On June 20, Vice President Biden also visited 
Guatemala to meet with regional leaders to address the influx of 
unaccompanied children and families from Central America and the 
underlying security and economic issues that are causing this 
migration. The Vice President announced that the United States will be 
providing a range of new assistance to the region, including $9.6 
million in additional funding for Central American governments to 
receive and reintegrate their repatriated citizens, and a new $40 
million U.S. Agency for International Development program in Guatemala 
over 5 years to improve citizen security. An additional $161.5 million 
will be provided this year under the Central American Regional Security 
Initiative to further enable Central American countries to respond to 
the region's most pressing security and governance challenges. 
Secretary Johnson will travel to Guatemala on July 8-9. The government 
of El Salvador has sent additional personnel from its consulate in the 
United States to South Texas to help expedite repatriation to its 
country.
    Tenth, DHS, together with DOJ, has added personnel and resources to 
the investigation, prosecution, and dismantling of the smuggling 
organizations that are facilitating border crossings into the RGV. 
Homeland Security Investigations, which is part of ICE, is surging 60 
additional criminal investigators and support personnel to their San 
Antonio and Houston offices for this purpose. In May, ICE concluded a 
month-long, targeted enforcement operation that focused on the 
logistics networks of human smuggling organizations along the Southwest 
Border, with operations in El Paso, Houston, Phoenix, San Antonio, and 
San Diego that resulted in 163 arrests of smugglers. ICE will continue 
to vigorously pursue and dismantle these alien smuggling organizations 
by all investigative means to include the financial structure of these 
criminal organizations. These organizations not only facilitate illegal 
migration across our border, they traumatize and exploit the children 
who are objects of their smuggling operation. We will also continue to 
work with our partners in Central America and Mexico to help locate, 
disrupt, and dismantle transnational criminal smuggling networks.
    Eleventh, we are initiating and intensifying our public affairs 
campaigns in Spanish, with radio, print, and TV spots, to communicate 
the dangers of sending unaccompanied children on the long journey from 
Central America to the United States, and the dangers of putting 
children into the hands of criminal smuggling organizations.
    In collaboration with DHS, the Department of State has launched 
public awareness campaigns in El Salvador, Guatemala, and Honduras, to 
warn families about the dangers encountered by unaccompanied minors who 
attempt to travel from Central America to the United States, and to 
counter misperceptions that smugglers may be disseminating about 
immigration benefits in the United States. Our embassies in Central 
America have collaborated with CBP to ensure both the language and 
images of the campaign materials would resonate with local audiences. 
Secretary Johnson has personally issued an open letter (see attached) 
to the parents of those who are sending their children from Central 
America to the United States, to be distributed broadly in Spanish and 
English, to highlight the dangers of the journey, and to emphasize 
there are no free passes or ``permisos'' at the other end. The public 
awareness campaign stresses that Deferred Action for Childhood 
Arrivals, or ``DACA,'' does not apply to children who arrive now or in 
the future in the United States, and that, to be considered for DACA, 
individuals must have continually resided in the United States since 
June 2007. We are making clear that the ``earned path to citizenship'' 
contemplated by the Senate bill passed last year would not apply to 
individuals who cross the border now or in the future; only to those 
who have been in the country for the last year-and-a-half.
    Twelfth, given the influx of unaccompanied children in the RGV, we 
have increased CBP staffing and detailed 115 additional experienced 
agents from less active sectors to augment operations there. Secretary 
Johnson is considering sending 150 more Border Patrol Agents based on 
his review of operations there this past week. These additional agents 
allow RGV the flexibility needed to achieve more interdiction 
effectiveness and increase CBP's operational footprint in targeted 
zones within its area of operations.
    Thirteenth, in early May, Secretary Johnson directed the 
development of a Southern Border and Approaches Campaign Planning 
effort that is putting together a strategic framework to further 
enhance security of our Southern Border. Plan development will be 
guided by specific outcomes and quantifiable targets for border 
security and will address improved information sharing, continued 
enhancement and integration of sensors, and unified command-and-control 
structures as appropriate. The overall planning effort will also 
include a subset of campaign plans focused on addressing challenges 
within specific geographic areas, all with the goal of enhancing our 
border security.
    Finally, we will continue to work closely with Congress on this 
problem, and keep you informed. DHS is updating Members and staff on 
the situation in conference calls, and we are facilitating site visits 
to Border Patrol facilities in Texas and Arizona for a number of 
Members and their staff.
    Secretary Johnson has directed his staff and agency leaders to be 
forthright in bringing him every conceivable, lawful option for 
consideration, to address this problem. In cooperation with the other 
agencies of our government that are dedicating resources to the effort, 
with the support of Congress, and in cooperation with the governments 
of Mexico and Central America, we believe we will stem this tide. Thank 
you.
                                 ______
                                 
  Attachment.--An Open Letter to the Parents of Children Crossing Our 
                            Southwest Border
    This year, a record number of children will cross our Southern 
Border illegally into the United States. In the month of May alone, the 
number of children, unaccompanied by a mother or father, who crossed 
our Southern Border reached more than 9,000, bringing the total so far 
this year to 47,000. The majority of these children come from Honduras, 
El Salvador, and Guatemala, where gang and drug violence terrorize 
communities. To the parents of these children I have one simple 
message: Sending your child to travel illegally into the United States 
is not the solution.
    It is dangerous to send a child on the long journey from Central 
America to the United States. The criminal smuggling networks that you 
pay to deliver your child to the United States have no regard for his 
or her safety and well-being--to them, your child is a commodity to be 
exchanged for a payment. In the hands of smugglers, many children are 
traumatized and psychologically abused by their journey, or worse, 
beaten, starved, sexually assaulted, or sold into the sex trade; they 
are exposed to psychological abuse at the hands of criminals. 
Conditions for an attempt to cross our Southern Border illegally will 
become much worse as it gets hotter in July and August.
    The long journey is not only dangerous; there are no ``permisos,'' 
``permits,'' or free passes at the end.
    The U.S. Government's Deferred Action for Childhood Arrivals 
program, also called ``DACA,'' does not apply to a child who crosses 
the U.S. border illegally today, tomorrow, or yesterday. To be eligible 
for DACA, a child must have been in the United States prior to June 15, 
2007--7 years ago.
    Also, the immigration reform legislation now before Congress 
provides for an earned path to citizenship, but only for certain people 
who came into this country on or before December 31, 2011--2\1/2\ years 
ago. So, let me be clear: There is no path to deferred action or 
citizenship, or one being contemplated by Congress, for a child who 
crosses our border illegally today.
    Rather, under current U.S. laws and policies, anyone who is 
apprehended crossing our border illegally is a priority for 
deportation, regardless of age. That means that if your child is caught 
crossing the border illegally, he or she will be charged with violating 
United States immigration laws, and placed in deportation proceedings--
a situation no one wants. The document issued to your child is not a 
``permiso,'' but a Notice To Appear in a deportation proceeding before 
an immigration judge.
    As the Secretary of Homeland Security, I have seen first-hand the 
children at our processing center in Texas. As a father, I have looked 
into the faces of these children and recognized fear and vulnerability.
    The desire to see a child have a better life in the United States 
is understandable. But, the risks of illegal migration by an 
unaccompanied child to achieve that dream are far too great, and the 
``permisos'' do not exist.
                                             Jeh C. Johnson
             Secretary of the U.S. Department of Homeland Security.

    Chairman McCaul. Thanks, Chief.
    The Chairman now recognizes Colonel McCraw.

 STATEMENT OF STEVEN C. MC CRAW, DIRECTOR, TEXAS DEPARTMENT OF 
                         PUBLIC SAFETY

    Mr. McCraw. Mr. Chairman, Ms. Jackson Lee, thank you for 
allowing me to be here today. I will try to make it quick.
    The bottom line is that there are consequences for an 
unsecured border with Mexico. This is the latest consequence. 
Some of those consequences have been the emergence of Mexican 
cartels. Six of the eight cartels operate in Texas. They have 
turned parts of Texas into a trans-shipment center for the 
Nation as it relates to drugs and human smuggling and 
trafficking. We lead the Nation right now in terms of pushing 
through marijuana, cocaine, methamphetamine, and heroin. So if 
you have a drug problem in your State, in your city, in your 
community, you have a Zeta problem. You have a Gulf cartel 
problem. You have a Mecinto Carrero problem. That has been that 
way for a number of years.
    We talk about it in terms of the safety or security as it 
relates to transnational criminal organizations, specifically 
the cartels. There has never been an organized crime group in 
this Nation's history or anywhere in the world that has been 
more vicious, that has adapted and utilized and embraced 
terrorist tactics to intimidate and coerce the people, the 
journalists, the government. They have butchered over 80,000 
men, women, and children since 2006, and these are the 
organizations that operate in Texas right now. They leverage 
transnational gangs. They work with our prison gangs.
    It is one thing when you talk about working across the 
lines. We have investigations where a Gulf cartel is working 
with the Mexican mafia, a Chinese-based gang out of Houston, 
and also the Aryan Brotherhood. It is the one area where race 
doesn't matter because it is about money.
    What these cartels are focused on is making money. It is 
not ideology. They come, they cross, they own these corridors 
between our ports of entry and on our bridges, and the whole 
purpose is to make money. You don't have to take my word or 
Texas' word for it. You talk to your other colonels in your 
States, talk to your chiefs of police, talk to your sheriffs.
    The strategies that work have been proven over the last 
several decades, and one of those strategies is saturation 
patrols in high clusters of crime. When your motive in crime 
happens to be organized smuggling, then the impact you can have 
can be dramatic if you are willing to commit the resources and 
conduct sustained saturation patrols around the clock.
    Border Patrol is an outstanding organization. The men and 
women are on the front line of our National defense these days. 
The bottom line is you haven't given them enough resources to 
do their job. It doesn't matter what anybody says. It is a 
matter of math. If they can't sustain saturation patrols on the 
river, the battle to secure it is not in Washington, DC or 
Austin. It is on the river itself. If they don't have those 
resources around the clock, then this can have an impact on our 
communities.
    The impacts on our communities--you know, we talk about 
crime is up, crime is down, but the bottom line is it is not 
safer. I will use as an example that where else in the country 
can you get on a river and have law enforcement officers shot 
at over 108 times? Where does that happen? I didn't see that up 
in Canada the last time I checked, or on the Great Lakes. We 
don't see in terms of these human and drug stash houses where 
you cram 110 people into a 112-foot box and you engage in these 
stash house extortions and kidnappings. They have already paid 
their money to get here, and you can rest assured there are a 
certain percentage of the females that are going to be sexually 
assaulted, and the bottom line is there is going to be 
extortion before they get out.
    They don't mind starving and keeping people maintained at 
that location. This happens here. It happens in Houston now, as 
you are well aware of, Ms. Jackson Lee, in terms of human 
trafficking. We just took down a case where 10 illegal 
immigrants were running this operation. They had been running 
it for several years, and we rescued 13 victims. I say 
``victims'' because these were young children that were 
enticed, lured, and brought in to work in the underground 
economy as nannies, in domestic service capacities in 
restaurants, promised that they got here. They were raped, 
beaten, and compelled into prostitution.
    This is the type of activity you have when you open your 
borders and allow crime to come in, because another part of 
that crime that comes in is criminal aliens. We talk about this 
crisis. It is a crisis. It is a crisis of them traversing from 
Guatemala to the United States is the crisis.
    Make no mistake about Guatemala. I mean, the cartels are in 
Guatemala. Zeta has contributed to the transnational gang 
problem in Guatemala, in Central America. So we have this 
transnational crime. We have this globalization of crime that 
is going on, but it is being fueled by an unending demand for 
forced labor in this country, and drugs. That is what is 
enriching the cartels.
    With their terrorist tactics, it is having an impact on our 
communities. Where else in the State of Texas do we have these 
pursuits where people are so in fear for their lives that they 
will run as soon as they get the lights on in such a dangerous 
way that they splash in the Rio Grande River, and if they don't 
there are consequences to it? You don't see it in other 
locations like that.
    Home invasions, where cliques come together and go into 
houses, and when they get into the houses it is a takeover. 
Guess what? It is not misdemeanor robbery just because they 
missed the cartels. Many times it is innocent individuals, as 
the Sheriff can attest to, that they come across, pseudo cop 
stops, public corruption. I mean, the cartels seek to undermine 
the rule of law in Texas, and there is not a Texan that 
deserves to have cartels and transnational gangs traversing 
across their lands, and they should not ever feel in fear.
    What happens in the Rio Grande Valley, which is the center 
of gravity right now for drug and human trafficking, doesn't 
stay in the Rio Grande Valley. It is in North Carolina. It is 
in California. I mean, you have to realize in California you 
have the--well, he is not here anymore, but you have to deal 
with the Tijuana cartel. But guess what? You have other cartels 
to deal with. So it doesn't just stay in the Rio Grande Valley.
    It is important. Can we do it? Absolutely. I will tell you 
what, a message, only one message right here to the Gulf cartel 
who controls this corridor: Hey, we are going to pour troopers 
and Texas Rangers and agents into this area until they are shut 
down. They will shut down, I will guarantee it.
    Our State legislature, they are not going to give you a 
hand. At the end of the day, there is accountability. They want 
to know how we spent it, they want to know what we spent it on 
and what we achieved in spending it, and the last part of that, 
what is the return on investment? Did we secure it? Did we make 
Texans safer? Did we make the Nation safer? I have no doubt 
they are not afraid of providing a little tough love and 
accountability feedback.
    But I am also guaranteeing--and this is axiomatic. If you 
give Border Patrol the resources they need, Texas is going to 
be a lot better. There is not a Texas State legislator to talk 
to that wants to spend money on border security. They don't. 
Education, transportation, health care, health, that is exactly 
what they want to spend it on, and they don't like the idea. 
But at the same point, they made no mistake about it, that we 
have an obligation to secure between the ports of entry and 
support Border Patrol, and we are going to take care of Texas.
    That concludes my testimony.
    [The prepared statement of Mr. McCraw follows:]
                 Prepared Statement of Steven C. McCraw
                              July 3, 2014
    Chairman McCaul, Congressman Cuellar and other honorable Members of 
this Congressional committee: My name is Steven McCraw, and I serve as 
the director of the Texas Department of Public Safety. As you know, I 
have had the honor to appear before this committee on three previous 
occasions and provided testimony about the consequences of an unsecured 
border with Mexico. The latest consequence, and the reason for this 
hearing, is the dramatic increase in the number of unaccompanied alien 
children (UAC) risking their lives to be smuggled into the Rio Grande 
Valley of Texas.
    These children correctly believe that the U.S. border with Mexico 
is not secure, and with the assistance of human smugglers, they will be 
able to arrive on U.S. soil and turn themselves into the U.S. Border 
Patrol. They also believe that they will have an opportunity to remain 
with family members living in the United States, and whether this point 
is true matters not, as they perceive it as such.
    As a result these children, primarily from Central America, 
continue to make this dangerous journey in record numbers, which has 
overwhelmed U.S. Border Patrol detention facilities in the Rio Grande 
Valley and elsewhere. Tragically, some of these children have also 
become victims of violent crime while traveling across Mexico. 
Additionally, public health officials are rightly concerned about the 
spread of disease among the children in the detention facilities and 
within the communities they are released into. Children from Central 
America will continue to become victims of violent crime and risk other 
dangers as long as they continue to traverse Mexico in search of refuge 
in the United States. The Mexican Cartels are not responsible for the 
UAC crisis, but they do benefit from smuggling fees and the diversion 
of Border Patrol resources to address the influx of UAC.
    There are many other consequences of an unsecured border with 
Mexico, which we have provided in previous testimonies. Certainly, the 
evolution of Mexican drug trafficking organizations into powerful and 
vicious organized crime cartels, which dominate the U.S. drug and human 
smuggling market, is a direct result of a porous border. Mexican 
Cartels traffic marijuana, cocaine, heroin, and methamphetamine 
throughout the United States and in Mexico they engage in kidnappings, 
robberies, human trafficking, extortions, and murders for profit. They 
employ corruption and terrorism tactics and strategies to protect their 
criminal operations, having killed more than 80,000 people in Mexico, 
and they pose a serious threat to the domestic security of Mexico.
    The consequences of an unsecured border with Mexico also undermine 
public safety in Texas communities along the border, as evidenced 
through confirmed cartel-related kidnappings and extortions; public 
corruption; high-speed, felony vehicle evasions from law enforcement; 
drug and human stash houses; home invasions; the recruitment of 
children to support cartel operations as look-outs and mules; pseudo 
cops; shootings at law enforcement officers patrolling the Rio Grande 
River; contract killings; and dangerous bail-outs of undocumented 
aliens.
    Another consequence seldom discussed is the high number of criminal 
aliens arrested for nonimmigration crimes throughout Texas. Since 2008, 
more than 200,000 criminal aliens who have been charged with over 
600,000 State crimes throughout their criminal careers, including over 
3,000 homicides and nearly 8,000 sexual assaults. Today, more than 8 
percent of all persons booked into Texas jails are criminal aliens, and 
of that criminal alien total, over 40 percent are recidivists--meaning 
they have at least one prior criminal arrest in Texas.
    It is important that I acknowledge the men and women of the U.S. 
Border Patrol for their actions in addressing the current situation. 
They serve on the front line in protecting our State and Nation from an 
array of public safety and homeland security threats, and they face 
incredible challenges every day.
    In a perfect world, the men and women of the Border Patrol 
operating along the U.S.-Mexico border would already have sufficient 
resources and staffing levels to successfully secure the border--but 
they currently do not.
    One of the challenges they face is a Federal bureaucracy that 
impedes their ability to perform their mission. Specifically, Border 
Patrol Agents are restricted in the manner in which they can conduct 
patrols in Federal refuge areas contiguous with Mexico, which is 
exploited by the Mexican Cartels. Texas farmers and ranchers along the 
Texas/Mexico border provide Border Patrol Agents greater access to 
their personal property than does the Federal Government.
    It is also important to note that local law enforcement agencies 
including Texas sheriffs' offices and police departments find 
themselves on the front lines of keeping their communities, and quite 
frankly the rest of the Nation, safe from international criminal 
activity. Local law enforcement agencies along the border face unique 
challenges and the consequences have grave State-wide and National 
consequences. Therefore, the leadership of the State has tasked DPS 
with supporting Texas border sheriffs and our other law enforcement 
partners along the border to combat transnational crime.
    The Texas Legislature has continued to provide funding to enhance 
border security, and DPS has dedicated a significant amount of 
resources, technology, equipment, and personnel toward that effort. 
These resources include state-of-the-art aerial assets, enhanced 
patrols, advanced monitoring technology, enhanced communication 
capabilities, increased personnel, and overtime. Texas also employs a 
unified command structure to respond to myriad threats along the 
border, and has developed contingency plans designed for rapid response 
and deployment of law enforcement resources.
    Texas continues to address the evolving threats and criminal 
elements operating along our border through efforts including but not 
limited to:
  <bullet> Operation Border Star.--A State-led initiative launched in 
        2007, which has built on the successes of previous operations 
        with unprecedented local, State, and Federal law enforcement 
        coordination. Operation Border Star includes 165 agencies, 
        including border sheriff offices and the U.S. Border Patrol. 
        With the assistance and funding from the 80th, 81st, 82nd, and 
        83rd Legislatures, Texas has been able to amplify these efforts 
        each session.
  <bullet> Overtime Funds.--Texas local law enforcement agencies on the 
        border have been able to increase their patrol capability with 
        these funds to address transnational crime in their 
        communities.
  <bullet> Ranger Reconnaissance (Recon) Teams.--A highly-trained 
        tactical team that conducts both overt and extended covert 
        operations in remote areas along the border, aimed at 
        disrupting and deterring criminal activity. (These teams have 
        the capability to mobilize to different areas based on the 
        locations with the greatest threat.)
  <bullet> Operation Drawbridge.--Innovative technology systems to 
        monitor remote areas of the border on a 24/7 basis, using low-
        cost, commercially off-the-shelf technology (wildlife motion-
        detecting cameras) that have been adapted to meet law 
        enforcement needs. Since January 2012, Operation Drawbridge and 
        its partnership with the U.S. Border Patrol, and Texas border 
        sheriffs and landowners have resulted in the apprehension of 
        more than 37,000 individuals and more than 66 tons of drugs.
  <bullet> Tactical Marine Unit.--With funding from the 82nd Texas 
        Legislature and U.S. DHS grants, DPS created a Tactical Marine 
        Unit (TMU) and acquired six 34-foot shallow water interceptor 
        boats to deter those who break State laws and endanger Texans 
        along the Rio Grande River and Intracoastal Waterways. This 
        fleet of patrol vessels represents a significant enhancement to 
        the State's efforts in combating Mexican drug cartels and in 
        taking back the river from ruthless criminal organizations.
  <bullet> Criminal Enterprise Investigations.--DPS agents specialized 
        in organized crime investigations, conduct multi-agency, multi-
        jurisdictional investigations targeting the command-and-control 
        cartel and gang networks overseeing drugs, human smuggling, and 
        trafficking operations.
  <bullet> Border Prosecutors Unit.--A key component of this effort is 
        the Border Prosecutors Unit, which is vital to criminal 
        enterprise investigations and prosecutions and public 
        corruption investigations by dedicating expert prosecutors to 
        these critical efforts.
  <bullet> Advanced Aviation Assets.--The Texas Legislature funded 
        state-of-the-art DPS helicopters with FLIR (forward looking 
        infrared radar) and night-vision capabilities that enables DPS 
        to detect smuggling activity, which allows us to support and 
        direct interdictions by ground patrol officers. The legislature 
        also funded a high-altitude, fixed-wing aircraft to enable DPS 
        support of law enforcement operations along the border. These 
        border aviation assets are responsible for over 13,000 arrests, 
        $87 million in drug seizures and the rescue of 137 people.
    The Texas Department of Public Safety has been directed by the 
leadership of Texas to implement our operations plan to conduct surge 
operations along the Texas/Mexico border. DPS troopers, agents, and 
Texas Rangers from around the State are being deployed to the Rio 
Grande Valley to conduct data-driven, multi-agency, ground, air, and 
marine saturation patrols in high-threat areas for sustained periods of 
time to deny Mexican Cartels, transnational gangs, and criminal aliens 
unfettered entry into Texas between the Ports of Entry, and in doing 
so, reduce transnational crime in our communities.
    We illustrated the efficacy of this approach during the initial 21-
day Operation Strong Safety in the Rio Grande Valley in 2013, and with 
the funds authorized by the Texas leadership, we have significantly 
expanded saturation patrols on, along, and above the Rio Grande River 
and we have been directed to sustain the operation until further 
notice. I can assure you that in my discussions with the honorable 
members of the Texas State Legislature, they would prefer to spend 
State funds that they have allocated to border security on other vital 
priorities, such as education, transportation, and public health; 
however, there is an understanding in Texas that protecting our 
citizens is a fundamental responsibility of government, and they will 
do whatever necessary to protect the people of Texas.

    Chairman McCaul. Thank you, Steve.
    Sheriff Guerra.

 STATEMENT OF JOSE EDUARDO ``EDDIE'' GUERRA, INTERIM SHERIFF, 
            SHERIFF'S OFFICE, HIDALGO COUNTY, TEXAS

    Sheriff Guerra. Good afternoon, Mr. Chairman, Members of 
the committee. My name is Eddie Guerra. I am the Hidalgo County 
Sheriff. I have over 20 years serving in various capacities in 
law enforcement in South Texas.
    I would like to begin by thanking you for giving me the 
opportunity to testify before you here today. I have under my 
command nearly 800 personnel, including sheriff deputies, 
detention officers, and administrative support staff.
    As sheriff, my primary duty lies with the preservation of 
the peace, which can be challenging because of our proximity to 
the U.S.-Mexico border. Hidalgo is the eighth-largest county in 
the State of Texas, and we are responsible for protecting the 
residents of the unincorporated parts of the county and 
preserving the laws of our State. Put it another way, Hidalgo 
County is 1,583 square miles, and we patrol 75 miles of the 
international border.
    There are three things that I would like you to understand 
about our current situation. No. 1, the recent surge of illegal 
immigration from Central America has proven to be a challenge 
for law enforcement, and especially for our Federal partners. 
No. 2, although it is a Federal issue, local law enforcement is 
impacted by the surge of illegal immigration. No. 3, the threat 
to law enforcement and their safety is not coming from these 
immigrants but rather from the criminal elements that are 
taking advantage of them and of the situation.
    I believe that the immigration issue that I am here 
testifying on before you here today is a Federal issue. That 
isn't to say that we will not share in the responsibility. In 
fact, we frequently partner with our local, State, and Federal 
law enforcement agencies and continue to cooperate with our 
Federal partners today by using State and Federal grant money 
in support of their mission.
    But the Sheriff's Department cannot be associated in the 
public's eye as the enforcer of immigration law. That not only 
is counterproductive but actually puts lives at risk, and 
oftentimes undocumented persons hesitate to come forward as 
victims of crimes for fear of deportation.
    My directive to deputies is that we will assist our Federal 
partners in conducting rescue operations and in dismantling the 
transnational criminal organizations that exploit these 
immigrants. The influx of immigrants has impacted my office in 
very specific ways. Currently, the family units and OTM 
immigrants crossing the border are turning themselves in. Their 
only crime is entering our country illegally. The vast majority 
are not committing any State crime. Should one of my deputies 
come across an undocumented person, we refer them to U.S. 
Border Patrol, which responds and takes them into custody.
    My greatest concern is the immigrant deaths that we respond 
to. There are dozens of immigrants who have lost their lives 
trying to fulfill their hope of finding freedom and opportunity 
here. In 2012, we responded to 19 immigrant deaths. In 2013, we 
responded to 25 immigrant deaths, which is a 31.5 percent 
increase from the previous year. This year we have already 
responded to 14 immigrant deaths. Bodies are found in the river 
or in the brush, many in deplorable conditions. Many of these 
immigrants die from drowning and heat exposure.
    But the hardest to take are the deaths of children. Most 
recently we responded to the death of an 11-year-old boy from 
Guatemala. His decomposed body was found in the brush just a 
quarter of a mile away from a residential neighborhood where he 
could have sought help. Make no mistake about it, the South 
Texas conditions are harsh and unrelenting, and the trek, as in 
the case of this 11-year-old child, was deadly.
    Earlier I commented that the threat to law enforcement and 
safety is not coming from these immigrants but rather from the 
criminal element that takes advantage of them and of the 
situation. My agency has responded to various calls for service 
that include false imprisonment, sexual assault, kidnapping, 
criminal mischief, home invasions, and burglaries. For the most 
part, the offenders are not the undocumented immigrants coming 
into the United States. They are the victims. The offenders are 
the transnational criminal organizations. Time after time, my 
staff briefs me on stash houses in which these undocumented 
persons are held, often against their will, in deplorable 
conditions and traded like commodities among these criminal 
organizations for profit. At times, these human smugglers 
sexually assault the women who are victims and often feel that 
they have no voice because of their legal status, so the crime 
goes unreported.
    There are instances where criminals will hold undocumented 
persons for ransom. Once again, some of these crimes will go 
unreported. On the occasions in which undocumented persons are 
taken into the ranchlands of South Texas to traverse the back 
country, the undocumented persons have no choice but to break 
into homes in search of water and food. The South Texas 
conditions are beautiful, but yet they are harsh.
    As I previously stated, I am willing to accept my share of 
the responsibility, and we have managed the situation only with 
the cooperation of our State, local, and Federal partners. It 
is my hope that the increased attention on this issue brings 
much-needed resources to the area. I realize the challenges 
that immigration reform brings, but for me, these victims are 
more than just statistics. They have faces and they have names, 
and I firmly believe the solution lies in change in policy.
    With that, I would like to close once again by thanking 
you, Mr. Chairman and Members of the committee, for the 
opportunity to come before you today, and I stand ready to 
answer any of your questions. Thank you.
    [The prepared statement of Sheriff Guerra follows:]
          Prepared Statement of Jose Eduardo ``Eddie'' Guerra
                              July 3, 2014
    Good afternoon, Mr. Chairman and Members of the committee. My name 
is Eddie Guerra and I am the Hidalgo County Sheriff. I have under my 
command nearly 800 personnel to include deputy sheriffs, detention 
officers, and administrative personnel. We are eighth largest county in 
the State of Texas and are tasked with patrolling 75 miles of the 
international border.
    I would like to begin by thanking you for giving me the opportunity 
to testify before you here today. It is my opinion that the recent 
surge of illegal immigration has proven to be a challenge for our 
Federal partners. As Sheriff, my primary duties lie with the 
preservation of the peace, which can be at times challenging given our 
proximity to the border. The reality is that immigrants, both legal and 
illegal, have become a part of the fabric of our society. I believe 
that the immigration issue I am here testifying on before you today is 
a Federal issue. That isn't to say that we will not share in the 
responsibility, in fact, even today we continue to cooperate with our 
Federal partners by using State and Federal funds in support of their 
mission. To that end, associating my agency with the enforcement of 
immigration laws would be counterproductive as often-times undocumented 
persons hesitate to come forward as victims of crimes for fear of 
deportation. As such, I have directive to my deputies to assist our 
Federal partners in conducting rescue operations and to assist them in 
dismantling the transnational criminal organizations that are 
exploiting these immigrants.
    Mr. Chairman, the influx of immigrants has impacted my office in 
very specific ways. Currently, the immigrants crossing are turning 
themselves in and are not committing any State crimes. Should one of my 
deputies come across any undocumented person, we refer them to the U.S. 
Border Patrol, which will respond and take them into custody. My 
greatest concern is the immigrant deaths we respond to. There are 
several immigrants that have attempted to make entry with hopes of 
freedom and opportunity and have died in the process. In 2012, we 
responded to 19 immigrant deaths and in 2013, we responded to 25 
immigrant deaths, a 31.5% increase from the previous year. In 2014, to 
date we have responded to 14 immigrant deaths. These bodies are found 
in the river or the rush; many in deplorable conditions. Most of these 
immigrants died from drowning or heat exposure. Most recently, we 
responded to the death of an 11-year-old from Guatemala whose 
decomposed body was found in the brush. He was likely abandoned by the 
human smuggler that was hired to bring him across. I am saddened to 
report he died within a quarter mile of a residential neighborhood 
where he could have received help. Make no mistake, the South Texas 
conditions are harsh and unrelenting and the trek, as in the case of 
the 11-year-old child, is deadly.
    Earlier I commented that the immigration surge is affecting my 
agency in very specific ways, my agency responds to various calls for 
service to include: False imprisonment, sexual assaults, kidnappings, 
criminal mischief, and burglaries. For the most part, the offenders are 
not the undocumented immigrants coming into the United States, they are 
the victims. The offenders are the transnational criminal organizations 
who employ criminals to do their bidding. Time after time, my staff 
briefs me of ``stash houses'' in which undocumented persons are held, 
often against their will in deplorable conditions, traded like a 
commodity among these criminal organizations for profit. At times, 
these human smugglers sexually assault the women, who as victims often 
feel they have no voice because of their illegal status and the crimes 
go unreported. There are instances where these criminals will hold for 
ransom undocumented persons; once again some of those crimes going 
unreported.
    On the occasions in which the undocumented persons are taken into 
the ranch lands of South Texas to traverse the back country, the 
undocumented persons have no choice but to break into ranch homes in 
search of water and food. The South Texas conditions are beautiful, but 
harsh.
    As I previously stated, I am willing to accept my share of the 
responsibility and we have managed the situation only through the 
cooperation and partnerships that have been established with our 
Federal, State, and local partners. It is my hope that the increased 
attention to this issue brings to bear much-needed resources to the 
area. I realize the challenges that immigration reform brings, but for 
me these victims are more than just statistics: They have faces and 
names, and I firmly believe the solution lies in a change in policy.
    With that, I would like to close by once again thanking you for the 
opportunity to speak to you today and would like to take the 
opportunity to answer any of your questions.

    Chairman McCaul. Thank you, Sheriff.
    The Chairman recognizes Judge Garcia.

STATEMENT OF THE HONORABLE RAMON GARCIA, HIDALGO COUNTY JUDGE, 
                     HIDALGO COUNTY, TEXAS

    Judge Garcia. Thank you, sir, and Members of the committee, 
Mr. Chairman. Thank you for making time to be here with us and 
looking at this issue close hand.
    As county judge, I feel compelled to do my Chamber of 
Commerce thing. We are the eighth largest county in Texas. We 
are about 900,000 population. We have been described by Forbes 
Magazine as one of the best areas in the country to do 
business. We have been experiencing tremendous growth due in 
large part to our geographical location. We are the entryway 
from Mexico, as you are now realizing, and all over the 
country. We are the closest entry point to the United States 
from Central American countries. That is one of the reasons we 
are currently experiencing this situation.
    I have been listening. I have prepared comments, but I 
wanted to diverge from it a little bit because I am concerned 
that we may be confusing the issue. I know that Congressman 
Farenthold, in my mind at least, wanted to dwell on it. But the 
issue as I see it that we are considering before this committee 
here today is not what to do with--how do we stop the drugs 
from coming, how do we stop the human trafficking from coming. 
The issue, I thought, was very simple: What are we going to do 
to address this issue of the influx of undocumented illegal 
children that are coming to our country from Central America?
    In my mind, they do not create a public health crisis for 
our area. We are not dealing with drug dealers. We are not 
dealing with terrorists. I don't care how many more Border 
Patrol you get down here and put them up, hand by hand, 
covering the entire border. There is no need to. These people 
don't need to be followed and chased to be apprehended. They 
cross that river and they are out there looking for the Border 
Patrol to turn themselves in so that they can be documented.
    The issue here is one of policy, as I see it, and that 
policy is related to this--as has been very correctly stated by 
Governor Perry and many Members of this committee, we are a 
Nation of laws, and right now we have a law on the books that 
gives these individuals certain rights, and one of those rights 
is, when they land in our country, when they cross that river 
and they are on U.S. soil, before they are deported back, they 
need to be provided with a hearing. That hearing is taking 2 to 
3 years.
    As Congressman Salmon correctly pointed out, actions speak 
louder than words. They are believing in their country that 
they can stay here. I mean, all you have to do is get here, 
they give you a piece of paper, they ask you questions, and you 
can go on about your business.
    Well, if you really want to stop the influx of illegal 
undocumented children, you need to have quicker deportation 
hearings, detention hearings. You need to put some of those $2 
billion towards hiring more judges, towards hiring more public 
defenders, those resources towards addressing the issue where 
they can get in and get out and send them back, and they will 
start getting the message when busloads come back, or 
trainloads if that is the procedure, or planeloads of children 
are coming back to their country.
    I just hope that we don't confuse the issue of how do we 
address the situation of drugs coming in or the situation of 
terrorists coming in.
    Now, I provided you with some photographs. One of them 
shows the map, how clear it is, the red line from Central 
America to Texas, and the others are some pictures of people 
coming to America, as Neil Diamond would say. None of those 
individuals in my mind, or in anybody's mind that understands 
the situation, believes that they are thinking ``We are going 
to South Texas.'' They are saying, ``We are going to South 
Texas, get that `permiso,' and then go on about and go to North 
Carolina and other parts of the country,'' and that is what is 
happening. If we really want to address this by talking about 
actions speaking louder than words, you need to address that 
issue, getting them back as soon as possible so that that 
action would send a message throughout the countries that it is 
not going to happen, there is no free ride, they are not going 
to become a U.S. citizen by getting there.
    I also wanted to comment and publicly commend our local 
Chief of the Border Patrol Sector, Kevin Oaks, for his policies 
and specifically for the policy of being transparent, of 
immediately realizing--I think that is what has helped us in 
the way we have responded to this situation, versus what is 
going on in California. He came forth and wanted to meet with 
the leadership of the county so that he could explain and give 
us accurate information about what is going on, information 
that we could then rely upon and feel safe and feel secure.
    These are kids. They are not drug dealers. They are not 
terrorists. Then they are being treated accordingly with the 
laws that are presently in place under our country, which they 
have the right to due process or whatever term we want to use 
to describe them. If we want to change the laws, that is 
another thing. But I understand the issue of comprehensive 
immigration reform and how difficult it may be between now and 
November.
    But we also want to thank our local Catholic Charities and 
our county residents for stepping up. We have expended 
approximately $60,000 in local resources. We don't know how 
much longer this is going to last. We would appreciate any 
portion of that that we can be reimbursed for.
    Thank you.
    [The prepared statement of Judge Garcia follows:]
                   Prepared Statement of Ramon Garcia
                              July 3, 2014
    Good afternoon, Chairman McCaul, Ranking Member Thompson, and 
Members of the U.S. House Committee on Homeland Security: My name is 
Ramon Garcia, I am the Hidalgo County Judge. I am presently serving my 
second term. As county judge I also chair the Hidalgo County 
Commissioners Court, which is the governing body that makes policy 
decisions that guide the direction of county operations.
    I am a life-long resident of the Rio Grande Valley and am extremely 
proud of Hidalgo County and all of the communities within it as well as 
those that make up the entire Rio South Texas community. In addition to 
my work as county judge, I have been a lawyer for 42 years. I am 
licensed in all Texas courts as well as the U.S. District Court, the 
Southern District of Texas, the U.S. Court of Appeals, 5th Circuit, and 
the U.S. Supreme Court.
    I commend the committee's commitment to witness this humanitarian 
crisis first-hand. I personally have witnessed the efforts of Members 
Filemon Vela and Bennie Thompson and of Congressmen Rubeen Hinojosa and 
Henry Cuellar in sharing the facts about our South Texas border 
region--especially when it comes to immigration and security.
    My sincere desire is that you will take our testimony and your own 
experiences back to Washington and not only identify the problem but 
provide solutions. Blaming others and turning this situation into a 
partisan political fight is not going to accomplish what we so urgently 
need here on the border and throughout our country, which is a workable 
solution, implemented through effective policy.
    I hope to leave you with three key points today:
    1. Our border communities and our country are not in danger from 
        the women and children from Central America that are crossing 
        our border. There is no public health crisis and their only 
        crime is entering our country illegally.
    2. That this humanitarian crisis--as well as the separate criminal 
        element that is taking advantage of the stressed resources of 
        the Border Patrol--is not just a South Texas or Rio Grande 
        Valley problem. The overwhelming majority of the people coming 
        across as well as the drugs that are smuggled into our country 
        pass through here en route to other parts of the country.
    3. The people of the Rio Grande Valley are compassionate and 
        caring. Our communities have come together to assist in the 
        humanitarian aid that local charities are providing to the 
        women and children who are fortunate enough to have made it 
        here. But we need assistance from our Federal Government to 
        help defray the cost. According to the information we have, 
        this influx is not going to stop any time soon.
    Hidalgo County is the 8th largest of 254 counties in the State of 
Texas. Our county encompasses nearly 1,600 square miles with a 
population of close to 1 million people residing here. The South Texas 
sun is harsh--as you probably have experienced first-hand; so is the 
terrain.
    According to our sheriff, there have been 14 immigrant deaths this 
year; most died from heat exposure or drowning. We had the first 
reported death of an unaccompanied minor a little over 2 weeks ago. 
It's heartbreaking to think of this 11-year-old boy wandering alone, 
frightened, hungry and thirsty, and dying only a quarter mile away from 
help. One has to wonder about the conditions back home in Guatemala 
that would prompt loving parents to allow their child to be transported 
by a human trafficker. And I have no doubt that this boy--Gilberto 
Francisco Ramos Juarez--did have a loving family. When his remains were 
discovered, investigators found a telephone number for his brother in 
Chicago on the back of the boy's belt buckle.
    This humanitarian crisis is rooted in violence and poor economic 
conditions in the children's home countries of Honduras, El Salvador, 
and Guatemala. These three countries have among the highest murder 
rates in the world. A recent survey conducted by the United Nations 
High Commissioner on Refugees of undocumented children from Mexico and 
Central America who arrived in the United States found that 
approximately 58 percent of the children interviewed were displaced by 
violence.
    These children are placed with relatives in States like Georgia or 
North Carolina, which according to a report by the Pew Research Center, 
have an undocumented population of approximately 425,000 and 325,000, 
respectively. This is not just a South Texas issue, these children 
travel to all parts of our country.
    Just last week, on June 23, McAllen Mayor Jim Darling and I hosted 
a briefing on the influx of immigrants--especially families and 
unaccompanied minors--with area leaders. We heard from the Border 
Patrol, Texas Department of Public Safety, the city and county 
emergency management coordinators, the county's health department 
administrator, and Sr. Norma Pimentel, the head of Catholic Charities.
    I applaud these organizations and agencies for the work they have 
done and continue to do. They have gone above and beyond the call of 
duty. And we, in this community, appreciate them.
    Unaccompanied children from Central America risk their lives to 
travel to the United States, facing exploitation at every turn. After 
surrendering to Border Patrol, they are tested for communicable 
diseases and, if found to be ill, are separated from the rest of the 
group. They are then held in overcrowded Border Patrol facilities 
designed to temporarily hold adults. Without a parent to comfort them, 
these children sleep on cement floors and wait to be taken into Health 
and Human Services custody, which in some cases can take more than 10 
days. Sr. Norma said when she visited one of these facilities, the 
children swarmed around her, hugging her and crying for their parents.
    I want to commend the U.S. Border Patrol for the good work that 
they do. They do their jobs with compassion and dedication and I 
respect and honor their service. At the same time, while the media has 
portrayed this as a Rio Grande Valley or South Texas crisis, it is in 
fact much broader than that. This is a National crisis--which no amount 
of fencing or National Guard troops can solve.
    Since the 1990s there have been calls to beef up border security by 
adding more Border Patrol Agents. The numbers have increased by 500 
percent and we still have lawmakers--including some from our own 
State--calling for more. But there will never be enough; because this 
is not an enforcement issue. The Border Patrol is apprehending from 
1,200 to 1,300 of these immigrants every day. At our briefing, one of 
the things we learned is that the immigrants are flowing in but only 
trickling out.
    Approximately 85 percent of the children that are processed here 
are placed with a relative while they await their immigration court 
hearings--which may take years due to the backlog of cases. These 
children don't stay in South Texas, they live with relatives across the 
country, many of whom are undocumented themselves. Thus, this crisis 
should be of concern to every Member of Congress and not just locally-
elected officials.
    One of the solutions may be to increase the number of judges 
hearing these cases and also provide lawyers for the children and 
family units.
    It has been alleged that a National security crisis exists along 
our Southern Border. I do not feel less safe now than when this crisis 
began. In our briefing last week, we learned that all the immigrants 
are put through a background check--the men and those that do not pass 
the background check are held separately from the rest. Everyone is 
also provided a medical exam. Our county's health department 
administrator reports that the most common ailments--at least among the 
family units we see in our shelter--are the common cold, allergies, and 
dehydration. However, anyone found to be ill with a communicable 
disease is kept in isolation. The unaccompanied children are not 
released here; they are released into the custody of Health and Human 
Services. Children that are traveling with a parent are held with their 
parents; these are the immigrants that are released here in the Valley. 
They are only here as long as it takes to ``catch'' a bus to other 
parts of the country, where they eventually join their relatives to 
await their immigration hearings.
    It is important to clarify a big misconception: The unaccompanied 
minors are not released in Hidalgo County. The only immigrants released 
in Hidalgo County are family units and these immigrants are only in 
Hidalgo County for a very short time. To date, the county has spent 
about $27,175 in staff time and resources, assisting the city of 
McAllen with this humanitarian crisis, under a Master Agreement for 
Mutual Aid.
    Finally, I would like to recognize the tremendous outpouring of 
support that these families have received from groups such as Catholic 
Charities, the Rio Grande Valley Food Bank, and countless volunteers 
who are helping to feed, clothe, and provide shelter to these recent 
immigrants upon being released. This surge in undocumented immigrants 
has shown the very best of Valley residents while waiting for 
comprehensive immigration reform.
    In conclusion, I urge you to commit Federal funding to our local 
humanitarian effort. This is a Federal issue and our local governments 
and charitable organizations should not be forced to bear the financial 
burden of providing the most basic of human kindness.
    Again, thank you for providing me the opportunity to appear before 
you today. 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman McCaul. Thank you, Judge.
    The Chairman recognizes Bishop Seitz.

  STATEMENT OF MOST REVEREND MARK J. SEITZ, BISHOP, CATHOLIC 
 DIOCESE OF EL PASO, TEXAS, U.S. CONFERENCE OF CATHOLIC BISHOPS

    Bishop Seitz. Good afternoon. Thank you, Chairman McCaul 
and Ranking Member Jackson Lee, for the opportunity to testify 
today on unaccompanied children entering the United States.
    I have been called to serve the Church as a bishop, a 
bishop of a diocese on the border. My challenge is, to the best 
of my ability and under the guidance of the Church, to apply 
the Gospel teachings of Jesus to present-day situations. In 
visiting with these children in my diocese and in their home 
countries, I have witnessed the human consequences of the 
violence they have endured.
    Mr. Chairman, as you know, Texans have big hearts. This is 
particularly true of Texans who live on the border. I have seen 
it. They understand the migration issue better than most, and 
my experience in El Paso is that they show compassion to 
migrants, particularly children who are fleeing desperate 
situations. It is my prayer that you and this committee will 
reflect that compassion and sense of justice in seeking humane 
solutions to this current migrant challenge.
    This challenge tests the moral character of the Nation. It 
is a test we must not fail. Other nations are watching to see 
how we handle this matter. Our moral authority in the world is 
at stake.
    Let me say up front that U.S. Catholic Bishops support the 
right of our Nation to control her borders and to enforce the 
rule of law. Migration to our country should be orderly, safe, 
and controlled, consistent with the common good. This is why 
the U.S. Bishops have supported reform of our immigration 
system, so that the rule of law can be restored in a 
humanitarian manner. We hope that the House will understand 
this call and take up immigration reform as soon as possible.
    In our view, Mr. Chairman, the current challenge we are 
facing is driven primarily by factors in Central America and 
Mexico, most specifically the rise of violence against 
children, fomented by organized criminal networks, including 
drug cartels. They act with impunity, threatening families and 
coercing children and youth to join their membership or face 
violence and even death. There are more young children 
arriving, many who are young girls age 13 or younger.
    While there are a variety of on-going push factors, Mr. 
Chairman, including daunting poverty and the desire for family 
reunifications, violence is the straw that stirs the drink. 
Otherwise, it is unlikely we would see such large numbers of 
unaccompanied children on our doorstep.
    Mr. Chairman, I would like to summarize our own 
recommendations, both short- and long-term, on this issue. 
These are listed in detail in our written testimony.
    Over the long term, Mr. Chairman, there must be a concerted 
effort to address the root causes of this exodus, specifically 
the rampant violence in that region. As a part of this effort, 
humane reintegration practices and prevention programs should 
complement anti-violence efforts.
    For short-term response, we recommend the following. 
Unaccompanied children should be expeditiously placed in child-
friendly shelters and not warehoused in CBP border facilities. 
Families should not be detained in restrictive settings but 
placed in alternative community settings as quickly as 
possible. Unaccompanied children should not be subject to 
expedited removal and should be appointed counsel so they can 
navigate our complex legal system. Sufficient funding should be 
provided to care for these children so that Federal agencies do 
not have to raid other budgets such as the refugee budget. 
Pastoral services should be provided to these children and 
families, including visitation by priests, ministers, and other 
religions.
    Mr. Chairman, with your permission, I would like to relay 
one story of why children are fleeing from their homes. In 
November, I led a delegation of the U.S. Conference of Catholic 
Bishops to visit El Salvador, Honduras, Guatemala, and Mexico 
to look at this phenomenon. We met many children who told us 
their stories. At the Center for Detainee Children in 
Tapachula, Mexico, we met two boys, ages 15 and 17, who were 
clean-cut, respectful young men. They had recently arrived from 
San Pedro Sula, Honduras, a city with the highest murder rate 
in the world, higher than Kabul, Afghanistan, or Damascus, 
Syria. Organized crime members had attempted to recruit them 
and had told them that they and their families would be killed 
if they did not cooperate. The families of these young men 
quickly insisted they leave and flee to safety.
    Now, as they waited for repatriation to Honduras, they told 
us they would not return to their home city to what they felt 
was certain death. They would try again. Any risk they faced 
seemed to be a better option than returning to their home. This 
story is typical of many children coming north. It also shows 
the decisions, the difficult decisions faced by parents and 
families who are unable to protect their children in their 
homes and communities. This was brought home to me by a mother 
our delegation met at a repatriation center in El Salvador who 
told us ``I would rather my child die on the journey seeking 
safety in the United States than on my front doorstep.''
    Mr. Chairman, from our experience, it is clear that a 
deterrence strategy, including expedited removal of these 
children, places this vulnerable population at even greater 
risk and will not necessarily stem the child migrant flow. In 
our view, the forces that drive them are greater than the 
dangers they face on the journey. Rather, we must fix the root 
causes at play, particularly the violence, and in the mean time 
offer protection to those children who warrant it, consistent 
with domestic law. To not do so undermines our values as a 
Nation.
    In conclusion, I ask you to consider the individual stories 
of these vulnerable child migrants--we have heard many today--
and open your minds and hearts to their plight while seeking 
meaningful and long-term solutions. I ask you to respond to the 
needs of these children, not to turn them away or ostracize 
them. Americans are a compassionate people. We should not turn 
our back on these children. We, the Church, stand ready to work 
with you to pursue just solutions to this humanitarian 
challenge.
    [The prepared statement of Bishop Seitz follows:]
             Prepared Statement of Most Reverend Mark Seitz
                              July 3, 2014
    I am Bishop Mark Seitz, bishop of the diocese of El Paso, Texas. I 
testify today on behalf of the Committee on Migration to give the 
Catholic Church's perspective about the humanitarian crisis of 
unaccompanied child migrants arriving at the U.S.-Mexico Border.
    I would like to thank Chairman Michael McCaul (R-TX), and Ranking 
Member Bennie Thompson (D-MS), and other committee Members for the 
opportunity to comment on the current situation. I note that the 
protection of migrant children is an especially important issue for the 
Catholic Church, as one of Jesus' first experiences as an infant was to 
flee for his life from King Herod with his family to Egypt. Indeed, 
Jesus Himself was a child migrant fleeing violence. Jesus, Mary, and 
Joseph were asylum-seekers and faced the same choice as the one facing 
thousands of children fleeing to the United States each year.
    I am here to speak with you today about this special population of 
vulnerable children who are very close to my heart as I have met with 
many of them, some as young as 5 years old, while they were being cared 
for in Catholic Charities facilities in my diocese in El Paso. In 
addition to ministering to these youth in El Paso, in November 2013, I 
was privileged to lead a United States Conference of Catholic Bishops 
delegation traveling to Southern Mexico, El Salvador, Guatemala, and 
Honduras to examine and understand the flight of unaccompanied 
migrating children and youth from the region and stand in solidarity 
with these children and their families. In January 2014, we issued our 
findings from the trip in a report entitled, ``USCCB: Mission to 
Central America: Flight of the Unaccompanied Immigrant Children to the 
United States'' (2014 USCCB Central America Report 2014).\1\ Mr. 
Chairman, I ask that 2014 USCCB Central America Report be included in 
the hearing record.
---------------------------------------------------------------------------
    \1\ See USCCB: Mission to Central America: Flight of the 
Unaccompanied Immigrant Children to the United States available at 
http://www.usccb.org/about/migration-policy/upload/Mission-To-Central-
America-FINAL-2.pdf.
---------------------------------------------------------------------------
    During our mission to Central America, we visited migrant children 
shelters, heard tearful stories from grandmothers waiting to pick up 
their recently repatriated grandchildren, and listened to children as 
young as 6 years old speak solemnly of trafficking and exploitation 
that was inflicted upon them along their migration journey. The 
corresponding report that came out of our mission acknowledged that a 
new paradigm regarding unaccompanied children is upon us--namely it is 
clear that unaccompanied children are facing new and increased dangers 
and insecurity and are fleeing in response. As a result, this 
phenomenon requires a regional and holistic solution rooted in 
humanitarian and child welfare principles. Since our mission and report 
issuance, many of the humanitarian challenges facing this vulnerable 
population have persisted and increased. In my remarks, I will 
highlight and update our observations and recommendations from that 
report.
    Mr. Chairman, my testimony today will recommend that Congress:
  <bullet> Address the issue of unaccompanied child migration as a 
        humanitarian crisis requiring cooperation from all branches of 
        the U.S. Government and appropriate the necessary funding to 
        respond to the crisis in a holistic and child protection-
        focused manner;
  <bullet> Adopts policies to ensure that unaccompanied migrant 
        children receive appropriate child welfare services, legal 
        assistance, and access to immigration protection where 
        appropriate;
  <bullet> Require that a best interest of the child standard be 
        applied in immigration proceedings governing unaccompanied 
        alien children;
  <bullet> Examine root causes driving this forced migration situation, 
        such as violence from non-state actors in countries of origin 
        and a lack of citizen security and adequate child protection 
        mechanisms; and
  <bullet> Seek and support innovative home country and transit country 
        solutions that would enable children to remain and develop 
        safely in their home country.
                      i. catholic social teaching
    The Catholic Church is an immigrant church, as more than one-third 
of Catholics in the United States are of Hispanic origin. The Catholic 
Church in the United States is also made up of more than 58 ethnic 
groups from throughout the world, including Asia, Africa, the Near 
East, and Latin America.
    The Catholic Church has a long history of involvement in child 
protection and refugee and asylum protection, both in the advocacy 
arena and in welcoming and assimilating waves of immigrants, refugees, 
and asylum seekers who have helped build our Nation. Migration and 
Refugee Services of USCCB (MRS/USCCB) is the largest refugee 
resettlement agency in the United States, resettling 1 million of the 3 
million refugees who have come to our country since 1975. MRS/USCCB is 
a National leader in caring for unaccompanied alien and refugee 
children as well. We work with over 100 Catholic Charities across the 
country to welcome unaccompanied alien children into our communities 
and provide for their care and general well-being.
    The Catholic Legal Immigration Network, Inc. (CLINIC), a subsidiary 
of USCCB, supports a rapidly-growing network of church and community-
based immigration programs. CLINIC's network now consists of over 212 
members serving immigrants and their families, including asylum seekers 
and unaccompanied children, in over 300 offices.
    The Catholic Church's work in assisting unaccompanied migrant 
children stems from the belief that every person is created in God's 
image. In the Old Testament, God calls upon his people to care for the 
alien because of their own alien experience: ``So, you, too, must 
befriend the alien, for you were once aliens yourselves in the land of 
Egypt'' (Deut. 10:17-19). In the New Testament, the image of the 
migrant is grounded in the life and teachings of Jesus Christ. In his 
own life and work, Jesus identified himself with newcomers and with 
other marginalized persons in a special way: ``I was a stranger and you 
welcomed me.'' (Mt. 25:35). Jesus himself was an itinerant preacher 
without a home of his own, and as noted above, he was a child migrant 
fleeing to Egypt to avoid violence, persecution, and death. (Mt. 2:15).
    In modern times, popes over the last 100 years have developed the 
Church's teaching on migration. Pope Pius XII reaffirmed the Church's 
commitment to caring for pilgrims, aliens, exiles, and migrants of 
every kind, affirming that all peoples have the right to conditions 
worthy of human life and, if these conditions are not present, the 
right to migrate.\2\
---------------------------------------------------------------------------
    \2\ Pope Pius XII, Exsul Familia (On the Spiritual Care of 
Migrants), September, 1952.
---------------------------------------------------------------------------
    Pope John Paul II stated that there is a need to balance the rights 
of nations to control their borders with basic human rights, including 
the right to work: ``Interdependence must be transformed into 
solidarity based upon the principle that the goods of creation are 
meant for all.''\3\ In his pastoral statement, Ecclesia in America, 
John Paul II reaffirmed the rights of migrants and their families and 
the need for respecting human dignity, ``even in cases of non-legal 
immigration.''\4\
---------------------------------------------------------------------------
    \3\ Pope John Paul II, Sollicitudo Rel Socialis (On Social 
Concern), December 30, 1987, No. 39.
    \4\ Pope John Paul II, Ecclesia in America (The Church in America), 
January 22, 1999, No. 65.
---------------------------------------------------------------------------
    Finally, Pope Francis defended the rights of migrants early in his 
papacy, traveling to Lampedusa, Italy, to call for their protection. 
Pope Francis decried the ``globalization of indifference'' and the 
``throwaway culture'' that lead to the disregard of those fleeing 
persecution or seeking a better life. In Evangelii Gaudium, the Holy 
Father speaks particularly of the importance of work with migrants and 
notes that it is essential for Catholics ``to draw near to new forms of 
poverty and vulnerability [including migrants and refugees] in which we 
are called to recognize the suffering of Christ . . . ''.\5\
---------------------------------------------------------------------------
    \5\ Pope Francis, Evangelii Gaudium (The Joy of the Gospel, 
Apostolic Exhortation), December 2013 at 105.
---------------------------------------------------------------------------
    In their joint pastoral letter, Strangers No Longer: Together on 
the Journey of Hope, A Pastoral Letter Concerning Migration, January 
23, 2003 (Strangers No Longer), the U.S. and Mexican Catholic bishops 
further define Church teaching on migration, calling for nations to 
work toward a ``globalization of solidarity.'' In Strangers No Longer, 
the bishops stressed that vulnerable immigrant populations, including 
unaccompanied minors and refugees, should be afforded protection. To 
this end, the bishops noted that unaccompanied minors, due to their 
heightened vulnerability, require special consideration and care.\6\ 
Strangers No Longer also addresses the importance of families and notes 
that humanitarian considerations for families should also be a priority 
when considering migration issues.\7\
---------------------------------------------------------------------------
    \6\ Strangers No Longer, Together on the Journey of Hope, Pastoral 
Statement Concerning Migration from the U.S. and Mexican Catholic 
Bishops,  82 January 2003.
    \7\ Strangers No Longer, Together on The Journey of Hope, Pastoral 
Statement Concerning Migration from the U.S. and Mexican Catholic 
Bishops, January 2003.
---------------------------------------------------------------------------
    Mr. Chairman, the Catholic Church's work in assisting unaccompanied 
migrant children stems from the belief that every person has a unique 
and sacred dignity. This dignity is not bestowed by governments or by 
laws or based upon their wealth or where they happen to be born. It 
inheres within the human being. We seek to be consistent in 
acknowledging the implications of this, namely that from the time we 
come to be in our mother's womb until the moment our life comes to an 
end we are deserving of respect and care. This is true of the unborn 
child, the person with disabilities, the immigrant, the prisoner, and 
the sick. The more vulnerable and weak a person is the more they are 
deserving of our love. This we understand to be the mark of the 
Christian and of a healthy society.
    For these reasons, while the Catholic Church recognizes 
governments' sovereign right to control and protect the border, we hold 
a strong and pervasive pastoral interest in the welfare of migrants, 
including unaccompanied children, and welcome newcomers from all lands. 
The current forced migration continuum of unaccompanied children 
traveling through Mexico and Central America and towards the U.S.-
Mexico border frequently leads to severe traumatization and 
exploitation of children, violence, family separation, maltreatment, 
and even death and must be closely examined. The aspects of reform that 
I will address today relate to addressing the root causes propelling 
children to migrate alone, implementing prevention and treatment 
programs in the home country and in transit countries and the dignified 
care and treatment of this vulnerable population while in the United 
States.
      ii. the church response and care for unaccompanied children
    As I mentioned, Mr. Chairman, USCCB has been a leader in the 
protection of and advocacy for this vulnerable population and the 
institutional Catholic Church in the United States has played a 
critical role in the care of unaccompanied children. By virtue of our 
organizational structure and geographical reach, the U.S. Catholic 
Church early on has assumed a strong leadership role in the treatment 
and service of unaccompanied children. Since 1994, USCCB has operated 
the Unaccompanied Alien Children or ``Safe Passages'' Family 
Reunification program.
    The Safe Passages Family Reunification program serves undocumented 
children detained by Department of Homeland Security (DHS) and placed 
in the custody of the Office of Refugee Resettlement (ORR), which is an 
office within the Department of Health and Human Services (HHS). The 
program provides for the family reunification assistance or long-term 
foster care of unaccompanied children who are in the custody of HHS. 
From the beginning of fiscal year 2011 (October 1, 2010) through June 
9, 2014, the USCCB/MRS Safe Passages program has served 3,457 youth who 
arrived as unaccompanied alien children--2,266 through its Family 
Reunification Program and 1,191 through its foster care programs.
    A focus of the USCCB Safe Passages program is its home study and 
post-release services. During a home study, a community-based case 
worker assesses the safety and suitability of the proposed caregiver 
and placement, including the caregiver's capacity to meet the child's 
unique needs, any potential risks of the placement and the caregiver's 
motivation and commitment to care for the child. Placing the child in 
the home of an intact family with a husband and wife is the ideal. Home 
studies result in a recommendation on whether placement with the 
proposed caregiver is within the child's best interest. Post-release 
services include risk assessment, action-planning with families around 
areas of need and concern, systems advocacy with community providers, 
and culturally-appropriate services and community referrals for social 
and legal services. These services are integral to the successful and 
safe placement of children in child-appropriate environments. I will 
speak more about the importance of these services in my 
recommendations.
    In addition to the work that USCCB undertakes within the United 
States to serve and care for unaccompanied migrant children, the 
Catholic Church in the United States has worked extensively on 
prevention programs in the countries of origin, most notably El 
Salvador, through our partner, Catholic Relief Services (CRS). Through 
its Youth Builders project, CRS (El Salvador) and its partners provide 
at-risk youth with peer support, vocational and entrepreneurial 
training, job placement, life skills and leadership development, and 
community service opportunities. This project targets youth who are at 
risk of unemployment, of violence--as victims and as perpetrators--and 
of forced migration. CRS, in partnership with Caritas Internationalis, 
strengthens diocesan programs to work with at-risk youth through a 
network of community and government agencies. Through these projects, 
CRS has served more than 2,500 young people.\8\ I was able to visit and 
attend a Youth Builders session in San Salvador in November and saw 
first-hand the work that was being done to empower local children and 
give them the courage and skills to remain in their local communities, 
continue their education, and, in some cases, begin local businesses.
---------------------------------------------------------------------------
    \8\ CRS El Salvador, Civil Society and Governance Programs, CRS El 
Salvador webpage, available at http://crs.org/countries/el-salvador.
---------------------------------------------------------------------------
    iii. overview of the current situation of unaccompanied children
    Since 2011, the United States has seen an unprecedented increase in 
the number of unaccompanied migrating children arriving at the U.S./
Mexico border.\9\ These children come from all over the world but 
predominately from Guatemala, El Salvador, Honduras, and Mexico. 
Whereas in fiscal years 2004-2011, the number of unaccompanied children 
apprehended by the U.S. Government averaged around 6,000-8,000 year, 
the total jumped to over 13,000 in fiscal year 2012 \10\ and over 
24,000 \11\ in fiscal year 2013. ORR initially estimated that about 
60,000 unaccompanied minors would enter the United States during fiscal 
year 2014. Recent Government estimates have been revised, projecting 
90,000 child arrivals in fiscal year 2014 and 130,000 in fiscal year 
2015.
---------------------------------------------------------------------------
    \9\ Unaccompanied alien children or (``UACs'') are undocumented 
migrant children under the age of 18 who come to the United States 
without their parent or guardian. Homeland Security Act of 2002, Pub. 
L. 107-296 462(g), 116 Stat. 2135, 2205 (2002). ``A UAC `(A) has no 
lawful status in the U.S., (B) has not attained 18 years of age, (C) 
with respect to whom--(i) there is no parent or legal guardian in the 
United States; or (ii) no parent or legal guardian in the United States 
is available to provide care and physical custody.''
    \10\ ORR Year in Review, 2012, HHS website, available at http://
www.acf.hhs.gov/programs/orr/resource/orr-year-in-review-2012 (accessed 
December 12, 2013).
    \11\ About Unaccompanied Children Services, ORR/HHS website, http:/
/www.acf.hhs.gov/programs/orr/programs/ucs/about (accessed December 10, 
2013).
---------------------------------------------------------------------------
    As of June 20, Mr. Chairman U.S. Customs and Border Patrol (CBP) 
have apprehended 52,000 in the Southwest Border region for fiscal year 
2014.\12\ In response to the increased number of unaccompanied children 
arriving at the U.S.-Mexico border, HHS requested and received approval 
from the Department of Defense for the use of Lackland Air Force base 
in San Antonio and a Naval Base in Ventura County in California, which 
are, respectively, providing shelter to 1,290 and 600 children. 
Facilities at Fort Sill, Oklahoma, also will house 600 unaccompanied 
children.\13\ The Federal Government is currently looking at other 
housing facilities throughout the United States.
---------------------------------------------------------------------------
    \12\ U.S. Customs and Border Patrol, Southwest Border Unaccompanied 
(0-17 yr old) Apprehensions Fiscal Year 2013 and Fiscal Year 2014 
through May 31 available at http://www.cbp.gov/newsroom/stats/
southwest-border-unaccompanied-children.
    \13\ American Forces Press Service, Fort Sill to House 600 
Unaccompanied Alien Children, U.S. Department of Defense website, 
Washington, DC, retrieved June 10, 2014 from http://www.defense.gov/
news/newsarticle.aspx?id=122438.
---------------------------------------------------------------------------
    With the increasing numbers of unaccompanied children arriving at 
the U.S.-Mexico border, we must understand who these children are, what 
is propelling them to travel alone on an increasingly dangerous 
journey, and what can be done to best address their welfare. Mr. 
Chairman, I would like to share the stories of three children--one from 
El Salvador, Guatemala, and Honduras--to give the committee a sense of 
the reality of the violence they are fleeing:
    Marta,* age 16, was born and raised in El Salvador, where she lived 
with her mother, father, brother, and sister until just a few months 
ago. Currently, Marta is in a secure juvenile facility in the United 
States because she entered the United States without status.
---------------------------------------------------------------------------
    * Name changed to protect child's identity.
---------------------------------------------------------------------------
    Marta reports having a very happy childhood, being involved with 
her church, and that she is very close to all her family members. Now 
she is separated from everyone she knows in the world, because she had 
to flee for her life.
    One day back home, Marta witnessed a fellow student's death as he 
was shot in the back by the gangs on his way home from school. Then the 
threats against Marta began. Members of the La Mara Salvatrucha (MS13) 
gang have repeatedly tried to recruit Marta to assist them in their 
criminal activities and have threatened to kill her and her family. 
Marta has been beaten, and threatened with a machete by gang members. 
At one point, the police intervened by relocating Marta's family to the 
countryside, but the gang still located Marta. Few community members 
are willing to assist her family out of fear of the gang. Marta's 
choice was to flee the country, join the criminal gang, or possibly be 
killed. After being in hiding for months, Marta's mother sent her to 
the United States, to save her daughter's life. The family continues to 
be in hiding in El Salvador.
    Marta cries repeatedly out of fear for her family's safety and is 
suffering from post-traumatic stress disorder. Marta is applying for 
asylum in the United States and has been approved to transfer to a 
foster care setting while she navigates immigration proceedings with 
the aid of a pro-bono attorney.
    Ana,* age 15, grew up in Totonicapaan, Guatemala, living with her 
biological parents and nine siblings. In an average day, Ana woke up at 
5:00 A.M. to clean the house, and then sewed dresses until 9:00 P.M., 
at which time she would fix dinner for her family and go to bed. Prior 
to migrating to the United States, Ana had completed fifth grade before 
her father decided that her time would be better spent working. The 
impetus for her migration was the severe physical and emotional abuse 
she suffered at the hands of her father, who was unable to sustain 
steady employment and suffered from alcohol abuse. In June 2013, Ana's 
mother secretly arranged for her to travel to the United States in 
hopes of reunifying with her 30-year-old sister in Houston, Texas. She 
travelled mostly by car, stopping to sleep in basements and warehouses 
on her way through Mexico.
    Once near the northern border of Mexico, she spent three nights in 
a trailer while the guide waited on other members of the group to 
arrive. Ana was given little water and nothing to eat while waiting in 
the trailer. On the third night in the trailer, the guide attempted to 
rape Ana, but another traveler pulled him away. The next day, after 
crossing into Texas, the guide again tried to rape her but his efforts 
were once again thwarted. Angry at her rejection, the guide abandoned 
Ana in the middle of the desert and returned to Mexico. Ana continued 
to walk until she found a farm and was subsequently apprehended by 
Border Patrol.
    Maria* is a 16-year-old girl from Honduras who arrived to the 
United States and was placed in ORR custody in July 2013. She was 
referred for home study due to having been the victim of sexual abuse 
at the age of 13. While in Honduras, she had suffered additional abuse 
that began with harassment in her country of origin by La Mara 
Salvatrucha (MS13) Gang. Maria was pursued, brutalized, and attempts at 
recruiting her culminated into the brutal beating of her mother and 
other family members, constant threats of kidnapping, and an eventual 
kidnapping by MS-13 gang members.
    Eventually Maria sought assistance and tried to get out of her 
confinement and recruitment by the gang. She finally devised a plan to 
escape, and under the ruse of going ``shopping'', the child arranged to 
escape to her sister's house. However, when the gang realized that the 
child had escaped, they surrounded the home to which she fled. Local 
authorities eventually secured Maria, debriefed her, and helped her 
relocate to protective custody in another part of the country. The 
child's mother insisted that she be moved to the care of a family 
member (aunt) in a nearby city in Honduras, but this only lasted a 
short time, since gang members found out this location and pursued and 
harassed Maria at this location as well. Since this incident, Maria has 
not had any contact or involvement with this gang, and eventually fled 
to the United States for fear she would be killed. Maria is currently 
being cared for by a foster care family and awaits her court date.
     iv. factors pushing unaccompanied children to the u.s. border
    In our delegation to Central America in November 2013, USCCB 
focused upon learning more about the push factors driving this 
migration and possible humane solutions to the problem.
    While poverty and the desire to reunify with family to attain 
security are on-going motivations to migrate, USCCB found that that an 
overriding symbiotic trend has played a decisive and forceful role in 
recent years: Generalized violence in the home and at the community and 
state level. Coupled with a corresponding breakdown of the rule of law, 
the violence has threatened citizen security and created a culture of 
fear and hopelessness that has pushed children out of their communities 
and into forced transit situations.
    Mr. Chairman, we acknowledged in our trip report in January that 
each country exhibited individual challenges which have added to these 
push factors. Additionally, in response to the increased flow of 
children in recent weeks, we also acknowledge that certain new country-
specific factors may have impacted the latest flow of children. One 
such factor is the recent crackdown of gang-activity from within 
prisons in Honduras and efforts to increase police presence by newly-
elected leader Juan Orlando Hernaandez. With the increased efforts by 
the Honduran government to stem communications from gang leaders within 
prisons, there are reports of increased violence as gangs fragment and 
mid-level criminal operators compete for control.\14\
---------------------------------------------------------------------------
    \14\ James Bargent, Honduras Extortion Gangs Undergoing Violent 
Leadership Crisis, Insight Crime: Organized Crime in the Americas, 3 
June 2014.
---------------------------------------------------------------------------
    Mr. Chairman, the on-going generalized violence, leading to 
coercion and threats to the lives of citizens--particularly children--
of these countries, is the overwhelming factor facing these children 
and propelling their migration. Extortion, family abuse and 
instability, kidnapping, threats, and coercive and forcible recruitment 
of children into criminal activity perpetrated by transnational 
criminal organizations and gangs have become part of every-day life in 
all of these countries. In addition to the violence and abuse at the 
community and national level, transnational criminal organizations, 
such as the Mexican-based Zeta cartel, which deals in the smuggling and 
trafficking of humans, drugs, and weapons, operate in these countries 
and along the migration journey with impunity, and have expanded their 
influence throughout Central America.
    I note that the increase in violence in Guatemala, Honduras, and El 
Salvador forcing children and adults out of their homes is affecting 
the entire region, not just the United States. For example, since 2008 
Mexico, Panama, Nicaragua, Costa Rica, and Belize--the countries 
surrounding the Northern Triangle countries--have documented a 712% 
combined increase in the number of asylum applications lodged by people 
from El Salvador, Honduras, and Guatemala.\15\
---------------------------------------------------------------------------
    \15\ UNHCR, Children on the Run: Unaccompanied Children Leaving 
Central America and Mexico and the Need for International Protection, 
March 2014.
---------------------------------------------------------------------------
    Mr. Chairman, in our January trip report we detail the increased 
violence against children and families in Central America. Given the 
difficult conditions minors must confront in their home countries, 
USCCB believes that a robust protection regime for children must be 
implemented in Central America, Mexico, and the United States. Based on 
our presence in sending countries, we see the following as reasons for 
the increased number of children arriving in the United States:
    a. Violence perpetrated by organized transnational gangs, loosely-
        affiliated criminal imitators of gangs, and drug cartels, has 
        permeated all aspects of life in Central America and is one of 
        the primary factors driving the migration of children from the 
        region.--USCCB found that in each country--particularly 
        Honduras and El Salvador--organized gangs have established 
        themselves as an alternative, if not primary, authority in 
        parts of the countries, particularly in rural areas and towns 
        and cities outside the capitals. Gangs and local criminal 
        actors operating in Honduras, El Salvador, and Guatemala have 
        consolidated their bases of power, expanded and upgraded their 
        criminal enterprises and honed their recruitment and terror 
        tactics. In many cases, the governments are unable to prevent 
        gang violence and intimidation of the general public, 
        especially youth. USCCB heard accounts of gang members 
        infiltrating schools and forcing children to either join their 
        ranks or risk violent retribution to them or their families. 
        Even in prisons, incarcerated gang members are able to order 
        violence against members of the community. There also were 
        reports that law enforcement have collaborated with the gangs 
        or at least have been lax in enforcing laws and prosecuting 
        crimes. For example, according to Casa Alianza, an NGO that 
        works in Honduras, 93 percent of crimes perpetrated against 
        youth in Honduras go unpunished.\16\
---------------------------------------------------------------------------
    \16\ Interview with Casa Alianza (Covenant House) Honduras, 
Tegucigalpa, Honduras, November 20, 2013.
---------------------------------------------------------------------------
    b. Localized violence has severely exacerbated the lack of economic 
        and educational opportunities for youth and has led to stress 
        on the family unit, family breakdown, and even domestic abuse, 
        which leaves children unprotected and extremely vulnerable.--
        The escalation in violence, combined with the lack of jobs and 
        quality education, has led to a breakdown in the family unit, 
        as male heads of households--or sometimes both parents--have 
        left for the United States, leaving children behind with 
        relatives, often grandparents. Children who have parents 
        working abroad are especially vulnerable to community violence 
        and forced migration as they can become targets for gang 
        extortion due to the perceived or actual remittances they may 
        receive. Additionally, as children enter teenage years and are 
        increasingly at risk for victimization or recruitment by gangs, 
        it becomes increasingly difficult for their relatives, 
        especially elderly grandparents, to protect them. To this end, 
        the United Nations Development Program reports that 26.7% of 
        all inmates in El Salvador they interviewed in 2013 never knew 
        their mother or father growing up.\17\ Schools no longer 
        function as social institutions that offer a respite from the 
        violence and instead have become de facto gang recruitment 
        grounds. As a result of being targeted because of their family 
        situation or perceived wealth, children flee, as a strategy to 
        escape the gangs, to help support the family, and to reunify 
        with their parents or other loved ones, many of whom have been 
        separated for years.
---------------------------------------------------------------------------
    \17\ Citizen Security with a Human Face: Evidence and Proposals for 
Latin America, Summary Regional Human Development Report 2013-2014, 
UNDP, November 2013, at 8.
---------------------------------------------------------------------------
    c. Abuse in the home also has created stress, fear, and motivation 
        to leave the family home as well as the community.--The 
        pressure on families from local violence, economic uncertainty, 
        and family-member absence has a deleterious effect on the 
        family unit, as instances of domestic abuse towards women and 
        children have grown. It has been documented that more 
        unaccompanied children are reporting instances of child abuse 
        and neglect undertaken by non-parental caretakers.\18\ 
        Children, in particular girls, are particularly exposed to 
        domestic violence. A survey carried out by UNICEF revealed that 
        7 out of 10 unaccompanied children reported having been abused 
        in their homes.\19\ In El Salvador it was reported that the 
        domestic violence and sexual abuse of women and girls in the 
        private sphere remain largely invisible and are consequently 
        underreported.\20\
---------------------------------------------------------------------------
    \18\ UNHCR, Children on the Run: Unaccompanied Children Leaving 
Central America and Mexico and the Need for International Protection, 
at 46, March 2014. In their report, UNHCR states that 21% of children 
interviewed revealed that they had experienced some form of abuse by a 
family member, another adult responsible for their care or a domestic 
partner.
    \19\ Rashida Manjoo, Report of the Special Rapporteur on violence 
against women, its causes and consequences, Addendum Follow-up mission 
to El Salvador, at p.7  19-20, Human Rights Council, 17th Session, A/
HRC/17/26/Add. 2, 14 February 2011, available at http://daccess-
ods.un.org/TMP/6227008.70037079.html.
    \20\ Ibid.
---------------------------------------------------------------------------
    d. Migrating children do not find the protection they need once 
        they arrive in Mexico, even those who are eligible for 
        asylum.--The United Nations High Commissioner for Refugees 
        (UNHCR) has consistently reported that an increasing number of 
        unaccompanied children from Central America in particular are 
        vulnerable to exploitation and cannot access protection in 
        Mexico. To this end, UNHCR and USCCB are working with 
        government authorities to provide training to law enforcement 
        and protection officers on identifying and screening vulnerable 
        children.
    As an example of this lack of protection, USCCB found one 
        children's shelter dedicated to caring for migrant children who 
        may attempt an asylum claim in the Southern Mexico region, in 
        Tapachula. Another shelter in Mexico City, run by the Mexican 
        government's division of child welfare [Desarrollo Integral de 
        la Familia (DIF)] houses children who have won asylum but 
        cannot be released until they are 18.\18\ In their report, 
        UNHCR states that 21% of children interviewed revealed that 
        they had experienced some form of abuse by a family member, 
        another adult responsible for their care or a domestic partner.
---------------------------------------------------------------------------
    \18\ UNHCR, Children on the Run: Unaccompanied Children Leaving 
Central America and Mexico and the Need for International Protection, 
at 46, March 2014. In their report, UNHCR states that 21% of children 
interviewed revealed that they had experienced some form of abuse by a 
family member, another adult responsible for their care or a domestic 
partner.
---------------------------------------------------------------------------
    Children who request asylum usually remain in detention for months, 
        with little help to navigate the legal system. Once a child 
        wins asylum, the only placement option available is the DIF 
        child shelter in Mexico City until age 18, as there is no 
        foster care system in place for these children. Shelter care is 
        not intended to be a long-term placement for children, and 
        often leaves children vulnerable to exploitation. Because of 
        the challenges in gaining asylum in Mexico and the absence of 
        an effective child welfare system, children often choose 
        deportation back home so they can try to migrate again.
    e. Countries of origin lack the capacity to protect children 
        adequately.--USCCB found that Guatemala, Honduras, and El 
        Salvador lack the capacity to protect children in their law 
        enforcement, child and social welfare, and educational systems. 
        As mentioned, organized criminal networks and other criminal 
        elements are active in many communities and schools, and the 
        government is unable to curb their influence because of 
        corruption, lack of political will, or lack of resources. Law 
        enforcement personnel, low-paid and low-skilled, are 
        compromised by these criminal elements. Child welfare services 
        are virtually non-existent, as are foster-care and family 
        reunification and reintegration services.
    f. A significant number of migrants, particularly youth, have valid 
        child protection claims.--While the popular perception of many 
        in the United States is that migrants come here for economic 
        reasons, USCCB found that a growing number are fleeing violence 
        in their homelands. UNHCR recently found 58% of the 
        unaccompanied children it interviewed from Central America and 
        Mexico had some sort of international protection claim.\21\ A 
        similar study in 2006 found only 13% of these children had a 
        protection claim. Children who exhibit international protection 
        concerns may be eligible to remain in the United States legally 
        in some form of recognized legal status, such as Special 
        Immigrant Juvenile Status, as an asylee, or with T or U visas.
---------------------------------------------------------------------------
    \21\ UNHCR, Children on the Run: Unaccompanied Children Leaving 
Central America and Mexico and the Need for International Protection, 
at 46, March 2014.
---------------------------------------------------------------------------
              v. u.s. response to the humanitarian crisis
    Mr. Chairman, we support the administration's immediate response to 
this crisis, which created an inter-agency response led by the Federal 
Emergency Management Agency (FEMA). We offer the following 
recommendations to ensure that children are cared for throughout the 
legal process:
    a. For the children, the faithful adherence to the best interest of 
        the child standard is necessary in all decision making.--The 
        best interest of the child principle is an internationally 
        recognized child-welfare standard used in the U.S. child 
        welfare system. It refers to a process of determining services, 
        care arrangements, caregivers, and placements best suited to 
        meet a child's short-term and long-term needs and ensure safety 
        permanency, and well-being. When applied in the United States 
        special importance is given to family integrity, health, 
        safety, protection of the child, and timely placement. This 
        means that all procedures, protocols, and mechanisms developed 
        are child-friendly, trauma-informed, and administered by child 
        welfare professionals; that children are screened and assessed 
        for their immediate humanitarian protection needs and their 
        long-term international protection needs; that during the 
        pursuit of long-term solutions for the children they are placed 
        in the least-restrictive settings (i.e. community-based); that 
        all children are connected with social and legal services to 
        address their immediate needs; that long-term and durable 
        solutions are pursued that are in the children's best 
        interests; and that where repatriation is the best alternative 
        available that safe repatriation and reintegration be conducted 
        in collaboration and coordination with the children's home 
        governments, NGOs, and other implementing partners.
    Consistent with U.S. child welfare norms, children should be placed 
        in smaller community-based programs such as specialized foster 
        care, group or small shelter programs which allow children to 
        reside in family settings in communities. Large facilities are 
        contrary to child welfare principles and the TVPRA, increase 
        the risk of institutionalization, child maltreatment and losing 
        track of children's individual needs.
    b. For the United States Government, a mutually supportive, 
        interagency response is necessary to ensure we are leveraging 
        the expertise and resources of the agencies that bear 
        responsibility for addressing all aspects of the challenge.--As 
        mentioned, Mr. Chairman, we are encouraged by the decision of 
        the administration to involve all relevant agencies of the 
        Government in responding to this crisis. This should include 
        HHS/ORR and also the Administration for Children and Families' 
        domestic child welfare division; the Department of State's 
        (DOS) Agency for International Development, Bureau of 
        Population, Refugees, and Migration, and Western Hemispheric 
        Affairs; the Executive Office for Immigration Review of DOJ; 
        and Citizenship and Immigration Services, Immigration Customs 
        Enforcement, and DHS/CBP. The inter-agency work on the issue 
        should incorporate clear leadership responsibilities and 
        effective collaboration mechanisms to ensure the optimum 
        results both in the United States and throughout the region.
    c. Children should be properly screened and placed in the least 
        restrictive setting, preferably with family or an appropriate 
        sponsor.--Children should be immediately screened, ideally by a 
        child welfare specialist, as to whether: (1) They are victims 
        of human trafficking; and (2) whether they have special needs 
        and require specific care, such as trafficking victims, 
        children under 12, pregnant girls, and persons with 
        disabilities. Where possible, children should be reunified with 
        their family members during the course of their legal 
        proceedings. Potential sponsors who can care for the child 
        throughout the child's immigration proceedings should be 
        identified and adequately screened. Children should not be 
        released, pending fingerprint and background checks of their 
        sponsors. HHS and other agencies should monitor, report, and 
        respond to violations against children. As required under the 
        law, expedited removal should not be used against unaccompanied 
        children.
    d. Families should be kept together, preferably in a community 
        setting, and provided full due process rights.--Families who 
        are part of this migration flow, mainly women with young 
        children, should not be detained in a restrictive setting. 
        Alternatives to detention for these families should be 
        explored, including with faith-based communities. Such models 
        have been implemented in the past, with great success and at 
        reasonable costs. The needs of mothers and children are best 
        met in such a community setting, where their specialized needs 
        can be met. USCCB stands ready to help in providing 
        alternatives to detention for vulnerable families.
    Moreover, subjecting these families to expedited removal 
        procedures, as intended by the administration, could undercut 
        their due process rights. Many would be unable to obtain an 
        attorney and, because of their trauma and the setting of the 
        immigration proceedings, would be unable to adequately 
        articulate their fear of return.
    e. Post-release reception assistance should be expanded to meet the 
        rising need.--We urge increased post-release services which 
        address family preservation, child safety, community 
        integration, access to counsel and continued participation in 
        immigration proceedings. The lack of sufficient funding for 
        assistance post-release increases the likelihood of family 
        breakdown, makes it more difficult for children to access 
        public education and community services, and decreases the 
        likelihood that the children will show up for their immigration 
        proceedings.
    With the release from custody happening on a shorter time frame--
        now less than 30 days--and with up to 90% of UACs being 
        released from ORR custody to communities, UAC resources need to 
        be prioritized into community-based reception services which 
        are located where families live. ORR could leverage the 
        infrastructure and expertise of the U.S. resettlement agencies 
        by providing all of the children community-based, reception 
        services. Reception services should be required for all UAC to 
        assist the family with navigating the complex educational, 
        social service, and legal systems.
    f. Pastoral care and services should be provided to children.--Mr. 
        Chairman, these vulnerable children should have access to 
        pastoral services, including visitation by religious, including 
        priests, minister, and other faith leaders. To date, requests 
        for visitation to the Border Patrol stations and shelters for 
        this purpose has been denied by the Border Patrol and ICE.
                          vi. recommendations
    In light of the humanitarian crisis and in the best interest of the 
children who are at risk, USCCB offers the following policy 
recommendations:
    A. The United States should strengthen protections for children 
from Central America.--Unaccompanied minors who arrive in the United 
States possess legal rights which should be honored. Often children are 
scared and are unable to articulate their fears and do not understand 
what rights they have under U.S. law. Moreover, children who come into 
the care of the U.S. Government should be treated humanely and with 
appropriate child protections. We recommend the following:
    1. Robust funding should be appropriated to ensure the care of 
these children and families fleeing violence in their home countries.--
We are heartened that the U.S. Senate has added $1.9 billion for the 
fiscal year 2015 budget to care for these vulnerable populations. Any 
funding should be administered in a manner that respects the religious 
liberty and conscience rights of organizations providing this care.
    We recommend that:
  <bullet> Congress appropriate $2.28 billion for fiscal year 2015 for 
        care of unaccompanied children, consistent with the 
        administration's request;
  <bullet> Congress should oppose the request from the Obama 
        administration to be granted ``fast track authority'' to 
        expedite the removal of children fleeing violence in Central 
        America;
  <bullet> Congress should approve a supplemental funding request which 
        provides monies to care for the well-being of children, 
        including housing, legal representation, child welfare 
        services, alternatives to detention for families, and post-
        release services.
  <bullet> Congress increase funding in the fiscal year 2015 HHS budget 
        for unaccompanied refugee minors programs to $100 million, as 
        some of these children should qualify for Unaccompanied Refugee 
        Minor (URM) benefits;
  <bullet> Congress appropriate $100 million for DHS to care for 
        families who have crossed into the United States during the 
        duration of their legal proceedings, including alternative to 
        detention programs, housing, and other basic necessities.
  <bullet> Congress should appropriate funding in the DOJ budget to 
        provide legal representation for unaccompanied children who 
        cannot secure representation through pro-bono networks.
    2. Congress should mandate and fund family reunification and legal 
orientation programs for all youth to help children integrate into 
their communities, reunify with their families, and pursue immigration 
relief.--Often, increased funding to the Office of Refugee Resettlement 
(ORR), which is responsible for the custody and care of UAC, is 
directed at improving conditions in the temporary shelters in which 
unaccompanied children reside while waiting for release to their 
families. However, under normal conditions the time youth spend in 
shelter is less than 45 days, at which point 90 percent are released to 
their families.
    There exists little funding for services once children are 
released, increasing the likelihood for family breakdown, the inability 
of children to enroll in school and access community resources, and the 
likelihood that the child will not show up to their immigration 
hearings. Funding should be directed at increasing the number of home 
studies provided to UAC prior to their release from custody to assess 
any potential risks of the placement, including the protective capacity 
of the sponsor to ensure the safe reunification of the child. Post-
release services should be required for all UAC to assist the family 
with navigating the complex educational, social service, and legal 
systems. With appropriate follow-up and monitoring by child welfare 
professionals, it is more likely that children will not abscond and 
will appear at their immigration proceedings.
    Finally, funding should be increased for the Department of 
Justice's Legal Orientation Program for Custodians (LOPC) which was 
developed to ``inform the children's custodians of their 
responsibilities in ensuring the child's appearance at all immigration 
proceedings, as well as protecting the child from mistreatment, 
exploitation, and trafficking,'' as provided under the Trafficking 
Victims Protection Reauthorization Act of 2008.\22\
---------------------------------------------------------------------------
    \22\ http://www.justice.gov/eoir/probono/probono.htm.
---------------------------------------------------------------------------
    3. The best interest of the child should be applied in legal 
proceedings involving UACs, including creating child-appropriate asylum 
procedures and unaccompanied child immigration court dockets.--
Currently, decisions about the welfare of UAC are made separately from 
the existing U.S. child welfare infrastructure, meaning that court 
decisions on the welfare of UAC are based on their eligibility for 
immigration relief alone rather than involving a comprehensive 
assessment of the best interest of the child. Whenever possible, 
policies and procedures should be implemented that help the child 
progress through the system in a way that takes into account his/her 
vulnerabilities and age, such as the establishment of immigration court 
dockets for unaccompanied children and the creation of child-
appropriate asylum procedures. Concentrating all UAC cases in a child-
focused immigration docket with appropriately-trained arbiters and 
advocates will streamline UAC cases while also ensuring a less-
threatening model for children. Additionally, implementing a uniform 
binding standard that requires all immigration judges, Federal judges, 
and members of the BIA to adopt a child-sensitive approach to asylum 
cases of child applicants will lead to greater consistency in youth 
asylum jurisprudence and will also be more reflective of current 
international and domestic legal requirements. As mentioned, the 
Government should provide legal representation for unaccompanied 
children, who would be better able to navigate the legal process and 
obtain immigration relief with an attorney guiding and representing 
them.
    4. Family reunification should be a central component of 
implementing the best interest of the child principle.--The U.S. 
Government should adopt a transnational family approach in deciding on 
durable solutions in the best interest of UAC. This should include 
family tracing, assessment of all family members for potential 
reunification, and involvement of all family members in the decision-
making process, regardless of geography.
    5. The Department of State should pilot Section 104 of the 
Trafficking Victims Protection Reauthorization Act of 2008 (TVPRA 08) 
in Mexico.--Sec. 104 of the TVPRA 08 amends Sec. 107 (a) of the TVPA 
2000 to require the ``Secretary of State and the Administrator of the 
United States Agency for international development'' to ``establish and 
carry out initiatives in foreign countries''\23\ ``in cooperation and 
coordination with relevant organizations, such as the United Nations 
High Commissioner for Refugees, the International Organization for 
Migration, and private nongovernmental organizations . . . for--(i) 
increased protections for refugees and internally displaced persons, 
including outreach and education efforts to prevent such refugees and 
internally displaced persons from being exploited by traffickers; and 
(ii) performance of best interest determinations for unaccompanied and 
separated children who come to the attention of the United Nations High 
Commissioner for Refugees, its partner organizations, or any 
organization that contracts with the Department of State in order to 
identify child trafficking victims and to assist their safe 
integration, reintegration, and resettlement.''\24\
---------------------------------------------------------------------------
    \23\ http://www.state.gov/documents/organization/10492.pdf.
    \24\ http://www.state.gov/j/tip/laws/113178.htm.
---------------------------------------------------------------------------
    USCCB interviewed several Central American child victims of 
trafficking in a DIF shelter in Tapachula, Mexico whom would benefit 
from a best interest determination (BID) which would result in a 
recommendation for a durable solution to ensure their protection and 
permanency. Currently, there is no systemic way to identify children 
who have been trafficked or are at risk of being trafficked, and 
without a BID, the fate of children who were trafficked or at risk of 
being trafficked consists of repatriation to their country of origin, 
often sending them back into the hands of the traffickers. If they 
receive refugee status in Mexico, remaining in a shelter until they 
turn 18 years old leaves them vulnerable to exploitation within the 
shelter and lacking appropriate services to address their trauma and 
developmental needs.
    6. The Office of Refugee Resettlement (ORR) should continue to 
expand placement options to include small community-based care 
arrangements with basic to therapeutic programming.--The Flores 
Settlement Agreement establishes minimum standards of care for children 
in the custody of ORR and requires that UAC be placed in the least 
restrictive setting that meets their needs. Save the Children notes in 
a study: `` . . . recent years have seen an increasing emphasis on the 
development of community-based approaches . . . to ensure that children 
who lose, or become separated from their own families, can have the 
benefits of normal family life within the community''\25\. Placing 
children in the least restrictive setting that can meet their needs is 
the policy and practice of the child welfare system in the United 
States. While many of the children in ORR custody are served in basic 
shelters, this placement setting may not be the most appropriate for 
some UAC, many of whom have complex trauma needs, and would be better 
served in foster care placements through the URM program.
---------------------------------------------------------------------------
    \25\ ``Community-Based Care for Separated Children''. Save the 
Children. 2003. Retrieved from http://comminit.com/en/node/209638/347.
---------------------------------------------------------------------------
    7. Special attention should be given to Mayan youth.--A significant 
number of youth migrating from Guatemala are Mayan fleeing domestic 
violence, organized crime, and poverty. The United States is not 
adequately prepared to identify and assist these youth, as many are 
unable to understand English or Spanish and thus unable to articulate 
their fears. We encourage DHS to work with non-government organizations 
and Mayan leaders to identify and assist Mayan youth.
    B. Mexico, with assistance from the United States and child welfare 
organizations, must build the capacity of the Mexican child welfare 
system to protect migrating youth.--This includes training for direct 
care providers and Government officials to employ child-appropriate 
techniques when interviewing and serving migrating children as well as 
the development of protocols related to identification of safe 
placement for children, including, but not limited to, those identified 
to be eligible for refugee status. The Government, in partnership with 
child welfare experts should develop and incorporate standardized tools 
and methods to screen migrating children for symptoms of trauma and for 
human trafficking.
    1. The Mexican government should establish a continuum of care for 
unaccompanied children in their custody.--Currently, unaccompanied 
children who are seeking asylum may remain in shelters for as long as 6 
months to years and children who receive asylum remain in shelter until 
they are 18. Studies have shown that prolonged stays in restrictive 
settings impact a child's development and well-being. The higher the 
capacity of the care arrangement, the more restrictive the environment 
becomes. Consistent with child welfare best practice, unaccompanied 
children should be placed in the least-restrictive setting, ideally, in 
community-based care, such as foster care, which allows children 
freedom of movement and access to community. Furthermore, care settings 
should be constructed to ensure minors are not commingled with gangs or 
other criminals, who often infiltrate these facilities.
    2. Best interest determinations (BIDS) should be conducted for 
children in custody in Mexico.--Rather than immediately deport them 
back to Central America, Mexico should allow UNHCR to employ a BIDS 
system for unaccompanied and separated children in detention to ensure 
they are protected from criminal elements in Mexico and Central 
America. This would include the possibility of reuniting them with 
their families in the United States, particularly if they are victims 
of trafficking or asylum seekers.
    3. The U.S. Government should consider child asylum/refugee cases 
in Mexico for resettlement to the United States through embassy 
referrals.--Cases of children with valid asylum or refugee claims, 
especially those with family in the United States, should be considered 
by the U.S. Government for possible resettlement. In many cases, 
children are neither safe in Mexico nor the country of origin, and 
resettlement to the United States is their only option for a durable 
solution.
    4. The current reliance on consular staff to investigate, handle, 
and treat children who are intercepted in Mexico during their migration 
is inadequate and leaves children vulnerable to coyotes, traffickers, 
and further trauma and exploitation.--Currently, in Tapachula, Mexico, 
the consular officials are responsible for identifying where 
apprehended unaccompanied children are from, interfacing with the other 
consulates, collecting information on children's families, and making 
determinations about their return. The training they receive is on an 
ad hoc basis, sometimes led by local NGOs. These government officials 
are performing the work of child welfare experts and should receive 
adequate training and staff on-site within the consulates to help 
consult on possible child trafficking, smuggling, and exploitation 
cases.
    C. With assistance from the U.S. Government, Central American 
governments must employ systems to protect children so they are able to 
remain home in safety and with opportunity.--The long-term solution to 
the crisis in Central America is to address the push factors driving 
minors north. This would include improvements in education, employment, 
and enforcement, for sure, but also improvements in the social service 
and child protection systems. We recommend the following:
    1. The United States should invest in repatriation and re-
integration in sending countries.--USCCB found that source countries 
did not employ comprehensive re-integration programs for children 
returning from the United States and Mexico, programs which would 
provide follow-up services to children to help them readjust to life in 
their home country. A program operated by Kids in Need of Defense 
(KIND) in Guatemala is showing promising results and should be expanded 
and duplicated.
    2. The United States should invest in prevention programs in 
sending countries.--Other than programs provided by Catholic Relief 
Services and other NGOs, source countries do not employ programs to 
encourage youth to remain and not take the journey north. Such a 
program would include skill-based training and employment services. 
Catholic Relief Services operates Youth Builders, a program previously 
mentioned in my testimony which has helped youth remain at home and 
live productive lives. Youth Builders offers promise for the benefits 
of such prevention programs: Of the 53 children served by the Youth 
Builders program to date, 52 have not migrated north.
    3. The United States should consider the implementation of in-
country processing in sending countries.--In order to prevent children 
with persecution claims from risking their lives along the migration 
journey, the United States should consider in-country processing in 
Guatemala, El Salvador, and Honduras. This would also undercut the for-
profit smuggling networks that are preying on children and families. It 
also would ensure that children who deserve protection receive it in 
safety. The United States has conducted successful in-country 
processing systems in such nations as the former Soviet Union and 
Haiti.
    4. Anti-violence efforts should include stakeholders from 
government, civil society, private sector, churches, and international 
donors in order to effectively leverage limited resources and should 
include job and educational opportunities and training programs.--Anti-
violence prevention measures should be tackled at regional and local 
community levels in addition to national levels. Including key local 
stakeholders and engaging regional governmental bodies and actors is a 
vital part of prevention efforts. Additionally, prevention efforts must 
include systematic training and educational programs in order to fully 
offer meaningful opportunities for gang members in society once they 
leave the gang.
    5. Over the long term, all governments of the region, including the 
United States, must invest resources into examining and effectively 
addressing root causes of migration in Central America and Mexico.--
This would address the lack of citizen security which is propelling 
individuals, especially children, to flee. The United States and its 
regional partners must avoid the simplistic approach of addressing the 
forced migration by forcing children back through increased border 
enforcement. This response is akin to sending these children back into 
a burning building they just fled. Instead the approach must prioritize 
protection for those who are displaced from their homes, especially 
children, the most vulnerable.
                               conclusion
    The situation of child migration from Central America is a complex 
one, with no easy answers. It is clear, however, that more must be done 
to address the root causes of this flight and to protect children and 
youth in the process. Clearly this problem is not going away; in fact, 
it is getting more urgent in terms of the dire humanitarian 
consequences.
    Too often, and especially recently in the media, these children are 
being looked at with distrust and as capable adult actors, instead of 
as vulnerable and frightened children who have been introduced to the 
injustice and horror of the world at an early age. Anyone who hears the 
stories of these children would be moved, as they are victims fleeing 
violence and terror, not perpetrators. USCCB found that these children 
long not only for security, but also for a sense of belonging--to a 
family, a community, and a country. They are often unable to find this 
belonging in their home country and leave their homes as a last resort.
    In conclusion, I ask you to consider the individual stories of 
these vulnerable child migrants and open your minds and hearts to their 
plight while seeking meaningful and long-term regional solutions. I ask 
you to respond to the needs of these children, not to turn them away or 
ostracize them, as Americans are a compassionate people.
    Mr. Chairman, I again thank you for this opportunity to speak with 
you about these children of God and ask that you let me, my brother 
bishops, and the entire Catholic Church charitable network work with 
you to pursue just and humane solutions to the challenge of child 
migration.

    Chairman McCaul. Thank you, Bishop. Let me just say that I 
appreciate your leadership, and the Catholic Church's 
leadership. I think there is a role to play. We can work with 
you in the intervention to stop the movement in the first place 
to make that dangerous journey, but we also applaud your 
humanitarian efforts here in the United States. We often like 
to think that we do God's work here on earth, but you truly do 
the Lord's work here. So we thank you for that, sir.
    Because of our departure time, which is 3:30, to make our 
airplane, I may have to limit everybody to 3 minutes. I will 
try to lead by example as the Chairman, as hard as that may be.
    Let me just first, Chief, people ask me how did this 
happen? How did we get here? Fifty thousand unaccompanied 
children since October. How did this happen, and what do we 
need to do to stop it?
    Mr. Oaks. Well, I think it has been, as everybody has 
testified on the panel, a combination of all those factors. It 
is a combination of poverty, it is socioeconomic conditions, it 
is violence in the particular countries. It is all those 
factors. It is the hope of freedom and a better life in the 
United States. It is all those factors that draw many of these 
people. In the course of the last 30 years as a Border Patrol 
Agent, I have seen many iterations of this with different 
bodies and different groups and demographics of people that 
have come to this country for a better way of life.
    The way you stop it is by Congress and the American people 
and the non-governmental organizations and the faith-based 
organizations and diplomatic efforts in concert to come up with 
a comprehensive understanding of what we are trying to 
accomplish, and then solve the problem that way.
    Chairman McCaul. I think you mentioned also before in 2006 
we faced a similar thing with Brazil, and I think we sent a 
very strong message of deterrence that if you come, you cannot 
stay, and I think we were very effective. Of course, that was 
before the 2008 law that we are under today. But I think you 
would agree with me that that actually worked.
    Mr. Oaks. Yes, sir. In terms of the Brazilians that you 
were talking about, we had an influx of Brazilians, and over 
the course of the last 3 decades in the Rio Grande Valley we 
have seen an influx of OTMs each decade, and the problems have 
typically been resolved by taking a look at that body, looking 
at detention, looking at bonds, and looking at working with the 
country, especially Brazil. The Mexican government did a pretty 
good job of reducing the number of waivers and not letting them 
travel free through Mexico to the United States.
    Chairman McCaul. I think Mexico needs to change that policy 
and they need to step up to the plate.
    Steve McCraw, you and I have worked on this for over a 
decade. You are FBI SAC out of San Antonio. I was a Federal 
prosecutor. We have talked about securing the border it seems 
like forever. I think now is the time to get it done. This 
crisis is a call for action. I think Congress--and I am going 
to do everything in my power to make sure Congress fulfills 
that responsibility.
    But can you talk a little bit about--you had a plan, a 
strategic plan you put forward to the Governor, the Governor 
sent to the President of the United States back in 2009 
detailing how this can be done. In the limited time I have, can 
you explain that plan?
    Mr. McCraw. Bottom line is what I already talked about in 
terms of resources. It is dedicating a sufficient number of 
resources between the ports of entry around the clock, saturate 
the high-threat areas, sustain it until they can't come, 
because they don't come here for anything other than profit, a 
lot of money on the human smuggling side and on the drug 
trafficking side. They are not going to sustain the risks, and 
every time we have surged, we have pushed back along those 
lines.
    The plan involved that we produced to the Governor 1,000 
Texas National Guard troops at that point in time because of 
LPOPs. Keep in mind, we use Texas military forces every day on 
the border, the UH-72's, the UH-60's. We use special ops, our 
Ranger recon teams, because they bring a set of skills that can 
complement and support us. Even in terms of the LPOPs, 
important listening posts, observation posts, very important. 
You are dealing with a kind of counter-surveillance and 
surveillance that the cartels are conducting on our operations 
along those lines. So that is value-added. That would give us 
1,000 at that point in time. Of course, the supplement would 
have been diverting resources into the Rio Grande Valley, and 
also at that point the Laredo sector as well, based upon what 
we were seeing from our Border Patrol partners.
    Chairman McCaul. In closing, the way I see it is that at 
the end of the day, it protects the children we saw today, it 
protects the three little girls I saw who almost drowned in the 
river, and that is just one example of so many, protects them 
from sexual abuse and trafficking. I think this committee and 
the working group need to work toward that effort.
    With that, the Chairman recognizes the Ranking Member.
    Ms. Jackson Lee. I think the Chairman is correct that we 
need to work together.
    Let me thank all of the witnesses very much for your very 
insightful and important testimony.
    I have worked over the years on human trafficking and human 
smuggling, and none of that will be diminished in light of the 
title of this hearing, dealing with unaccompanied children, and 
that is the issue. I want to make it very clear that no one is 
undermining the importance of National security. We are in 
intelligence meetings all the time. We recognize the 
communities at the border. You need to have the assurance that 
we have not forgotten that we do have terrorists who want to 
intrude on our border.
    But what we have today is unaccompanied children.
    I want to ask Chief Oaks, you interact with our 
distinguished Mr. McCraw, the director of the Department of 
Public Safety, FBI, DEA. You interact with ATF and others as 
Federal law enforcement. Is there any diminishing in your mind 
in the fight against drug cartels who are smuggling, who are 
trafficking, who are terrorists, who are creating violence on 
the other side of the border and that it may seep over here? Is 
there any diminishing on the part of the Border Patrol in those 
efforts?
    Mr. Oaks. I can tell you that any time there is a change, a 
massive, noticeable change in operations, you will have a 
little bit of a degradation in operations. But those are 
quickly made up, as you alluded to, with our partnerships with 
Department of Public Safety who, in my estimation, is one of 
the finest law enforcement agencies I have worked with.
    Ms. Jackson Lee. So what you are saying is that with that 
recognition that there has been some altering, you get right to 
it to make sure that you rise to the occasion to make sure that 
this area and the Nation's border is safe.
    Mr. Oaks. Absolutely. You have to adjust your strategies 
and you have to recycle your forces and look at your deployment 
plans and bring in additional assets.
    Ms. Jackson Lee. You have been doing that.
    Mr. Oaks. Yes, ma'am, I have.
    Ms. Jackson Lee. With the question about lesser numbers in 
this region versus Southern California or El Paso, elsewhere, 
do you not make assessments of where you put Border Patrol 
Agents, and do you continue to do that to make sure the border 
is as un-porous as it can possibly be?
    Mr. Oaks. Absolutely. We do quarterly assessments and 
threat assessments.
    Ms. Jackson Lee. You are on-going in doing that now?
    Mr. Oaks. Absolutely.
    Ms. Jackson Lee. Let me move to Judge Garcia and Bishop, if 
I may ask you questions.
    I might ask unanimous consent to put in the record a letter 
from the ACLU dated July 3, 2014.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
        Statement of the American Civil Liberties Union of Texas
                              July 3, 2014
    Honorable committee Members: The American Civil Liberties Union of 
Texas submits this testimony on behalf of our thousands of members and 
supporters across the State. From our first-hand observations of two 
Customs and Border Protection short-term detention facilities and our 
extensive work in Texas border communities, we write to express our 
concerns with the Government's law enforcement approach to what is 
actually a humanitarian crisis. Because the children fleeing to the 
United States to escape appalling conditions and unimaginable violence 
in their home countries have not increased crime in the Rio Grande 
Valley, adding law enforcement resources at the border, as some are 
proposing, fails to address the real problems our border communities 
face. For the reasons detailed below, we urge you instead to prioritize 
humanitarian solutions that ensure we treat these vulnerable children 
humanely and compassionately.
    The ACLU of Texas is a nonprofit organization dedicated to 
defending the Constitutional rights and liberties of all people in 
Texas. Founded in 1938 as the Texas affiliate of the American Civil 
Liberties Union, the ACLU of Texas addresses issues of Constitutional 
concern in the courtroom, at the legislature, and in the public square. 
Given Texas's long border with Mexico and the large number of people 
that call our border region home, border-related civil rights and 
liberties issues are key to our mission.
    Of particular concern to us is the impact the increasing 
militarization of our border has on the people of the border 
communities we serve. In recent years, the number of Border Patrol 
Agents assigned to the Southwest Border, including the Rio Grande 
Valley (RGV) Sector, has increased from 9,891 in 2005 to 18,611 agents 
in 2013.\1\ As our border has become increasingly militarized, our 
efforts to document the impact on the people who live and work in the 
border region and to achieve greater transparency and accountability 
for Customs and Border Protection (CBP) has become a top priority. 
Staff in our Brownsville office work closely with local community 
organizations in the RGV to oppose border militarization and to 
advocate for policies that enhance and protect our way of life on the 
border. We are part of the Rio Grande Valley Equal Voice Network, a 
coalition of ten organizations dedicated to creating a movement of 
social change through civic engagement and promoting better jobs with 
livable wages, affordable housing, access to health care, and 
immigration reform. We also participate in the Bi-National 
Documentation Project, which documents abuse by law enforcement 
officials in our border communities. When necessary, we litigate on 
behalf of border residents whose Constitutional rights have been 
violated.
---------------------------------------------------------------------------
    \1\ Border Patrol Agent Staffing by Fiscal Year, United States 
Border Patrol, http://www.cbp.gov/sites/default/files/documents/
U.S.%20Border%20Patrol%20Fiscal%20Year%20- 
Staffing%20Statistics%201992-2013.pdf.
---------------------------------------------------------------------------
    Last week, on June 25, 2014, two of our staff members, along with 
members of other non-profit organizations visited the Weslaco 
Centralized Processing Center and the Fort Brown Station in the RGV. 
These facilities hold and process many of the children who have been 
fleeing violence, crime, gang threats, and poverty to the perceived 
safety of the United States.\2\ We were briefed by Customs and Border 
Protections officials, including Sector Chief Oaks, and allowed to view 
the cells where children and other immigrants are held from the 
operation centers of these two facilities.
---------------------------------------------------------------------------
    \2\ United Nations High Commissioner for Refugees, Children On the 
Run 6 (Mar. 12, 2014); Elizabeth Kennedy, No Childhood Here: Why 
Central American Children Are Fleeing Their Homes 1 (American 
Immigration Council, July 2014).
---------------------------------------------------------------------------
    Based on these visits and our experience working in border 
communities, we believe that the immediate priority of this committee 
must be to address the appalling conditions in which these children are 
imprisoned, to ensure that the children receive fair consideration and 
due process if they have legitimate claims for asylum, and to resist 
the calls to put yet more Federal agents into a region already strained 
to the breaking point by over-militarization.
          the influx of children is not an enforcement crisis
    The United Nations High Commissioner for Refugees and other 
organizations have documented that children embark on the perilous 
journey to the United States from El Salvador, Honduras, Guatemala, and 
Mexico because conditions in their home counties are bleak and 
dangerous.\3\ The Central American countries from which children are 
escaping have some of the highest homicide rates in the world, and 
children face gang violence and rampant crime.\4\ As a result of these 
conditions, asylum applications to neighboring counties other than the 
United States have increased 712%.\5\ At the same time, the number of 
Border Patrol Agents assigned to the Southwest Border is at an all-time 
high, while the number of apprehensions per agent has plummeted due in 
large part to an overall decrease in the number of undocumented 
immigrants crossing our border.\6\ On account of this, the Cato 
Institute concluded that it is ``less likely that Border Patrol Agents 
on the border are actually overwhelmed.''\7\ Contrary to popular 
rhetoric, our border is secure--there are plenty of agents on the 
ground to interdict people crossing illegally and to enforce 
immigration laws.
---------------------------------------------------------------------------
    \3\ Children On the Run, Supra N.2, At 6; No Childhood Here, Supra 
N.2, At 1.
    \4\ Children On the Run, Supra N.2, At 6; No Childhood Here, Supra 
N.2, At 1; See Also United Nations Office on Drugs and Crime, 
Transnational Organized Crime in Central America and the Caribbean: A 
Threat Assessment 9 (Sept. 2012).
    \5\ Brian Resnick, Why 90,000 Children Flooding Our Borders is not 
an Immigration Story, Nat'l J., June 16, 2014, at 3, available at 
http://www.nationaljournal.com/domesticpolicy/why-90-000-children-
flooding-our-border-is-not-an-immigration-story-20140616.
    \6\ Alex Nowrasteh, Unaccompanied Minors Crossing The Border--the 
Facts (Cato Institute, June 17, 2014), available at http://
www.cato.org/blog/unaccompanied-minors-crossing-border-facts.
    \7\ Id.
---------------------------------------------------------------------------
    Nor has the increased number of children crossing the border made 
our communities less safe. Elected leaders and law enforcement 
officials in the RGV have observed that cities along the border are 
safe and that there has been no increase in crime. For example, during 
a hearing before the Texas House Committee on Homeland Security and 
Public Safety earlier this week, McAllen chief of police Victor 
Rodriguez testified that his city has not seen an increase in crime or 
been adversely impacted in terms of criminal activity.\8\ Jim Darling, 
the mayor of McAllen, added that it is safer in McAllen than in Austin, 
and Representative Joseph Pickett noted that El Paso is the safest city 
in the United States.\9\ During the hearing, Dr. David Lakey, 
Commissioner of the Texas Department of State Health Services, also 
expressed his belief that the RGV is safe, noting that his son will 
soon be traveling to the RGV on a mission trip.\10\ In a recent op ed, 
Mayor Darling underscored that while in the midst of this humanitarian 
crisis, ``McAllen and the Rio Grande Valley are not facing an 
`emergency.' Our city of 140,000 is secure and going about its daily 
business of serving residents. Life in McAllen is business as 
usual.''\11\ He noted that ``[t]here has been no uptick in criminal 
activity in our city, which is one of the safest of its size in 
Texas.''\12\
---------------------------------------------------------------------------
    \8\ Hearing Before the Tex. H. Committee on Homeland Security & 
Public Safety, 2014 Leg., 84th Sess. Interim (July 1, 2014), available 
at http://tlchouse.granicus.com/
MediaPlayer.php?view_id=28&clip_id=8468.
    \9\ Id.
    \10\ Id.
    \11\ Jim Darling, What's Happening on the Border, STAR-TELEGRAM 
(July 2, 2014), available at http://www.star-telegram.com/2014/07/01/
5943296/whats-happening-on-the-border.html.
    \12\ Id.
---------------------------------------------------------------------------
    Given these realities, more enforcement is not an appropriate 
response to the influx of children. Increasing yet again the number of 
law enforcement personnel patrolling border communities will only 
increase the potential for interactions that violate border residents' 
Constitutional rights and degrade the quality of life for everyone at 
the border. As importantly, a law enforcement approach also diverts 
needed resources from a humanitarian response.
   cbp short-term holding centers should better address the needs of 
                                children
    While the overcrowding of the CBP facilities we observed is due, 
according to Border Patrol, to other agencies' inability to accommodate 
the increase in children,\13\ CBP must do more to ensure that children 
in its custody are held in appropriate conditions. Both the Trafficking 
Victims Protections Reauthorization Act (TVPRA)\14\ and the Flores v. 
Reno settlement agreement \15\ and consent decree \16\ create specific 
legal requirements for the treatment of unaccompanied immigrant 
children. These requirements establish both legal process to help 
children with possible immigration claims and also baseline standards 
for their treatment while their applications are pending.
---------------------------------------------------------------------------
    \13\ Observation notes from Weslaco Centralized Processing Center 
and the Fort Brown Station, June 25, 2014 (on file with the ACLU of 
Texas).
    \14\ 8 U.S.C.  1232 (2013).
    \15\ Stipulated Settlement Agreement, Flores v. Meese, No. 85-4544-
RJK (C.D. Cal. 1996) [hereinafter Settlement].
    \16\ Memorandum of Understanding Re Compromise of Class Action: 
Conditions of Detention, Flores v. Meese, No. 85-4544-RJK (C.D. Cal. 
1996) [hereinafter MOU].
---------------------------------------------------------------------------
    Under the TVPRA, children must be ``placed in the least restrictive 
setting'' that is in their best interest ``absent a determination that 
the child poses a danger to self or others or has been charged with 
having committed a criminal offense.''\17\ It also requires that 
children be transferred to the custody of the Department of Health and 
Human Services within 72 hours except in exceptional circumstances.\18\ 
Flores v. Reno established minimum requirements for Government 
treatment of unaccompanied alien children \19\ intended to ensure that 
CBP adheres to ``generally accepted child welfare standards, practices, 
principles and procedures.''\20\ Of particular relevance to the instant 
crisis, the Flores settlement requires that the government ``treat . . 
. all minors in its custody with dignity, respect, and special concern 
for their particular vulnerability as minors.''\21\ Thus, detention 
facilities must provide access to basic needs such as ``toilets and 
sinks, drinking water and food as appropriate, medical assistance[,] . 
. . adequate temperature control and ventilation, adequate supervision 
to protect minors from others, [] contact with family members who were 
arrested with the minor,''\22\ and recreation activities appropriate 
for children.\23\
---------------------------------------------------------------------------
    \17\ 8 U.S.C.  1232(c)(2).
    \18\ 8 U.S.C.  1232(b)(3).
    \19\ Settlement, supra n.17, at 7.
    \20\ Id. at 3.
    \21\ Id. at 7.
    \22\ Id. at 7-8.
    \23\ MOU, supra n.16, at 9.
---------------------------------------------------------------------------
    Border Patrol acknowledges that these centers are not meant to 
shelter children, and it is struggling to address their needs until it 
can transfer them to the care of the Office of Refugee Resettlement 
(ORR).\24\ The conditions we observed during our tour raised serious 
concerns about whether Border Patrol is complying with basic legal 
requirements that children not be held in prison-like conditions.
---------------------------------------------------------------------------
    \24\ Observation notes, supra n.13.
---------------------------------------------------------------------------
    The stark reality is that Border Patrol packs children as young as 
5 or 6 into over-crowded cells that are bare except for a single open 
toilet and a large cooler of water.\25\ The agents who showed us the 
facilities acknowledged that the children are only allowed outside for 
approximately 20 minutes a day for recreation and exercise.\26\ Thus 
for more than 23 hours every day, the children are locked in cells in 
conditions that mirror the harshest deprivations imposed on the most 
dangerous criminals: they take their meals in the cell, sleep on the 
concrete floor of the cell, and use the open communal toilet in the 
cell.\27\ They have nothing to do to pass the time except to stare out 
of cell windows and at each other hour after hour. To make matters 
worse, children must endure these conditions for extended periods: 
Border Patrol stated during our tour that as few as 30% of the children 
in its custody are transferred within the 72 hours required by law 
because of the lack of space at ORR shelters.\28\
---------------------------------------------------------------------------
    \25\ Id.
    \26\ Id.
    \27\ Id.
    \28\ Id.
---------------------------------------------------------------------------
    But conditions are not the only problem we observed. Despite strong 
evidence that the children in CBP custody may have legitimate claims to 
asylum or other factors that would entitle them to legal relief, we 
were unable to document compliance with TVPRA's requirement that every 
child be screened to determine whether he or she is a victim of 
trafficking or a candidate for asylum. At best, CBP officers make a 
cursory inquiry that is inadequate to determine how the law should be 
applied; CBP officials told us that screening takes place 
``elsewhere,''\29\ but we have been unable to confirm that assertion.
---------------------------------------------------------------------------
    \29\ Id.
---------------------------------------------------------------------------
    As Department of Homeland Security Secretary Jeh Johnson 
acknowledged, the children in CBP's custody have already been 
victimized:

``It is dangerous to send a child on the long journey from Central 
America to the United States. The criminal smuggling networks that you 
pay to deliver your child to the United States have no regard for his 
or her safety and well-being--to them, your child is a commodity to be 
exchanged for a payment. In the hands of smugglers, many children are 
traumatized and psychologically abused by their journey, or worse, 
beaten, starved, sexually assaulted or sold into the sex trade; they 
are exposed to psychological abuse at the hands of criminals.''\30\
---------------------------------------------------------------------------
    \30\ An Open Letter to the Parents of Children Crossing Our 
Southwest Border, Jeh C. Johnson, Secretary of the U.S. Department of 
Homeland Security (June 23, 2014) available at http://www.dhs.gov/news/
2014/06/23/open-letter-parents-children-crossing-our-southwest-border.
---------------------------------------------------------------------------
    We acknowledge that some are calling for the immediate repatriation 
of these children, without due process of law, to alleviate the crowded 
conditions in detention facilities. But to return the children to their 
home countries without adequately assessing their needs would be 
unconscionable. These children deserve the full protections of U.S. and 
international law, including asylum if they seek it and counsel if they 
are placed in deportation proceedings.
                               conclusion
    Americans may not agree about what is driving this influx of 
unaccompanied children to the U.S. border, but we can all agree that 
America cannot imprison children in such appalling conditions and 
deprive them of the protections of law. As Americans, we have a legal 
and moral duty to treat the children apprehended at our border humanely 
and to provide them with due process. We therefore urge you to provide 
CBP and other Government agencies in whose custody unaccompanied 
children are placed with additional resources needed to meet the basic 
human needs of children and to give them the process required by law.

    Ms. Jackson Lee. And a letter from the President of the 
United States dated June 30, 2014 asking for the $2 billion, 
including resources for all of you.
    Chairman McCaul. Without objection.
    [The information follows:]
              Letter Submitted by Hon. Sheila Jackson Lee
    letter from the president--efforts to address the humanitarian 
  situation in the rio grande valley areas of our nation's southwest 
                                 border
   The White House, Office of the Press Secretary, 
                                     June 30, 2014.

For Immediate Release

    Dear Mr. Speaker: [Senator Reid:] [Senator McConnell:] 
[Representative Pelosi:] I am writing to update you on my 
Administration's efforts to address the urgent humanitarian situation 
in the Riio Grande Valley areas of our Nation's Southwest border, and 
to request that the Congress support the new tools and resources we 
need to implement a unified, comprehensive Federal Government response.
    While overall apprehensions across our entire border have only 
slightly increased during this time period and remain at near historic 
lows, we have seen a significant rise in apprehensions and processing 
of children and individuals from Central America who are crossing into 
the United States in the Riio Grande Valley areas of the Southwest 
Border. The individuals who embark upon this perilous journey are 
subject to violent crime, abuse, and extortion as they rely on 
dangerous human smuggling networks to transport them through Central 
America and Mexico.
    My Administration continues to address this urgent humanitarian 
situation with an aggressive, unified, and coordinated Federal response 
on both sides of the border. Earlier this month, I directed the 
Department of Homeland Security (DHS) and the Federal Emergency 
Management Agency to coordinate this Government-wide response. This 
includes fulfilling our legal and moral obligation to make sure we 
appropriately care for unaccompanied children who are apprehended, 
while taking aggressive steps to surge resources to our Southwest 
border to deter both adults and children from this dangerous journey, 
increase capacity for enforcement and removal proceedings, and quickly 
return unlawful migrants to their home countries.
    Specifically, the Department of Justice (DOJ) and DHS are deploying 
additional enforcement resources--including immigration judges, 
Immigration and Customs Enforcement attorneys, and asylum officers--to 
focus on individuals and adults traveling with children from Central 
America and entering without authorization across the Southwest border. 
Part of this surge will include detention of adults traveling with 
children, as well as expanded use of the Alternatives to Detention 
program, to avoid a more significant humanitarian situation. The DHS is 
working to secure additional space that satisfies applicable legal and 
humanitarian standards for detention of adults with children. This 
surge of resources will mean that cases are processed fairly and as 
quickly as possible, ensuring the protection of asylum seekers and 
refugees while enabling the prompt removal of individuals who do not 
qualify for asylum or other forms of relief from removal. Finally, to 
attack the criminal organizations and smuggling rings that are 
exploiting these individuals, we are surging law enforcement task 
forces in cooperation with our international partners, with a focus on 
stepped-up interdiction and prosecution.
    To address the root causes of migration and stem the flow of adults 
and unaccompanied children into the United States, we are also working 
closely with our Mexican and Central American partners. Two weeks ago, 
at my direction, the Vice President convened leaders from El Salvador, 
Guatemala, and Honduras, as well as Mexico, to discuss our shared 
responsibility for promoting security, and agree on concrete ways that 
we can work together to stem the flow of migrants taking the dangerous 
trip to the United States. These countries committed to working 
together and with the United States to address the immediate 
humanitarian crisis as well as the long-term challenges. On Tuesday, 
Secretary Kerry will meet with the leaders of El Salvador, Guatemala, 
and Honduras to follow up on the items agreed to in the Vice 
President's trip, and next week, Secretary Johnson will travel to 
Guatemala. I also spoke with Mexican President Enrique Penna Nieto 
about our shared responsibility to promote security in both our 
countries and the region. As part of this effort, the United States 
committed foreign assistance resources to improve capacity of these 
countries to receive and reintegrate returned individuals and address 
the underlying security and economic issues that cause migration. This 
funding will enable El Salvador, Guatemala, and Honduras to improve 
their existing repatriation processes and increase the capacity of 
these governments and nongovernmental organizations to provide expanded 
services to returned migrants. Additional resources will support 
community policing and law enforcement efforts to combat gang violence 
and strengthen citizen security in some of the most violent communities 
in these countries.
    Finally, we are working with our Central American partners, 
nongovernmental organizations, and other influential voices to send a 
clear message to potential migrants so that they understand the 
significant dangers of this journey and what they will experience in 
the United States. These public information campaigns make clear that 
recently arriving individuals and children will be placed into removal 
proceedings, and are not eligible for the Deferred Action for Childhood 
Arrivals process and earned citizenship provisions that are part of 
comprehensive immigration reform currently under consideration in the 
Congress. The Vice President made this clear in his public and private 
events on June 20, I addressed this last week in an interview, and we 
will continue to use multiple channels to counteract the misinformation 
that is being spread by smugglers.
    While we are working across all of these channels, to execute a 
fully effective Government-wide strategy as the influx of migrants 
continues, we are eager to work with the Congress to ensure that we 
have the legal authorities to maximize the impact of our efforts. 
Initially, we believe this may include:
  <bullet> providing the DHS Secretary additional authority to exercise 
        discretion in processing the return and removal of 
        unaccompanied minor children from non-contiguous countries like 
        Guatemala, Honduras, and El Salvador; and
  <bullet> increasing penalties for those who smuggle vulnerable 
        migrants, like children.
    In addition, we will request congressional action on emergency 
supplemental appropriations legislation to support:
  <bullet> an aggressive deterrence strategy focused on the removal and 
        repatriation of recent border crossers;
  <bullet> a sustained border security surge through enhanced domestic 
        enforcement, including interdiction and prosecution of criminal 
        networks;
  <bullet> a significant increase in immigration judges, reassigning 
        them to adjudicate cases of recent border crossers, and 
        establishing corresponding facilities to expedite the 
        processing of cases involving those who crossed the border in 
        recent weeks;
  <bullet> a stepped-up effort to work with our Central American 
        partners to repatriate and reintegrate migrants returned to 
        their countries, address the root causes of migration, and 
        communicate the realities of these dangerous journeys; and
  <bullet> the resources necessary to appropriately detain, process, 
        and care for children and adults.
    My Administration will be submitting a formal detailed request when 
the Congress returns from recess, and I look forward to working with 
you to address this urgent situation as expeditiously as possible.
            Sincerely,
                                              Barack Obama.

    Ms. Jackson Lee. But, Judge Garcia, I heard you say 
something about policy. Thank you for saying that these 
children are no threat, but we don't want them to be in danger, 
to be trafficked. But you did say a policy question. Do you 
think we should pass comprehensive immigration reform along 
with strong border security?
    Judge Garcia. Yes.
    Ms. Jackson Lee. Would that help this region, and maybe the 
Nation as well?
    Judge Garcia. It certainly would help. You need to look at 
every one of these aspects, whether you try to stop drugs from 
coming in or terrorists coming in, or the undocumented Central 
American children.
    Ms. Jackson Lee. I would conclude with the Bishop. Would 
you please just emphasize in your interactions in that 
delegation to Central America the extent--we see poverty in the 
United States--but the extent of devastation that would drive 
children, or parents most of all, to send a 2-year-old in a 
diaper to wind up in a detention center here in this region? 
Would you just speak to that?
    Bishop Seitz. To our experience of poverty, this is not on 
the same level. It is better perhaps to call it misery. I saw 
many malnourished people there. I have gone with medical 
missions. However, let me say I believe that the violence today 
is really even a greater cause for the departures than the 
misery that they experience. It is the pervasive violence, 
which again is difficult for us to get our heads around. It is 
like living in a war zone. They are fleeing for their lives, 
and there is my concern about buttoning up the border. Then 
where do they go?
    Chairman McCaul. The gentle lady's time has expired.
    Ms. Jackson Lee. I thank you, Bishop, for your work.
    Chairman McCaul. Dr. Broun is recognized.
    Mr. Broun. Thank you, Mr. Chairman.
    I want to follow up, Director Oaks, on what Ms. Jackson Lee 
was asking, because it sounded as if she was heading towards 
that the drug cartels and all the crime, et cetera, that you 
are trying to combat is being controlled at levels prior to 
this influx of these unaccompanied alien children. But is that 
factual? Because it seems to me it is the drug cartels that are 
utilizing these kids just as a commodity, as we have already 
heard in testimony, that they have a purpose beyond just the 
money that they receive.
    When you are overwhelmed by all these kids, isn't it true 
that you continue to--I know you are continuing to try to 
combat the criminal element, and Colonel McCraw is doing the 
same thing. But doesn't this also tax your ability to combat 
the criminal element?
    Mr. Oaks. Well, certainly the influx of the family units 
and the unaccompanied children has taxed my forces. But like I 
mentioned before, with the additional support that we get from 
State and local, and the additional resources that we have 
brought in, we have been able to rebalance and adjust and have 
been able to take that administrative operation out and still 
focus on the border security mission, which is our primary 
mission, and we have used resources and redirected it to 
accommodate what we are trying to accomplish on the border. As 
far as I am concerned, I think the agents are doing a pretty 
good job out there of taking care of what they need without 
diminishing the operation.
    Mr. Broun. Well, the cartels are using these just as a 
money-making factor for them, plus they are continuing their 
criminal activities, not only in Mexico but in the United 
States. I know that you are trying to interdict all those 
drugs, and Colonel McCraw has been on the front lines. But the 
Governor just said that we need to give you some more help, and 
I believe that if we don't stop this flood of these children, 
it breaks everybody's heart, and the families not only in their 
original countries but also family members that may be in this 
country that are funding their coming here, et cetera, by 
stopping the magnet of the United States and going back to law 
and order is going to be the best way to keep these kids safe, 
to keep America safe, and be able to do what you all need to do 
to stop the criminal element. Would you agree with that, 
Colonel?
    Mr. McCraw. We weren't happy with the level of security 
prior to this influx. The consequences of this is not--because 
this is just recent as it relates to this, and it is tragic, 
there is no doubt. We are certainly not--we are certainly 
concerned about those children coming up here, and certainly 
their trek across Mexico. But we weren't happy with the levels 
of security, how much drugs and other crime and transnational 
criminals, including criminal aliens. Since 2008, we can 
document over 200,000 criminal aliens booked into Texas jails 
for non-immigration offenses, including over 3,000 murders, 
7,000 sexual assaults. So we weren't happy with the level of 
security prior to this particular instance to begin with.
    But there is no question that if properly resourced, the 
Border Patrol can get this thing done. Until that time, the 
Sheriff and myself and Texas Border Patrol are going to do what 
we can to help them to support it because it is too important 
to Texas.
    Mr. Broun. We must secure the border, Mr. Chairman. My time 
has expired. I yield back.
    Chairman McCaul. Thank you.
    The gentleman from Texas, Mr. Vela.
    Mr. Vela. Thank you, Mr. Chairman.
    I just want to say that with your leadership and that of 
Ranking Member Thompson, it has been over a year since this 
committee passed a bipartisan, unanimous border security bill 
that the White House signed back then. So I am hopeful that 
when we get back, that House leadership will bring that to the 
Floor so that we can vote on that.
    A comment also with respect to border security and pathway 
to citizenship. I assume that when we talk about border 
security, that we are talking about a process to ensure that 
people don't come over here illegally. When we talk about a 
pathway to citizenship, in my view we are talking about the 11 
million people who are already here. I think those two things 
should be addressed separately. In other words, I do not think 
that our work on immigration reform should be conditioned upon 
border security.
    I do see a common thread amongst all this debate, and that 
is that this is not just a border problem. With respect to the 
cartels, whether they be in Central America, Mexico, here in 
our region, or in the 1,000 cities across this Nation that have 
cartel presence, that is a National issue, not just a border 
issue.
    The same with respect to the undocumented workers in every 
State in this union. The statistics show in the State of 
Georgia, for example, 500,000 people in the labor force. These 
are issues that are not just privy to us here on the border, 
but they are issues important to everyone else.
    Some quick questions, Chief. You mentioned the other day 
when we met with you that in the Rio Grande Valley Sector, you 
currently have 3,200 agents and that it would help for you to 
get 600 more. Can you elaborate on that?
    Mr. Oaks. Yes, sir. So, my deputy, Raul Ortiz, and I, when 
we got here, we did a complete operational assessment of our 
area of operations to determine what resources we needed in the 
future to sustain current levels and trending levels of 
enforcement activity for the next 3 to 5 years, and our 
determination was looking at additional technologies, some 
infrastructure, building a new station in Roma, Texas, and 
adding between 400 and 600 new agents, preferably agents that 
are already seasoned. With the help of Congress funding their 
transfers, they could be immediately readdressed to the Rio 
Grande Valley so we could have a pretty good handle on this 
situation and then control border security, because border 
security is the No. 1 aspect of what my job is, irrespective of 
all the other things that we have been talking about.
    Mr. Vela. I have a lot of other questions which I will 
submit to the Secretary.
    I noticed on your fact sheet that you had 3,200 agents but 
about 120 support personnel, or something like that, maybe a 
little more. My view of the situation on the ground at both 
McAllen and Brownsville detention centers was that, from the 
standpoint of processing these individuals while they are in 
your custody, you could at least temporarily use a whole lot 
more support from the processing standpoint.
    Mr. Oaks. Temporarily and permanently. The good generals 
behind me could attest to the fact that in-theater during 
wartime, it takes oftentimes two, three, four support personnel 
to support each war fighter, and I think a similar construct 
for the Border Patrol is required for the future in terms of 
our professional staff and our mission support staff who behind 
the scenes do the majority of the work. So that civilian 
support staff, hiring more of those to support my agents would 
relieve my agents from some of the duties they are doing and 
redirect them down to the border.
    Chairman McCaul. The gentleman's time has expired.
    Mr. Barletta.
    Mr. Barletta. Thank you, Mr. Chairman.
    When we talk about pathway to citizenship, I believe it is 
not only about the 11 million that are here. I am worried about 
the 11 million more that will come because of that.
    We spent a lot of time today talking about solutions to the 
problem. There is currently an American military man sitting in 
a Mexican prison for illegally crossing the border, and I can't 
help but looking at this picture, it certainly doesn't seem 
like these people were very hard to find coming through Mexico 
illegally.
    My questions, Mr. Oaks, when CBP agents interviewed these 
minors, do they ask whether the Mexican government has done 
anything to facilitate their entry into the United States? Do 
we know to what extent Mexican officials are assisting in the 
migration of unlawful immigrants across their borders and into 
ours, or if they are doing anything at all to stop it? Why is 
this only America's problem?
    Mr. Oaks. Absolutely. In terms of our intelligence 
collection efforts, we have an intelligence collection plan 
that we use in terms of family units to specifically target 
illicit information, how they got here, where they are going.
    Mr. Barletta. Do we believe the Mexican government is 
facilitating this at all? This doesn't seem like it would be 
hard to stop. If one man can't cross the border from America, 
how could 50,000 children cross the Mexican land undetected?
    Mr. Oaks. I would concur with that. There is some 
complicity that you will find in Mexico and Central America.
    Mr. Barletta. But this all becomes America's problem. Why 
aren't we going to the root of the problem? How are these kids 
getting here, and where is their responsibility that this now 
becomes America's problem?
    Mr. Oaks. Right, I understand that. In terms of our 
diplomatic efforts, I think we are doing a pretty good job of 
interacting with Mexico and Central America in terms of 
describing the requirements about sovereignty issues on the 
border with Mexico and Guatemala, which is less than 300 miles 
with infrastructure and proper hardening of the ports and a 
more coherent immigration plan than Mexico would have. You 
would alleviate the stress of some of that.
    Mr. Barletta. It seems like this wouldn't be a problem if 
they didn't get from Guatemala to Mexico.
    Mr. Oaks. The same with Honduras to Guatemala as well.
    Mr. Barletta. So we are worried about how many miles of 
American border, but yet there is a much smaller border down 
where this problem is being created, and these poor children's 
lives are being threatened. I think we need to also point the 
finger where the finger needs to be pointed.
    Thank you. Yield back.
    Chairman McCaul. The gentleman from California, Mr. 
Swalwell.
    Mr. Swalwell. Thank you, Chairman.
    I also want to thank my colleague from Texas, Mr. Vela. He 
called me about 5 days ago and said, ``Eric, we've got this 
crisis down on the border and we're having this hearing, and 
would you come down?'' I didn't hesitate because I know that he 
would come down to California if I asked, and I am happy to do 
what I can to help.
    It is a horrible situation, and it is one that breaks your 
heart when you see the children. It is clearly breaking the 
wallets of the Federal Government and the people of Texas. But 
the one silver lining that I found in this is just watching the 
way, Mr. Oaks, that your agents treat these children and 
families with such dignity and humanity. They really do 
everything they can to accommodate these individuals and make 
them feel like they are at home under very harsh conditions. So 
I want to thank you for doing that because it is not easy.
    Just a couple of questions under limited time.
    Would you agree, Mr. Oaks, with Governor Perry or disagree 
that the border is not secure? Because what I heard this 
morning is that these children are running into the arms of the 
border agents, not away from them.
    Mr. Oaks. So at least they are not getting away and we can 
address their issues, because children are about the last 
innocent population on this planet, and what they have to 
endure to get here is something that is almost indescribable. I 
think the good bishop described it better than I have ever 
heard it, and it is our obligation in terms of border security 
to treat everybody equally irrespective of if they are children 
or family units. But everybody who comes into the custody of 
all law enforcement, no matter what crimes they have committed, 
as civil servants and servants of the public it is our 
obligation to serve those people and do whatever we can to make 
them as comfortable as we can until they are addressed in the 
appropriate manner, whether it is criminal, administrative, or 
some sort of deportation.
    Mr. Swalwell. With respect to the 72-hour requirement, what 
can we do as a body to give you the resources you need to make 
sure that you meet that 72-hour requirement so that children 
are not staying there beyond that period? Because your 
facilities, as we saw today, are not designed to be detention 
facilities. So what can we do immediately and in the long term 
if this crisis continues?
    Mr. Oaks. So on Monday, Secretary Johnson and Secretary 
Burwell, who is the Secretary of Health and Human Services, I 
spoke directly to them and said the resources should be 
directed to Health and Human Services and Office of Refugee 
Resettlement in order to get them the ability, the funding, 
because they do a lot of grant funding, to get the bed space, 
to get the children out of our custody and into the appropriate 
accommodations as soon as possible so we can meet that 72-hour 
deadline.
    Mr. Swalwell. Thank you, Mr. Oaks.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Chairman McCaul. Ms. Granger from Texas.
    Ms. Granger. While we can't apprehend those, also on 
another trip to the border earlier in the week I saw from the 
bus station that they were waiting and they were filling these 
buses with these children that were coming in, I mean just 
packing them in, and as the buses were leaving just hour after 
hour. I have been on the border with night vision glasses to 
see what we have to do, and the fact that oftentimes you can 
see people coming across the border but you can't get to them 
because we don't have an easy way to do that. But a stacked bus 
full of children or something like this, it seems like that 
could be stopped.
    My question is to the Bishop. My question is: Where is the 
Church in the countries where these children are leaving 
because they are afraid they will be forced into gangs or 
murdered? How active is the Church on trying to fight back on 
this?
    Bishop Seitz. Well, I think the Church is very active, and 
we have been working--the Church from those countries is doing 
the best that it can. It has many good youth programs and tries 
to support them. They are very active. They are not the kind of 
church just to stay within the walls of the church. We also 
have Catholic Relief Services that have a presence there. The 
Church on a broader scale, its charitable organization is 
working.
    But this is a big problem. This is a big problem that these 
nations themselves are finding themselves impotent to respond 
to. The Church, with her much fewer resources, is limited. As I 
mentioned last night, if your house is on fire, you can tell 
the people in the house to stay put as long as you want, but 
eventually they are going to jump, they are going to leave, and 
they are going to go wherever they can go.
    There is a 412 percent increase of asylum claims in the 
countries surrounding these three nations, including Nicaragua, 
which is poorer. So I think that is what we need to look to as 
the source, and ultimately we need to do something about the 
violence there. We need to support those countries and assist 
in those projects however we can.
    Ms. Granger. Thank you. Yield back.
    Chairman McCaul. Mr. Olson from Texas.
    Mr. Olson. I thank the Chairman.
    I was with the Chairman this morning at the detention 
service Mr. Oaks had and was there when we saw this grandmother 
who brought her three grandkids across the border, paid $7,500, 
so $20,000 to get those kids across the border. The boat 
flipped coming across the river. They nearly died. They were 
crying, crying, crying because they got here and they didn't 
know why they almost died and what their future is.
    But kind of perversely, in stark contrast, walking through 
these big detention centers with the teenagers, man, smiling at 
us, waving, happy, like they are proud, ``I came here 
illegally, I am going to stay here.'' We are sending some mixed 
messages across the border.
    My first question is for you, Bishop Seitz. You have been 
to Guatemala and you have been to El Salvador and Honduras. You 
have seen the violence there, the oppression upon the people 
there, why they are coming here. As we all know, there are two 
countries on Mexico's southern border, Guatemala and Belize. 
Belize doesn't have these problems. Any idea why that is? I 
mean, I know they have the beaches, but can't Belize be a 
model?
    Bishop Seitz. Yes. I wonder if Belize couldn't be a model, 
and Nicaragua also, which as I mentioned is even poorer. So 
that is what leads me to think that it is the violence in these 
places that is causing it, and we may be able to see some 
solutions based upon how these other countries have dealt with 
their people.
    Mr. Olson. It wasn't crossed over to Belize. They are right 
there. The cartels have said, no, we will leave Belize alone, 
we are happy with the countries we have. Why don't they go over 
there?
    Bishop Seitz. They are going there. That is what I was just 
saying. There is an increase in asylum claims. By the way, the 
United Nations did a study talking to 400 of these migrants. 
They felt that 58 percent had legitimate asylum claims.
    So I think, rather than looking at this as an immigration 
crisis, we should look at it as a regional refugee crisis.
    Mr. Olson. A question for you, Mr. Oaks. I was there again 
this morning. I was kind of stunned to learn that your hands 
are tied behind your back by different parts of our Government 
restricting your operations. For example, you want to build a 
road down the river, right down the river, follow the river, 
because right now all we can patrol is on two major highways. 
If I get this right, you are not talking about a four-lane 
freeway made of concrete and asphalt. You are just talking 
about some little dirt trails for ATVs to drive on so you guys 
can pursue these people right before they come across the 
border, because once they get across, they get in that deep 
brush, you guys either can't get them on the road or you go in 
that brush and maybe expose yourself to great harm.
    So what would you want? What does that road look like?
    Mr. Oaks. The protected areas along the Rio Grande River 
here in Texas and the reserve areas have been problematic in 
terms of lateral access up and down that area of operation. As 
a Federal Government, we have to respect the laws of the State 
of Texas and the environment, and we changed some of our 
tactics and deployed men and women on bicycles and horseback to 
leave a limited footprint in terms of the environment.
    I know the Secretary does have waiver authority to address 
those, and we have dealt with some property issues in the past 
in Texas that have been a little problematic. So I think it 
takes working with the community and the State of Texas and our 
environmental folks and us to take a look at what we can really 
do to have a limited impact on the environment but give access 
to my agents to those areas so we can better patrol the border.
    Mr. Olson. It is common sense a bike path works, a wide 
bike path.
    I yield back.
    Chairman McCaul. Mrs. Renee Ellmers.
    Mrs. Ellmers. Thank you, Mr. Chairman.
    Thank you, all of you, for being with us today and talking 
about these very, very difficult issues. For those of you in 
law enforcement, you are doing a fabulous job. I can't imagine 
what you see on a daily basis and what you have to deal with, 
and yet you have to have the clarity of mind to be able to deal 
with these situations. So, thank you.
    Judge Garcia, thank you so much. You have displayed so much 
to us the need for the reforms that we have got to put in place 
because we are a Nation of laws and we need to deal with these 
issues. Yet, the question of the humanity, the human rights, 
the violations that are being committed, especially when we are 
talking about these children. I, too, was very moved this 
morning being at the detention center, especially seeing the 
age of those babies in their mothers' arms.
    As a mother, I think to myself how could I make that choice 
if I am in one of those countries or a family member that I 
would put them in that situation where we know that there is 
going to be violence, we know that there is probably going to 
be sexual trafficking and human trafficking, to make that 
``Sophie's Choice,'' essentially, knowing that you are trying 
to better your child's life?
    The part that I struggle with here is that I have to, as a 
legislator, as all of my colleagues do, we have to be able to 
reach out to those countries, and we have to find funding to be 
able to address these issues.
    Bishop Seitz, how can we do this, be efficient about it, 
address the problem, and help our constituents understand how 
important this is so that we end this problem?
    Bishop Seitz. Well, it is very challenging, and as many 
have said, it is a very complex issue. There is not a simple 
solution or perhaps we would have come up with it already.
    But I really think we need to pay more attention to the 
root causes. We need to deal short-term and make sure that we 
are caring compassionately for these children. We are held to 
that standard by our own laws, by international laws, and we 
are setting an example for the rest of the world one way or the 
other who have accepted far more refugees with far fewer 
resources. Consider, for instance, the 1 million refugees--
there are really more--in Lebanon from Syria. What are we 
telling them if we can't deal with this number of children 
refugees?
    I think we really do have to look at--you know, some people 
said we haven't paid attention to this region of Central 
America for a long time. Our eyes have been elsewhere. We need 
to look to it. Again, there are endemic problems. There is 
corruption. There are economic problems. There are things that, 
in some ways, we have to ask ourselves, a little examination of 
conscience, what have we done to contribute to it by purchasing 
the drugs? What have we done perhaps inadvertently that has 
affected their economy? Things like that we need to look at.
    Mrs. Ellmers. Thank you, sir.
    Thank you.
    Chairman McCaul. The Chairman recognizes Mr. Farenthold.
    Mr. Farenthold. Thank you.
    Chief Oaks, I have repeatedly said and firmly believe 
border security is critical to our National security and even 
our sovereignty. I have also said I believe we can pass 
immigration reform in the House once the border is secure.
    You are king for a day. Give me in 30 seconds what you 
would do to fix the problem.
    Mr. Oaks. So, any policy, any rule of law, regulation that 
helps support my people and helps us continue and do a better 
job of border security I am in favor of. That is what I would 
do.
    Mr. Farenthold. Do you have anything a little more specific 
than that?
    [Laughter.]
    Mr. Oaks. No, sir, I don't.
    Mr. Farenthold. Thanks.
    [Laughter.]
    Mr. Farenthold. Since we are in Texas, I do want to hear 
from our director of DPS. What would you say to parents here in 
the United States that are thinking about sending for their 
kids that are in one of these Central American countries, or 
even the parents or grandparents or whoever is taking care of 
these children in Honduras, Guatemala, El Salvador? If you did 
a 30-second PSA, what would you say to them?
    Mr. McCraw. Don't come. Bottom line. The same thing we tell 
parents in Texas when their kids are planning on vacationing 
for spring break. Mexico is not the place to go right now. The 
bottom line is we are dealing with cartels. The same cartels 
that are causing the problems in Mexico are causing the 
problems in Guatemala. It is the Zetas, okay? Working with MS-
13 in El Salvador. That is another transnational gang. So the 
bottom line is, don't do it.
    Mr. Farenthold. I think if a parent in the United States or 
Texas did this, they should be visited by the Department of 
Child Protective Services, it is so dangerous.
    Mr. Oaks, do you have anything that you would add to that 
PSA?
    Mr. Oaks. If you took a look at the broader picture, 
Canada, the United States, Mexico, and Central America, working 
together can solve a lot of these issues as far as I am 
concerned, in terms of all the things that we have been talking 
about, politics, policy, all the things, working together to 
protect the sovereignty of each one of those nations. You are 
looking at trade and travel, looking at building the economy 
and furthering educational benefits for all people to bring 
that level----
    Mr. Farenthold. I have one more question, Director McCraw. 
Are these kids--there are other parts to it. These cartels have 
got these kids they are bringing in for money. Are they being 
used as a distraction to flood, say, the Border Patrol and 
bring in drugs or maybe more high-risk folks?
    Mr. McCraw. I don't think there is an overarching plan. I 
think they are exploiting the situation. They are getting the 
money on one side, the revenue from the smuggling, and also it 
does tie up Border Patrol resources. So it is kind of a win-win 
for them and they are just exploiting it. I think that is what 
we are seeing right now.
    Mr. Farenthold. My concern, of course, is that kids are 
being exploited both by the cartels and, I am afraid, to some 
degree by the political process in this country. We can 
certainly do something about one part of that.
    Thank you very much. I yield back.
    Chairman McCaul. I just want to thank the witnesses. It has 
been a very productive discussion, a productive hearing, very 
insightful from all of the witnesses.
    This will be made a part of the Speaker's Working Group, 
which will then be forwarded to our House leadership for 
workable solutions to the crisis that we face here today.
    So, with that, thanks for being here.
    The Ranking Member has a question.
    We have a flight to catch. Make it quick.
    Ms. Jackson Lee. I want to add my appreciation to all the 
Members who have come to South Texas and all the witnesses, and 
I want to reemphasize that National security is always a 
priority for all Members of Congress, but we also have the 
understanding that we can balance that with the protection of 
these unaccompanied children, innocent, and we can bring the 
resources here to bring about solutions that you have asked us 
for.
    Thank you very much, and I yield back.
    Chairman McCaul. The committee stands adjourned.
    [Applause.]
    [Whereupon, at 3:08 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

           Statement of the National Immigrant Justice Center
                              July 3, 2014
    Chairman McCaul, Ranking Member Thompson, and Members of the 
Homeland Security Committee: During the past few years, the United 
States has experienced a steady increase in arrivals of unaccompanied 
immigrant children at the Southern Border, primarily from El Salvador, 
Guatemala, and Honduras. The U.S. Government, other governments in the 
region, non-governmental organizations (NGOs), and inter-governmental 
organizations are trying to understand why these children are coming 
and how to respond, process, and care for them upon arrival in the 
United States. As a National leader in immigration law and policy, 
Heartland Alliance's National Immigrant Justice Center (NIJC) 
appreciates the opportunity to submit testimony for today's hearing on 
these complex issues. We offer this statement to articulate the urgent 
need to treat unaccompanied immigrant children as children first and 
foremost, and to ensure that they receive due process to address 
protection concerns.
    NIJC is an NGO dedicated to safeguarding the rights of noncitizens. 
With offices in Chicago, Indiana, and Washington, DC, NIJC advocates 
for immigrants, refugees, asylum seekers, and survivors of human 
trafficking through direct legal representation, policy reform, impact 
litigation, and public education. NIJC and its network of 1,500 pro 
bono attorneys provide legal representation to approximately 10,000 
noncitizens annually, including thousands of unaccompanied children. 
NIJC is the largest legal service provider for unaccompanied children 
detained in Illinois, conducting weekly legal screenings and legal 
rights presentations, which provide an overview of the child's legal 
rights and responsibilities in the immigration system, at nine Chicago-
area shelters.
    NIJC has played a major role in advocating for reform of the 
immigration system, especially related to unaccompanied children and 
asylum seekers. NIJC co-convenes the Migrant Children's Defense 
Collaborative for legal service providers; actively participates in the 
Interagency Working Group on Unaccompanied Children, a periodic meeting 
of Government agencies and NGOs; and, as part of Heartland Alliance, 
serves as the NGO co-chair of the U.S.-Mexico-Central America Working 
Committee on Unaccompanied Children, a gathering of legislators, policy 
makers, and advocates from the United States, Mexico, and Central 
America. In addition to its expertise regarding unaccompanied children, 
NIJC was a founding member of the ``Asylum Litigation Working Group'' 
and regularly participates in separate discussions of the ``Asylum 
Working Group;'' together, the groups focus on monitoring developments 
in and implementation of laws and policies that impact asylum seekers. 
NIJC's years of experience advocating on behalf of children and asylum 
seekers, from both policy and direct services perspectives, and 
collaborating with colleagues domestically and internationally, gives 
it a unique perspective on the immigration system and its relationship 
to U.S. obligations under domestic and international laws.
    The United States has a proud legacy of protecting people who have 
been persecuted. This country is a beacon of hope for people fleeing 
oppression and is a leading defender of human rights. The primary 
vehicles through which nation-states assumed legal duties towards 
refugees are the 1951 Convention Relating to the Status of Refugees 
(Refugee Convention) \1\ and the 1967 Protocol Relating to the Status 
of Refugees (Refugee Protocol).\2\ These documents require nation-
states to recognize as refugees anyone with a ``well-founded fear'' of 
persecution in their home countries, to accord refugees certain legal 
rights, and to refrain from returning them to countries where their 
safety would be threatened.\3\ The United States ratified the Refugee 
Protocol \4\ and in 1980, the United States enacted the Refugee Act to 
ensure compliance.\5\ Since the Refugee Act was passed, legal 
protections for refugees in the United States have been significantly 
weakened. Today, NIJC is extremely concerned that the protection needs 
of immigrant children, families, and others seeking asylum from Central 
America, as well as the push factors driving their flight, are being 
overlooked. In a misguided effort to attribute increased migration from 
Central America to a shift in U.S. immigration enforcement policies, 
the genuine violence and persecution from which these individuals flee 
has been ignored.
---------------------------------------------------------------------------
    \1\ U.N. General Assembly, Convention Relating to the Status of 
Refugees, 28 July 1951, UNTS vol. 189, p. 137 [hereinafter ``Refugee 
Convention''].
    \2\ U.N. General Assembly, Protocol Relating to the Status of 
Refugees, 31 January 1967, UNTS vol. 606, p. 267 [hereinafter ``Refugee 
Protocol''].
    \3\ ``No Contracting State shall expel or return (`refouler') a 
refugee in any manner whatsoever to the frontiers of territories where 
his life or freedom would be threatened on account of his race, 
religion, nationality, membership of a particular social group or 
political opinion.'' Refugee Convention, art. 33-1, 189 UNTS 150.
    \4\ Although the United States did not sign the Refugee Convention, 
the Refugee Protocol includes by reference the rights and duties set 
forth in the Convention. Refugee Protocol, art. 2 (``The States Parties 
to the present Protocol undertake to apply Articles 2 to 34 inclusive 
of the Convention to Refugees as hereinafter defined.'') The Refugee 
Protocol expanded these rights and duties to all refugees, whereas the 
Refugee Convention only applied to those displaced by the Second World 
War and its aftermath.
    \5\ INS v. Cardoza-Fonseca, 480 U.S. 421, 433 (1987) (citing ``the 
abundant evidence of an intent to conform the definition of `refugee' 
and our asylum law to the United Nation's Protocol to which the United 
States has been bound since 1968'').
---------------------------------------------------------------------------
    This testimony provides a brief assessment of the current influx of 
unaccompanied immigrant children from Central America and provides 
recommendations to ensure that children are provided due process 
protections that address their best interests and ensure they are not 
returned to face persecution, violence, or other forms of serious harm.
 i. forced migration: unaccompanied children flee increasing violence 
                     and danger in central america
    While various individual factors are causing children to undertake 
a treacherous journey to the United States, growing violence and danger 
in their home countries is the primary reason the majority of the 
children are fleeing to the United States today. Most unaccompanied 
children apprehended at the border are from El Salvador, Guatemala, and 
Honduras (See Fig. 1), and several reports,\6\ including NIJC's January 
2014 policy brief,\7\ have established that the majority of 
unaccompanied children flee these three countries due to pervasive 
violence, persecution, and abuse. Family reunification may play a role 
in the timing of a child's decision to migrate to the United States and 
to flee to the United States rather than another country; however, it 
is rarely the sole reason for a child's flight.
---------------------------------------------------------------------------
    \6\ See e.g., Kids in Need of Defense (KIND)/Center for Gender and 
Refugee Studies (CGRS), A Treacherous Journey: Child Migrants 
Navigating the U.S. Immigration System, available at: http://
www.usccb.org/about/migration-policy/upload/Mission-To-Central-America-
FINAL-2.pdf; U.S. Conference of Catholic Bishops (USCCB), Mission to 
Central America: The Flight of Unaccompanied Children to the United 
States, 2014, available at: http://www.usccb.org/about/migration-
policy/upload/Mission-To-Central-America-FINAL-2.pdf; Women's Refugee 
Commission, Forced from Home: The Lost Boys and Girls of Central 
America, 2012, available at: http://womensrefugeecommission.org/forced-
from-home-press-kit.
    \7\ Available at: https://immigrantjustice.org/publications/policy-
brief-unaccompanied-immigrant-children-vulnerable-children-face-
insurmountable-o#.Uvqm723ehmc.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The United States is not the only country experiencing a dramatic 
increase in asylum seekers from Central America due to this violence. 
Together, Mexico, Panama, Nicaragua, Costa Rica, and Belize reported a 
432 percent increase in the number of asylum applications filed by 
individuals from El Salvador, Guatemala, and Honduras in 2012.\8\ These 
numbers demonstrate that the current crisis is a regional problem 
caused by country conditions in the sending countries, rather than a 
perceived change in immigration policies in the United States.
---------------------------------------------------------------------------
    \8\ United Nations High Commissioner for Refugees (UNHCR), Children 
on the Run, 2014, available at: http://www.unhcrwashington.org/sites/
default/files/UAC_UNHCR_Chil- dren%20on%20the%20Run_Full%20Report.pdf, 
p. 4.
---------------------------------------------------------------------------
    Finally, rumors of broken borders or lax U.S. immigration policy 
are not the primary cause for the current influx. Since 2008, U.S. law 
has required that unaccompanied immigrant children be placed in the 
least restrictive setting that is in their best interest.\9\ Moreover, 
the increase in the migration of unaccompanied immigrant children to 
the United States began in October 2011, more than 6 months prior to 
the announcement of President Obama's Deferred Action for Childhood 
Arrivals (DACA) program.\10\ If a perceived change in immigration 
policy was fueling the current migration, there would be comparable 
numbers of immigrant children from other regional countries besides El 
Salvador, Guatemala, and Honduras, but this has not been the case.\11\
---------------------------------------------------------------------------
    \9\ William Wilberforce Trafficking Victims Protection and 
Reauthorization Act (TVPRA) of 2008, (Pub. L. 110-457),  235(c)(2).
    \10\ United Nations High Commissioner for Refugees (UNHCR), 
Children on the Run, 2014, available at: http://
www.unhcrwashington.org/children/reports, p. 4.
    \11\ UNHCR, 2014.
---------------------------------------------------------------------------
    Violence in the home countries and the failure of U.S. immigration 
policy to provide any other option for immigrant families in the United 
States to provide safety for their children is forcing children and 
their families to make the dangerous journey to the United States. The 
story of Jessica and Daniel (pseudonyms), NIJC's clients, illustrates 
the danger facing these children:

``In 2013, Jessica, a young woman from Honduras, fled to the United 
States when she was 17 to seek protection. Throughout her childhood, 
her father regularly molested and raped her, and abused her mother. 
When Jessica was 10 years old, her mother went to the United States 
with her father to try to provide a better life for Jessica and her 
brother, but her parents separated when her father continued to abuse 
her mother. In 2012, a gang kidnapped Jessica and attempted to traffic 
her into prostitution. Jessica escaped but after she reported the gang 
to the police, the gang began targeting her. In early 2013, the gang 
grabbed her while she was walking to her home, burnt her with 
cigarettes and raped her. As a result of the rapes and abuse, Jessica 
began to cut herself and became suicidal. She fled to the United States 
to find safety and reunite with her mother. She now sees a therapist 
and is seeking asylum.
``Sixteen-year-old Daniel lived with his mother in El Salvador in an 
area controlled by the MS-13 gang. In order to get to school, Daniel 
had to cross into a rival gang's territory, causing each gang to 
believe he was a member of the other gang. Gang members repeatedly 
threatened him with a gun and machetes for being in their territory. 
After they threatened him for the third time, Daniel stopped going to 
school out of fear for his life. When his mother learned of the 
threats, she told his father, who lived in Texas. They made the 
difficult decision that Daniel needed to go to the United States for 
his safety. NIJC interviewed Daniel at a Chicago-area children's 
shelter before he was reunited with his father in Texas and determined 
he was eligible to apply for asylum. Daniel hopes to continue his 
studies without the threat of gang retaliation.''

    Daniel and Jessica are two of many children who may be eligible for 
legal protections in the United States. The Vera Institute and the U.N. 
High Commissioner for Refugees (UNHCR) have determined that between 40 
percent and 58 percent of the unaccompanied children currently fleeing 
to the United States from Central America and Mexico may be eligible 
for some form of protection.\12\
---------------------------------------------------------------------------
    \12\ UNHCR 2014 and Byrne, O. & E. Miller, The Flow of 
Unaccompanied Children Through the Immigration System: A Resource for 
Practitioners, Policy Makers, and Researchers, Vera Institute of 
Justice, Mar. 2012, available at: http://www.vera.org/sites/default/
files/resources/downloads/the-flow-of-unaccompanied-children-through-
the-immigration-system.pdf.
---------------------------------------------------------------------------
    Unaccompanied children face insurmountable challenges in pursuing 
legal protections in the United States. Like all immigrants, children 
in the immigration system do not receive Government-appointed counsel. 
Without an attorney, unaccompanied children struggle to navigate the 
complicated U.S. immigration system alone and experience a denial of 
due process.
    The U.S. asylum system is complex and a successful asylum 
application requires considerable resources. An asylum seeker must 
gather country condition reports, primary documentary evidence, 
affidavits from witnesses in their home country, and medical and 
psychological evaluations. The same holds true for those compiling 
documentation to support applications for U visas for survivors of 
crime, T visas for survivors of trafficking, and petitions for Special 
Immigrant Juvenile Status (SIJS) for certain children who have been 
abused, abandoned, or neglected. Government data and leading academic 
studies consistently show that detention and legal representation are 
significant factors in determining if a noncitizen is granted asylum or 
another form of relief. One landmark academic study showed that legal 
representation in immigration court is the most important factor 
affecting the outcome of an asylum application, with asylum grant rates 
nearly three times higher for those who have an attorney.\13\ Without 
legal counsel, it is virtually impossible for a child to effectively 
understand and navigate these complex processes in the face of the 
threat of deportation. NIJC's clients, Jessica and Roxana (pseudonyms), 
were able to obtain relief in the United States with assistance from 
NIJC's pro bono attorneys:
---------------------------------------------------------------------------
    \13\ Ramji-Nogales, Jaya, et. al,. ``Refugee Roulette: Disparities 
in Asylum Adjudication,'' Stanford Law Review, Vol. 60, Issue 2, p. 
340, available at: http://papers.ssrn.com/sol3/
papers.cfm?abstract_id=983946.

``Jessica and Roxana are 11- and 14-year old sisters from El Salvador. 
When they were very small, their parents came to the United States 
hoping to provide a better life for them and left them in the care of 
their grandfather. Unbeknownst to the parents, the grandfather 
neglected and abused the girls until they eventually ran away to live 
on the streets. With the help of another family member, Jessica and 
Roxana fled to the United States. DHS apprehended them at the border, 
placed them in removal proceedings, and then transferred them into the 
custody of the Office of Refugee Resettlement (ORR) until they could be 
released to their parents in Indiana. Through NIJC, Jessica and Roxana 
were able to obtain pro bono attorneys to help them understand the 
immigration process and to identify any potential relief. At their 
hearing in the Chicago Immigration Court, the immigration judge decided 
to administratively close Jessica and Roxana's cases, so they can 
remain with their parents and begin to heal from the abuse they have 
---------------------------------------------------------------------------
suffered.''

    Without representation, these young girls would have been unable to 
navigate the immigration court system at the risk of deportation to a 
country where they faced abuse and neglect.
  ii. response to this migration crisis: due process protections for 
                immigrant children in the united states
    Although the influx of unaccompanied children presents a myriad of 
challenges, NIJC draws upon its depth of experience representing 
immigrants for more than 30 years to make the following four priority 
recommendations to improve the due process protections these children 
desperately need.
1. Provide appointed counsel for unaccompanied immigrant children
    Providing legal counsel to unaccompanied children would not only 
ensure their due process protections, but would also help make 
immigration court proceedings more efficient and cost-effective. 
Studies demonstrate that when people in immigration court know their 
rights and understand the process, they seek fewer continuances while 
they try and identify counsel and judges spend significantly less time 
explaining complex immigration laws and procedures.\14\ At a time when 
the immigration court system is under-resourced and significantly 
backlogged, ensuring immigrant children have access to representation 
will help prevent the court system from becoming even more overwhelmed.
---------------------------------------------------------------------------
    \14\  Semple, K. ``Public Defender System for Immigrants Facing 
Deportation Would Pay for Itself, Study Says.'' New York Times, May 29, 
2014, http://www.nytimes.com/2014/05/30/nyregion/study-favors-free-
counsel-to-navigate-deportation.html?_r=1.
---------------------------------------------------------------------------
    NIJC welcomes the recent creation of ``justice AmeriCorps,'' a 
pilot program to provide 100 attorneys and paralegals to unaccompanied 
children. The program is a partnership between the Corporation for 
National and Community Service (CNCS), which operates the AmeriCorps 
National service program, and the Department of Justice (DOJ) Executive 
Office for Immigration Review (EOIR).\15\ This initiative is a step in 
the right direction, but given its modest size, geographic application 
to only 29 cities, limitation to children under the age of 16, and the 
time it will take to get the program operational, the overwhelming need 
for legal services for unaccompanied immigrant children remains. A 
clear mandate from Congress and additional appropriations are needed to 
fund universal appointment of counsel for all unaccompanied children in 
immigration proceedings. This week, Representatives Hakeem Jeffries (D-
NY), Karen Bass (D-CA), Lucille Roybal-Allard (D-CA), and Judy Chu (D-
CA) announced the introduction of the Vulnerable Immigrant Voice Act of 
2014 (VIVA), which provides appointed counsel for all unaccompanied 
immigrant children and individuals with a serious mental illness.\16\ 
Likewise, the Senate's immigration bill, S. 744,\17\ and its House 
counterpart, H.R. 15,\18\ both included provisions of counsel for 
unaccompanied children and other vulnerable immigrant populations in 
immigration proceedings. NIJC urges immediate consideration of these 
bills by the U.S. House of Representatives, which is long overdue.
---------------------------------------------------------------------------
    \15\ Corporation for National & Community Service, ``justice 
AmeriCorps Legal Services for Unaccompanied Children,'' http://
www.nationalservice.gov/build-your-capacity/grants/funding-
opportunities/2014/justice-americorps-legal-services.
    \16\ Office of Congressman Hakeem Jeffries, ``Rep. Hakeem Jeffries 
and House Members Introduce Legislation to Provide Legal Representation 
of Unaccompanied Minors,'' Jun. 23, 2014, http://jeffries.house.gov/
news%20alert.
    \17\ See section 3502, available at: https://beta.congress.gov/
bill/113th-congress/senate-bill/744.
    \18\ See section 3502, available at: http://thomas.loc.gov/cgi-bin/
query/F?c113:1:./temp/c1135nICgi:e812160:.
---------------------------------------------------------------------------
2. Unaccompanied children must remain exempt from the expedited removal 
        process
    Unaccompanied immigrant children are not currently subject to 
expedited removal, the process by which adult asylum seekers are 
screened at the border for protection concerns prior to a rapid return 
to the country of origin.\19\ However, a recent White House ``fact 
sheet'' regarding unaccompanied children from Central America \20\ 
announced the ``surging of government enforcement resources to increase 
our capacity to detain individuals and adults who bring their children 
with them and to handle immigration court hearings--in cases where 
hearings are necessary--as quickly and efficiently as possible.'' This 
language is extremely alarming and any suggestion that unaccompanied 
children could be subject to expedited removal procedures must be 
immediately clarified. Without robust safeguards in place, the United 
States risks violating international and domestic law by returning 
children with bona fide asylum claims to life-threatening situations.
---------------------------------------------------------------------------
    \19\ Section 235 of the TVPRA made procedural and substantive 
changes to immigration legal relief for unaccompanied immigrant 
children seeking relief from removal; however, section 235(b)(2) of the 
TVPRA limits the rights of unaccompanied immigrant children from 
contiguous countries (i.e., Mexico and Canada). While unaccompanied 
immigrant children from non-contiguous countries are immediately 
transferred to the custody of Health and Human Services (HHS) and 
placed in formal removal proceedings, unaccompanied immigrant children 
from contiguous countries are screened by Customs and Border Protection 
(CBP) for trafficking concerns or intentions to seek asylum and 
otherwise expeditiously returned to their country of origin.
    \20\ White House, ``Fact Sheet: Unaccompanied Children from Central 
America,'' Jun. 20, 2014, http://www.whitehouse.gov/the-press-office/
2014/06/20/fact-sheet-unaccompanied-children-central-america.
---------------------------------------------------------------------------
    Expedited processing makes it extremely difficult for child victims 
of violence and trauma, and their family members, to effectively make a 
claim for asylum or other protections under U.S. law. Like all asylum 
seekers, it is difficult for immigrant children who have suffered abuse 
in their home countries and during their journey to the United States 
to overcome the mental and emotional impact of that harm and discuss 
their fears with a stranger. It is also extremely difficult for all 
asylum seekers, but particularly child asylum seekers, to understand 
how to request asylum at the border and articulate and support a claim 
for protection. Moreover, the accelerated nature of expedited 
processing in remote locations along the border makes it impossible for 
a child to obtain legal counsel during this process.
    Children who have suffered and fear persecution in their home 
countries are particularly vulnerable after their apprehension at the 
border. Many have been trafficked, exploited, and coerced in their home 
country and on their journey to the United States. The expedited 
removal process raises due process concerns for all asylum seekers, but 
as recognized by our law, it is particularly inappropriate for 
unaccompanied immigrant children. NIJC urges that our law protect all 
unaccompanied children apprehended at the border by exempting them from 
the expedited removal process.
3. Provide sufficient resources for immigration courts and specialized 
        training for immigration judges working with children
    Because immigration court funding has not kept pace with 
enforcement funding, the immigration court system operates with 
extensive delays and a backlog of over 366,000 pending cases Nation-
wide.\21\ For example, the Chicago Immigration Court, the fourth most 
backlogged immigration court in the United States, regularly schedules 
hearings for 2016 and beyond. The administration's current plan to 
address the influx of unaccompanied immigrant children does nothing to 
help the courts keep up with their growing caseload. Additional funding 
is needed to hire additional immigration judges, language specialists, 
legal technicians, clerks, and legal staff who work on cases appealed 
to the EOIR Board of Immigration Appeals. Providing appropriate 
staffing will help ensure that children move efficiently through the 
system. Although the House of Representatives voted to increase EOIR 
funding for fiscal year 2015,\22\ it falls short of the White House 
budget request for fiscal year 2015 \23\ and the amount needed to 
meaningfully address court delays.
---------------------------------------------------------------------------
    \21\ TRAC Immigration, Immigration Court Backlog Tool, Syracuse 
University, available at: http://trac.syr.edu/phptools/immigration/
court_backlog/.
    \22\ H.R. 4660, ``The FY 2015 Commerce, Justice, Science 
Appropriations Act'' available at: https://beta.congress.gov/bill/
113th-congress/house-bill/4660?q=%7B%22search%22%3A%- 
5B%22hr4660%22%5D%7D.
    \23\ Fiscal Year 2015 Congressional Budget Submission, p. 22, 
available at: http://www.justice.gov/jmd/2015justification/pdf/ara-
justification.pdf.
---------------------------------------------------------------------------
    In addition, EOIR should provide immigration judges with 
specialized, on-going training on child development, childhood trauma 
and its effects, forms of relief available to children, and best 
practices to communicate with children. While some immigration judges 
make accommodations to reassure children in court, such as wearing 
normal attire rather than judicial robes, other immigration judges take 
no such steps. Current internal guidance also does not require that 
immigration judges explain possible relief to pro se unaccompanied 
children or ask them questions to determine relief eligibility. As a 
result, pro se unaccompanied immigrant children may have no opportunity 
to assert their eligibility for immigration relief during immigration 
proceedings and may be so frightened that they are unable to express 
the reasons they fear returning to their home country or articulate the 
trauma experienced in transit. Without appointed counsel, it becomes 
particularly important for immigration judges and courts to take into 
consideration the unique needs and vulnerabilities of children.
4. The best interests of the child must be protected
    The best interests of the child should be a central component of 
all U.S. policies addressing unaccompanied immigrant children, 
including assessment of a claim for refugee status, asylum, or any 
other form of protection. Under current law, DHS has authority to 
exercise prosecutorial discretion to consider the best interests of the 
child when making enforcement-related decisions pertaining to 
unaccompanied immigrant children, including issuance of a charging 
document to commence immigration proceedings, administrative closure or 
termination of a removal case, or conceding a non-citizen's eligibility 
for immigration relief. Congress should provide explicit legislative 
authority to protect the best interests of the child in immigration 
enforcement and benefit decision-making, such as the amendment 
(``Landrieu 1340'') to S. 744 offered by Senators Mary Landrieu (D-LA), 
Al Franken (D-MN), and Mazie Hirono (D-HI), which requires all Federal 
agencies and Federal courts to consider the best interests of the child 
in all decisions involving unaccompanied immigrant children.\24\
---------------------------------------------------------------------------
    \24\ First Focus, ``Senate Immigration Floor Amendments At-a-
Glance,'' http://www.ffcampaignforchildren.org/resources/documents-and-
publications/fact-sheets/senate-immigration-floor-amendments-at-a-
glance.
---------------------------------------------------------------------------
                            iii. conclusion
    The 1980 Refugee Act provides critical due process protections for 
individuals fleeing persecution and children are no exception to these 
protections. As a Nation committed to human rights, the United States 
must uphold its commitment to protecting the persecuted, including the 
youngest and most vulnerable. Any solution to this humanitarian crisis 
must be comprehensive and address the root causes of migration in 
Central America, the natural desire for family members to reunite, and 
our obligations to protect those fleeing persecution. Unaccompanied 
immigrant children have escaped life-threatening violence. We must 
ensure that our laws treat children like children and do not send them 
back into harm's way.

                                 [all]
</pre></body></html>
